U. S. Department of Justice
Office of the Inspector General




A Review of the FBI's Handlillg
of Intelligence Infbrmation Related
to the September 11 Attacks




                                  OVERSIGHT *




                                                Office of the Inspector General
                                                                November 2004


                      REDACTED AND UNCLASS IFIED
                     (RELEASED PUBLICLY JUNE 2005)
                                                          NOTE

                   This report is a redacted and unclassified version of the full report that the Office of the
           Inspector General (OIG) completed in July 2004 and provided at that time to the Federal Bureau
           of Investigation (FBI), the Department of Justice, the Congress, the Central Intelligence Agency,
........   the National Security Agency, an_a-th--_eNational Commission on Terrorist Attacks Upon the
           United States. The oIG's full report is classified at the Top Secret/SCI level.

                    At the request of members of Congress, after issuing the full report the OIG created an
           unclassified 371-page version of the report. Because the unclassified report included
           information about the FBI's investigation of Zacarias Moussaoui, and because of the pendency
           of the prosecution of'Moussaoui in the United States District Court for the Eastern District of
           Virginia and the rules of that Court, the OIG could not release the unclassified version of the
           report without the Court's permission. On February 1, 2005, the OIG filed a motion in the
           District Court requesting leave to release publicly the unclassified report, including the
           information about Moussaoui. Moussaoui"s defense counsel objected to the release of any
           information related to Moussoaui and certain other information. The Court denied the OIG's
           motion on April 28, 12005.

                   Thereafter, the OIG redacted from the report the information requested by Moussaoui's
           defense counsel. On June 7, 2005, the OIG filed a motion with the Court requesting leave to
           release publicly the redacted, unclassified version of the re,port, and the Court granted the OIG's
           motion.

                   This is the redacted, unclassified version of the report. In the future, when the Moussaoui
           case is concluded and with the Court's penxfission, the Oil3 intends to release the full
           unclassified report, including the information that was redacted from this version.
                                     TABLE OF CONTENTS

TABLE        OF CONTENTS                     ...............................................................................    i

CHAPTER            ONE:         INTRODUCTION                         .......................................................    1

I.     Introduc,tion ................................................................................................           1

II.    OIG investigation .......................................................................................                4

III.   Organization of the OIG report ..................................................................                        4

CHAPTER            TWO:           BACKGROUND                        ......................................... ............... 7

I.     Introduc,tion ................................................................................................ 7
       A. Introduction to international terrori,;m ................................................ 7
       B. The FBI's role in protecting against international terrorism ............. 8

II.    The FBI's organizational structure with :respect to international
       terrorisra ....................................................................................................         12
       A. Counterterrorism Program ................................................................                            12
             1. Organization of the Counterterrorism Division ......... ..............                                         14
             2. Management of counterterrorism cases at FBI Headquarters.                                                      15
       B. Field offices and counterterrorism investigations ...........................                                        19
       C. The Department's Office of Intelligence Policy and Review .........                                                  20

III.   The wall between intelligence and criminal terrorism investigations ..... 21
       A. Introduction ....................................................................................... 21
           1. The "primary purpose" standard ............................................... 22
           2. Institutional divide between criminal and intelligence
                investigations ......................................... _.................................. 25
           3. The Ames case and concerns about the primary purpose
                standard .................................................................................... :. 25
           4. The 1995 Procedures ................................................................. 27
           5. Additional restrictions on sharing intelligence information .... 30
           6. Reports evaluating the impact of the 1995 Procedures. .......... 32
       B. FISA Court's concern about accuracy of FISA applications .......... 36
           1. Errors in FISA applications ...................................................... 36
           2. FISA Court's new requirements regarding the wall ................ 37
              3. Additional FISA errors and DOJ OPR's investigation ............                                      39
       C.     Deputy Attorney General Thompson's .August 2001
              memorandum                                                                                              40
       D.     The impact of the wall ......................................................................           41
       E.     Changes to the wall after September 11, 2001 .................................                          42

IV.    The process for obtaining a FISA warrant ................................................ 44
       A. Legal requirements for a FISA warrant ..................... ....................... 45
            1. Agent of a foreign power .......................................................... 45
           2. The application filed with the FISA Court ............................... 47
       B. Assembling an application for submission to the FISA Court ........ 48
            1. Investigation and LHM prepared by field office ..................... 49
           2. Role of SSAs and IOSs at FBI Headquarters ............................ 49
           3. Role of NSLU attorneys ........................................................... 51
           4. Role of OIPR attorneys ............................................................ 52
           5. Expedited FISA warrants ......................................................... 52

CHAPTER THREE: THE FBI'S HANDLING     OF THE
   PHOENIX ELECTRONIC     COMMUNICATION          AND
    OTHER INFORMATION     RELATING TO USE OF
   AIRPLANES   IN TERRORISTS   ATTACKS ............................... 55

I.     Introduction..: ............................................................................................   55

II.    The Phoenix EC ...:...................................................................................         56
       A. Background .......................................................................................          56
           1. Assigning leads in the FBI .......................................................                      56
       B. The Phoenix EC .......... :......................................................................           60
           1. Information on individuals .......................................................                      60
           2. Recommendations in the Phoenix EC ......................................                                64
           3. Acldressees on the Phoenix EC ................................................                          65
       C. Williams' theory ...............................................................................            66
       D. FBI Headquarters' handling of the Phoenix EC ..............................                                 68
           1. Assignment to the RFU ............................................................                      69
           2. Assignment to the UBLU .........................................................                        71
       E. The New York Division's handling of the EC ................................                                 77

III.   GIG analysis .............................................................................................     80
       A. Systemic problems ...........................................................................               80


                                                            ii
             1.   Ineffective system for assigning and managing work. .......:.... 81
             2.   Lack of adequat e strategic analytical capabilities ................... 83
             3.   Resources and training for analysts ......................................... 87
             4.   Poor information flow and information sharing ...................... 88
             5.   General complaints about the difficulties of working in
                  ITOS .......................................................................................... 91
        B.   Individual performance .................................................................... 93
             1. KennethWilliams .................................................................... 93
             2. FBI Headquarters ..................................................................... 93
             3. Lynn .......................................................................................... 95
             4. Jay ............................................................................................. 95
             5. FBI management ....................................................................... 96
        C.   Other pieces of intelligence concerning airplane,; as weapons ....... 96
        D.   Conclusion .......................................................................................   99

CHA]WH _.11[]DIli_




    "                                                  iii
     •   .   ,   X




iv
CHAPTER FIVE: TWO SEPTEMBER  11 HIJACKERS:
    KHALID AL-MIHDHAR  AND NAWAF AL-HAZMI                                                                  .......... 215

I.    Introduction ..............................................................................................   215

II.   Background ............................................................................................. 217
      A. OIG investigation ............................................................................ 217
      B. Background on the CIA ...... ............................................................ 219
          1. CIA authority and mission .............................. ........................ 219
          2. Organization oft]he CIA .......................................................... 220
          3. The CIA's collection and internal dissemination of
               information .............................................................................. 222
          4. Passing of intelligence information by the CIA to the FBI ... 222

                                                           V
       C.     FBI    detailees to the CIA Counterterrorist Center...                                  223
              1.     FBI Headquarters detailees ..................................................... 223
              2.     Washington Field Office detailees ....,,..................................... 224
              3.     New York Field Office detailee                                                    225

III.   Factual chronology regarding ttazmi and MJLhdhar................................ 225
       A. Identification in January 2000 of Hazmi and Mihdhar as
            al Qaeda operatives ......................................................................... 226
            1. Background .............................................................................. 229
            2. NSA provides intelligence regarding planned travel by
                 al Qaeda operatives to Malaysia ............................................. 230
            3. Mihdhar's travel and discovery ofhis U.S. visa ..................... 231
            4. CIR is drafted to pass Mihdhar's visa information to                                                   ,)

                 the FBI ........................................................... .......................... 231
            5. Mihdhar in Dubai .................................................................... 234
            6. CIA cable stating that Mihdhar's visa and passport
                 information had been passed to FBI ....................................... 234
            7. The Malaysia meetings and surveillance of Mihdhar ............ 235
            8. OIG findings regarding FBI's knowledge about
                 Mihdhar and the Malaysia meetings ....................................... 241
       B. Hazmi and Mihdhar in San Diego ................................................ 2.248
            1. Introduction ............................... .............................. ................. 248
            2. Hazmi and Mihdhar's association with Bayoumi .................. 249
            3. Hazmi and Mihdhar's communications .................................. 251
            4. Hazmi and Mihdhar's association with an FBI asset
                beginning in May 2000 .......................................................... 252
            5. OIG conclusion .............................................................. ........ 254
       C. Mihdhar's association with Khallad, the purported
            masteannind of the Cole attack ....................................................... 254
            1. Background.., ......................................................................... 255
            2. Source's identification of Khallad ......................................... 256
            3. OIG conclusions regarding whether the FBI was aware of
                the source's identification of Khal]iad in the Kuala Lumpur
                photograph ..............................................................................       268
       D. FBI and CIA discussions about the Cole investigation in
            May and June 2001 ........................................................................ 270
            1. Background ............................................................................          271
            2. Discussions in May 2,001 ................................ ....................... 273
            3. June 11, 2001, meeting ........................................................... 279

                                                      vi
             4. OIG conclusions on May and June discussions .....................                                 287
      E.     The FBI's efforts to locate Mihdhar in August and
             September • 2001   ...............................................................................
                           . _0_,._ .                              i_.,_ '       .
                                                                                                                  289
             1. Continuing review of the Malaysia:_meetmg.sin July and
                  August 2001 ................................................................ ...........        289
             2. Discovery of Mihdhar's entry :intothe United States ............                                  292
             3. The FBI's intelligence investigation on Mihdhar ..................                                295
             4. The New York Field Office's investigation ..........................                              301
             5. OIG conclusions on the intelligence investigation ................                                304
      F.     Summary of the five opportunities :[orthe FBI to learn about
             Mi]hdhar and Hazmi ........................................................................          305

IV.   OIG's analysis of the FBI's handling of the intelligence information
      concerning Hazmi and Mihdhar ............................................................ 307
      A. Systemic impediments that hindered the sharing of information
          between the CIA and the FBI ........................................................ 308
           1. Use ofdetailees ....................................................................... 308
           2. FBI employees, lack of understanding of C][Areporting
                process .......... .......................................................................... 315
           3. Inadequate procedures for documenting receipt of CIA
                information .............................................................................     317
          4. Lack of appropriate infrastructure in FBI field offices .......... 319
           5. OIG conclusion on impediments to information sharing ...... 322
      B. The actions of the San Diego FBI .......................................... ........ 322
           1. The San Diego FBI's preliminary investigation of
                Bayoumi .................................................................................     323
          2. The FBI's handling of the informational asset ...................... 327
          3. San Diego FBI's failure to prioritize counterterrorism
                investigations .......................................................................... 333
      C. Events in the spring and summer of 2001 ..................................... 335
           1. Restrictions on the flow of infbrmation within the FBI ........ 335
          2. Problems at the June 11 meeting ........................................... 337
          3. The FBI's investigation in August 2001 to find Mihdhar
                and Hazmi ............................................................................... 341
      D. Individual performance ................................................................... 347
           1. Dwight ......... ............................................................................ 347
          2. Malcolm .................................................................................. 348
          3. Stan ..........................................................................................  349
          4. Max .........................................................................................    349

                                                       vii
             5.      Donna ......................................................................................     350
             6.      Rob ..........................................................................................   351
             7.      Richard ....................................................................................     352
             8.      Mary ........................................................................................    352

V.    OIG conclu,;ions ......................................................................................         353

CHAPTER SIX: RECOMMENDATIONS                                       AND ,CONCLUSIONS.                                  355

I.    Recommendations .................................................................................. 355
      A. Recommendations related to the FBI's analytical program .......... 355
      B. Recommendations related to the FISA process .............................. 358
      C. Recommendations related to the FBI's :interactions with the
          Intelligence Community .................................................................. 361
      D. Other recommendations .................................................................. 365

II.   Conclusions',.............................................................................................      368
Appendices"
Appendix No. 1" List of Acronyms
Appendix No. 2: Phoenix EC
Appendix No. 3" FBI Response to the Report




                                                         viii
                                  CHAPTER ONE
                                 INTRODUCTI[ON

I.   Introduction

        On September 11,2001, 19 terrorists hijacked 4 cormnercial airplanes as
part of a coordinated terrorist attack against the United States. Two of the
planes crashed into the World Trade Center Towers in New York City and one
hit the Pentagon near Washington, D.C. The tburth plane crashed in a field in
southwestern Pennsylvania.     More than 3,000 persons were killed in these
terrorist attacks.

       On February 14, 2002, the House of Representatives Permanent Select
Committee on Intelligence and the Senate Select Committee on Intelligence
began a joint inquiry to address questions related to the September 11 attacks,
such as "what the Intelligence Community knew prior to Se,ptember 11 about
the scope and nature of any possible terrorist attacks.., what was done with
that information" and "how and to what degree the elements of the Intelligence
Community have interacted with each other, as well as with other parts of the
federal, state, and local governments, with respect to identfl_,ing, tracking,
assessing, and coping with international terrorist threats. ''_ ['his review became
known as the Joint Intelligence Committee Inquiry or "the JrICI review."
       One of the key questions arising after the attacks was what information
the Federal Bureau of Investigation (FBI) knew before September 11 that was
potentially related to the terrorist attacks. On ]May 21, 2002, Coleen Rowley,
the Chief Division Counsel in the FBI's Minneapolis Field Office, 2 wrote a 13-
page letter to FBI Director Robert Mueller in which she rai,;ed concerns about
how the FBI had handled certain information in its possession before the
attacks.



     1The U.S. "Intelligence Community" is composed of 14 agencies responsible for
collecting intelligence information on behalf of the government and includes the Federal
Bureau of Investigation and the Central Intelligence Agency (CIA).
    2The CDC ]provideslegal counsel and advice to field office management, supervisors,
and agents on administrative and operational matters.
                                                                       In
addition, the Director asked the OIG to review the: issues in an Electronic
Communication (EC) written by an FBI Special Agent in Phoenix (known as
the Phoenix EC), as well as "any other matters relating to the FBI's handling of
information and/or intelligence before September 11,2001 that might relate in
some manner to the September 11,2001 attacks."
      The Phoenix EC was a memorandum sent by an agent in the FBI's
Phoenix office in July 2001 to FBI Headquarters and to the FBI's New York
Field Office. 3 The Phoenix EC outlined the agent's theory that there was a


    3 This document has commonly been referred to as "the Phoenix memo" or "the
Phoenix EC." Throughout this report, we use the term "Phoenix EC" to refer to this
document.
coordinated effort by Usama Bin Laden to send students to the United States to
attend civil aviation universities and colleges for the purpose of obtaining jobs
in the civil aviation industry to conduct terrorist activity. The EC also
recommended that FBI Headquarters instruct field offices to obtain student
identification information from civil aviation schools, request the Department
of State to provide visa information about foreign students attending U.S. civil
aviation schools, and seek information from other intelligence agencies that
might relate to his theory. At the time of the September 11 attacks, little action
had been taken in response to the Phoenix EC.
       The OIG agreed to conduct a review in response to the FBI Director's
request. In conducting our review, OIG investigators also learned that prior to
the September 11 attacks the Intelligence Colxmmnity had acquired a
significant amount of intelligence about two of the hijackers - Nawaf al Hazmi
and Khalid al Mihdhar. 4 Well before September 11,2001, 1theIntelligence
Community had discovered that Hazmi and Mihdhar had met with other al
Qaeda operatives in Malaysia in January 2000. The CIA also had discovered
that Mihdhar possessed a valid U.S visa and that Hazmi had traveled to the           :
United States in January 2000. The FBI contended,,howew:r, that it was not
informed of Mihdhar's U.S. visa and Hazmi's travel to the United States until
August 2001, just before the September 11 attacks. At that time, the FBI had
initiated an investigation to locate Mihdhar and Hazmi, but the FBI was not
close to finding them at the time of the September 11 attacks. The OIG also
learned that Hazmi and Mihdhar had resided in the San Diego area in 2000,
where they interacted with a fornaer subject of an FBI investigation and lived
as boarders in the home of an FBI source. The OIG therefe,re decided to
include in its review an investigation of the intelligence information available
to the FBI about Hazmi and Mihdhar before September 11 and the FBI's
handling of that intelligence information.
      In December 2002, the JICI released its :final report entitled, "Joint
Inquiry into Intelligence Community Activities before and after the Terrorist
Attacks of September 11,2001 ." One of the report's recolxmaendations was for
the Inspectors General at the Department of Justice (DOJ), CIA, Department of


    4Mihdhar,Hazmi,andthreeothershijackedandcrashedAmericanAirlinesFlight77
intothe Pentagon.
Defense, and Department of State to determine whether and to what extent
personnel at those, agencies should be held accountable for any acts or
omissions with regard to the identification, prevemion, and disruption of the
September 11 terrorist attacks.

II.   OIG investigation
       The OIG's review focused on the FBI's handling of the Phoenix EC,
__i                        and the intelligence information about Mihdhar and
Hazmi. To review these issues, the OIG assembled a team of fi_ur attorneys,
three special agents, and two auditors. The team conducted 225 interviews of
personnel from the DOJ, FBI, CIA, and other agencies. For example, we
interviewed FBI personnel from FBI Headquarter,;; from FBI field offices in
Minneapolis, San Diego, New York, Phoenix, and. Oklahoma; and from FBI
offices overseas. We also interviewed employees from the CIA, the INS, the
National Security Agency (NSA), and the Federal Aviation Administration
(FAA). We reviewed over 14,000 pages of documents we obtained from the
FBI, the CIA, the NSA, and JICI.
       Our review of the FBI's handling of the Hazmi and Mihdhar matter
required us to obtain a significant amount of information from the CIA
regarding its interactions with the FBI on that matter. To conduct our review,
we thus had to rely on the cooperation of the CIA in providing as access to
CIA witnesses and documents. We were able to obtain CIA documents and
interviewed CIA _vitnesses, but we did not have the same access to the CIA
that we had to DOJ information and employees. We also note that the CIA
OIG is conducting its own inquiry of the CIA's actions with regard to the
Mihdhar and Hazmi matter.

III. Organization of the OIG report
      This report is organized into six chapters. Chapter One contains this
introduction. Chapter Two provides general background on the: issues
discussed in this report. For example, it contains descriptions of key
terminology, the FBI's organizational structure, the so-called "wall" that
separated'intelligence and criminal investigations in the FBI and the DOJ, the
process for obtaining a FISA warrant, and other legal background issues related
to how the FBI investigated terrorism and intelligence cases before September
11, 2001. Because the background chapter contains basic termiinology and
concepts, those with more extensive knowledge of these issues may not need to
read this chapter in full.
       Chapter Three evaluates the FBI's handling of the Phoenix EC. As an
initial matter, we provide background on how "leads" were assigned in the FBI
before September 11,2001, and we summarize the contents of the Phoenix EC.
We then describe in detail how the Phoenix EC was handled within the FBI
before September 11. In the analysis section of Chapter Three, we examine
problems in how the Phoenix EC was handled, first focusing on the systemic
problems that affected the way the FBI treated the EC and then discussing the
performance of the individuals involved with the EC. At theeend of the chapter
we discuss several other pieces of information in the possession of the FBI
before September 11 that also noted connections of potential terrorists to the
aviation industry or the use of airplanes.




      In Chapter Five, we examine the FBI's handling of intelligence
information concerning Hazmi and Mihdhar. We found that, beginning in late
 1999 and continuing through September 11, 2(301, the FBI lhad at least five
opportunities to learn of intelligence information about Mihdhar and Hazmi
which could have led it to focus on them before the September 11 attacks. In
this chapter, we describe each of these five opportunities in detail. We
describe the intelligence information regarding Hazmi and Mihdhar that
existed at the time, whether the information was made avail!able to the FBI, and
what additional information about Hazmi and Mihdhar the FBI could have
developed on its own. In the analysis section ,ofthis chapter, we evaluate the
problems that impeded the FBI's handling of the information about Hazmi and
Mihdhar before September 11, and we also address the pertbrmance of the
individuals involved in the Hazmi and Mihdhar case.
      In Chapter _'"
                 olX, we set forth our recommendations for systemic
improvements in the FBI and we summarize our conclusions.


         At that time, the OIG provided the report, which was classified at the
TOP SECRET/SCI level, to the National Commission on Terrorist Attacks
Upon the United States (9/11 Commission).      The 9/11 Commission used
certain information from our report in its final report. In July 2004, we also
provided our classified report to certain congressional committees with
oversight of the Department of Justice, including the House of Representatives
and Senate Committees on the Judiciary, the Senate Select Committee on
Intelligence, and the House Permanent Select Committee on Imelligence.
       At the request of the Senate Judiciary Committee, the OIG has created
this 370-page unclassified version of the report. To do so, we worked with the
FBI, the CIA, and! the NSA to delete classified information from our full report.
However, the substance of the report has not changed, and we believe that this
unclassified version fairly summarizes the findings of the full report.
                                CHAPTER  TWO
                                BACKGROUND

I.    _ntroduction

       This chapter provides a description of key terminology, the FBI's
organizationa]Lstructure, and legal background related to an examination of
how the FBI investigated international terrorism matters before the
September 11 terrorist attacks. 5 It also provides a basic overview of the legal
issues and policies that affected how the FBI typically handled terrorism
investigations before September 11,2001. 6

      A.   Introduction to international terrorism
       The FBI defines terrorism as the unlawful use or threatened use of
violence conunitted against persons or property to intimida_Leor coerce a
government, the civilian population, or any segment thereof, in furtherance of
political or social objectives. When such viohmt acts are carried out by a group
or individual based and operating entirely within the United States without
foreign direction, they are considered acts of domestic terrorism, such as the
April 1995 bombing of the Alfred P. Murrah t_deral building in Oklahoma
City, Oklahoraa. When such acts are committed by an individual or group
based or operating outside of the United States, they are considered acts of
international terrorism, such as the September 11,2001, attacks on the World
Trade Center and the Pentagon. See the FBI's National Foreign Intelligence
Program Manual, Section 2-1.1.
       According to the FBI, there are three main categories of international
terrorist threa_Isto U.S. interests: formal, structured terrorist organizations; 7


     5A listof acronymsusedin this reportis attachedin the Appendix.
     6Thosewho havesuchknowledgemay not need to readthis chapterandcan godirectly
to the chaptersof thereportdetailingour investigationof the FBI's handlingof specific
matters,beginningwith ChapterThree's discussionof the PhoenixEC.
     7Formal,structuredterroristorganizationsare thosewiththeirown personnel,
infrastructures,financialarrangements;,andtrainingfacilities. Suchgroupsincludeal
Qaeda,the PalestinianHamas,the IrishRepublicanArmy,the EgyptiianA1-GamaA1-
(continued)
state sponsors of international terrorismS; and loosely affiliated Islamic
extremists. 9 According to Dale Watson, the former Executive Assistant
Director for Counterterrorism, the trend in international terroris'.m has been a
shift away from state sponsors of ten:orism and formalized terrorist
organizations towards loosely affiliated religious extremists who claim Islam
as their faith.

      Among these Islamic extremists is Usama Bin Laden, who heads the al
Qaeda transnational terrorist network. A1 Qaeda leaders were harbored in
Afghanistan by the Taliban regime from 1996 until the U.S. military operations
there in 2001. In addition to the September 11 attacks, al Qaeda was
responsible for the bombing of the U.S.S. Cole in Yemen on October 12, 2000,
the bombings of tlhe U.S. Embassies in Kenya and Tanzania in August 1998,
and numerous other terrorist attacks.

     B.    The FBI's role in protecting        against international     1Lerrorism
      A critical part of the effort to prevent terrorism is the collection of timely
and accurate intelligence information about the activities, capabilities, plans
and intentions of terrorist organizations. The U.S. "Intelligence Community"
is composed of 14 U.S. agencies responsible for collecting intelligence
information on be:half of the government. 1°


(continued)
Islamiyya, and the Lebanese Hizbollah. Hizbollah, for example, carried e,utnumerous
attacks on Americans overseas, including the October 19813vehicle bombing of the U.S.
Marine barracks in I,ebanon and the June 1.996bombing of Khobar Towers in Saudi Arabia.
     8According to tlheFBI, as of 2001 the primary state sponsors of terrorism were Iran,
Iraq, Sudan, and Libya.
    9 This is sometimes referred to as the "Islamic Jihad Movement" or the "International
Jihad Movement."
     l0These 14 agencies are: the CIA, FBI, Defense Intelligence Agency (DIA), National
Security Agency (NSA), U.S. Army Intelligence, U.S. Navy Intelligence, U.S. Air Force
Intelligence, U.S. Marine Corps Intelligence, National Geospatial Agency (NGA), National
Reconnaissance Office (NRO), Department of the Treasury, Department of Energy,
Department of State, and the Coast Guard. The Director of Central Intelligence (the DCI)
oversees the Intelligence Community and also serves as the principal advisor to the
President for intelligence matters and as the Director of the CIA.
       The National Security Act of 1947 created the Central Intelligence
Agency (CIA) and established it as the United States' lead Jintelligence agency.
The CIA engages primarily in the collection of foreign inteitligence
information, which is information relating to tlhe capabilities, intentions, and
activities of foreign governments or organizations, including information about
their international terrorist activities. The Act prohibits the CIA from
exercising any "police, subpoena, law enforcement powers, or internal security
functions."

       The FBI is the nation's lead agency for the collection of"foreign
counterintelligence information. ''11 According to the Attorney General
Guidelines in place at the time, which were called the Attorney General
Guidelines for Foreign Counterintelligence (FCI) Investigations, FCI is
information re,lating to espionage: and other intelligence actJivities, sabotage, or
assassinations conducted by, for, or on behalf of foreign governments or
organizations, as well as information relating to international terrorist
activities. Intelligence investigations include investigations of individuals who
are international terrorists, groups or organizations that are engaged in
espionage; or groups or organizations that are engaged in international
terrorism.

       The FBI can initiate an intelligence investigation even if a crime has not
been committed. For example, the FBI may investigate and collect intelligence
information about an individual who is believed to be an inliemational terrorist
or a spy without showing that the individual has participated in any terrorist act
or actually committed espionage. Intelligence investigatiol_LSare
distinguishable from criminal investigations, such as bank robbery or drug
trafficking investigations, which attempt to determine who ,committed a crime
and to have those individuals criminally prosecuted. Prevention of future
terrorist acts rather than prosecution after the fact is the primary goal of the
intelligence investigations with respect to international terrorism matters.




      li The authority for the FBI's broad mission to act as the nation's; lead domestic
intelligence agency is set forth most clearly in Presidential Executive Order 12333,
implemented on December 4, 1981.


                                                    t


                                                9
       International terrorism could be investigated[ as both an intelligence
investigation and as a criminal investigation. When a criminal act, such as the
bombing of a building, was determined to be an act of international terrorism,
the FBI could open a criminal investigation and investigate the crime, as it did
other criminal cases, with the goal of prosecuting the terrorist. 1:' At the same
time, the FBI could open an intelligence investigation of an individual or a
group to investigate the person's contacts, the group's other members, the
intentions of the individual or the group, or whether any future terrorist act was
planned. 13
      One significant difference between an intelliigence investigation and a
criminal investigation is the legal framework that applies when a physical
search or electronic surveillance is initiated. TM In a criminal investigation that
implicates the privacy interests protected by the Fourth Amendment, the
general rule is that searches may not be conducted without a warrant issued by
a magistrate upon a finding that probable cause exists that evidence of a crime
will be uncovered. _5 When the FBI seeks to conduct electronic surveillance in
a criminal investigation, the FBI must obtain a warrant by complying with the
requirements of Title III of the Omnibus Crime Control and Safe Streets Act of
 1968, 18 U.S.C. §.§ 2510-2522 (Title, III). When a physical search is sought in


     12The FBI has been assigned "lead agency responsibilities" by the AlltorneyGeneral to
investigate "all crimes for which it has primary or concurrent jurisdiction and which involve
terrorist activities or acts in preparation of terrorist activities within the statutory jurisdiction
of the United States."' National Security Directive 207, issued in 1986, specifically assigned
responsibility to the FBI for response to terrorist attacks, stating: "The Lead Agency will
normally be designated as follows" The Department of Justice for terrorist incidents that
take place within U.S. territory. Unless otherwise specified by the Attorney General, the
FBI will be the Lead Agency within the Department of Ju,;tice for operational response to
such incidents."
    13 After the attacks of September 11, 2001, the FBI significantly changed how it
investigates international terrorism cases. We discuss those changes throughout this report.
     14Electronic surveillance includes wiretapping of telephones, installing microphones in
a house or building, and intercepting computer usage. Electronic surveillance is considered
a particular kind of search.
    _5There are seweralexceptions to the warrant requirement that are not material to this
report.



                                                 10
a criminal investigation, the FBI also must comply with the requirements                  of
Rule 41 of the',Federal Rules of Criminal Procedure.

        With respect to an intelligence investigation, however, criminal search
warrants issued by a magistrate are not required. The courts have long
recognized the Executive Branch's claim of inherent constitutional power to
conduct warr_mtless surveillance to protect national securi_r. _6 However,
because such authority was abused, Congress created procedures and judicial
oversight of the Executive Branch's exercise of this authority with the passage
of the Foreign Intelligence Surveillance Act of 1978 (FISA). 17 50 U.S.C.
§ 1801 et seq. FISA requires the FBI to obtain an order from the Foreign
Intelligence Surveillance Court (FISA Court)upon a showing of probable
cause to believe that the subject of the surveillance is a foreign government or
organization engaging in clandestine intelligence activities or international
terrorism, or is an individual engaging in clandestine intelligence activities or
international terrorism on behalf of a foreign government or organization. 18 In
addition, prior to September 11, 12001, the government had to submit a
certification to the FISA Court that "the purpose" of the surveillance or search
was collection of"foreign intelligence information. ''19 50 U.S.C.
§ 1804(a)(7)(E).


     16The U.S. Constitution, Article II, Section 1, clause 7, supplies the President's
constitutional mandate to "preserve, protect and defend the Constitution of the United
States."
    17Among the most notable examples of the ExecrativeBranch's abuse of this authority
was action taken in relation to the Watergate scandal.
      18Prior to September 11,2001, the FISA Court consisted of seven federal district court
judges designated by the Chief Justice of the Supreme Court, at least one of whom was a
 member of the federal district court in Washington, D.C. After September 11,2001, the
 number of FISA Court judges was increased to 11. TJhegovernment presents applications
 for a court order authorizing electronic:surveillance or a physical search to the judges in in
 camera, ex parte proceedings. FISA also created the Foreign Intelligence Surveillance
 Court of Review, which has jurisdiction to review the denial of FISA applications by the
 FISA Court.
    19The FISA statute provides that the FBI must show that "the target of the electronic
surveillance is a foreign power or an agent of a foreign power." 50 U.S.C. § 1804(a). These
terms and requirements are discussed JLnmore detail in Section IV, A below.



                                               11
II.   The FBI's'organizational       structure with respect to international
      terrorism

      The FBI's Counterterrorism Program is responsible for supervising and
handling FBI terrorism matters. Before September 11,2001, the
Counterterrorism Program was housed in the Counterterrorism Division at FBI
Headquarters. 2° International terrorism and domestic terrorism were
subprograms within the Counterterrorism Program.

      A.   Counterterrorism       Program
        Although the FBI has had primary responsibility since 1986 for
investigating and preventing acts of terrorism co_u'nitted in the United States,
the FBI developed its formal Counterterrorism Program in the IL990s. For
much of the 1990s, terrorism matters were overseen at FBI Headquarters by
about 50 employees in the counterterrorism section within the FBI's National
Security Division (later called the Counterintelligence Division). The National
Security Division also managed the FBI's Foreign Counterintelligence
Program. According to Dale Watson, former Executive Assistant Director for
Counterterrorism,   in the early 1990s counterterrorism was considered a "low-
priority program" in the FBI.
        According t,o Watson's testimony before the Senate Select Committee on
Intelligence and the House Permanent Select Committee on Intelligence on
September 26, 2002, the first attack on the World Trade Center in February
1993 and the AprJil 1995 bombing of the Alfred P. Murrah Federal Building in
Oklahoma City, Oklahoma, were "confirmation" that terrorist acts could be
committed on U.S. soil. Watson testified that the World Trade Center bombing
in 1993 was a "wake-up call" and that prior to this', attack and the Oklahoma
City bombing "terrorism was perceived as an overseas problem."
       In addition to the FBI's counterterrorism efforts, the CIA has for years
focused on international terrorism in general and Usama Bin Laden in
particular. In 1986, the CIA established a Counterterrorist Center (CTC) at


    20The FBI has reorganized its Counterterrorism Program several times since
September 11, 2001. We provide in this section of the report the description of the
organization and positions that existed immediately prior to the September 11 attacks.



                                             12
    CIA Headquarters after a task force concluded that U.S. government agencies
    had not aggressively operated to disrupt terrorist activities. The CTC's stated
    mission is to preempt, disrupt, and defeat terrorists by implementing a
    comprehensive counterterrorist operations program to collect intelligence on
    and minimize the capabilities of international terrorist groups and state
    sponsors of terrorism. The CTC attempts to exploit source intelligence to
    produce in-depth analyses on potential terrorist threats and coordinate the
    Intelligence Community's counterterrorist activities.
           CIA Director George Tenet testified befi_re Congress that Usama Bin
    Laden came to the attention of the CIA as "an emerging terrorist threat" during
•   his stay in Sudan from 1991 to 1996. As early as 1993, the CIA began to
    propose action to reduce his organization's capabilities. Tenet stated that the
    Intelligence Community was taking action to stop Bin Lade,n by 1996, when he
    left Sudan and moved to AfghanJistan.
          In 1996, the CIA established      a special   unit, which   we call the Bin Laden
    Unit, to obtain more actionable intelligence on Bin Laden and his
    organization. 2_ This effort was the beginning of an exchange program between
    the FBI and the CIA in which senior personnel moved temporarily between the
    two agencies.
         Around the same time, in April 1996 the FBI created its own
    Counterterrorism Center at FBI Iteadquarters. As part of the Counterterrorism
    Center, the FBI established an exchange of working-level personnel and
    managers with several government agencies, including the CIA, Immigration
    and Naturalization Service (INS), the Federal Aviation Administration (FAA),
    and others.

          In May 1998, a task force of FBI officials created a 5-year strategic plan
    for the FBI, based on a 3-tier system, setting investigative priorities that would
    affect the allocation of FBI resources. Tier 1 included crimes or intelligence
    problems that threatened national or economic security. Counterterrorism was


         21The Bin Laden Unit was housed organizationally within the CTC during the time
    period most relevant to this report. Around September 11, 2001, approximately 40-50
    employees worked in the Bin Laden Unit. We discuss', the Bin Laden Unit in more detail in
    Chapter Five.



                                                13
designated a Tier 1 priority. Tier 2 involved criminal enterprises or those
offenses that adve,rsely affected public integrity, and Tier 3 incl!uded crimes
that affected individuals or property.
      In November 1999, the FBI took the Counterterrorism Program out of the
National Security Division and created a separate Counterterrofism Division.

           1.    Organization      of the Counterterrorism         Division
       The major components of the FBI's Counterterrorism Division prior to
September 11,2001, were the International Terrorism Operatie,ns Section
(ITOS), the Domestic Terrorism Operations Section (DTOS), tlhe National
Infrastructure Protection Center (NIPC), and the National Domestic
Preparedness Office (NDPO). 22
        The issues in this report focus primarily on ITOS, which was responsible
 for overseeing the FBI's international terrorism investigations, both criminal
and intelligence investigations. The mission of the ITOS was twofold: to
 prevent terrorist acts before they occurred, and if they occurred to mount an
 effective investigative response with the goal of prosecuting those responsible.
      Prior to September 11,2001, approximately 90 employees worked in
ITOS at FBI Headquarters. ITOS was led by Section Chief Michael Rolince
during the time re,levant to this report.
ITOS was divided into several units. One of those units handled Bin Laden-
related investigations, and was called the Usama Bin Laden Urdt or the UBLU.
Cases that could not be linked to a specific group and that involved radical


     22The NIPC, created in February 1998,was originally called the Computer
Investigation and Infrastructure Threat Center. The NIPC's mission was to serve as the U.S.
government's focal point for threat assessment, warning, investigation, and response for
threats or attacks against the nhtion's critical infrastructures. These infrastructures include
telecommunications,,energy, banking and finance, water systems, government operations,
and emergency services. The NDPO was created in October 1998 to coordinate all federal
efforts to assist state and local law enforcement agencies with the planning, training, and
equipment needs necessary to respond to a conventional or non-conventional weapons of
mass destruction incident. The NIPC has since been mowedto the Depall:mentof Homeland
Security. The responsibilities for the NDPO were moved to the Federal Emergency
Management Agency before September 11, 2001.



                                              14
extremist allegations were assigned to Radical[ Fundamentalist Unit or the
RFU. Before September 11, it had approximately ten employees.

            2.   Management ofcounterterrorism                cases at FBI Headquarters
       FBI Headquarters was more closely inw)lved in over,;eeing
counterterrorism investigations compared to criminal cases such as bank
robberies or white collar crime. In counterten:orism cases, FBI Headquarters
was responsible for, among other things, ensuring that intelligence information
received from:outside agencies was provided 1Lothe relevant field offices and
assisting field offices in preparing the paperwork necessary to apply for a FISA
order. For this reason, we discuss the duties of the relevant personnel at FBI
Headquarters with respect to counterterrorism investigations.

                 a.     Supervisory Special Agents and Intel]ligence Operations
                        Specialists
      Each of the five units within ITOS was staffed by several Supervisory
Special Agems (SSA), each of whom worked closely with Intelligence
Operations Specialists (IOS). The SSAs were FBI agents who had several
years of experience in the field and had been promoted to a supervisory
headquarters position. These SSAs generally worked in ITOS for
approximately two years before becoming supervisors in a field office or
elsewhere in FBI Headquarters. ITOS SSAs typically had at least some
experience in terrorism matters prior to coming to ITOS.
      IOSs were non-agent, profi_ssional employees? 3 Some had advanced
degrees in terrorism or terrorism-related fields;. Others had no formal training
in analytical work but advanced to their IOS positions from clerical positions
within the FBI. Most IOSs were long-term employees who were expected to
have institutional knowledge about terrorism matters, such as the history of a
particular terrorist organization or the principal participants in a terrorist
organization.




      23In October 2003, the FBI reclassified all FBI analysts under one position title -
Intelligence Analyst. IOSs now are called "Operations Specialists."
       The responsibilities of each SSA and IOS depended on the unit in which
they worked. Some SSAs and IOSs oversaw all FBI investigations relating to a
particular terrorist group or a particular target. Other SSAs and IOSs were
responsible for overseeing terrorism investigations conducted in a particular
region of the country.
       SSAs and IOSs were the first point of contact for agents and supervisors
in the field conducting counterterrorism investigations when approval, advice,
or information was needed. For example, if a field office's investigation
revealed connections between the subject of the investigation and a known
leader of a terrorist organization, the IOS was supposed to provide the field
office with the FBI's information on the leader of the terrorist organization. In
addition, SSAs and IOSs assisted field offices by ;assembling tl_Lenecessary
documentation to obtain court orders authorizing electronic surveillance
pursuant to FISA. This is discussed further in Sec,tion IV, B below.
        SSAs and IOSs also were responsible for collecting and disseminating
intelligence and threat information. They received information from various
FBI field offices _md from other intelligence agencies that needed to be
analyzed and disseminated to the field. SSAs and IOSs also acted as liaisons
with other intelligence agencies. They also received information from these
agencies in response to name check requests or traces on telephLone numbers as
well as intelligence and threat information.
       With respect to threat information, SSAs and IOSs worked with FBI field
offices or Legal Attach6 (Legat) offices to assess the threat and take any action
necessary to prevent terrorist acts from occurring. :'4 For example, an IOS
would conduct research on the names associated with the threats, arrange for
translators to translate any intercepts from electronic surveillance, request
information from other agencies about the persons associated with the threats,
and prepare comnmnications to the field office and Legat to ensure that



     24Prior to September 11, 2001, the FBI had 44 Legat .officesaround the world. Legat
offices assist the FBI in its mission from outside of the United States by, tbr example,
coordinating with other government agencies to facilitate the extradition of terrorists wanted
for killing Americans. As of June 2004, the FBI had 45 Legat offices and four Legat sub-
offices.



                                              16
updated information    was provided to the necessary persons involved in the
investigation.

               b.     Intelligence Research Specialists   and analysis within the
                      Counterterrorism    Division

      Prior to September 11,2001, Intelligence Research Specialists (IRSs)
also were a part of the FBI's Counterterrorism Program, although they were
housed in a separate division of the FBI from 1theSSAs and IOSs. Both IRSs
and IOSs performed an important function in the intelligence arena called
"analysis."
      Analysis is the method by which pieces ,of intelligence information are
evaluated, integrated, and organized to indicate pattern and meaning. As
information is received, it must be examined in-depth and connected to other
pieces of info_a_nationto be most useful.
       Analysis generally is considered to be either tactical or strategic. Tactical
analysis, which also is called operational analysis, directly supports
investigations or attempts to resolve specific t]_eats. It nol_rnally must be acted
upon quickly to make a difference with respect to an investigation or a threat.
An example of tactical analysis :is the review of the telephone records of
several subjects to determine who might be connected to whom in a certain
investigation or across several investigations. Another example of tactical
analysis is a review of case files to determine whether similar, suspicious
circumstances in two unrelated police reports exist in other cases and are
somehow connected to each other or to criminal or terrorist activity.
       In contrast to tactical analysis, strategic analysis provides a broader view
of patterns of activity, either within or across terrorism programs. Strategic
analysis involves drawing conclusions from the available il_Ltelligence
information and making predictions about terrorist activity. It is not simply
descriptive but proactive in nature. A typical product of strategic analysis is a
report that includes program history, shifts in terrorist activity, and conclusions
about how the FBI should respond.
     The FBI has acknowledged that prior to September 11,2001, its
Counterterrorism Division was primarily geared toward cortducting tactical




                                         17
analysis in support of operational matters rather than strategic _malysis. 25
Tactical analysis generally was handled by IOSs within the operational units.
       Prior to September 11, strategic analysis for the Counterterrorism
Division was pertbrmed by IRSs. Like IOSs, IRSs were non-agent,
professional employees who were expected to be '.subject matter experts about a
particular terrorism group, program, or target. All IRSs at the FBI had college
degrees, and some had advanced degrees. Like IOSs, IRSs were expectedto be
long-term FBI employees who possessed the "institutional knowledge" about a
particular program or target. 26
       During the time period relevant to our review, IRSs who worked
counterterrorism matters were assigned to the Investigative Services Division
(ISD), a division separate from the Counterterrorism Division that contained all
IRSs in the FBI. IRSs were grouped in units and reported to a unit chief, who
reported to a section chief. The IRSs who were as;signed to the FBI's
Counterterrorism Program typically worked with the same SSAs and IOSs
assigned to a particular terrorist group or target. For example, an IRS who was
assigned to Bin Laden matters typically worked with IOSs and SSAs in the
UBLU in ITOS.

       As we discuss in detail in Chapter Three, the number ofFBI IRSs
decreased significantly before September 11,2001, and the relatively few IRSs
were often used to perform functions; other than strategic analysis.
       Many FBI analysts and supervisors noted to the OIG that the resources
devoted to the Counterterrorism Program and analysis were inadequate, and
that the amount of work in the Counterterrorism Program was overwhelming.
They also stated that they were hampered significantly by inadequate
technology. We discuss these issues in further detail in Chapter Three of the
report on the handling of the Phoenix EC. However, these difficult conditions
in the Counterterrorism Program apply equally to the issues in lihe other
chapters in our report.



    25In Chapter Three, we discuss in more detail the FBI's lack of strategic analysis
capabilities prior to September 11,2001.
    26IRSs now are called "All Source Analysts."



                                             18
      B.   Field offices and counterterrorism          investigations
        Prior to September 11,2001, FBI counterterrorism investigations,
whether intelligence or criminal, were opened and led by the FBI's 56 field
offices. In many field offices, counterterrorism investigations were handled by
a squad that fi_cused on terrorism cases only. Inthe New York Field Office
and other large offices, several squads were devoted solely to international
terrorism matters. In smaller fie]id offices, international ten:orism and domestic
terrorism inve,stigations often were assigned to the same squad. FBI agents
generally developed specialties within the terrorism field such as a particular
terrorist organization. Each squad was led by an SSA who reported to an
Assistant Special Agent in Charge (ASAC) who, in turn, reported to the
Special Agent in Charge (SAC). 27
       As stated above, field offices opened international terrorism
investigations as either a criminal investigation or an intelligence investigation.
Attorney General Guidelines delineated the information or allegations that
were necessary to open a criminal investigation or an intelligence
investigation. ::8
       For both criminal and intelligence cases, the Attorney General Guidelines
set forth the criteria for opening two levels of investigations-   a "preliminary
inquiry" (PI)and a "full investigation" (also called a full field investigation or
FFI). The Guidelines also specified what investigative teclmiques could be
employed in preliminary inquiries or full investigations.     Both sets of the



    27In larger field offices such as New York, several SACs report 1_oan Assistant Director
in Charge (ADIC).
    28Separate .AttorneyGeneral Guidelines regulate the FBI's conduct in criminal
investigations, intelligence investigations, and the handling of informants, among other
issues. The Attorney General Guidelines that addressed criminal inw:stigations were called
"The Attorney General's Guidelines on General Crimes, Racketeering Enterprise and
Domestic Security/Terrorism Investigations" (hereinafter "criminal AG Guidelines"). The
Attorney General Guidelines in effect at the time that addressed intelligence investigations
were labeled "Attorney General Guidelines for FBI Foreign Intelligence Collection and
Foreign Counterintelligence Investigations" (hereinafter "FCI AG Guidelines"). Revised
criminal Attorney General Guidelines were issued on May 30, 2002, and new FCI
Guidelines were issued on October 31.,2003.



                                             19
Guidelines providked that preliminar3' inquiries were conducted to determine
kvhether a basis existed for a full inwestigation. However, preliminary inquiries
had to be closed when there was insufficient information after a certain period
of time to support opening a full fieh:l investigation.
        With respect to intelligence ca,;es, agents could collect information by,
among other methods, questioning sources, finding new sources, checking FBI
and other agency databases, and reviewing intelligence information from other
intelligence agencies. Information was recorded in the form of Electronic
Communications (ECs) that became part of the case file. An E,C is the
standard form of communicationwithin         the FBI.

        Before September 11,2001, FBI international terrorism intelligence cases
contained the case identifier number 199. Letter or "alpha" des_ignations were
also used, along with the case identifier, to further identify inte]tligence
investigations.   For example, intelligence investigations related to a particular
terrorist organization were designated as 199N investigations.      International
terrorism intelligence investigations often are refe_rred to as "a It99." A
criminal international terrorism investigation had the FBI case identifier
number 265; these investigations were commonly referred to as. "a 265. ''29

      C.   The Department's       Office of Intelligence     Policy and Review
        As mentioned above, when the FBI conduct,; intelligence investigations,
a significant tool for uncovering information is the FISA statute. The FBI
obtains an order firom the FISA Court authorizing electronic su_:veillance and
searches with the assistance of Department attorne, ys in the Office of
Intelligence Policy and Review (OIPR). OIPR is under the dire,ction of the
Counsel for Intelligence Policy. 3°




    29Currently, the FBI uses only one designation for international terroJrism
investigations.
   3oWe discuss in detail the process for obtaining FISA warrants and the role of FBI and
OIPR personnel in this process in Section IV, B.



                                            20
III. The wall between    intelligence   and criminal terrorism   investigations

     A.   Introduction

       This section summarizes the creation of the "wall" separating criminal
and intelligence terrorism investigations in the',Department of Justice. The wall
began as a separation of intelligence investigators from contact with criminal
prosecutors, and evolved to include a separation of FBI investigators working
on intelligence investigations from investigators working on criminal
investigations.
       As discussed above, FBI terrorism investigations cou][d be opened either
as an intelligence investigation in which information was collected for the
protection of national security, or as a criminal investigation to prevent a
criminal act fiom occurring or to determine wJho was responsible for a
completed criminal act. In the course of an intelligence investigation,
information rrdght be developed from searches or electronic surveillance
obtained under FISA. That intelligence information also could be relevant to a
potential or completed criminal act. However, concerns were raised that if
intelligence investigators consulted with prosecutors about the intelligence
information or provided the information to criminal investigators, this
interaction could affect the prosecution by allowing defense counsel to argue
that the government had misused the FISA statute and it also could affect the
intelligence investigatiqn's ability to obtain or continue FISA searches or
surveillances. As a result, procedural restrictions- a wall- were created to
separate intelligence and criminal investigations. Although information could
be "passed over the wall"- i.e., shared with criminal investigators - this
occurred only subject to defined procedures.
     The wall separating intelligence and criminal investigations    affected
                        the Hazmi and Mihdhar case.




                                                         And[ as we discuss in
detail in Chapter Five, because of the wall- mad beliefs about what the wall
required- an FBI analyst did not share important intelligence information
about Hazmi _md Mihdhar with criminal investigators.     In addition, also


                                         21
because of the wall, in August 2001 when the New York FBI learned that
Hazmi and Mihdhar were in the United States, criminal investigators were not
allowed to participate in the search for them.
       Because the wall between intelligence and criminal investigations
affected these two cases, we provide in this section a description of how the
wall was created and evolved in response to the 1!)78 FISA statute. We also
describe the unwritten policy separating criminal and intelligence
investigations in the 1980s and early 1990s, the 1!)95 Procedures that codified
the wall, the FISA Court procedures in 2000 that required written certification
that the Departme, nt had adhered to the wall between criminal _md intelligence
investigations, and the changes to the wall after the September 11 attacks.

            1.    The "primary      purpose"        standard
        The FISA statute, enacted in 1!)78, authorizes the FISA C,ourt to grant an
 application for an order approving electronic surveillance or a ,;earch warrant
 to obtain foreign intelligence information if there is probable cause to believe
 that the target of the surveillance or search warrant is a foreign power or an
 agent of a foreign power. 50 U.S.C. § 1805(a)(3). The statute requires that the
 government certit_ when seeking the warrant that "the purpose" of the FISA
search or surveillance is to obtain "foreign intelligence information." The
 statute states that the certification must be made '"by the Assistant to the
 President for National Security Affairs or an executive branch official or
 officials designated by the President from among those executive officers
 employed in the area of national security or defense and appointed by the
President with the advice and consent of the Senate." 50 USC § 1804(a)(7).
 Within the Deparlment, the certification is usually signed by the FBI Director.
      While Conga'ess anticipated that evidence of criminal conduct uncovered
during FISA surveillance would be provided to criminal investiigators, the
circumstances under which such information could be furnished to criminal
investigators were not provided for in the statute.3_' Defendants in criminal


    31The legislative history states that "surveillance to collect positive tbreign intelligence
may result in the incidental acquisition of information about crimes; but this is not its
objective." Further, it states, "Surveillance conducted under [FISA] need not stop once
conclusive evidence of a crime is obtained, but instead may be extended longer where
(continued)

                                               22
cases can challenge the government's use of information collected under a
FISA warrant by arguing that the government's purpose in obtaining the
information pursuant tOFISA was not for collection of foreign intelligence, but
rather for use in a criminal prosecution. Such a purpose would violate the
Fourth Amendment's prohibition against warrantless searches, and could result
in evidence obtained under FISA being suppressed in the criminal case.
Alternatively, the FISA Court could reject an application for a FISA warrant
because of concerns that the government's pu_rpose for seeking the FISA
warrant was for use in a criminal case rather tlnan collecting foreign
intelligence.
       As a result, in interpreting FISA courts applied "the lz,rimary purpose"
test. This allowed the use of FISA information in a criminal case provided that
the "primary purpose" of the FISA surveillance or search was to collect foreign
intelligence information rather than to conduct a criminal investigation or
prosecution. 'The seminal court decision applying this standard to information
collected in intelligence cases was issued in 1!;)80. See United States v. Truong
Dinh Hung, 629 F.2d 908 (4thCir. 1980). In tlhis case, the Fourth CircuitCourt
of Appeals ruled the government did not have to obtain a criminal warrant
when "the object of the search or the surveillance is a foreign power, its agents
or collaborators," and "the surveillance is conducted 'primarily' for foreign
intelligence purposes." Id. at 915. However, the court ruled that the
government's primary purpose in conducting ;anintelligence investigation
could be called into question when prosecutors had begun to assemble a
prosecution and had led or taken on a central role in the investigation.
      Although the Truong decision involved electronic surveillance conducted
before FISA's enactment in 1978, courts used its reasoning and applied the
primary purpose test in challenges in criminal cases to the use of information
gathered from searches or electronic surveillance conducted pursuant to FISA.
See, e.g., United States v. Johnson, 952 F.2d 5;65(1stCir. 1991), cert. denied,
113 S.Ct. 58 (1992) ("[a]lthough evidence obtained under FISA subsequently
may be used in criminal prosecutions, the investigation of criminal activity


(continued)
protective measures other than the arrest and prosecution are more appropriate."   S. 1566,
95 th Congress, 2d Session, Report 95-701, March 14, 1978.




                                             23
cannot be the primary purpose of the surveillance"); United States v. Pelton,
835 F.2d 1067 (4thCir. 1987), cert. denied, 486 U.S. 1010 (1988).
       In the 1980s;,the Department also adopted the "primary purpose"
standard containecl in the Truong case. 32 It interpreted the FISA statute as
requiting prosecutors not to have control in intelligence investigations in which
information was being collected purs;uant to FISA. The concern was that too
much involvement by prosecutors in the investigation created t]herisk that a
court would rule that the FISA information could :notbe used in a criminal case
because the "primary purpose" of the search was not the gathering of foreign
intelligence.
      As a result, during the 1980s madthrough the mid-1990s, the
Department's policy was that prosecutors within tlhe Department's Criminal
Division- not attorneys in the local United States Attorneys' Offices (USAOs)
- had to be Consulted in connection with intelligence investigations in which
federal   criminal   activity   was uncovered,     or when legal advice   was needed   to
avoid investigative steps that might inadvertently jeopardize the option of
prosecution using information obtained from the intelligence investigation.
Criminal Division attorneys were briefed by the FBI about ongoing intelligence
investigations and[were expected to:provide advice geared toward preserving a
potential criminal case, but they were not allowed to exercise control over the
investigation. The Criminal Division and FBI Headquarters made the policy
decision about when to involve the USAO in the investigation, since consulting
with the USAO was viewed as a bright line signi_¢ing the transition from an
intelligence investigation to a criminal investigation. However., during this
time period, no formal written guidelines governed the contacts between the
FBI and the Criminal Division.




     32The Foreign Intelligence Surveillance Court of Review later noted that while the
Department adopted this policy in the 1980s, "the exact moment is shrouded in historical
mist." See In Re Sealed Case, 310 F.3d 717, 727 (2002).



                                                 24
          2.   Institutional divide between criminal    and intelligence
               investigations
        The effect on FISA warrants or the legal restrictions on sharing
intelligence information was not the only issue regarding sharing intelligence
information with criminal investigators. Agents conducting intelligence
investigations are generally wary about the impact of sharing intelligence
information with prosecutors and criminal investigators. T!hey expressed
concerns about potential harm that disclosure would have on intelligence
sources and methods, and the damage that such disclosure would have on
future collection of intelligence information. Intelligence collection is
dependent upon secrecy; investigators often re,ly upon clandestine sources or
surveillance techniques that are rendered useless if they are exposed. In
addition, most of the information collected is classified and cannot be made
public. In contrast, criminal investigations are usually intended to result in a
prosecution, which may require the disclosure of information about the source
of evidence re,lied upon by the government. Thus, intelligence investigators'
need to protec, t secret sources and methods may be at odds "with criminal
investigators' use of the information derived from those sources and methods.

          3.   The Ames case and concerns :about the priimary purpose
               standard

        In February 1994, CIA employee Aldrich Ames was arrested on various
espionage charges. The FBI pursued an investigation regarding Ames that
involved several certifications to the FISA Court that the purpose of electronic
surveillance was for intelligence purposes. At: the time of tihe ninth
certification in the Ames case, Richard Scruggs, the new head of OIPR, was
concerned that no guidelines governed the contacts between the Criminal
Division and the FBI that were permitted in intelligence investigations.
Scruggs raised concerns with the Attorney General that the primary purpose
requirement and FISA statute had been violated by the extensive contacts
between the Criminal Division and the FBI in the Ames investigation.
      To address these concerns about coordination between the Criminal
Division and the FBI in intelligence investigations, in 1994 Scmggs proposed
amending the Attorney General's FCI Guidelines to require that any questions
in intelligence investigations relating to criminal conduct or prosecutions had
to be raised first with OIPR, and that OIPR would decide whether and to what


                                       25
extent to involve _LheCriminal Division and the USAO in the imelligence
investigation. Scruggs' proposal also prohibited tlheFBI from contacting the
Criminal Division or a USAO without permission from OIPR.
       In one memorandum, Scruggs described this; separation of criminal and
intelligence investigations as a wall: "The simple legal respon,;e to parallel
investigations is a 'Chinese Wall' which divides tlhe attorneys as well as the
investigators." Scruggs' use of the term "Chinese wall" is the first reference
we found to the term "wall" in connection with separating intelligence and
criminal investigations. In another memorandum discussing his proposal,
Scruggs wrote that the goal of the changes was "not to prevent discussions with
the Criminal Division" but "to regulate them so as',to place the Department in
the best possible legal posture should prosecution be undertaken." In addition,
he wrote that the goal was to develop "a simple mechanism" to maintain the
legal distinction between criminal investigations and intelligence operations.
       Scruggs'   proposal   generated   considerable    controversy    within   the
Department and the FBI. The Criminal Division and the FBI wrote position
papers opposing the proposal. Although the Criminal Division and the FBI
both agreed that some formal procedures were necessary to_guard against
abuses in the use of FISA and to rebut unwarranted claims of abuse, they
argued that allowing OIPR to decide when prosecutors could be consulted was
unnecessary and unduly burdensome,, and would cleter useful and productive
contacts between investigators and prosecutors. 33 The Crimina![ Division also
argued that it was "imperative" for any procedures to "allow for potential
criminal prosecutions to be protected through early evaluation _mdguidance"
and advocated continuing the requirement that the Criminal Division had to be
advised any time the FBI uncovered evidence of federal criminal activity in the
course of an intelligence investigation.
      Also in response to Scruggs' proposal, the Executive Office for National
Security, which was located in the Deputy Attorney General's Office, sought
an opinion from the Office of Legal Counsel (OLC) whether a search under

      33The FBI agreed, however, that the role preventing contact with a United States
Attorney's Office without approval from the Criminal Division and OIPR should remain.
The FBI stated that "the requisite sensitivity to these concerns and experience with treading
this fine line will often be absent" in U.S. Attorney's Offices.



                                              26
FISA could be approved "only when the collection of foreii_ intelligence
[was] the 'primary purpose' of the search or whether it suffic[ed] that the
collection of foreign intelligence [was] one of the purposes." In a
memorandum that was circulated in draft in mid-January 1995, OLC concluded
that while courts had adhered to- and were likely to continue to adhere to- the
"primary purl:lose" test with regard to FISA information, the courts had shown
great deference to the government in challenges to evidence gathered through
intelligence searches that was used in criminal prosecution,;. OLC opined that
some involvement of prosecutor,; could be permitted to be involved with the
FISA searches without running an "undue risk:" of having evidence suppressed,
but that there were "few bright line rules" for discerning when a "'primarily'
intelligence search becomes a 'primarily' crinfinal investigation search." OLC
wrote, "[I]t must be permissible for prosecutors to be involved in the searches
at least to the extent of ensuring that the possible criminal case not be
prejudiced." .At the end of its opinion, OLC recommended that "an appropriate
internal process be set up to insure that FISA certifications are consistent with
the 'primary purpose' test."

         4.    The 1995 Procedures

               a.   Creation of the 1995 Procedures
      In late December 1994, at the direction of Deputy Attorney General
Jamie Gorelick, the Executive Office for National Security convened a
working group to resolve the dispute between OIPR and the FBI and the
Criminal Division concerning contacts between the FBI and the Criminal
Division. The Criminal Division, OIPR, the FBI, OLC, and the Executive
Office for National Security participated in the group. As a result of
discussions within the working group, on February 3, 1995, the Executive
Office for National Security circulated draft procedures for contacts between
the FBI and prosecutors. The draft procedures, "Procedures for Contacts
Between the FBI and the Criminal Division Concerning Foreign Intelligence
and Foreign Counterintelligence Investigations," were tran,;mitted on April 12,
1995, by the Executive Office for National Security througl_ the Deputy




                                       27
Attorney General to the Attorney General for approval and imlz,lementation. 34
The Attorney General signed and issued the procedures on July 19, 1995.
These procedures became known as "the 1995 Procedures."

                 b.     Description    of tile 1995 Procedures
       In general, the 1995 Procedures rejected OIPR's original proposal of
giving it the sole authority to decide when FBI agents could consult with
Criminal Division prosecutors on an intelligence investigation. However, the
 1995 Procedures gave OIPR formal oversight over contacts between the FBI
and the Criminal Division in intelligence cases, and the procedures formalized
restrictions on the extent that Criminal Division prosecutors could be involved
in intelligence investigations. The procedures applied to intelligence




     34At the time these draft procedures were being discussed, the FBI's New York Field
Office was conducting at least two significant criminal ten:orism investigations involving the
World Trade Center bombing in 1993. Indictments had be,en returned in one of the cases.
During the criminal investigation of these two cases, significant counterintelligence
information was developed relating to foreign powers operating in the United States, and the
FBI initiated a full field counterintelligence    investigation. In a memorandum written to the
FBI, the Southern District of New York (SDNY) USAO, OIPR, and the Criminal Division,
and filed with the FISA Court on March 4, 1995, Deputy Attorney General Gorelick
provided instruction,; for sharing information from these two terrorism investigations in the
FBI's New York Field Office with intelligence investigators, and for separating the
counterintelligence    and criminal investigations.    The memorandum stated that the
procedures were designed to prevent the risk of creating an unwarranted appearance that
FISA was being used to avoid the procedural safeguards that applied in criminal
investigations.    The memorandum, which acknowledged that the procedures went "beyond
what [was] legally required," included having an Assistant United States Attorney (AUSA)
not involved in the criminal cases but who was familiar with them act as "the wall" as well
as ensure that information indicative of a crime obtained in the intelligence investigation
was passed to the criminal agents, the USAO, and the Criminal Division. The memorandum
also included several procedures to facilitate coordination and information sharing,
including requiring intelligence investigators who developed information that reasonably
indicated the commission of a crime to notify law enforcement agents and assigning an FBI
agent involved in the: criminal investigation to be assigned to the foreign counterintelligence
investigation.




                                              28
investigations both in which a FISA search or surveillance was being
conducted and in which no FISA order had been issued. 35
       The 1995 Procedures formalized the unwritten policy that had existed
since the 1980s requiring the Criminal Division, rather than the local USAO, to
be consulted about intelligence investigations when questions of criminal
activity or criminal prosecution arose. 36 The 1995 Procedtu;es required that the
FBI and OIPR notify the Criminal Division wl_en "facts or ,circumstances
[were] developed that reasonably indicate[d] tlhata signific_mt federal crime
[had] been, [was] being, or [might have been] committed."
      In cases in which FISA surveillance was being conducted, the 1995
Procedures provided that OIPR as well as the Criminal Division had to approve
an FBI field office's request to take an investigation to the USAO. Guidance

     35Part A of the 1995 Procedures applied to investigations in which a FISA order had
been issued, and. Part B applied to those investigations in which no F]SA order had been
issued.

      36However.., there was an exception for the USA() in the Southern District of New York
(SDNY). While: the 1995 Procedures were being cons;idered in draft, Deputy Attorney
General Gorelick had recommended that they be revie.wed by U.S. Attorney for the SDNY
Mary Jo White. White responded that the USAOs should be on equa]Lfooting with the
Criminal Division, and she recommended changes to the 1995 Procedures to achieve this,
such as requiring in intelligence cases notifcation of a crime to both the Criminal Division
and to the USA(). White argued that "[a]s a legal matter, whenever i1:is permissible for the
Criminal Division to be in contact with the FBI, it is equally permissible for the FBI to be in
touch with the U.S. Attorneys' Offices." This suggestion was unanimously rejected by the
FBI, OIPR, the Criminal Division, and the Executive Office for National Security, and the
exception was not included in the 1995 Procedures. However, White continued to press this
issue. In a memorandum faxed to Gorelick on December 27, 1995, White argued that the
Department and the FBI were structured and operating in a way that (lid not make maximum
legitimate use of all law enforcement and intelligence avenues to prevent terrorism and
prosecute terrorist acts. She asserted that the 1995 Procedures were building "unnecessary
and counterproductive walls that inhibit rather than promote our ultimate objectives" and
that "we must face the reality that the way we are proceeding now is inherently and in
actuality very d_mgerous." Eventually, on August 29, 1997, the Attorney General issued a
memorandum creating a special exemption for the SDNY USAO in cases in which no FISA
techniques were being employed. In those cases, the FBI was permitl:ed to notify directly
the SDNY USAO of evidence of a crime, and the USAO then was required to involve the
Criminal Division and OIPR.




                                              29
issued by the FBI Director that accompanied the 1995 Procedtn:es instructed
FBI field offices that any potential contact with prosecutors (either the
 Criminal Division or requests to consult with the USAO) had to be coordinated
through FBI Headquarters.
        In cases in which no FISA warrant had been issued, the 1995 Procedures
 required that the Criminal Division decide when it was appropriate to involve
 the USAO in the intelligence investigation, although notice of the decision had
 to be given to OIPR. For example, as discussed in Chapter Four, the FBI
 Minneapolis Field Office opened the Moussaoui investigation as an
intelligence investigation, but then wanted to seek a criminal search warrant
 from the USAO. Since an intelligence investigation was opened but no FISA
 Warrant had been issued, the Minneapolis FBI needed permission - which it
 was required to obtain through FBI tleadquarters-- from the Criminal Division
 in order to approach the USAO for a criminal search warrant.
      Under the 1:995Procedures, the CriminalDivision was responsible for
notifying OIPR of, and giving OIPR an opportunil_j to participate in, all of the
Criminal Division's consultations with the FBI concerning intelligence
investigations in which a FISA warrant had been obtained. In intelligence
investigations where no FISA warrant had been obtained, the Criminal
Division had to provide notice to OIPR of its contacts with the FBI. In both
types of cases, the',FBI was required to maintain a log of all its ,contacts with
the Criminal Division.

      The 1995 Procedures provided that in intelligence investigations the
Criminal Division couldgive advice to the FBI "aimed at preserving the option
of a criminal prosecution," but could not "instruct the FBI on the operation,
continuation, or expansion of FISA electronic surveillance or physical
searches." In addition, the FBI andthe Criminal Division were required to
ensure that the advice intended to preserve the prosecution did not
"inadvertently result in either the fact or the appearance of the Criminal
Division's directing or controlling [the investigation] toward law enforcement
objectives."

          5.   Additional restrictions on sharing intelligence information
      In addition to the wall between FBI intelligence investigators and
criminal prosecutors, a wall within the FBI between criminal investigations and


                                        30
intelligence investigations also was created. Although it is unclear exactly
when this wall within the FBI began, sometime between 19'95 and 1997 the
FBI began segregating intelligence investigations from criminal investigations
and restricting the flow of infommtion between agents who conducted
intelligence investigations and agents who conducted criminal investigations.
       As discussed above, in a position paper prepared by OIPR when the
Department was considering the 1995 Procedures, OIPR recommended that the
FBI be required to open separate and parallel criminal and intelligence
investigations, and that the FBI place "a wall" between the two investigations
by staffing the criminal investigation with FB][ agents who ,didnot have access
to the intelligence investigation. This wall was intended to ensure that
information from each investigation would be fully admissible in the other.
OIPR proposed certain procedures for sharing information ,developed in the
intelligence investigation that was relevant to the criminal investigation, a
process that was referred to as "passing infomaation over the wall."
       The process for passing information from the intelligence investigation to
the criminal investigation was that an FBI employee - usually the SSA of an
international terrorism squad, the Chief Division Counsel of a field office, or
an FBI Headquarters employee--would be permitted to review raw FISA
intercepts or materials seized pursuant to a FISA and act as a screening
mechanism to decide what to "pass" to the criminal investigators or
prosecutors.
      In March 1995, at the direction of the Department, the FBI established
special "wall'" procedures for the:New York Field Office's ihandling of the
criminal and intelligence investigations that arose out of the 1993 World Trade
Center bombing. It is unclear when similar procedures were employed
throughout the FBI. By 1997 OIPR was including a description of the
screening or "wall" procedures in all FISA applications that were filed with the
FISA Court when a criminal inw_stigation was; opened. 37 The particular


      37Neither OIPR nor the FBI had any written policy requiring the inclusion of such
information in FISA applications until late 2000, after the discovery of several errors in
FISA applications related to information about criminal investigations and wall procedures
related to those criminal investigation,;. These errors are discussed below in Section III, B
of this chapter.



                                              31
screening mechanism proposed by OIPR and approved by the Attorney
General depended on how far the criminal investigation had developed. 38 If the
case had recently been initiated, the SSA was usually the screener. In a case in
which the USAO already was involved, others could be the screener, such as
an attorney in the FBI's Office of General Counsel, OIPR, or the Attorney
General. According to James Baker,. the current OIPR Counsel[, 39in late 1999
the Department proposed the use of the FISA Court as "the wall." The purpose
of this proposal was to ensure that the FISA Court would approve FISA
applications related to threats involving the Millermium where there was a
substantial nexus with related criminal cases.

            6.   Reports evaluating       the impact of the 1995 Procedures
       Although the 1995 Procedures allowed for consultation between the FBI
and the Criminal Division about intelligence inve,;tigations, and in some
instances required contact by the FBI with the Criminal Division, the FBI
dramatically reduced its consultations with the Criminal Division after the
1995 Procedures were issued. The FBI came to understand from OIPR that
 any consultation with Criminal Division attorneys could result in a FISA
 surveillance being terminated or in OIPR not agreeing to pursue a FISA
 warrant. As a result, the FBI sought prosecutor input only after it was prepared
to close an intelligence investigation and "go criminal."

       Three reports- a July 1999 OIG report on the Department's campaign
finance investigation, a May 2000 Department report on the Wen Ho Lee case,
and a July 2001 General Accounting Office (GAO) report- discussed these
issues and the impact of the 1995 Procedures and the wall.




     38According to OIPR Counsel Baker, Attorney General Janet Reno directed the
termination of certain FISA surveillances in 1998based upon her determination that related
criminal investigative activities called into question the primary purpose of the surveillance
collection.

   39Baker joined OIPR in October 1996 and became the Deputy Counsel in 1998. In
May 2001, he was named Acting Counsel, and in January 12002he became the Counsel.



                                              32
              a.   The OIG's July 1999 report on the campaign finance
                   investigation
       The first report was the OIG's July 1999 report entitled "The Handling of
FBI Intelligence Information Related to the Justice Department's Campaign
Finance Investigation" (the Campaign Finance Report). The OIG report
reviewed allegations that the FB][had failed to disclose certain intelligence
information to Congress, FBI Director Louis Freeh, and At_IorneyGeneral Janet
Reno. This inttelligence information related to,the FBI's Campaign Finance
Task Force, which had been created to investigate allegations of campaign
finance violations during the 1996 presidential campaign. ]inconnection with
this review, the OIG examined issues concerning the implementation of the
1995 Procedures and the sharing of intelligence information with prosecutors
and criminal investigators.
       The OIG report found that the 1995 Procedures were largely
misunderstood and often misapplied, resulting in undue reluctance by
intelligence atgents to provide information to criminal investigators and
prosecutors. The report stated that "the tumult that accompanied [the] creation
 [of the 1995 Procedures] drastically altered the relationship between [the FBI]
and prosecutors." The report found that because of OIPR's criticism of the FBI
during the Ames investigation, FBI agents had become "gun shy" about
conversations with Criminal Division attorneys, and the FBI's General
Counsel's Office had recommended that FBI agents take a "cautious approach"
by initially conferring with OIPR attorneys rather than Criminal Division
attorneys. The report also noted that as a result of the FBI's concerns about
OIPR's criticisms, the FBI had been "needlessly chilled" from sharing
intelligence information with the Criminal Division. The report stated that the
 1995 Procedttres were vaguely written and provided ineffec,tive guidance for
the FBI. The :report recommended that the Criminal Division, OIPR, and the
FBI resolve conflicting understandings about the 1995 Procedures, and the FBI
issue guidance to disabuse FBI personnel of"unwarranted concerns about
contact with prosecutors."

              b.   The report of the Attorney General's Review Team on
                   the Wen Ho Lee investigation
     The second report addressing these issues was prepared by the Attorney
General's Review Team (AGRT), which the Department established to review

                                      33
                                                                             /




the handling of the Wen Ho Lee investigation. 4° A chapter of tl_e final AGRT
report, issued in May 2000, discussed the 1995 Procedures. The AGRT report
found that soon after the 1995 Procedures were implemented, OIPR prevented
the FBI from contacting the Criminal Division in contraventiol_ of the
requirements of the procedures. The report stated that FBI and Criminal
Division officials believed that OIPR was discouraging contact by the FBI with
the ,Criminal Division. Both FBI and Criminal Division officials believed that
such contact would jeopardize existing or future FISA coverage because OIPR
might not present the matter to the FISA Court or the FISA Court would deny
the request if such contact occurred. The report stated, "It is clear from
interviews that the AGRT has conducted that, in any investigation where FISA
is employed or even remotely hoped for (and FISA coverage is always hoped
for), the Criminal Division is considered radioactive by both the FBI and
OIPR."

      The AGRT report noted that OIPR Counsel Scruggs made it clear to the
FBI that it was not permitted to contact prosecutors in FCI investigations
without thepermission of OIPR. The report stated that, as a result, former FBI
Deputy Director Robert Bryant communicated to FBI agents that violating this
rule was a "career stopper."
       In October 1999, the AGRT made interim recommendations to the
Attorney General. For example, the AGRT reco_anended that the FBI provide
"regularly scheduled briefings" to the Criminal Division concerning FCI
investigations that had the potential tbr criminal prosecution.
      In response, in January 2000 Attorney General Reno established the
"Core Group," which consisted of the FBI's Assistant Directors; for
counterterrorism _mdcounterintellige, nce, the Principal Associalle Deputy
Attorney General, and the Counsel for OIPR. The FBI was supposed to
provide monthly '"critical case briefings" to the Core Group, and the Core
Group was supposed to decide if the facts of the cases warranted notification to
the Criminal Division as provided for in the 1995 Procedures. ]Inaddition, the
                                                J



    4oThe team was led by Randy Bellows;, an AUSA from the Eastern District of Virginia
who was experienced in FCI cases. The AGRT report, which is entitled "Final Report of the
Attorney General's Review Team on the Handling of the Los Alamos National Laboratory
Investigation," is often called "the Bellows report."



                                           34
    Attorney General directed the FBI to provide 1theCriminal ]Division with copies
    of foreign counterintelligence  case memoranda summarizing espionage
    investigations of U.S. citizens or lawful permanent residents.
           In October 2000, the Core Group was disbanded because it was believed
    that the briefings were duplicative of sensitive, case briefings that the FBI
    provided to the Attorney General and the Deputy Attorney General on a
    quarterly basis. Around the same time a working group that had been formed
    months earlier in response to the interim recommendations       of the AGRT report
    developed two decision memoranda for the Attorney General's approval, one
    in October 2000 and one in December 2000. The memoranda included several
    options for addressing the FBI's lack of notification to the Crio_inal Division
:   regarding evidence in intelligence investigations of significant federal crimes
    and the lack of coordination with the Criminal Division, and they delineated
    the type and e,xtent of advice 'the Criminal Division could provide the FBI. The
    December 20130memorandum also described a strategy for presenting new
    procedures for coordination between intelligence and law enforcement to the
    FISA Court, _md it discussed the possibility of an appeal to the FISA Court of
    Review if the FISA Court rejected the new coordination procedures. Although
    the Criminal ]Division, OIPR, and the FBI reached an agreement on steps to
    liberalize information sharing, the components could not agree on what kind of
    advice by the Criminal Division to the FBI was permissible',. The Attorney
    General never issued or signed either memorandum.

                   c.   The GAO ,report
            In the third report, the GAO reviewed the policies, procedures, and
    processes for coordinating FBI intelligence investigations where criminal
    activity was indicated. In its July 2001 report, the GAO found that the FBI had
    little contact with the Criminal Division about: intelligence investigations
    because of the FBI and OIPR's concern about the potential for "rejection of the
    FISA application or the loss of a FISA renewal" or "suppression of evidence
    gathered using FISA tools." See "FBI Intelligence Investigations:
    Coordination within Justice on Counterintelligence      Criminal Matters is
    Limited," GAO-01-780, July 200 I. The GAO report recommended, among
    other things, that the Attorney General establish a policy and guidance
    clarifying the expectations regarding the FBI's notification of the Criminal
    Division about potential criminal violations arising in intelligence


                                            35
investigations.   According to the GAO report, while there were some
 improvements in the coordination between the FBI and the Criminal Division
 after the remedial actions in response to the AGRT report were implemented;
 coordination impediments remained.

      B.   FISA Court's concern about accuracy of FISA applications

           1.    Errors in FISA applications
        Around the time of these two reviews on problems of co_,rdinating
 criminal and intelligence information, the FISA Court imposed additional
 restrictions on the passing of intelligence information to criminal investigators.
 The FISA Court took this action after it learned in 2000 and 2001 of errors: in
 approximately 100 FISA applications that had been filed with the Court. 41
 Approximately 75;of the errors were contained in FISA applications relatingto
targets With connections to a particular terrorist organization, which we will _:
 call "Terrorist Organization No. 1," and the other errors were contained in
 FISA applications relating to a different terrorist erganization, which we Will
 call ,'Terrorist Organization No. 2."
      In the summer of 2000, OIPR first learned of the errors il_tseveral FISA
applications related to Terrorist Organization No. 1. OIPR verbally notified the
FISA Court of the',errors and, together with FBI Headquarters employees,
conducted a review of other FISA applications involving Terrorist
Organization No. 1 that had been submitted since July 1997. In September and
October 2000, OIPR filed two pleadings with the FISA Court advising of
errors in approximately 100 FISA applications related to Terrorist Organization
No. 1.




    41As   d_scussedin detail below, FISA applications were submitted by field offices to
FBI Headquarters for preparation of the documentation that would be presented to OIPR :for
finalization and submission to the FISA Court. The documentation prepared by FBI
Headquarters and finalized by OIPR often was reviewed or edited by different persons,
including an SSA, IOS, Unit Chief, and aNational Security Law Unit attorney. The
documentation included an affidavit signed by the SSA at FBI Headquarters containing the
facts in support of the FISA warrant. The en:ors arose in these SSA affidavits.



                                            36
       Many of these errors in the FISA applications involved omissions of
information or misrepresentations about criminal investigations on the FISA
targets. In applications where criminal investigations were identified,
inaccurate infi_rmation was presented in FISA applications about the "wall"
procedures toseparate the criminal investigation from the imelligence
investigation. For example, the description of the wallprocedures in the
majority of FISA applications involving Terrorist Organization No. 1 stated
that the FBI New York Field Office had separate teams of agents handling the
criminal and intelligence investigations. While different agents were assigned
to the criminal and intelligence investigations, they were not kept separate from
each other. Instead, the criminal agents worked on the inte]Lligence
investigation, and the intelligence agents worked on the criminal investigation.
This meant that, contrary to what had been represented to the FISA Court,
agents working on the criminal investigation had not been restricted from the
information obtained in the intelligence investigation.

           2.   FISA Court's new requirements regarding the wall
       As a result of the FISA Court's concerns about the mistakes in the FISA
applications, the FISA Court began requiting in October 2000 anyone who
reviewed FISA-obtained materials orother intelligence acquired based on
FISA-obtained intelligence (called ',FISA-derived" intelligence 42)to sign a
certification acknowledging that the Court's approval was required for
dissemination to criminal investigators. The FBI came to understand that this
meant that only intelligence agents were permitted to review without FISA
Court approval all FISA intercepts and materials seized by a FISA warrant, as
well as any CIA and NSA intelligence provided to the FBI based on
information obtained by an FBI FISA search or intercept. 43
    Because FISA-obtained infbrmation often was passed from the FBI to the                   •
NSA and the CIA, the Department asked the FISA Court Whether the FBI was


    42FISA-obtained information was often passed to the NSA and CIA for further use,
which could result in "FISA-derived" information.
                                                                    t


     43AS stated above, in late 1999, the Court had become the screening mechanism or "the
wall" for all investigations involving FISA techniques on al Qaeda in which the FBI wanted
to pass intelligence information to a criminal investigation.



                                            37
also required to obtain the newly required certifications from any NSA or CIA
employees who reviewed the FISA-obtained material. The Court exempted the
NSA.and CIA from the certification, but required that the two agencies note on
any intelligence slhared with the FBI if it was FISA-derived. According to the
NSA, when made aware of this requirement, it reported to the Department that,
in the interest of providing as much intelligence asquickly as possible to the
FBI, the NSA would place a caveat on all countex_Lerrorism-relatedintelligence
provided to the FBI. The caveat indicated that if the FBI wanted to pass NSA
intelligence to criminal investigators, it had to involve the NSA General
Counsel's Office, to determine whether the information was in t'act FISA-
derived. According to the NSA, the other alternative would have been to slow
the dissemination while the NSA checked whether the intelligence was derived
from a FISA. 44                                                                                 ..

      The caveat language used by the NSA stated: "Except for information
reflecting a direct threat to life, neither this product nor any infi)rmation
contained in this product may be disseminated to U,.S. criminal investigators or
prosecutors without prior approval of NSA. All subsequent product which
contains information obtained or derived from this product must bear this
caveat. Contactthe Office of General Counsel ofNSA for guiclance
concerning this caveat. ''45


    44.This  Was not the first caveat on dissemination of NSA information. In late 1999,
Attorney General Reno authorized a warrantless physical s',earchunder aul:hority granted to
the Attorney GeneralLby Section 2.5 of Executive Order 12333, unrelated to FISA. The
Attorney General directed that the fruits of'the physical search could not be disseminated to
any criminal prosecutors or investigators until copies of the information were provided to
OIPR and the approval of the Attorney General had been obtained. Questions were raised
about dissemination of NSA's information based upon the fruits of a Sectiion 2.5 search.
The NSA - after working with OIPR to determine what language to use - decided to put a
cav.eat on all of its Bin Laden related reporting to the FBI indicating that fi_rther
dissemination to law enforcement entities could not occur without approwal from OIPR.
     45In Chapter Five, the chapter about Hazmi and Mihdhar, we discuss the separation of
criminal investigators from intelligence investigators and the requirement that NSA
information be reviewed by the NSA to determine whether it was FISA-derived or otherwise
subject to limited dissemination. We describe how these restrictions affected the FBI's
ability to share important intelligence information. For example, in early summer 2001 an
FBI Headquarters IOS met with New York criminal agent,; who were working on the FBI's
(continued)


                                             38
           3.    Additional        FISA errors and DOJ OPR's investigation

       The Deputy Attorney General's Office referred to the: DOJ Office of
Professional Responsibility (OPR) a memorandum prepared by OIPR
regarding the errors in the approximately 75 Terrorist Organization No. 1-
related FISA applications that had been raised, to the FISA Court. In
November 2000, OPR opened an investigation todetermine whether any FBI
employees had committed misconduct in com_ection with tlhese errors.
      In March 2001, OIPR also became aware of an error m a FISA
application related to Terrorist Organization No. 2. The en:or concerned the
description of the wall procedures in several FBI field offices. This description
also had been used in 14 other applications related to Terrorist Organization
No. 2. After the FISA Court learned of these errors, it stated that it would no
longer accept any FISA application in which the supporting affidavit was
signed by the SSA who had presented that Terrorist Organization No. 2 FISA
application to the Court.     :.




       To address the issue of the accuracy of the information in the FISA
affidavits, FBI ITOS managers began requiring that FISA affidavits contain
certain information, such as the signature of the field office SSA and any
AUSA involved in the case indicating that they had read the affidavit and
agreed with the facts as they were written. In April 2001, the entire FBI
Counterterrorism Division was instructed to comply with these procedures. On
May 18, 2001, the Attorney General issued additional insmactions to improve
the accuracy of FISA affidavits, including requiring direct communication
between OIPR attorneys and the field office on whose behalf the FISA
application was being prepared and establishing a FISA training program at the
FBI's training academy in Quantico, Virginia. In addition, the Attorney


(continued)
Cole investigation. During this meeting, they discussed certain infol_cnationobtained from
the CIA about Mihdhar. Although the IOS had info_nation from the NSA about Mihdhar,
the IOS did not reveal this information to the FBI criminal agents at the meeting because it
had not yet been approved for dissemination by the NSA. In addition, in August 2001, once
the FBI opened an intellige_nceinvestigation to locate Mihdhar, the same IOS and a New
York criminal agent involved in the earlier meeting discussed and disagreed about whether a
criminal agent would be permitted to participate in the intelligence investigation trying to
locate Mihdhar or to participate in any interview with Mihdhar.


                                             39
General asked OPR to expand its investigationto include a review of the errors
made in FISA applications related to Terrorist Organization Ne. 2.
       OPR's report, which was issued on May 15, 2003, concluded that "none
 of the errors in the [Terrorist Organization No. 1] and [Terrorist Organization
No. 2] related FISA applications were the result of professional misconduct 0r
poor judgment by the attorneys or agents who prepared or reviewed them."
The report concluded that "a majority of the error,; were the result of systemic
 flaws in the process by which those FISA applications were prepared and
reviewed." These systemic flaws included, among other things,a lack of a
 formal training Program for attorneys in OIPR or agents at the ]FBI to learn
about the FISA application process, a lack of policies or rules regarding the
required content of FISA applications, and a lack of resources tbr handling
FISA applications;.

     C.   Deputy Attorney General. Thompson's August 2001
          memorandum

      On August 6, 2001, Deputy Attorney General Larry Thompson issued a
memorandumto the Criminal Division, OIPR, and the FBI regarding the
Department's polJicies governing intelligence sharing and establishing new
policy. It stated tlhatthe 1995 Proceduresand the additional 2000 procedures
remained in effect. The memorandum stated that "'the purpose of this
memorandum is to restate and clarify certain important requirements imposed
by the 1995 Procedures, and the [January 2000 meaSures issued in response to
the AGRT report], and to establish certain additional requirements."
      The memorandum reiterated the requirement that the Criminal Division
had to be notified when there were facts or circumstances "that reasonably
indicate that a significant federal crime has been, is being or may be
committed." The memorandum emphasized the notification was mandatory
and that the "reasonable indication" standard was "substantially lower than
probable cause."
       In addition, the memorandum stated that the FBI was required to have
monthly briefings with the Criminal Division on all investigations that met the
notification standards. The memorandum added tlhatthe Criminal Division
 should identify the investigations about which it needed additional information,
•and the FBI was required to provide this information. The memorandum did


                                        40
not address the issue of the type of advice thai: was permissible by Criminal
Division attorneys to the FBI.

      D.   The, impact of the wall
      The actions of the Department, including OIPR, the implementation of
the 1995 Procedures, the additional requirements created by the FISA Court,
and the OPR investigation had several effects on the handling of intelligence
and criminal investigations. First, witnesses told the OIG tihatthe concerns of
the FISA Court, the banning of the SSA from the FISA Court, the OPR
investigation, and the additional requirements for sharing information imposed
by the FISA Court contributed to a climate of fear in ITOS at FBI
Headquarters. SSAs and IOSs at FBI Headquarters were concerned about
becoming the subject of an OPR investigation and the effect that any such
investigation 'wouldhave on their careers.
       They said they were concerned not only about the accuracy of the
information they provided to the Court, but also about ensuring that
intelligence information was kept separate from criminal investigations. A
former ITOS Unit Chief and long-time FBI Headquarters SSA told the OIG
that the certification requirement was referred to as "a contempt letter." He
explained that FBI employees began fearing thatthey would lose their jobs if
any intelligence information was shared with criminal investigators.
       Second, the restrictions imposed by the FISA Court- the requirement
that anyone who received intelligence signthe: certification and the screening
procedures applicable to both FISA-obtained and FISA-derived material:-
created administrative hurdles for the FBI in handling intelligence information.
For example, the new requirements were imposed in December 2000, just two
months after the bombing of the U.S.S. Cole, and during the time the FBI was:
actively pursuing its criminal investigation. Given the new requirements, the
FBI employed several IOSs on the Cole investigation just to track all of the
required certifications.
       Consistent with the conclusions of the AGRT report, employees at FBI
Headquarters and in the Minneapolis Field Of:rice who we interviewed told us.
that before September 11,2001, there was a general percepllion withinthe FBI
that seeking prosecutor input or taking any criminal investigative step when an
intelligence investigation was open potentially harmed the FBI's ability to
  ?

                                       41
    obtain, maintain, or renew a FISA warrant. FBI Headquarters employees
    described cases in which OIPR required that elect_ronicsurveillance obtained
    under FISA be "shut down" and that the FBI "go criminal" because permission
    had been requested to approach the USAO or bec_mse some other criminal step
    had been taken. In addition, FBI attorneys told the OIG that, i_Ltheir
    experience, OIPR would not consider applying• for a FISA wanant in a case in
    which OIPR determined that there was "too much"' criminal activity.
           OIPR Counsel Baker told the OIG that theprimary concern of the FISA
     Court was the direction and control of the intelligence investigation by
    prosecutorS, not s!haring of intelligence information with law enforcement
    :agents. Baker statedthat the FISA Court had approved FISA applications in
    _which there was extensive interaction between prosecutors and FBI agents,
     provided that OIPR was present during the interactions, there was a separation
     between the prosecutors and intelligence investigators, and that the FISA Court
     was apprised oftheFBI's intended use of the FISA information.

    :    E.    Changesto the wall after September 11,2001
          Shortly after the September 11,200i, terrorist attacks, the Department
•   proposed lowering the wall between criminal and intelligence information by
     changing the language in the FISA statute from"tlae purpose" ofthe
     surveillance or search (for the collection of foreign intelligence information) to
     only "a purpose. ''46 In October 2001, the Uniting and Strengthening America
     by Providing Appropriate Tools Required To Intercept and Obstruct Terrorism
    Act (the USA PATRIOT Act or the Patriot Act) was enacted, which changed
     the requirement from "the purpose" (for obtaining foreign inteli[igence) to "a
    significant purpose." Pub. L. No. 107-56, 115 Stat. 272, Section 218. The
    Patriot Act also specified that federal[ officers who conduct electronic
     surveillance or searches to obtain foreign intelligence information may consult


         46The Department had been considering seeking this change to FISA prior to
    September 11. In August 2001, the Office of the Deputy Attorney General asked the •Office
    of Legal Counsel (OLC)for advice on whether FISA could be amended by Congress to
    require that the collection of foreign intelligence information be "a purpose" of a FISA
    warrant rather than '"the purpose." That request was under review by OLC on September 11,
    2001.




                                               42
with federal law enforcement officers to coordinate their efforts to investigate
and protect against acmaIi_or_potentaalattacks, s_botage, or international "
terrorism. Id. at Section 504.

      Although the Patriot Act amendments to, FISA expressly provided for the
consultation and coordination between prosecutors and FBIintelligence
!/avestigators; in November 2001 the FISA Court issued an order requiring that
the 1995 Procedures, as •revised by Attorney General Reno's January 20.00
changes and.tlhe August 2001 Thompson memorandum, be applied in all cases
before the FISA Court.
 '     In March 2002, the Attorney General issued new guidelines on
intelligence sharing procedures that superseded the 1995 Procedures. The
2002 Procedures effectively removed "the wall" between intelligence and
criminal investigations. The 2002 Procedures explained that since the Patriot
Act allowed FISA to be used for a "significant purpose" rather than the
primary purpose of obtaining foreign intelligence, FISA co_ald"be used_
primarily for a law enforcement purpose, as long as a significant foreign
intelligence purpose remain[ed]." (Emphasis :inoriginal.)
       The 2002 Procedures also directed that the Criminal Division and OIPR.
shall have access to- and that the FBI shall provide - all information
developed in full field foreign intelligence and[counterintelligence
investigations, particularly information that is necessary to the ability of the
United States to investigate or protect against foreign attack, sabotage,
terrorism, and clandestine intelligence activities; and information that concerns
any crime which has been, is being, or is about to be committed. The 2002
Procedures provided that USAOs should receive information and engage in
consultations'to the same extent as that provided for the Cnminal Division.
,      In addition to these information sharing requirements, the 2002
Procedures provided that intelligence and law enforcement officers may
exchange a "full range .ofinformation and advice" concerning foreign .
intelligence and foreign counterintelligence investigations, "including
information and advice designed to preserve or enhance the.,possibility of,a
criminal prosecution." The 2002, Procedures noted that this',extensive
coordination was permitted because the Patriot Act provided that such
coordination shall not preclude the government's certification of a significant
foreign intelligence purpose for the issuance of a warrant by the FISA Court.


                                        43
       The Department immediately tested the new 2002 Procedures with the
FISA Court. In an opinion issued on May 17, 2002, the FISA Court accepted
the information-sharing    provisions of the new Procedures. However, the FISA
Court rejected the Department's position that criminal prosecutors should be
permitted to have a significant role in FISA surveillances and searches from
start to finish' See In Re All Matters Submitted to Foreign Intelligence
Surveillance Court, 218 F.Supp.2d 611 (2002). The Department appealed the
Court's ruiing to the Foreign Intelligence Surveillance Court of Review, the
appellate court' for the FISA Court. This was the first appeal ever to the FISA
Court of Review.

         The Court of Review rejected the FISA Court's findings, as well as the
 1995 Procedures Iand the "primary purpose standard" that had been applied
 before thePatriot Act revision. See In Re Sealed Case, 310 F.3d 717 (2002):.
 The Court of Review concluded that the restrictions of the wall imposed by the
•Department and the FISA Court were never required by FISA or the
 Constitution. 47 Tile Court ruled that FISA permitted the use of intelligence in
 criminal investigations, and that coordination between criminal prosecutorsand
 intelligence investigators was necessary for the protection of national security.
 The Court concluded that while the FBI had to certify that the purpose of the
 FISA surveillance', wasto obtain foreign intelligence information, FISA did not
preclude or limit the use of intelligence information in a criminal prosecution.
 The Court wrote, "[E]ffective counterintelligence,   we have learned, requires
 the wholehearted cooperation of all the government's personnel[ who can be
 brought to :the task." Id. at 743.

IV. The process for obtaining         a FISA warrant

       In this section, we describe the legal and procedural requirements for
obtaining a FISA warrant prior to September 11,2001, focusing On the
requirement for a warrant to conduct a physical search like the warrant that the




      47The Court of Review noted, "We certainly understand the 1995 Justice Department's
effort to avoid difficulty with the FISA court, or other courts; and we have no basis to
criticize any organization of the Justice Department that an Attorney General desires." Id_=.
                                                                                           at
727 n. 14.



                                            44
FBI's Minneapolis Field Office sought in the Moussaoui inLvestigation,which
we discuss indetail in Chapter Four.

     A.   Legal requirements fi)r a FISAwarrant
       As noted above, FISA allows the FBI to conduct electronic surveillance
and physical ,;earches in connection with counterespionage and
counterterrorism investigations. Rather than showing that the subject of the
surveillance or the physical search is potentially connected to a crime, the FBI
must show that there is probable cause to believe that the subject of the
surveillance or search is an "agent" of a "foreJign power." With respect to a
warrant for a physical search, the FBI also must show that there is probable
cause to believe that the property to be searched is owned, used, possessed by,
or in transit to or from an "agent of a foreign power" or "a _['oreignpower."
50 U.S.C. § 1824(a)(3).

 '        1.   Agent of a foreign power
     "Foreig_a power" as defined in the FISA statute has several meanings,
most of which pertain to the governance of a foreign nation, such as "a foreign
government or any component thereof, whether or not recognized by the
UnitedStates" and "an entity that is directed and controlled[ by a foreign_
government Orgovernments." 150 U.SIC. § 1801(a)(1) & (2),


               With respect to terrorism, before September 11,2001, foreign
powers that were used in requests for FISA warrants to the FISA Court
included foreign governments as well as terrorist organizations not controlled
by any foreign government, such as al Qaeda and Hizbollah.
       Whether a terrorist organization qualified as a "foreign power" under the
FISA statute depended upon the intelligence developed abc,ut the group and its
activities, and whether the FISA Court was convinced that l_hegovernment had
proven that the entity existed and was engaged in international terrorist
activities. In practice, once the FBI developed the necessary intelligence about
the existence of a terrorist organization, a particular subject was used as a "test
subject" for pleading to the FISA Court that the organization was a foreign
power. Although not dispositive, FISA applications might :reference the fact



                        !
                                        45
that the State Department      had designated an entity as a "foreign terrorist
organization" (FTO). 4s
        An "agent" of a foreign power also has several definitions in the statute.
An agent can be a person who has an official connection to a foreign power,
such as an employee of a foreign government or an official member of a
terrorist organization. With respect to terrorism, an agent can be anyone who
engages in international terrorism (or in activities that are in preparation for
international terrorism) "for or on behalf of a foreign power." :50 U.S.C.
§ 180 l(b)(2)(C).
       Aside from stating that a person must be acting "for or on behalf of" a
foreign power, the FISA statute does not further define when a person is an
"agent." The legislative history of FISA states that there must be "a nexus
between the individual and the foreign power that suggests that the person is
likely to do thebidding of the foreign power," and that there must be a
"knowingconnection"      between the individual and[ the foreign power. H.R.
7308, 95th Congre, ss, 2d Session, Report 95-1283, Pt. 1, p. 49, ,q_4
(June 8, 1978). The legislative history also states that morethan evidence of
"mere sympathy for, identity of interest with, or vocal support l_'orthe goals" of
a terrorist organization is required to establish agency between the group and
the potential subject. Id. at p. 42. The Attorney General's FCI Guidelines in
effect in 2001 stated in the definition section that determining whether an
individual is acting "for or on behalf of a foreign power" is based on the extent




     48FTOs are foreign entities that are designated as terrorist organizations by the
Secretary of State in accordance with the Antiterrorism and Effective Death Penalty Act,
signed into law in April 1996. The criteria for this designation include: that the entity is a
foreign organization,..thatthe organization is engaged in terrorist activity, and that the
organization's terrorist activity must threaten the security of U.S. nationals or the national
security of the United States. FTO designations expire automatically after two years but
may be redesignated. It is unlawful for anyone to assist an FTO, representatives and
members of FTOs are not admissible into the United States, and U.S. financial institutions
that become aware of possession of funds of an FTO must report this info:rmationto the
government. The first 30 FTO designations were made in October 1997. As of March
2004, 37 FTOs were on the State Department list, including al Qaeda, Ansar al-Islam, and
the Revolutionary Armed Forces of Columbia.



                                              46
to which the foreign power is involved in controlling, leading, fnancially
supporting, assigning or disciplining the individual.

           2.    The application filed with the FISA Court
       To obtain an order from the FISA Court authorizing either electronic
surveillance or a physical search, the FBI - tkrough DOJ OIPR- submits to the
FISA Court an application containing three documents. The first document,
labeled "application," is a court pleading that contains the government's
specific reque,st for a FISA warrant and includes the required approval by the
Attorney General or the Deputy Attorney General. See 50 U.S.C. § 1804(a)
(electronic surveillance) and § 1823(a) (physical search). The second
document is a certification by the FBI Director or other Executive Branch
official that the information sought is foreign :intelligence information and that
the information cannot reasonably be obtained by normal investigative
techniques. |                                   _,          as discussed above,
the certification also had to contain a statement that the purpose of the search
or surveillance was to obtain foreign intelligence information. 49 See 50
U.S.C. § 1804(a)(7) (electronic surveillance) _md§ 1823(a)(7) (physical
search).
       The third required document is an affidavit signed by an SSA from FBI
Headquarters, which satisfies the FISA statute's requirement that the
application be',made "by a Federal officer in writing upon oath or affirmation."
50 U.S.C. § 1804(a) (electronic surveillance) and § 1823(a)(physical search).
The affidavit must contain "a statement of the facts and circumstances relied
upon by the applicant to justify his belief' tha_Ithe foreign power identified in
the application is in fact a foreign power and that there are sufficient
connections between the foreign power and the individual targeted to establish
that the individual is acting as an agent of the :foreign power. Id. With respect
to a physical search, the affidavit also must show that the property to be
searched contains foreign intelligence information, and the property to be



    49ASpreviouslydiscussed,thePatriotAct amendedthis sectionof theFISA statuteto
requirethat the certificationstatethat "a significantpurpose"of the surveillanceor searchis
to obtain foreignintelligenceinformation.



                                            47
searched is owned, used, possessed by, or is in transit to or from a foreign
power or an agent of a foreign power. 50 U.S.C..§ 1823(a)(4). :_°
       The FISA statute also provides that in order for a judge to issue an order
approving the FISA application, the judge must findthat "on the basis of the
facts submitted by the applicant there is probable cause to believe that the
target of the electronic surveillance is a foreign power or an agent of a foreign
power." 50 U.S.C. § 1805(3).

     B.    Assembl.ing an application for submission to the FISA Court
       Prior to September 11,2001, the FISA application process involved
several layers of review and approval at FBI Headquarters and at OIPR before
presentation to the FISA Court. The process began when the field office
submitted an EC or letterhead memorandum (LHM) to FBI Headquarters
setting forth the supporting evidence for the FISA warrant. 51 An SSA and IOS
in FI3I Headquarters    worked    with the field office in reviewing,     editing,   and
 finalizing the LHM. An NSLU attorney reviewed., edited, and :approved the
•LHM, then obtained several ITOS management approvals before sending the
 request to OIPR for consideration. Using the information provided in the
LHM, an OIPR attorney drafted the FISA application and other required
 documents, which were reviewed in draft by the OIPR attorney's supervisor.
 The documentation drafted by OIPR was provided to the SSA, lOS, and NSLU
 attorney for their :review before being finalized by the OIPR attorney and filed
 with the FISA Court. This process normally took several months to complete,
 although we were told a FISA warrant could be obtained in a matter of several
 hours or a few days if needed.
       We describe below in more detail each step :inthe proces% with special
attention to the role of each person involved in the',process.




    50OIPR also submits to the FISA Cou_ a draft order or orders for the FISA judge's
completion and signature.
     51An LHM is a :memorandum on FBI letterhead static,new that is used to communicate
to the Attorney General, other Department officials, or persons or agencies outside the FBI.



                                             48
           1.   Investigation    and LHM prepared        by field office

        An application for a FISA warrant normally originated from the
investigative work conducted by a field office.     During the investigation, the
field office typically developed information about the subject of the
investigation by checking FBI indices and files, reviewing publicly available
records, and inquiring with domestic and foreign law enforcement and
intelligence agencies- such as the CIA and NSA- about the subject. In
addition, the field office could conduct other investigative activities. The field
office also could obtain the subject's records of telephone calls, computer
transactions, zmd financial information through National Security Letters
(NSLs). 52 This phase of collecting information can last anywhere from several
days to several months.
       If a field office wanted to :obtain a FISA warrant and thought it had
sufficient information to support a FISA warr_mt, the field office prepared an
LHM setting fortti as specifically as possible the supporting information, i The
LHM was sent to the appropriate: unit at FBI Headquarters, where it was
assigned to a particular SSA for lhandling.

           2.   Role of SSAs and[ IOSs at FBI Headquarters

   • ;I                                      _Ionce                     the
LHM Was received in FBI Headquarters by the appropriate SSA, that SSA was
responsible for ensuring that the FISA request was adequately supported and
complete before it was presented to OIPR. To, do this, the SSA- working in
conjunction with the assigned IOS- reviewed the documentation to assess
whether it contained sufficient information for a FISA or whether there were
questions that would have to be answered before the request could be



     52NSLs are issued in intelligence investigations to obtain telephone and electronic
communications',records from telephone companies and internet service providers (pursuant
to the Electronic:Communications Privacy Act, or ECPA, 18 U.S.C. !i2709), records from
financial institutions (pursuant to the Right to Financial Privacy Act, 12 U.S.C.
§ 3414(a)(5)), and information from credit bureaus (pursuant to the Fair Credit Reporting
Act, 15 U.S.C. §.§1681u and 1681v). They do not require approval of a court before
issuance by the FBI. Prior to September 11,the process for issuing NSLs could take several
months. We discuss this issue in Chapter Four of the report.



                                           49
completed. The SSA also assessed whether the appropriate foreign power was
being pled and whether there was sufficient information connecting the subject
to the foreign power.
      The SSA and the IOS communicated with the field office directly about
any problems or f0r additional information. In problematic cases, the SSA
would consult with an NSLU attorney for advice and suggestions.
      The SSA and the IOS used the documentation submitted by the field
office and often edited the document. In some instances, the FISA request was
completely rewritten, and in other instances few changes were lnade.
      Withrespect to the information supporting tlhe existence of the foreign
power, the SSA or IOS typically inserted language used in other FISA
applications involving the same foreign power. If' the SSA or DOSacquired
additional information to support the application, ,such as information
indicating connections between the subject and the foreign power, that
information was also included in the LHM.
                                        ....




      :_                                  _       • LheSSA would normally
review the edited version of the LHM with the field office to ensure the factual
accuracy of the L][-IM.53 Once the field office and the SSA agreed on the final
version of the LHM, the SSA sought review and approval by an NSLU
attorney and finally obtained the appropriate sign_Ltureswithin 3FBI
Headquarters management, such as the signatures of the Unit and Section
Chiefs. This editing process could last from several days to several months.

                                                                              /




     53Such consultations with the field orifice about edits arose primarily because of the
problems the FBI had encountered with the FISA Court in the fall of 2000 and spring of
2001 over inaccuracies in the affidavits signed by SSAs and filed with the,,FISA Court. In
March 2001, the FBI adopted procedures requiring the SSA at FBI Headquarters handling a
FISA request to review OIPR's draft affidavit with the field office to ensure the factual
accuracy of the affidavit before it was filed,with the FISA Court. Because of these
requirements and other concerns about the accuracy of the affidavits, SSAs spent more time
than they had in the past discussing drafts of FISA documents with field offices.



                                               5O
          3.    Role of NSLU attorneys

      /                                        /two                    attorneys
in the National Security Law Unit (NSLU) of the FBI's Office of the General
Counsel were assigned full-time to countertelTorism matters. 54 No attorney
was assigned responsibility for a particular FISA request from beginning to
end.

       The two NSLU attorneys assigned to counterterrorism matters had two
functions with respect to FISA requests submitted by field offices. First, they
functioned in an advisory capacity. The SSA would consult with an NSLU
attorney if a question or problem, arose or if the SSA needed legal advice.
NSLU attorneys also were consulted when there was a disagreement between
the field office and FBI Headquarters about a particular issue, such as whether
there was sufficient support for a FISA warrant. SSAs often discussed with
NSLU attorneys whether the threshold of probable cause had been met for
supporting that a subject was an agent of a foreign power. The former head of
the NSLU told the OIG, however, that in "slmn dunk" cases, FBI Headquarters
would deal directly with OIPR without consulting an NSLU attorney.
       The second function of NSLU attorneys with respect to FISA requests
was to review the LHM once it was finalized and to advise whether they
believed OIPR would accept the LHM as, having sufficient evidence to obtain a
FISA warrant. If the NSLU attorney did not believe that the LHM contained
sufficient evidence, the NSLU attorney would, advise the SSA what additional
information was needed and make suggestions about how the additional
information could be acquired. Once the LHM was finalized and approved by
the NSLU attorney, the signatures of the Unit Chief and the Section Chief were
obtained, and the LHM was sent to OIPR.

       The NSLU attorney and the SSA also could make recommendations to
the field office about how to acquire any additional information that was
needed. If the field office provide d additional information to support the FISA
request, the LHM was revised and the FISA request was reviewed again. This
process would continue until the NSLU attorney was satisfied that the


     54Other NSLU attorneys primarily worked counterintelligence matters, although some
of them assisted with counterterrorism matters when necessary.



                                          51
standards for obtaining the FISA win'rant were met. This step in the process
also could last from several days to several months.

          4.   Role of OIPR attorneys
      Once the SSA obtained the necessary FBI Headquarters approvals, the
LHM and its supporting documents were providect to OIPR for preparation of
the required pleadings. An OIPR attorney would review the LItM and
determine whether there was sufficient evidence to obtain a FISA warrant. The
OIPR attorney would consult with the FBI Headquarters SSA about any
questions and would sometimes prepare a list of questions for the SSA to
answer in writing. The SSA often consulted with the field office to obtain the
information requested by the OIPR attorney and sometimes asked the field
office to conduct additional investigation. This process also could take
anywhere from several days to several months.
      Once the OIPR attorney was satisfied that there was sufficient evidence
to support the FISA application, an OIPR attorney"prepared the draft pleadings.
A supervisory attorney in OIPR would review the draft pleadings and make
recommendations and revisions. The final draft was provided to the SSA and
the NSLU attorney for review. After finalizing the pleadings and obtaining the
signatures of the FBI Headquarters SSA who signed the affidavit, the Attorney
General, and the FBI Director, the OIPR attorney filed the pleadings with the
FISA Court, along with a draft order for the judge's signature. The FISA Court
would then schedule a heating, which was attended by the OIPR attorney and
the SSA.

      If the FISA Court approved the warrant, it issued an order authorizing the
surveillance or search. Orders authorizing surveillance were for a specific
period, beginning and ending on a certain day and time. The order was
transmitted to the field office responsible for conducting the surveillance or
search.

         5.    Expedited FISAwarrants
     In the Moussaoui investigation, the Minneapolis Field Office requested
an "emergency FISA," which was a FISA that could be obtained in an




                                        52
expedited mmmer. 55 The SSAs and NSLU attorneys we interviewed        told us
that what rose to the level of "expedited" depended on what the field office and
ITOS management      deemed to be an immediate priority. According   to these
witnesses, in the summer of 2001 expedited FISA requests normally involved
reports    of a suspected   imminent   attack   or other imminent   danger.

          Although the normal processing    time for a FISA application    was several
weeks      or months, FBI Headquarters    working With an NSLU attorney and OIPR
could     prepare an expedited FISA application    tbr presentation  to the FISA
Court     in a matter of several hours or days, depending on the circumstances
giving     rise to the expedited request.




     55Although expedited FISA requests were commonly referred to as "emergency
FISAs," the statute provided for an "emergency FISA" that was different from an expedited
FISA. The statute stated that an emergency FISA allowed the Attorney General - without
prior approval of the FISA Court - to authorize the execution of a search warrant or
electronic surveillance if the Attorney General determined that "an emergency situation
exists" and there was a "the factual basis for issuance of an order" in accordance with the
statute. See 50 U.S.C. § 1805(e) (electronic surveillmlce) & § 1824(e,) (physical search
warrant). The government was required to present an application to the FISA Court with
respect to any such warrantless search or electronic surveillance within 24 hours of the
execution of the search or surveillance. 50 U.S.C. § 1805(e) (electronic surveillance) &
§ 1824(e) (physical search warrant). This type of emergency FISA rarely was used before
September 11, 2001.



                                                53
54
                           CHAPTER   THREE
     THE FBI'S      HANDLING   OF THE PHOENIX                           ELECTRONIC
        COMMUNICATION  AND OTHER                             INFORMATION
      RELATING TO USE OF A_RPLANES                            IN TERRORISTS
                       ATTACKS;

I.     Introduction
      In this chapter of the report, we examine allegations that the FBI failed to
act prior to September 11,2001, on intelligence information that warned of
potential terrorists training in aviation-related fields of study in the United
States. The focus of these allegations concerned an Electronic Communication
(EC) dated July 10, 2001, that was written by Kenneth Williams, a special
agent in the FBI's Phoenix Division. In his EC, Williams wrote that he :
believed that 'therewas a coordinated effort by Usama Bin Laden to send
students to the United States to attend civil aviation univer,:ities and colleges.
He suggested that the purpose of these students would be to one day work in
the civil aviation industry around the world to conduct terrorist activity against
civil aviation targets. Williams wrote that he was providing the information in
the EC for analysis and comments. Williams addressed the EC to several
people in FBI Headquarters and in the FBI's New York Division. 56
      After September 11,2001, the FBI has acknowledged several problems
in how the Phoenix EC was handled. The FBI stated that the information
raised in the EC should have been analyzed by the FBI, but that such analysis
did not occur before September 11. In additic,n,the FBI acknowledged that the
Phoenix EC should have been disseminated to other intelligence agencies and
to the FBI's field offices for their consideration, but it was not disseminated
before September 11.s7


      56A redacted copy of this document is attached in the Appendix.
     57Director Mueller's written statement for his October 17, 2002. testimony before the
Joint Intelligence Committee Inquiry (JICI) stated: '"We have heard, and we acknowledge,
the valid criticisms, many of which have been reiterated by this Committee. For example,
the Phoenix memo should have been disseminated to all field offices and to our sister
agencies." Former ITOS Section Chief Michael Rolince testified betbre Congress that the
(continued)


                                             55
       In this chapter we analyze the ]FBI's handling of the Phoenix EC. We
first provide background on how leads were communicated and assigned in the
FBI before September 11,2001. We then summarize the contents of the EC.
Next, we describe in detail how the Phoenix EC was handled within the FBI
before September 11. In the analysis section, we examine problems in how the
Phoenix EC was handled, first focusing on the systemic problems that affected
the way the FBI treated the EC and then on the performance of the individuals
involved with the EC. Finally, at the end of the chapter we discuss several
other pieces of information in the possession of the FBI before September 11
that also noted connections of potential terrorists to flight schools or the use of
airplanes.

II.       The Phoenix EC

          A.   Background
      In this section, we first provide the key terminology and a description of
FBI processes that are relevant to the handling of _LhePhoenix EC.

               1.   Assigningleads   in the FB[
        When an FBI field office needs assistance or information from another
office or from FBI Headquarters, it "sets a le_id" fbr the assistance. Leads are
initially written out in ECs; hard copies of which are mailed to the appropriate
offices. In addition, when the EC is "uploaded" to the FBI's Automated Case
Support (ACS) system, leads associated with the EC are "set" electronically in
ACS system: We describe both processes below.

                    a.   The manual process
        The specific action requested in an EC is stated in the lead section, which
is at the end of the document. In the "To:" section of the EC, the author
specifies the offices to which the EC is addressed. In the "Attention:" section,



(continued)
Phoenix EC should have been provided to the personnel assigned to FBI Headquarters from
other agencies, such ;asthe INS, the CIA, the FAA, and others, for their assessment.

      /




                                           56
the author spe,cifies the persons who the author believes should receive a copy
of the EC.
      ECs have a line marked "Precedence." There are three options on the
precedence line: "Immediate," "Priority," and "Routine." The FBI's
investigative manual states that "immediate" precedence should be used "when
the addressee(s) must take prompt action or have an urgent need for the
information." The manual states that "priority" precedence: should be used
when information is needed within 24 hours, _md"routine" precedence should
be used when information is needed within the normal course of business. The
time frame for responding to "routine" requests is not specified.
      The office preparing an EC that sets a lead normally sends a hard copy of
the EC to the offices with leads mentioned in the EC. The ]paper EC is
normally sent through "Bureau mail," which is the FBI's interoffice mail
delivery system.
       The distribution of the hard copy EC in the receiving office varies from    ,
office to office. In most offices, the EC is routed to an administrative
employee assigned to the substantive program that is the subject of the EC,
such as the squad secretary for the counterterrorism squad if counterterrorism
is discussed in the EC. The administrative employee decides who should
receive the hard copy EC, whether copies will be made, and for whom. All
individuals listed on the attention line of a hardcopy EC do not necessarily
receive a copy of the EC through the manual distribution process.

               b.   The electronic process
      Leads contained in ECs also are set electronically in ACS when the EC is
completed and is "uploaded" to ACS. The office requesting the lead can enter
in ACS a deadline for handling the lead. If no deadline is set, the default
deadline in ACS for action is 60 days.
       ACS contains an "electronic routing tab][e" for each office that receives
leads electronically through ACS. FBI offices; set up the electronic routing
table to assign leads to a particular person's "lead bucket" based onthe case
number provided in the "Case ID #" field of the EC. For example, a field
office may program its electronic routing table to direct all leads associated
with cases having international terrorism identifiers to the secretary for the
international terrorism squad. The secretary would then be responsible for


                                        57
checking the "lead bucket" and determining to whom to assign the lead
electronically.
      FBI employees are responsible for checking: ACS periodically and
accessing their lead bucket to see if any leads have been assigned to them.
ACS does not notify users when leads are assigned to them. Only persons who
are assigned a lead will see a notification of an EC associated with the lead
when they check their lead buckets. All other persons listed orLthe attention
line of the EC must search ACS for their names by conducting text searches
and other kinds of searches to determine if there are any ECs containing their
names.

      In ACS, leads may be "reassigned" or may be "closed." When leads are
closed, the person closing the lead fills in the field labeled "disposition" to
indicate what action was taken with respect to the lead. However, ACS does
not require this field to be completed in order to close the lead.

               c.   Persons responsible for assigning leads
      At FBI Headquarters, the Radical Fundamentalist Unit (R_FU)and the
Usama Bin Laden Unit (UBLU) were the two units in the International
Terrorism Operations Section (ITOS) involved in the handling of the Phoenix
EC. Within the B_U and UBLU, Intelligence Assistants, called IAs, were
responsible for many duties, including distributing hard copy ECs to the
appropriatepersons in the units, assigning leads in ACS, conducting name
checks in ACS, madpreparing ECs. In addition, before September 11,2001, an
IA assigned to an administrative unit in ITOS was. responsible as a collateral
duty for assigning leads_that had been routed to ITOS' general lead bucket in
ACS. During the time period relevant to our investigation, this IA could assign
leads from ACS directly to analysts in,the section., called Intelligence
Operations Specialists (IOSs). The IA also could route ECs directly to IOSs
without any supervisor's input or knowledge.
       IAs within the RFU and the UBLU normally determined to whom to
assign a lead based on the case identifier, which is'.one of the required fields on
an EC. For example, 199M matters, called "IT-Other," were il_Lvestigations
related to terrorist groups that were not associated with one of the FBI's 17
other specific case identifiers. 199M or IT-Other matters normally were



                                        58
assigned to the RFU. The case identifier associated with the Phoenix EC was
199M, which fell under the RFU.
      Within a particular unit, the specific case number wo_aldalso be used to
determine whether an IOS or Supervisory Special Agent (SSA) was working
on the designated case and therefore would be,responsible :forthe lead.

                 d.   "Read and clear"

      A common type of lead is a "read and clear" lead. According to FBI
procedures, "read and clear" leads are for infermational purposes and do not
require any action, other than "clearing" the lead in ACS by closing the lead.
Witnesses tolcl the OIG that setting a "read and clear" lead is similar to sending
a "cc:" copy of a document to someone to read for their information.

                 e.   Persons responsible for conducting analysis in the FBI
       As discussed in Chapter Two, analysis of counterterrorism information
normally was conducted in two places in the FBI.: Operational or case-related
analysis was performed primarily by IOSs who worked in ITOS, located in the
Counterterrorism Division. Broader, strategic analysis was performed by
Intelligence Research Specialists (IRSs) who at the time worked in the FBI's
Investigative Services Division (ISD), a separate division from the
Counterterrorism Division. 58
      As discussed in more detail below, the F'hoenix EC was addressed to
several SSAs and IOSs in ITOS. It was not addressed to any IRSs or anyone in
the Investigative Services Division.




      58ISD was created in November 1999 and housed the FBI's analytical resources, such
as the IRSs who handled counterintelligence matters, organized crime and white-collar
crime matters, and domestic and international terrorism matters. In addition, ISD included
an Intelligence _md Operations Support Section that was responsible for administering the
field's analytical program and training; and automation requirements. ISD was eliminated in
the beginning ot"2002.



                                            59
         B.    The Phoenix EC

           Kenneth Williams, the special agent who wrote the Phoenix EC, joined
    the FBI in 1990, and was assigned to.the Phoenix Division. He worked his
    first year and a half on white-collar matters. Since then, he wa,; assigned to
    work on international terrorism matters. Williams. told the OIG that while
    working on international terrorism matters, he spent almost all of his time on a
    terrorist organization that was not connected to A1 Qaeda or Bin Laden. At
    FBI Headquarters, responsibility for this terrorist organization fell under the
    jurisdiction of a unit in ITOS other than the Usama Bin Laden Unit (UBLU).
    Williams said thai: he had not had any contact with the UBL un:it. At the time
    of the EC, Williams reported to an SSA who we call "Bob,, who was
    responsible for the Phoenix counterterrorism squad.
          The Phoenix EC was dated July 10, 2001, and was addressed to the
    Counterterrofism Division at FBI Headquarters and to the New York Division.
    The precedence line on ,the EC was marked "routine."                 :    .




•                                                                          The EC stated
    that there was an inordinate number of individuals; of investigative interest who
    were attending or had attended civiiaviation uniw_rsities and colleges in
    Arizona.




               1.   Information     on individuals

          As the basis for his concerns, Williams summarized in the EC the results
    of four Phoenix intelligence investigations of four subjects who we will call
    "Subject No. 1," "Subject No. 2," "Subject No. 3," and "Subject No. 4. "59 The



         59Williams was responsible for the Subject No. 1 investigation, whiclhwas summarized
    in the EC. The other three investigations were international terrorism intelligence cases
    (continued)

                                               60
other persons of investigative interest were described as seven "associates" of
Subject No. 1. The Phoenix Division had opened a "prelil_finary inquiry" for
an intelligence investigation about each of these persons but had not yet
developed sufficient information to open a full investigation.
       Williams identified     the connections     of these individuals to aviation as
follows" (1) Subject No. 1 was an aeronautical engineering student at Embry-
Riddle Aeronautical University (ERAU) in Prescott, Arizona; 6°(2) Subject No.
2 took classes', at Cochise College, located in Douglas, Arizona, in the late
 1990s to obtain an FAA certificate in airframe', and power plant operations; 61
and (3)Subject No. 3 and Subject No. 4 were known to associate with a person
we will call Subject No. 5, whose telephone number was associated with a
known supporter of an African Muslim terrorist organizaticm and who
reportedly left the United States in the late 1990s after graduating from
Westwind Aviation in Phoenix, Arizona. 62



(continued)
handled by other agents on Williams' squad and another squad in the Phoenix Division.
Subject No. 2 also had been the subject of a separate investigation in an FBI field office in
the western part of the United States before he moved to Arizona in the late 1990s. This
field office's investigation of Subject No. 2 was closed at the time the Phoenix EC was
written.
    6oWilliams stated in the EC that Subject No. 1 was enrolled in aeronautical engineering.
ERAU offers a degree in aerospace engineering with a concentration in aeronautical
engineering. Aeronautical engineering is the study of'aircraft design.
    61A certificate in airframe and power plant operations allows an individual to become
an aviation maintenance mechanic. The courses for this certificate deal largely with
maintaining aircraft in airworthy condition.
                               /


     62The Phoenix EC does not state what courses Subject No. 5 took at Westwind
Aviation. The F'hoenix EC also does not state whether the FBI had an investigation open on
Subject No. 5 at the time; however, according to Williams, the FBI dJidnot have any
investigation open on Subject No. 5 at the time because he was not in the United States.
Subject No. 5's name had surfaced in another FBI investigation involving the same African
Muslim terrorist organization that Subject No. 5 was believed to be connected to. After
September 11, Subject No. 5 was arrested on terrorism charges relateclto the September 11
attacks, but he was released when a court found that the prosecutors lacked any evidence
connecting SubjectNo. 5 to the events of September 11.



                                              61
       With respect to the seven associates of Subject No. 1, Williams wrote
that three were em:olled in pilot training at ERAU, and three were enrolled in
an aeronautical engineering program at ERAU. For the seventlh, Williams had
no record of classes taken. 63

       Williams also reported in the EC the connections of Subject No. 1,
Subject No. 2, Subject No. 3, and Subject No. 4 to Bin Laden and to each
other, which we describe below.

      Subject No. 1- The Subject No. 1 investigation was designated by
Williams as a 199M or "IT-Other" matter. 64 WillJiams told the OIG that he had
opened the Subject No. 1 case under this designation after obtaining material in
                                                       ..


Subject No. 1's garbage relating to Ibn Khattab, who Williams believed had a
connectionlO Bin Laden. As discussed in more detail in Chapter Four, Ibn
Khattab was a Jordanian-born, Islamic extremist who was. the leader of a large
group of Chechen rebels that had many successes in clashes with Russian
forces .65

       In summarizing his investigation of Subject No. 1, Williams wrote in the
EC that Subject No. 1 came to the United States-inthe late 1990s, and that in
April2000 0ne of Williams' sources reported thatSUbject No. 1 was a
supporter of Bin Laden. In addition, the EC statedthat the source told
Williams that Subject No. 1 was involved in the A1-MuhjirounP 6 a Muslim
fundamentalist organization that Williams described as "dedicated to the
overthrow of Western society" andas "an ardent s;upporter of [Bin Laden]." As
further support for a connection between these persons and civil aviation,


     63We asked Witliams to confirm the courses these individuals took. After reviewing
their files, Williams told the OIG that only two of the individuals were enrolled in pilot
training and the other four were enrolled in aeronautical engineering.
    64An EC requires a case number field to be completed. Williams used the Subject No. 1
case number in the case number field of the Phoenix EC.
    65Chechnya is a republic of the former Soviet Union. Since the collapse of the Soviet
Union in 1991, Chechen separatists - both Islamic and non-Islamic -haw: sought
independence from Russia.
   66We observed several spellings for this organization in FBI documents, including A1-
Muhajiroun and A1-Mouhajiroun.



                                             62
Williams      noted that the spiritual leader of the A1-Muhjiroml had issued a
religious    degree (or "fatwa") in February 1998 in which he declared a "jihad"
or "holy     war" against the United States and British govemraent, armies,
interests,   and airports." (Emphasis in original..)
       Williams wrote in the EC that he had interviewed Subject No. 1 in the
spring of 2000 and that during these interviews, which were conducted in_
Subject No. l's apartment, Williams observed photographs on the walls of Bin
Laden, Ibn Khattab, and wounded Muslim separatists from Chechnya.
Williams wrote that Subject No. 1 admitted during these inlierviews to being
involved in the A1-Muhjiroun, and that he considered the U.S. government and
miiitaryforce:s to be "legitimate military targets of Islam." Williams noted in
the EC that his investigation of Subject No. 1 was continuing.
       Subject No. 2: Williams reported in the',EC that Subject No. 2 was
known to have contact with Bin Laden lieutenant Abu Zubaida. Williams
wrote that Subject No. 2 had moved to Arizona in 1998, but had left the United
States in October 1999. 67

       Williams also wrote that two persons arrested in June 2001 in Bahrain
had admitted to being members of al Qaeda and had been planning an
operation to bomb the U.S. embassy and military forces in Saudi Arabia. At
the time Of their arrest, they had in their possession a passport of a man,who
was believed to be a relative of Subject No. 2. Williams wrote that the man
who was believed to be a relative of Subject No. 2 previously had entered:the
United States in 1998 with this passport and was associated with an address
known to be tlhat of Subject No. 2. Williams wrote that he had not been able to
establish a connection between Subject No. 1 and Subject No. 2.68

       Subject No. 3 and Subject No. 4: Williams reported in the EC that
investigations of Subject No. 3 and Subject No. 4 had been opened based on


    67The FBI :fieldoffice that had been investigating Subject No. 2 had closed its
investigation of Subject No. 2 at the time the Phoenix EC was written.
    68Williams wrote in the EC that Subject No. 1 arrived in the United States in August
1999 and that Subject No. 2 left the United States in October 1999. Williams also wrote that
"Subject No. 2 had departed the U.S. prior to Subject No. 1's arrival." Williams told the
OIG that this last statement was in error.



                                             63
information from foreign governments demonstrating that they were both
involved with African Islamic extremist/terror activity and had associated with
individuals who had associated with Ahmed Ressam. Ressam was arrested on
December 14, 1999, attempting to cross the border from Canada into the
United States with chemicals and detonator materMs in his car. 69

       Williams wrote that Subject No, 3 and Subje,ct No. 4 were friends with
Subject No; 5, whose telephone number had been associated with a known
supporter of an African Islamic terrorist organization. Williams noted that
Subject No. 3, Subject No. 4, and Subject No. 5 had not been linked to Subject
No. 1 or 'Subject No. 2. The EC did not state whether the FBI had an :
investigation open on SubjectNo. 5 or provide any further details on him. The
EC reported that Subject No. 5 had left the counWy'in November 1997 after
graduating from Westwind Aviation. The EC did not describe the connections
between the African Islamic terrorist organization and Bin Laden or al Qaeda.

         2.    Recommendations in the Phoenix EC
     The Phoenix EC made four recommendations"



     • "FBI field Offices with these types of schools in their area should
       establish appropriate liaison" with the schools;
    • "[FBI Headquarters] should discuss this matter with other elements of
      the U.S. intelligence community and task the community for any
      information that supports Phoenix's suspicions"; and
    • "[FBI Headquarters] should consider seeking the neces,;ary authority to
      obtain visa information from the [Department of State] on individuals
      obtaining visas to attend these types of schools and notify the
      appropriate FBI field office when these individuals are scheduled to
      arrive in their area of responsibility."




   69The Phoenix EC did not state Ressam's affiliation with Bin Laden or al Qaeda.



                                          64
     In the lead section of the EC, Williams wrote that he was requesting that
FBI Headquarters consider implementing the suggested actions. The New
York Division lead was designated as a "read and clear" lead. At the end of
the EC, Williams wrote that the information was "being provided to receiving
offices for information, analysis and comments."

           3.   Addressees     on the Phoenix EC
      The atte,ntion line of the EC contained the names the unit chief of the
RFU, who we call "Don"; an IOS in the RFU who we call ':'Ellen"; the acting
unit chief of the UBLU, who we call "Rob"; and UBLU IOSs who we call
"Jane," "Matthew," and "Frank. ''7° The RFU and the UBL:U were the two units
with program responsibility for the two primary organizations discussed in the
EC: A1-Muhjiroun and Bin Laden/al Qaeda.

       The attention line also contained the names of two Special Agents who
worked on two different international terrorism squads in the New York
Division: an agent who worked on the New York FBI's Bin Laden squad who
we call "Jay".. and an agent who we call "Mark" and who worked on a New
York squad that handled investigations that fell under the RFU.
                                  ,   ,



      Williams told the OIG that his prior experience did not involve Bin
Laden or A1 Qaeda and instead centered on another terrorist organization
which was managed by a unit other than the Bin Laden UnJit at FBI
Headquarters.. He said that he was therefore not familiar with the personnel in
the other units within ITOS, except for one long-time RFU IOS, who we call
Frank. Williams said that he called Frank to obtain the names of the persons
working in the RFU and the UBLU, and that he put in the attention line of the
EC the names he had obtained by calling Frank.
      Frank told the OIG that he recalled talking to Williams about the EC and
recommending several potential points of contact. Frank said that based on his
understanding of what Williams was writing about, several people needed to



      7oWilliams mistakenly identified the IOSs as IRSs in the Phoenix EC. In addition, at
that time Matthew and Frank worked in the RFU, not the UBLU. At the request of the FBI,
wehave omitted the true names of most of the agents and the analysts who are discussed in
this report.



                                            65
                           /




see the EC because more than one program was involved. He ,;aid that because
the New York Field Office was the primary field office that handled the FBI's
Bin Laden,related investigations, he likely recon_nended that Williams also
address the EC to a point of contact in New York.
       When asked why he did not recommend including any IRSs on the
attention line, Frank told the OIG that the Investigative Services Division was
"on its last legs,' at the time and that there were very few IRSs in the ISD still
working on analysis. He explained that any work of the IRSs would have to be
coordinated through an IOS, so it made sense to route the EC through an IOS
in the first instanc,e.

       Williams also told the OIG that at the time he was familiar by name with
Ellen because, prior to writing the Phoenix EC, he had accessed in ACS an EC
 she had written on the A1-Muhjiroun in 1999. Ellen told the O]EGthat Williams
called her on July 9, 2001, to tell her that he had used her paper in writing his
EC and that he had included her name on the attention line. She said that he
also asked her if she recommended anyone to include on the attention line and
that she gave him the name of Mark, one of theNew York Division agents who
had been the case agent for the FBI's investigation of the A1-Muhjiroun.

     C.   Williams' theory




         Hesaid that he was basingthe theory on his almost ten years of
experience in international terrorism cases and his knowledge t]hatal Qaeda
had a presence in Arizona. He said that he had learned in squad meetings
about Subject No. 2, and he thought it was "unusual" that Subject No. 2 would
come across the world to study aircraft maintenance in the United States.
Williams said that at the time, he also was working the investigation of Subject
No. 1 and he began thinking that he should look to see how many other
investigations were being handled in Arizona that involved individuals with
Islamic militant viewpoints •___
_.             He said that after he did and learned about several others of
interest to the FBI, he decided to put his thoughts and recommendations on
paper.

                                        66
       Williams explained that he was,not focused on flight schools, but instead
focused on colleges and universities where individuals could earn degrees in
aviation-related subjects and then obtain jobs in the civil aviation industry in
this country.
                                         Rather, he believed that there could be
an effort unde,r way to develop expertise about where to put an explosive
device on an airplane or how to mechanically alter an airplane in order to cause
it to crash. Williams told the OIG that he did not have information of a
specific threat or pending attack, which is why he marked the EC's precedence
as "routine."

        Williams told the OIG that he did not know at the time whether Subject
 Nos. 3 and 4 discussed in the EC or the African Islamic ten:orist organizations
 were connected to Bin Laden or al Qaeda. Williams said that he was trying to
 "paint a picture of people associated with radical Islam" who were also
 associated with aviation. Williams said he wanted FBI Headquarters to look at
his EC and answer the question:
                                       He stated'that 'he did not expect an
immediate response and believed that it would take at least a couple of months
 for FBI Headquarters to review the EC, because he knew that resources for this
 kind of analytical project at FBI Headquarters were limited. In addition, he
 said that he wanted FBI Headquarters to share his theory with other elements
 of the Intelligence Community to see if anybody else had any information to
 corroborate his theory. 7_



     7_In the summer of 2003, the OIG received new allegations front a former FBI
confidential informant whose control agent had been 'Williams. The :formerinformant.
alleged that he had informed Williams in October 1996 that he was concerned that a terrorist
could use crop duster airplanes as weapons and that one of the subjects of the Phoenix .EC
and other Middle Easterners were attending flight schools in Arizona. The former informant
also said that he believed Williams had written the Phoenix EC beca_tsein May 2001 the
informant had raised complaints with the Phoenix FBi[about how it handled him as an
informant and why he,was closed as an informant in 1999. The fomLerinformant also
alleged that a reporter had called Williams in June or July 2001 about the former informant's
information concerning Middle Eastern matters.



(continued)

                                             67
       Williams stated that he also knew that there were some "inherent legal
 issues" with the recommendations in. the EC because he beliew_d that concerns
about racialprofiling would have tobe addressed. Moreover, he said that he
 was not aware at the time whether the FBI had the,'authority to review the visa
 information of thousands of people applying to civil aviation universities and
 colleges in the United States, as he had recommended in the EC.
      After the Phoenix EC was completed and sent, Williams did not contact
anyone at FBI Headquarters or in New York to discuss its contents or check the
status of the leads in ACS.

     D.       FBI Headquarters' handling of the Phoenix EC
     Although the EC is dated July 10, the Phoenix Division did not upload
the EC into:ACS until the afternoon of Friday, July 27, 2001. The Phoenix
FBI also mailed the paper copy to FBI Headquarters around July 27.
       ACS records show that, because of the case designation lJistedon the
 Phoenix EC, the lead for FBI Headquarters was initially routed electronically
 through the ITOS .electronic routing table to a general ITOS lead bucket that
 was handled by m_ITOS administrative unit. The lead was not directly routed
 to the RFUor the UBLU. 72 An IA in the administrative unit in ITOS was
 responsible for checking the ITOS general lead bucket regularly and
•electronically assigning these kinds of leads to the appropriate person within
 ITOS.


(continued)




                              In addition, Williams said that he never spoke to the reporter
who the former informant said had called Williams, and that he was not prompted to write
the Phoenix EC because of a phone call from any such reporter.
     72At the time, the electronic routing table in ACS for the Counterterrorism Division
was set up to automatically route leads associated with cases with the type,,of case number
designated on the Phoenix EC to an administrative unit in ITOS rather than to a particular
operational unit.



                                             68
          1.    Assignment to the RFU
      On the morning of Monday, July 30, 2001, the ITOS ![Aaccessed in ACS
the text of the Phoenix EC. ACS shows that on that same day the ITOS IA
assigned the lead in ACS to Eilen, an IOS in the RFU who 'was listed second
on the attention line of the EC.
      The ITOS IA told the OIG that he did not recall the Phoenix EC or
assigning the lead, but that his practice was to review the text of the lead and
the person or persons listed on the attention line to determine to whom to
assign the lead. The EC indicated that it related to an "IT-Other" matter and
these cases felL1under the RFU. The ITOS IA said that he sometimes consulted
with his unit c,hief if he was unsure to whom to assign the lead, but he said he
did not recall whether he did so in this case.

      Ellen told the OIG that she pulled the Phoenix EC up in ACS, printed a
copy, and read it. 73 She said that, after reading it, shethought that the EC
should be reviewed by the UBLU, not by her unit, because the EC discusSed
Bin Laden and al Qaeda, which were the responsibility of the UBLU.
        Ellen therefore discussed the EC with one of the IOSs; who worked in the
UBLU, Who we call Jane. Ellen said she reca][led asking Jane if she shoUld
transfer the le_idto Jane, and that Jane stated tlhatshe did not have time to look
at it then. Ellen said that Jane asked if she could get back to Ellen in a week.
      Ellen said that she therefore consulted with Jane about a week later. ACS
records show that Jane downloaded the Phoenix EC from ACS on August 7,
2001. According to Ellen, she and Jane discussed the tremendous effort that
they thought would be needed to implement tile recommendations in the EC.




      Ellen said that Jane agreed that Jane should handle the Phoenix EC.
Ellen told the OIG that she remembered Jane ,,sayingshe w_mted to do more


    73Ellen told the OIG that she never received a hard copy of the Phoenix EC.



                                            69
research on FBI investigations to determine what .other connections might exist
between Bin Laden, al Qaeda, _mlllll,         and then, depending upon the
results of that research, perhaps disseminate it. Ellen said that .lane also told
her that she also wanted to speak with her supervisor and decide what action to
take on the Phoenix EC.

       Ellen said that, after talking with Jane, she closed the lead in ACS on
August 7, 2001, indicating in ACS that Jane was planning to conduct additional
research before proceeding. ACS shows that Ellen wrote in the',"disposition"
field for the lead thatthe lead Was "covered-consulted with UBLU, no action at
this time, wi!1rec.onvene on this issue." Ellen said that after she and Jane
discussed the issue, they agreed to "revisit" the issue later once Jane had done
some research an(] had a better idea of how to proceed. Ellen also said that she
closed the lead rather than asking an IA to reassign the lead to Jane because she
knew that it Would take some time for the necessary research to be done, and
that the RFU unit chief- Don- had instructed RFU employees that leads had to
be closed in a timely manner.
        Ellen told the OIG that she thought that the theory presented in the EC
 was "interesting,'" but that she, like Jane, believed that further research needed .
to be conducted before any action was taken on the Phoenix EC. Ellen also
 asserted, "It was a theory that certainly needed to be explored more fully before
 disseminating it to the [Intelligence Community] as fact or not.:" In addition,
 Ellen said that she believed that attorneys in the FBI's National Security Law
 Unit (NSLU) would have had to review the Phoenix EC before any action
 could be taken on it because the lssu,,
                                     " _ of racial profiling was "hot."
                      I

      Whenwe asked Ellen whether she considere,d referring the Phoenix EC
to the ISD to research and analyze, she stated that the RFU did not have an ISD
analyst assigned to itat the time. Ellen acknowledged that it would have been
possible for the I_,D
                  _' to assign an IRS analyst to do strategic research regarding
the EC, but she believed the EC should first be ret_rred to the UBLU, since the
EC's focus was al Qaeda and it was the UBLU's prerogative to decide how to
proceed on it.
      Ellen told the OIG that she did not recall consulting with :hersupervisor
in the RFU, an SS',Awho we call "Chris," about how to handle the Phoenix EC,
or showing it to him. She said that s]hemight have mentioned it in passing to
Chris, but it was common for IOSs to close leads without supervisory input.


                                        70
                 Chris was an SSA assigned to the RFU fi-omthe SUltrier of 2000 until
           September 10, 2001, when he left FBI Headquarters. Chris told the OIG that
           he never saw ,ordiscussed the Phoenix EC with anyone prior to September 11.
                 Don was the unit chief of the RFU at this time. He joined the FBI in
           1987 and was assigned to the RFU in May 20(31. Don said that he first learned
           of the Phoenix EC only after the September 11 attacks. He indicated that
           neither Ellen nor anyone else mentioned the EC to him before September 11.
           He said that on average he reviewed 30 to 45 ECs a day that were assigned to
           the RFU, and because of the vast amount of imelligence data that had to be
    '      analyzed by tile seven IOSs in the RFU, the RFU had to rely on their judgment
        ., to accurately prioritize the information. Don stated that if he had seen the
           Phoenix EC before September 11, he would have discussed its
           recommendations with his UBL counterpart, then forwarded the EC to the
           ITOS Section Chief, Michael Rolince, for a decision on the course of action to
           take on the EC.

                     2.   Assignment to the UBLU

                          a.   Jane's handling of the EC
                 As noted above, Ellen reassigned the Phoenix EC to Jane, an IOS inthe
           UBLU. In addition, the hard copy version of the EC, which Phoenix had
_          mailed to FBI Headquarters, also was assigned to Jane. According to Jane, on
           or about July 30, an IA in the RFU delivered the hard copy of the Phoenix EC
           to Jane. Jane provided the OIG with the copy that she received from the IA,
           which Jane had initialed to indicate receipt.
                 Jane told the OIG that she also recalled discussing the EC with Ellen.
           Jane said that after she read the EC, she told Ellen that she agreed that it made
           more sense for the UBLU, rather than RFU, to handle it because of the
             •

           references to ]BinLaden.
                 Jane told the OIG that she did not believe that there was a sufficient
           "factual predicate" to justify taking any immediate action on the EC, such.as
           disseminating it to the Intelligence Community. Jane assel_:edthat based on
           what was in the EC she did not believe that Subject No. 1 had a strong
           connection to Bin Laden. She said that the investigation of Subject No. 1 was
           opened as an Islamic Army of the Caucuses/Ibn Khattab matter, and, according


                                                   71
to Jane, "Ibn Khattab has never taken operational directions frem Usama Bin
Laden." She said that, according tothe EC, the primary evidenLceof the
connection was that Subject No. 1 was a member of A1-Muhjiroun and had a
picture of Bin Laden on his wall. She stated that ,;he confirmed with Ellen that
while A1-Muhjiroun verbally supported Bin Laden, the FBI had not developed
any evidence that A1-Muhjiroun had provided any operational ,;upport to Bin
Laden. TM

      In addition, Jane told the OIG 1Lhatshe recalled concluding that the
factual predicate was weak because many of the individuals whowere listed in
the EC as associated with Subject No. 1 were the subjects of only preliminary
inquiries, not full investigations. Jane said that based on what she saw in the
EC and knew about Bin Laden, shedid not see the connection between Bin
Laden and Subject No. 1 or the other subjects of tlhe EC. She stated that she                t
did not feel "comfortable at this stage going forward with the theory that we
think these individuals from these countries are coming here sent by UBL,
when the preponderance of evidence indicates that these people; are aligned
with A1-Muhajiroun and Ibn Khattab." She said that being associated with Ibn
Khattab "did not equate" with being associated with Bin Laden.
       Jane said that the fact that the Phoenix EC reported that a large number of
Middle Eastern men were training in U.S aviation-related schools did not
strike her as significant because it was well known that Middle Eastern men
have historically trained in U.S. flight schools because they are cheaper and
better than other tlight schools around the world. She suggested that before
September 11, ewen someone of inve,stigative interest training in a U.S. school
in an aviation-related field did notnecessarily raise a red flag.
      Jane said that she told Ellen that she needed to do some research before
she took any action on the EC. According to Jane, she initially thought of a
handful of steps slhewanted to take based on her knowledge of ongoing cases
within the FBI. Jane said that she wrote a "to do" list on a yellow post-it note
and attached it to her copy of the EC. She said she thought thai: there were at

     74Mark, who had been the case agent in New York on the FBI's investigation of the A1-
Muhjiroun, told the OIG that the New York Division had closed its case on A1-Muhjiroun
long before September 11 because the FBI was not able to establish that A1-Muhjiron had
engaged in terrorist activities or supported terrorist activities.



                                           72
least four items on the list, but she could not specifically remember all of
them. 75 However, she said she recalled that one of the items on the list was to
review the FBI's information on Essam A1 Ridi, a former personal pilot for Bin
Laden who testified for the government in the trials against the persons
responsible for bombing the U.S.. embassies in East Africa !inAugust 1998, to
see if al Qaeda had undertaken may similar initiatives as these discussed in the
Phoenix EC.

       Because: the EC included information about Subject No. 2, who had
previously lived and studied in the United States and had ties to suspected
terrorists arrested a few weeks prior, Jane said that she immediately thought of
an issue being researched by an IRS in an FBI field office. We call the IRS
"Lynn. ''76 Lynn hadbeen involved with the field office's intelligence
investigation of Subject No. 2 when he lived in the area. As noted in the EC,
two al-Qaeda operatives were arrested in Babxain at the end of June 2001 who
had been planning an operation to bomb the U.S embassy and military forces
in Saudi Arabia. At the time of their arrest, they were in possession of a
passport containing the name of a person belie, ved to be a relative of Subject
No. 2.

       In June 12001, Jane had asked Lynn to review her field office's case file
on Subject No. 2 to try to find connections between SubjeclL No. 2 and his
associates in the state where the field office was located and the two al Qaeda
operatives arrested in Bahrain. Jane told the OIG that she was familiar with
this field office's investigation of Subject No. 2 and several of his associates
who were living in the area.




     75In November 2001, Jane was interviewed about the EC by an OIG Special Agent who
conducted a prelliminaryreview regarding the Phoenix EC. Jane said that she gave the EC
with the post-it note on it to the OIG Special Agent. The Special Agent confirmed that Jane
gave him the EC along with the note, but he was not able to locate the post-it note when he
retrieved the original EC several months later.
     76Lynn had been an IRS with the FBI for approximately two years at the time of the
Phoenix EC. She handled all counterterrorism-related analytical work for the FBI field
office in which ,;hewas employed.



                                            73
    _l                            She said that she thought that Lynn :might be aware
    of something in what she was researching about Subject No. 2's contacts in the
    area of the field office that could support the theo]u in the Phoenix EC.
           As a result of the arrest of the two al Qaeda operatives in Bahrain, Jane
     also was dealing with Williams' supervisor who we call "Bob," and with
     agents in the Phoenix Division other than Williams on Phoenix's Subject No. 2
     investigation, which was closed at the time. She stated that the FBI Phoenix
    Division had been asked to follow up on matters in the Subject No. 2
     investigation that had been left unfinished, such as documents that had been
     collected from several sources but never read or analyzed. In addition, Jane
    stated that she had been in contact with the Phoenix Division about locating a
    source who previously had been married to a woman who was married to a
     family member of Subject No. 2.
          However, Jane told the OIG that she did not have any contact with
    Williams about the Phoenix EC and that her only contact with Bob about the
_   EC was via e-mail. On August 6, 2:001, Jane sent an e-mail to :Bob asking if he
    had any objection to her sending the Phoenix EC to Lynn. Bob replied via e-
    mail the same day that he did not have any objectJ[on.
          The next day, Jane sent the Phoenix EC to Lynn. In an e..mail message
    attached tothe EC, Jane stated: "I thought it would be interesting to you
    consideringsome of the stuff you were coming up with in [your field office].
    Let me know if anything strikes you." Jane told tlhe OIG that she wanted to
    know if Lynn saw any similar patterns between the associates of Subject No. 2
    that she was researching in her area and the individuals discussed in the:
    Phoenix EC. However, Jane did not assign a lead to Lynn, nor did she call
    Lynn about the P]hoenix EC either before or after she e-mailed it to her.

                   b.   Lynn's response
         Lynntold the OIG that she received the Phoenix EC and Jane's e-mail,
    and she read them. Lynn stated that she believed that Jane sent her the EC
    because Jane was aware of her field office's earlier investigation of Subject
    No. 2 and several of his associates. Lynn said that in these lnv_stlgatlons,
                                                                  " ._ " "       the
    FBI observed some trends, such as t]aat all of the subjects were of Saudi
    descent, were employed by Saudi aMines, and we,re involved vAth aircraft
    maintenance or had pilots' licenses, and that the Saudi airline company was
              (




                                            74
paying for their training. Lynn said that the investigation also had revealed that
the subjects were calling various gun dealers and gun shops. She said that the
FBI personnel involved in the investigation questioned whether the subjects
were using Saudi airlines to transport weapons, but that nothing further had
developed in the investigations to support this theory and that the field office
investigation was-closed. According to Lynn, by the time the name of Subject
No. 2 resurfaced in June 2001 based on the arrest of the two al Qaeda
operatives in Bahrain, he had not been in her area for appr,oximately three
years.
      Lynn said that, although she did:not recall speaking with Jane about the
EC, she believed that Jane was passing the EC to her for informational
purposes. Lynn said that she was interested in whether there was any
information in the EC that would inform the work that she was doing on
Subject No. 2 at the time, but that after reading the EC, she concluded that it
did not affect her investigation. She said she considered it :good information to
know and that itwas a "piece of the puzzle."


                                                           She stated that it was
"no big secret:" that Arab nationals received aviation training in the United
States. She said that for these reasons, she did not respond to Jane's e-mail.

                c.    UBLU

       Jane said that, in addition to sending the EC to Lynn, she talked to the
SSA with whom she worked inthe UBLU who we call Rob, and told him
briefly about the EC. Jane told the OIG that She could not recall whether she
provided a copy of the EC to him. 77 She said llhatshe explained to Rob that she
believed that she should do some research before deciding to act on the EC.
According to Jane, Rob concurred with her course of action.




     77Jane later informed the OIG that she handed the Phoenix EC to Rob, that he skimmed
the synopsis, and that he listened to her summary of the document and proposed course of
action.




                                           75
      Rob was Jane's SSA and also the Acting Unit Chief of the UBLU at the
time. Rob, an FBI agent since 1990, had been assigned to the UBLU since
 1999. He was the Acting Unit Chief of the UBLU from June 2:8,2001, until
September 10, 2001. He told the OIG that he routinely reviewed dozens of
ECs on any given day, and he often relied on the judgment of Jane and other
IOSs concerning intelligence decisions.
        Rob said that he remembered Jane coming to him in the second week of
August 2001 and telling him briefly about the Pheenix EC. He said that he
also recalled her saying that she believed some preliminary research needed to
be done before proceeding. He said that he did not see a copy of the EC, but
based on Jane's description, concurred with her decision to conduct some
initial, research before taking any other steps. Rob, said he did not discuss the
Phoenix EC with anyone else.
       According to Jane, she intended to address tlhePhoenix EC as time
permitted. However, she sfiid that she believed it would take a significant
amount of time to do the research necessary to determine an appropriate
response to the ECI She said that she was not able to return to lihe EC between
August 7 and September 11 because of her heavy workload at the time. In
addition tothe work generated by the al Qaeda operatives arrested in earlier in
the summer in Bahrain; she said that other matters at the time were of a higher
priority thanthe Phoenix EC, such as another would-be al Qaeda "bomber"
who was arrested in a foreign country., analysis of information received from a
number of sources on the brother of a key Bin Laden lieutenant:, and several al
Qaeda-related threats of imminent attack. She stated that the entire UBLU was
flooded with leads and requests concerning Bin Laden and also was handling
"dozens" of leads on a daily basis associated with the attack on the U.S.S. Cole
that had occurred in Yemen in October 2000.

      When we asked Jane why she did not refer tlhePhoenix EC to the ISD for
analysis, she said she did not recall ever thinking that she should refer the EC
to the analytical unit within the ISD. Jane noted that at the time the Phoenix
EC was sent to FBI Headquarters, no IRS was assigned to the UBLU from the
ISD. The last IR_,_' assigned to the UBLU had arrived in February 2001, but
had transferred in early July 2001 to another unit. The ISD had not replaced
her.




                                       76
           Jane, who had been an IRS for approximately six months before
    becoming an IOS, told the OIG that she had planned to conduct the necessary
    analysis with respect to the theory presented by Williams because she didnot
    believe there was anyone in the ISD to do this kind of research and analysis.
    When asked if she could have made a request of the ISD for assistance despite
    no one being specifically assigned to UBL matters, Jane responded that in
    other instances where her unit had asked for research from the ISD, it was not
    able to provide the support requested because it lacked adequate personnel to
    do so.

         Jane said that she did not recall seeing the Phoenix EC again until after
    September 11.
                                                            -


•         The two other individuals JLnthe UBLU who were listed on the attention
    line of the EC- Frank and Matthew- told the: OIG that they did not see the
    Phoenix EC before September 11. ACS records also show that they did not
    access the Phoenix EC before September 11. ACS records also show that no
    other FBI Headquarters employees accessed t]hePhoenix EC before
    September 11.

         E.   The New York Division's handling of the EC
           The Phoenix EC also was routed by hard copy and through ACS to the
    FBI's New York Division. Williams told the OIG that he sent the EC to the
    New York Division because it was the focal point for Bin Laden matters in the
    FBI. At the time, the New York Division was;working several criminal and
    intelligence cases related to Bin Laden's terrorist activities.
           Williams told the OIG that, by sending the EC to the New York office, he
    was seeking the expertise and knowledge of the office, not simply informing it
    of his theory. Williams said that he was anticipating an analysis of his theory
    from those inthe FBI with more expertise and experience with Bin Laden
    matters, including the New York Division.
          The "attention" field of the EC contained the names of two New York
    FBI agents, who we call Jay and Mark, and the lead was designated as "read
    and clear." As discussed above, within the FBI read and clear leads are
    considered for informational purposes and do not require any specific action.
                                                                2




                                           77
        Based on the electronic routing table in ACS, in New York the lead was
initially routed to the Assistant Special Agent in Charge (ASAC) for the New
York FBI's Counterterrorism Program. The ASAC' s secretary was responsible
for assigning leads routed to the ASAC. On July 30, 2001, she assigned the
lead to a New York international terrorism squad based on the case number.
        According towitnesses we interviewed in New York, the volume of read
 and clear leads received each day by the New York office was enormous. TM
 Squad secretaries were usually responsible for assigning "read and clear" leads
 directed to their squads. Leads were, assigned to specific agents based on the
.names listed in the "attention" section of the EC, 1!hecase number, or the
 content of the EC. The Phoenix EC lead, however, was never assigned in ACS
to a particular agent. The secretary of the New York international terrorism
 squad that had been assigned the lead closed the lead in March 2002. 79
       The New York office's hard copy of the Phoenix EC was routed to the
international   terrorism   squad that handled   Bin Laden investigations,     where.it
was provided to Jay, the first New Yorkagent listed on the EC.. Jay had been a
special agent with the FBI since 1976 and had worked on international
terrorism matters since 1984. Since 1996, he was assigned to the squadthat
handled Bin Lade,n-related investigations, working primarily criminal
investigations. 8°
      Jay told theOIG that the Phoenix EC was routed to his mail folder by the
squad secretary. He said he recalled reading it in August 2001. He said thathe
did not know Williams and never spoke to him either before or after Williams
wrote the EC. Jay said he assumed that Williams listed his name on the EC
because he was one of the agents who worked on the Bin Laden squad in New
York.


    78We were told that in 2003 the squad that handled Bin Laden matters received
approximately 3,3 00 leads.
    79We were told that "read and clear" leads often were not closed in ACS for several
months due to the lack of clerical support.
     8°The Phoenix EC addressed Jay as the SSA of the squad. He was one of two "relief"
supervisors who filled in for the SSA when he was not in the office. At the time, the SSA
was out of the office on extended medical leave.




                                            78
           Jay told the OIG that he did not believe that Williams',' theory was based
    in fact. He asserted that a "glaring deficiency"' was the implication that Bin
    Laden had a support network in .Arizona. He asserted that there had been a
    terrorist cell tlhatwas active in Arizona, but that this was in the 1980s before al
    Qaeda existed. He said that based on what was written in the EC about Subject
    No. l's conne,ctions to Bin Laden- that Williams was basing the connection on
    what Subject No. 1 had said in two interviews- Jay believed that Subject No.
    l's connection to Bin Laden was',"tenuous, at best." Jay stated that if it had
    been his responsibility to address the Phoenix EC, he would have "taken issue"
    with it and would have written back that he believed that the theory and _
    conclusions were "faulty." He added that the FBI was well aware that_
     .       _.           .
                                                     __  ,
                                                                           Middle
    Easterners commonly received flight training in the United States. He said he
    was not aware of anything that supported the theory espoused in the EC. -_
          lay said that he reviewed the recommendations and saw that the
    requested actions in the EC were,,for FBI Headquarters to address. He said that
    he believes he:may have discussed the EC with some of his:colleagues and that
    they agreed that the recommendations were something for ]?BIHeadquarters to
    address. Jay told the OIG that he did not contact Williams or anyone else in
    Phoenix to discuss the EC.

           Mark, the other agent listed on the attention line on the Phoenix EC, was
    assigned to the international terrorism squad tlhat handled cases that were
    managed by t]heRFU. Mark told the OIG that he did not see the PhoenixEC
    until after September 11,2001. ACS records ,confirm that he did not access the
    Phoenix EC until after September 11.
         .                                                                        .



          Except for an analyst and an auditor in New York who reviewed the
    Phoenix EC in connection with searches unrelated to the Phoenix EC, and the
    secretary who, accessed the EC to assign the le,ad, we found no evidence that
    anyone else in New York read the Phoenix EC or did anything with regard to
,   it.8t



         81ACS shows that an auditor and an IRS on a squad not related to Bin Laden cases
    accessed the Phoenix EC during this time period. They both said the EC did not relate to
    what they were :researching, and they did not do anything with it.



                                                79
III. OIG analysis
        This section analyzes the handling of the Phoenix EC by the FBI. We
believe, and the FBI has acknowledged, that the Phoenix EC did not receive
the sufficient ortimely analysis that it deserved, and it was not disseminated, as
it should have been, for consideration and input by others in the FBI and the
Intelligence Community.
       While :the FBI analysts who reviewed the EC did not giw_ it timely
attention, we do riot believe their individual failings were the main source of
the problem with the handling of the EC. Rather, the deficiencies in its
handling were creased in greater part by critical systemic failings in the way
that intelligence information and requests for assistance were handled by the                  k
FBI prior to September 11. In this section, we discuss these systemic problems
before evaluating the actions of the individual employees who came in contact
with the EC.

     A.    Systemic problems

       Beforediscussing   the systemic failings evidenced by the handling of the
Phoenix EC, it is important to note what the Phoenix EC was not. It was not an
immediate warning about aterrorist plot, and it didnot reveal information
about the September 11 attacks or those who committed the attacks. 82 The EC
itself was worded to convey that Williams was proposing a theory rather than a
warning or a threat. Williams designated it as "routine" because he did not
have any information of a specific threat or pending attack. He: said that he
was putting' forth "an investigative theory" or "hunch," and he 'was seeking an
analytical produclf or feedback in response to his theory. He did not expect that
to happen immediately.
      Yet, even though it did not contain an immediate warning and was
marked routine, Williams' information and theory warranted strategic analysis
from the FBI, which it did not receive, and timely distribution, which it did not



     82In prepared remarks for congressional testimony on May 8, 2002, former ITOS
Section Chief Michael Rolince noted that "it should be stressed that none of the individuals
identified by Phoenix were connected to the 9/11 attacks,nor did the leads stemming from
that EC uncover the impending attacks." (Emphasis in original.)



                                             80
receive. While we cannot say that better handling of the Phoenix EC would
have uncovered the September 11 plot, the EC should have been handled
differently.

            1.   Ineffective system for assigning and managing work
       The lead from the Phoenix EC was assi_ed by an administrative
employee directly to an IOS in the RFU, Ellen, who discussed the matter with
another IOS in the appropriate unit, Jane. They decided that Jane would handle
the Phoenix EC. Thereafter, Ellen closed the lead in ACS _mdnoted that she
and Jane would discuss the matter further in the future. Although Jane briefly
mentioned the Phoenix EC to her supervisor, the IOSs made independent
judgments about what needed to be done to address the requests in the Phoenix
EC and who to notify about it. Jane also decided when she would work Onthe
Phoenix EC. We found that neither Ellen's direct supervisor(Chris) nor Jane's
supervisor (Rob) ever received or reviewed the Phoenix EC. Nor did any other
 supervisor in FBI Headquarters. And as of September 11, Jane had not
completed any work on the Phoenix EC.
  "     .


      We fomad that the assignment of the lead from the Phoenix EC, the
handling of the Phoenix EC independently by an lOS, and even the closing of
the lead did not violate any FBI policies or practices at the time. In instances
where IOSs received leads or intelligence information directly, they were not
required to seek any supervisory input on the information that they were
handling. Witnesses stated that more significant threat information or leads
related to important cases usually were discussed with the SSAs, but that this
did not occur with every lead or assignment, _mdit was not required.
      For example, Rob, the acting unit chief of the UBLU at the time, told the
OIG that he often relied on the judgment of IOSs in how they handled their
work. As a result, IOSs regularly handled most intelligence information and
other assignments without supervisory input or knowledge.
       Much also was left to the IOS's discretion in deciding what was a priority
and which projects to focus on. Don, the unit chief of the RFU, said that at the
time, managers relied on IOSs to exercise their judgment in how to prioritize
their work. _ItaeIOSs we interviewed stated t]hatthe priorities were determined
bythe nature of the work. For example, they said they gave a threat of a
terrorist attack or an emergency FISA request the highest priority. In addition,


                                       81
if information was requested by higher level FBI officials or a Section Chief,
that assignment was given priority. IOSs explained that, because of the crush
of immediate projects, they were operating with a "triage" approach to their
workload in which they dealt with crises or problems as they arose and
thereafter dealt with routine matters. As with how they handled their leads and
other assignments, we found that IOSs consulted with their supervisors about
prioritizing their work only when they deemed it necessary.
        We believe that although the assigning of the lead and handling of the
 Phoenix EC Was in accord with UBLU and RFU practices at the time, these
practices were significantly flawed. Assigning work directly to IOSs with no
 requirement of supervisory input or review resulted in a lack of accountability
 for addressing leads and intelligence information. Without supervisory:
 involvement, IOSs were permitted to determinewhat was a priority, and even
 when and whether work would be completed. As a result, there often was no
 check on the decisions being made by IOSs and no way to ensure that work or
intelligence that was deemed of a lesser priority - such as the Phoenix EC -
 was ever addressed. This system was one in which important information
 could easily "fall through the cracks," not receive timely attentJ!on, or not be
 brought tothe attention of those insideand outside the FBI who had a reason
 and a need to know the information.

      The lack of accountability andsupervisory involvement was compounded
by the fact that the FBI's computer system, ACS, wasnot set up to ensure that
all addressees on an EC were even made aware of the EC. Only individuals
assigned leads ass;ociated with the EC would be notified electronically of the
document's existence. This meant that when the EC and leads were uploaded,
the EC would not be seen by a supervisor, even if the supervisor was an
addressee on the attention line, unless the supervis;or searched ACS for the
document. Nor was there any assurance that the persons listed on the attention
line of the EC would ever receive notification about it. Since FBI employees
did not search ACS on a regular basis for documents that might be addressed to
them, they did not learn about leads or other intelligence infornlation assigned
to them.

      As a result, we found that none of the supervisors listed on the Phoenix
EC saw it before September 11. Important judgments were made about: how to
handle the Phoenix EC - which IOS would address the Phoenix EC, closing the
lead instead of reassigning it, sending the EC to only one person for review, not

                                        82
conducting any research on the recommendations suggested in the EC while
other matters were being handled- none of w]aich involved, any supervisory
input. This, in our view, is not an appropriate system for h_mdling such
important information.
      The FBI recognized this problem after September 11 and changed the
way it handled such information. Rolince told the OIG that once he became
aware of the Phoenix EC after September 11 and learned how it had been
handled, he instructed that leads in ITOS had 1:obe assigned to supervisors and
could not be assigned only to IOSs.
      In addition to deficiencies in the supervisory process, we also believe that
the FBI's practice and policies regarding closing of leads were faulty. As
evidenced by the handling of the Phoenix EC, leads could tie closed without
any work being done on them, other than reassignment to someone else.
       A contributing factor to the',ineffective management of the work
assignments m ITOS was the FBI practice of rotating supervisors through FBI
Headquarters on a relatively short basis. We tbund that supervisors typically
stay in FBI Headquarters for two,years or tess:, and SSA positions and unit
chief positions often remain unfilled for months at a time. By contrast, IOSs
remain in ITOS on a permanent basis and are therefore relied upon for their
expertise and institutional knowledge about counterterrorism programs,
intelligence on FBI targets, relationships with other intelligence agencies, and
how FBI Heaclquarters works. As a result, IOSs sometimes manage
themselves. While we believe that many IOS,; are capable :and dedicated FBI
employees, the turnover of managers in FBI leaves a gap in IOSs' supervision,
in addition to making it difficult for managers to be effective and
knowledgeable about their subject areas before they are sent tO a new
assignment.

          2.   Lack of adequate strategic analytical capabilities
      We believe the Phoenix EC warranted strategic analysis. It never was
subjected to any such analysis before September 11. Ellen and Jane agreed that
Jane would handle the Phoenix FiC,but Jane did not refer it to the entity at the
FBI that was assigned to conduct strategic analysis, the ISD. She said she
decided not to,refer it to the ISD for analysis andinstead keep it for herself to
work on when she had time. She believed that the ISD did not have sufficient


                                        83
capability to perform timely analysis. At the time., the FBI had no IRS in the
ISD specifically assigned to handle matters involving Bin Laden, despite the
importance of that assignment. As ,arediscuss in more detail below, while the
handful of analysts who worked in the ISD were supposed to perform strategic
analytical functions, most of their time was spent assisting on case-related
matters.

       This was a significant failing. A critical component of the work of the
FBI's Counterterrorism Division is analysis. Although case-related analysis -
also called "tactical" or "operational" analysis- is',crucial to bringing criminal
cases to the point of arrest and prosecution and to determining through
intelligence information whether a particular targe,t or group may be planning
an imminent terrorist act, strategic analysis is equally important to the FBI's
counterterrorism mission. Strategic analysis involves drawing ,conclusions and
predictions about terrorist organizations and likely methods of attack based on
all sources of information. It is critical to the FBI's ability to be proactive _
instead of reactive as well as to set investigative priorities. It is:also critical for
identifying intelligence gaps in information about a terrorist group or target:
              •


       Since September 11, the FBIhas acknowledged that it lacked an effective
strategic analysis program for international terrorism prior to September 11. In
congressional testimony, Director Mueller acknowledged the FBI's analytical
capabilities prior to September 11 were "inadequate." He stated that the FBI's
analytical capability "[was] not where it should be',." Since then, the FBI has
focused attention on improving its analytical func_Lions. 83
      Prior to September 11, the FBI's strategic analytical capabilities were
extremely limited. The FBI did not regularly prepare analytical products that
predicted trends, explained patterns, or identified national secu_dty
vulnerabilities with respect to international terrorism. 84


     83The OIG is in the process of completing a comprehensive review of FBI's analyst
program and it is tentatively scheduled to be completed in September 2004.
     84A striking example of the FBI's failing in this regard is documented in a September
2002 OIG audit report which found that the FBI had not performed a comprehensive
national-level assessment of the threat and risk of terrorist attack, despite having promised
Congress that it would do so following a September 1999 General Accounting Office
(GAO) report. As of September 11, 2001, the FBI had developed a draft of a report that was
(continued)


                                             84
      This lack of strategic analytical capabilil_ undoubtedly affected how the
Phoenix EC .was handled. Instead of being able to send the EC to a unit that
had sufficient expertise and resourcesto assess the theory laid out by Williams,
Jane kept it to herself, hoping to find the time to turn to it amid the crush of
other duties. She was not able to do so before September 11.
       Part of the problem was that, in the past, the FBI did not adequately value
or support an analytical program. This problem was aptly described by one
CIA official -one of several CIA managers enlisted by the FBI after
September 11 to help turn around the FBI's analytical program- as "a lack of a
culture of analysis." The FBI was composed predominantly of agents who
performed criminal investigative work andwho did not appreciate the value of
strategic analysis. This was particularly acute in the FBI's Counterterrorism
Program. As a result, FBI counterterrorism IOSs, SSAs, and managers had a
tendency to rely on their own experience and professional judgment rather than
seeking strategic analysis, and the Counterterrorism Program focused on
immediate, short-term operational priorities rather than strategic analysis:
   ' Strategic analysis was viewed as a support function rather than its own
discipline. IOSs and agents employed IRSs wimarily to conduct research and
analysisprojects  in support of on-going investigations or prosecutions. While
this research _md analysis often involved complex and time-consuming work,
such as reviewing information collectedas a result of a FISA warrant or
establishing the connections between targets in a case based on a review of
telephone records, it was normally in furtherance of a specific investigation.
      Furthermore, several IRS employees we interviewed told the OIG that
IRSs often were used to perform the work that IOSs did not like to do, such as
conducting name searches in ACS or performing research on the Internet. A

(continued)
purportedly the threat assessment. The OIG reviewed a draft of the report in May 2002. We
concluded that it was not a threat assessment because it did not describethe nature o£the
terrorist threat, identify critical intelligencerequireme,nts, or make recommendations to any
level of FBI management. See "A Review of the Federal Bureau of ]investigation's
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource
Management" (May 2002). In January 2003, the FBI issued an intelligence assessment
entitled "The Terrorist Threat to the U.S. Homeland: An FBI Assessment," which
responded to the recommendations in our September 2002 audit report.



                                             85
    CIA manager detailed to the FBI told the OIG that IRSs were considered
    "second class citizens" at the FBI. This view of analysts reduced the ability of
    the FBI to conduct the strategic analysis that was :needed on projects such as
    the Phoenix EC.

          Another example of how the strategic analytical function was subordinate
    to the operational function in the FBI's Countertela'orism Program is evident in
    the fact that 5 IRSs were absorbed into an operational unit in late 2000, when _
    there were fewer than 20 IRSs devoted to international terrorism at the time.
    These IRSs were assigned in late 1998 to the UBLU to conduct research and
    complete other ta'sks in support of the investigation and prosecutions stemming
    from the embassy bombings in East Africa. These were important assignments
    that needed to be done, but they made it more unlJikely that strategic analysis,_
    such as the kind warranted by the Phoenix EC, would be accomplished.
           In addition' the primacy of the operational units was further demonstrated     .
    by the fact that the judgments and conclusions of IRSs set forth in analytical
     products could be:overruled or blocked from dissemination by the managers in
     the operational units or the ITOS section chief. Witnesses told the OIG that
     operational personnel were permitted to prevent dissemination of analytical _
'    products. For example, IRSs told the OIG that a proposal for an analytical
     report that .would have discussed signs that al Qaeda was planning a terrorist:
     attack was stopped by a New York Field Office supervisor because of concerns
    that the information could be subject: to discovery in a prosecution.
          Witnesses also told the OIG that operational, units' ability' to override the
    conclusions of the IRSs was demoralizing to the analytical component. :CIA
    analysts detailed 1:othe FBI after September 11 to revamp its analytical
    program asserted to the OIG that operational personnel, whose expertise is '
    case-oriented and therefore tactically based, should be involved in checking the
    facts presented in the analytical product but should not be able to alter or block
    the dissemination-of analytical results.
           While there are legitimate tensions between operational and analytical
     personnel, the FBI had no process before September 11 for addressing conflicts
    that arose out of this tension.




                                            86
           3.    Resources    and training for analysts
       The FB]['s strategic analytical function also was unde:r-resourced. This
was demonstrated by the shortage of IRSs andthe lack of tT:ainingoffered to
them. We interviewed former IRS managers about the resources of the ISD
prior to September 11. The FBI acknowledged that the number of IRSs
working on counterterr0rism matters had dwindled prior to September 11, and
that the few remaining IRSs were not sufficient to address the analytical needs
ofthe ISD.

       In 1996, the FBI had hired 36 IRSs in an effort to bolster its international
terrorism analytical program. According to witnesses, witl_n a year
approximately half of the IRSs had left the program. By mid-1999, there were
only approximately 15 international terrorism IRSs, and by mid-2000 there
were only 10 IRgs devoted to counterterrorism analysis. 85 Former IRS
managers confirmed to us that only one IRS was assigned to UBL matters in
2001, but she transferred to another unit in July 2001. Thu:_, in the summer of
2001 when the Phoenix EC was received, no IRS was assigned to workon Bin
Laden matter,;. Jane pointed to this void as one reason she did not seek
analysis of the Phoenix EC.

       In addition, we found that training for analysts at the FBI was ad hoc and
untimely. While special agents were sent to Quantico to the FBI Training
Academy for a 16-week course, IRSs did not receive equiwalent training at
Quantico or elsewhere. IRSs received mostly on-the'job training until they
could attend a CIA or Defense Intelligence Agency course on international
terrorism. For some IRSs, this did not occur _mtil they had been working for a
year or more. In addition, IRSs told us they had to seek training on their own,
and if they changed program areas they also had to find appropriate training in
the new :subject matter. 86


     85Some IR_s
               " left the FBI, while others transferred to other positions within the FBI.
FBI documents show that 10IRSs became IOSs in ITOS, 8 moved te. other positions within
the FBI, and 13 left the FBI. In addition, as discussed above five of the IRSs who became
IOSs were administratively transferred to the UBLU after working on a task force in support
of the embassy bombings case.
    86While this section of the report primarily focuses on resource _mdtraining issues for
IRSs, IOSs also were not provided with adequate resources and training.


                                             87
             Counterterrorism IRSs also lacked a clear career path. They usually were
      supervised and managed by agents, who were not trained about the IRS
      position, mission, or work product. Moreover, CIA managers detailed to the
      FBI to improve its strategic analytical capabilities told the OIG that in order for
      analysts to be taken seriously, they had to hold positions of authority. As an
      example, they stated that in the CIA one of the Deputy Directors was an
      analyst. 87 According to another CIA manager, the lack of a career path for
      IRSs was a clear indication that IRSs were not valued by the FBI.
            The result of these deficiencies was a weak and underutiliized analytical
:..   function, which in our view contributed to the lack of attention that the Phoenix
•     EC received when it was sent to FBI Headquarter,_.

                    4,          Poor information flow and information sharing
            The FBI also has acknowledged that the Phoenix EC contained
      information             that should have been disseminated   and reviewed   by other parts of
      the FBI and the Intelligence Community. While tlhePhoenix EC did not
      contain information that constituted an imminent threat or warning of a
      terrorist attack, the FBI should have obtained input from withinLand.outside the
      FBI to properly analyze Williams' theory. However, before September 11 the
      Phoenix EC was not disseminated widely within or outside of tlhe FBI.
                         ..


             When Jane received the EC, she decided not:to disseminate it
      immediately. She:believed it lacked sufficient factual support to warrant
      immediate dissemination, and she said she decided to conduct some initial
:     research before deciding whether to invest additional resources on the EC.
      Because of her ot]herwork, she did not begin the research prior to
       September 11.
             Her actions were consistent with the FBI's policies and procedures at the
      time. As noted above, IOSs were permitted to exercise discretion in handling
      their assignments,, including determining what infi_rmation to s]aare both within
      and outside the FBI, without supervisory approval. The FBI provided them no
      guidance or requirements on what type of information should be shared, either


           87Within the Counterintelligence Program, the highest position held by an analyst was
      Section Chief.




                                                        88
inside or outside the FBI. This left tothe discretion of the individual analyst
decisions about what to do with intelligence information, such as the Phoenix
EC.
       We believe exercise of such significant discretion resulted in a failure to
share important information such as the Phoenix EC. Fundamental to the
effectiveness ,of an intelligence operation is its',ability to co][lectand
disseminate irfformation within and outside the agency. Such information is
needed by operational personnel to inform their investigations or other
operational goals. Moreover, in the analytical process, the more information
that is available about a terrorist organization or a target, the better informed
conclusions and predictions about the likely actions of the person or
organization. Information shouh:l be reviewed, among other things, to
determine what would be useful in other FBI investigations, what other
personnel or offices within the agency should be provided with the
information, what would be useful for other government agencies, what would
be useful and appropriate to disseminate to foreign governraents, and what can
be declassified for use in public alerts.
       But information sharing within and outside the FBI's Counterterrorism
Program prior to September 11 was piecemeal and ad hoc rather than
systematic. Several of the CIA managers detailed to the FBI told the OIG that
there was no "information flow" within the FBI. The FBI',; process for
disseminating informationwas to route information primarily to IOSs, who
then used their own judgment and experience todecide what needed to be
disseminated and to whom. As discussed above, IOSs were operating with a
"triage" approach to their workload. They had to identify what information
was the most significant and deal with the crises or problems as they arose. As
a result, information that did not demand immediate attention or did not relate
to a crisis tool.(significant time to be addressed, if it was addressed at all.
      The CIA managers we interviewed asserted that an intelligence agency
must set priorities to identify what its information needs and intelligence gaps
are. They said that once priorities and intelligence gaps are: identified,
decisions can be made about what information should be collected and who
should receiw: the information. They explained that these decisions should
                                                   I;1_   "   ,._   ,,
then be communicated throughout the agency as requlrem,_nts.




                                        89
      Several of tlae CIA managers also noted that:the FBI lacked any priorities
or requirements for the dissemination of information once it was collected. For
example, there was no guidance concerning what types of infoirnation were
required to be disseminated or included in reports to other intelligence
agencies. Moreover, there were no requirements that certain types of
information be routed to analysts or that analysts be copied on particular kinds
of communications. IOSs simply shared or disseminated the il_Lformationthey
believed needed to be shared based primarily on tlaeir prior experience, ss
        IOSs we interviewed told the OIG that they spent a majority of their time
 preparing documentation for requests for FISAwarrants. They also were
 responsible for providing advice and assistance to the field offices in
connection with ongoing investigations and with responding to threats of        -
terrorist acts. They also had to obtain resources to support investigations, such
 as arranging for translators or preparing documentation for re-allocation of
 money. They nee,ded to respond to requests to check telephone', numbers,
 names, and other identifying information about targets of investigations in FBI
 and CIA databases. While the IOSs acknowledged that collectiion and
 dissemination of].ntelligence information was one of their responsibilities, they
 stated that as a job function it was not a priority before September 11.
        Several lOSs stated thatit was impossible for IOSs to be aware of and
.disseminate every piece of information generated by every lead because of the
 demands of the other responsibilities of their jobs. As a result, they said that
 they hadto focus on the most significant information that was generated from
•important cases or credible threats. Jane, other IOSs, and special agents told us
 that the type of intelligence information that received immediate attention was
 that generated from explicit threats of an attack or other terrori,;t act,
 information that a terrorist who was in custody was being brought to the United
 States, or intellig(mce intercepts by another agency that led to a.name and
 phone number in the United States of a target. Other information was handled
 if there was time.



    88We also discuss the FBI's lack of policies and procedures for information sharing in
our December 2003 OIG audit report, "The Federal Bureau of Investigation's Efforts to
Improve the sharing of Intelligence and Other Information" (December 2003) at 19-20.



                                            90
           By contrast, according to tlhe CIA personnel, the dissemination of
    intelligence information requires full-time personnel trained solely for that
'   purpose. In the CIA, dissemination of intelligence information is handled by
    "reports officers" who are professional employees trained in analysis and
    information collection and dissemination.
          It also was clear in our review of the Phoenix EC that the FBI's
    procedures for disseminating information internally were cumbersome. At the
    FBI, many layers of review were required to distribute an EC to multiple:field
    offices. Disseminating an EC to all FBI field offices required approval from
    several supervisors and managers, including the FBI Director. Several _
    witnesses stated that the review and approval process normally took several
    weeks to complete. The CIA employees detailed to the FBI to improve the
    analytical program who we interviewed told the OIG that they found the'_
    process for completing an EC was "difficult" and "hard."                 _
           We believe that the Phoenix EC should 7havebeen shared with the
    Intelligence Community or parts of the Intelligence Community for their input
     and analysis. While Williams had advanced only a theory, and there needed to
    be more analysis of the recommendations before they were adopted, the EC
     should have beenpresented to others in the FBI and the Intelligence       .
    Community fi?rtheir information and analyse,;. The fact that it was not
    disseminated :reflected the longstanding problem within the FBI of information
     sharing being ad hoc and piecemeal. Rather than relying on the judgment of
    IOSs about What information should be disseminated as'they juggle their other
    job duties, the FBI should have a system in place to guide, iidentify, and
    prioritize the ]kinds of information that needto be shared.

             5.   General complaints about the difficulties of working in ITOS
          We also heard consistently from witnesses in ITOS that working there
    before September 11 was extremely chaotic and difficult. 'They complained
    that all aspects of their jobs - from putting FISA packages l:ogether to
    disseminating intelligence to sending out ECs to the field- were hampered by
    the lack of resources and poor technology.
          IOSs, agents, and managers uniformly told the OIG that IOSs did not
    have sufficient time to handle the workload in ITOS, and that because of the
    lack of resources in ITOS and the demands of operational matters in the


                                          91
section, they worked extremely long hours on a regular basis, including nights
and weekends. They described being overwhelmed with work, including
intelligence information that needed to be disseminated. For example, they
said that hundreds of leads could be generated by any one case.. They stated
that the demands of a particular case or aparticular threat sometimes consumed
all of their time and attention for several days or even weeks. As previously
discussed, they were operating with a "triage" approach to their workload in
which they dealt with crises or priority problems as they arose. We found that
as a result,-issues that they considered to be non-priority matters, such as the
Phoenix EC, often were placed on the backburner.
        FBI and CIA witnesses also uniformly complained that the FBI's                          _
 computer system- ACS - impeded the flow of information. As we have                                        i
 discussed in several other OIG reports, ACS is a very cumbersome and non-                      ....
 user, friendly system that discourages its use. s9 To disseminate information                 .               .
 within the FBI was not simply a matter of forwarding an electronic document                           .
 in a point and click e-mail environment. Rather, an IOS would have to prepare,
 an EC, which required accessing several different screens in ACS to complete
and then upload tlhe gc. 9° In addition, witnesses complained that ACS
 especially hampered the flow of information because it was not a system
 designed to "push" information out to the user. Instead, the user laad to know
 that information e,xisted in order to find it. As discussed above, this resulted in
             ,   ,


 the Phoenix EC not being reviewed by the appropriate individuals, even when
their names were on the attention line.




     89See, e.g., OIG reports entitled, "The Federal Bureau of Investigation's
Implementation of Information Technology Recommendations," (September 2003); "FBI's
Management of Information Technology Investments" (December 2002); "An Investigation
of the Belated Production of Documents in the Oklahoma City Bombing Case" (March
2002); and "The Handling of FBI Intelligence Information Related to the Justice
Department's Campaign Finance Investigation" (July 1999).
     9oAlso, as stated above, ECs that were addressed to all field officesrequired   several
layers of management approval, which also slowed down llhe process.



                                              92
     B.   Indiividual performance
      We now mm to the actions of the individuals who were involved with the
Phoenix EC. While the systemic problems hampered FBI employees in
handling information such as the Phoenix EC, and explained to some extent the
reasons that FBI employees did not adequately respond to it, these systemic
problems do not explain all the deficiencies we found in the handling of the
Phoenix EC. While we do not believe that anyone involvect with the Phoenix
EC at FBI Headquarters committed misconduct, we believe that some of them
made errdrs in judgment with respect to some of their actions on the Phoenix
EC.

          1.   Kenneth Williams
       First, we believe that Williams should be commended for his initiative
and for his attempts to apply broad analytical thinking to his casework. _He
prepared the Phoenix EC based on his experience, intuition, and expertise, and
he sought assistance through the proper channels at FBI Headquarters in
pursuing his theory. It was FBI ]Headquarters" responsibility- not a field
office's responsibility- to decide what strategic analysis was needed to address
the issues Williams raised and to ensure that appropriate attention was directed
to the analysis of those issues. Williams deserves praise for, in the midst of
handling cases in the field, discerning a pattern that he thought warranted
review and seeking to bring that to the attention of others in the FBI.

          2.   FBI Headquarters

               a.   Jane
      Jane's decision not to refer the Phoenix EC to the IS[) and instead to
conduct the necessary research herself did not violate any FBI policies and
procedures at the time. Leads could be assigned and handled without
supervisory input, and much was left to IOSs' discretion and judgment about
how assignments were handled and prioritized.
       However, we question Jane's decision not to refer the.,Phoenix EC to the
ISD for analysis. While the FBI's strategic analytical capabilities were
extremely limited, as we have described abow_ in detail, and no IRS was
specifically assigned to Bin Laden matters, Jane could have, and should have,
referred the Phoenix EC to the ISD for analys!is. By all accounts, Jane was

                                       93
hard working and conscientious. But the press of other work prevented her
from addressing t:hePhoenix EC sufficiently. While she said that she did not
think that the ISD could do what was necessary to analyze the Phoenix EC
because noIRS was specifically assigned to Bin Laden matters, she could have
raised the problem to her supervisor's attention in an attempt to have resources
assigned to analyze the Phoenix EC. Instead, she kept the Phoenix EC to
herself, hoping to get to it when time allowed. But she did not have time for it.
We believe that, even if she intended to conduct research on it when time
permitted, she should have provided it to members of the Intelligence
Community for their input on the theories and recommendations it advanced.

               b.   Ellen

       Ellen recognized that the Phoenix EC pertained more to t]heUBLU than         _
the RFU, and she appropriately discussed it with Jane and had the matter
reassigned to her. She also noted in the disposition field of ACS how the lead
was being handled. Ellen closed the lead, but rather than closing the lead, she
should have reassignedthe lead to Jane. While this was not inconsistent with
how leads were handled in ITOS, given the pressm-e to close leads in the
system, it misrepresented the status of the lead since the necessary research had
not yet been completed.

               c.   Rob
       We believe that Jane's supervisor- Rob- should have recognized that
the requests in the Phoenix EC were not typical requests for op_ratlonal
                                                                t,._




support in the field and should have directed the matter to the ISD. Although
we recognize that the FBI left much to the discretion and judgment of IOSs
about how they handled their work, it was Rob's responsibility as a supervisor
to ensure that Jane was handling requests appropriately. Jane briefly
mentioned the Phoenix EC to Rob, but said he did not review it, and we do not
believe he sought to ensure that it received adequate attention. We believe that
Rob should have been more actively involved in Jane's handling of the
Phoenix EC. If he had decided that resources did not exist to address the EC
for several months, we believe that he should have brought the matter to the
attention of his section chief.




                                       94
          3o   Lynn                                                                _

       Jane sent the EC to Lynn, the IRS who works counterterrorism matters in
a field office that had had an inw:stigation of Subject No. 2, witha note that
read, "I thought it would be interesting to you considering some of the stuff
you were coming up with in [your field office]. Let me know ifanything
strikes you." Jane did not call Lynn to discuss the Phoenix EC prior to sending
Lynn the e-mail, and Lynn was not assigned a lead with respect to the Phoenix
EC. Lynn read the Phoenix EC, but did not respond to Jane's e-mail, and Jane
did not otherwise contact her about the Phoenix EC.
       As discussed above, Lynn ]hadseveral years earlier worked on an
 investigation in which Subject No. 2 had been central, and Subject No. 2's
 name had resurfaced in June of 2,001 when two individuals were detained in
 Bahrain who admitted to being al Qaeda operatives and pos_sesseda passport
 containing the',same last name as Subject No. :2and a previous address of
 Subject No. 2. Lynn told the OIG that after Subject No. 2's name resurfaced,
 atthe request of Jane she researched their associates from when they had lived
 nearbyl Lynn told the OIG thatshe believed Jane had sent iher the Phoenix EC
because Subject No. 2 was mentioned in the EC. Lynn explained that because
the information inthe EC about Subject No. 2 did not impact what she was
 working on and because she was not aware of any information that supported
 Williams' theory, she did not respond to the e-mail.
       Lynn was not required to respond to the e-mail by any formal FBI policy.
Her actions were consistent with others in the FBI, who did not address an
issue unless a lead was assigned to them. But webelieve that Jane's request
for Lynn to let her know if anything struck her warranted some response, even
if the response was that Lynn hat] nothing to support the theory espoused in the
Phoenix EC. Instead, Lynn did nothing in response to the e-mail. A response
from Lynn may have caused Jane to takesome other step, to seek further input
from someone else, or to alert Phoenix of the status. Instead, Lynn did not
communicate with Jane, and the Phoenix EC languished.

          4.   Jay
      Jay, an agent on the Bin Laden squad in the FBI's New York Field
Office, received and read the Phoenix EC. He told the OIG that he was not
aware of any reformation that supported the theory in the EC, and he therefore


                                       95
did not respond to it, either in writing or by contacting anyone JLnthe Phoenix
office. He also stated that he would ihave "taken 1._sue
                                                    ,_ " with the conclusions if
he had responded.. Jay was not required to respond to the Phoenix EC, and he
did not violate any FBI policies and procedures by not respondiLng.
      Yet, although Jay was not required to respond to the lead set for the New
York Field Office in the Phoenix EC, Williams had asked for analysis and
comments on his !proposal in the text of the EC. Since Jay told us he felt
strongly that the tlheory in the Phoenix EC was noelsupported b7 the facts, we
believe he should have contacted Williams or someone in FBI Headquarters to
discuss the EC to provide his view, given the expertise of the New York office
on issues involving Bin Laden. But given the disorganization and convoluted
way.that leads were assigned, and the prevailing practice not to respond to
leadS that were not specifically assigned to an agent, it is not surprising that Jay
did not respond.

   ....    5'   FBI management
        Finally, we believe it important to state that the failings in this case go
 well beyond any failings of those individuals who came in contact with the
 Phoenix EC. In our view, the failings were caused in much larger part by the
 FBI's inadequateand inefficient system for analyzing intelligence information,
 and the lack of attention paid by many levels of FBI managers 1:ostrategic
 analysis. This was the responsibility of many FBI managers and employees,
 from the top down, over many years. We believe that the FBI's lack of focus
on strategic analysis and its failure to provide sufficient resources and priority
to analysis were problems attributable to the FBI and many FB][senior
managers. While some of the individuals who handled the Phoenix EC did not
 do all they should have to address it in a timely way, the larger and more
important failure was the way the FBI handled intelligence ana][ysisfor many
years before the September 11 attacks.

      C.   Other pieces of intelligence concerning airplanes as weapons




                                        96
                                                                            The FBI
    conducted searches in its computer systems for references to "flight schools,"
    "airplanes," "hijackings" and other related terms in an attempt to collect
    information that the Joint Inquiry Committee Staffhad indicated it was
    interested in reviewing but had not specifically requested. The FBI collected
    the document,; retrieved in its electronic searches and provided them to the
    Joint Inquiry Committee Staff and also to the OIG.
           We reviewed the information provided by the FBI that referenced a
    connection between airplanes or flight schools', and persons of interest to.the
    FBI. The information was from as early as 1983, although most of it was,from
    1998 and 199!;). Below we briefly describe four of the pieces of information
    that are repres, entative of the kinds of information contained in FBI filesabout
    airplanes and flight schools at the time the Phoenix EC was received at FBI
    Headquarters:                                                                 .-

          •  The FBI received an intelligence repor"c in mid-1999 stating that the
             leadership of a terrorist organization other than A1 Qaeda had met and
           _-planned to use students in theUnited States to gather intelligence on
          , infrastructure facilities and public places frequented by Jews. It was
              also reported that students also would be selected to participate in ,
             terrorist training camps
.     •       ..




                                                     It was reported further that the
                   leadership of the terrorist organization viewed this requirement as
                   being "particularly important" and were believed to have approved an
                   open-ended amount of ftmding to ensure its success. 91
          -        In August 1998, an intelligence agency advised the FBI's New York
                   Division of an alleged plan by unidentified Arabs to fly an explosive



        91The FBI ]latersaid that in 2002, in connection with the JICI Review, it researched this
    issue and concluded that the information reported was.likely a fabrication.



                                                  97            J
        laden aircraft from Libya into the World Trade Center. The New York
        Division sent out leads in an attempt to obtain more infbrmation about
        the source of the reporting.
     • On May 18, 1998, a Special Agent on theFBI's Oklahoma City
       Division's counterterrorism squad prepared an EC documenting his
       contact with an agent from that Division's; surveillance squad, who also
       wasthe Division's chief pilot. In the EC, the agent noted that the
       Division pilot had observed "large numbers of Middle Eastern males
       receiving flight training at Oklahoma airports in recent months." The
       agent also reported that the pilot speculated that light planes would be
       an ideal means of spreading chemical or biological agents.
     • In January 1995, Philippine authorities responded to a small fire and
       several explosions in an apartment in Manila. Inside the apartment,
       authorities discovered bomb-making equipment and telxorist literature.
       The resulting investigation revealed a plot to place explosive devices in
        12 American passenger aircraft. As a result of the FBI's investigation
       into this matter, Abdul Murad, Wali Shah, and Ramzi Yousef were
       subsequently indicted and convicted in the United States for their
       involvement in the conspiracy. Yousef later was convicted on
       Novembe,r 13, 1997, for his involvement Jinthe bombil_Lgof the World
       Trade Center on February 23, 1993.
        During investigative interviews, Murad described general
        conversations with Yousef in which they .discussed the potential use of
        aircraft to commit terrorist acts. According to Murad, he discussed
        with Yousef the ease with which a pilot could conduct a suicide attack
        by crashing an explosive-laden aircraft into a building. Murad
        mentioned CIA Headquarters as a potential target. Murad contended in
        investigative interviews that there was no specific planning in relation
        to any of these acts. Murad also described other general conversations
        with Yousef concerning potential non-aircraft related terrorist acts,
        such as bombing a nuclear facility, utilizing poison gas, and bombing
        the World Trade Center a second time.

      As discussed above, the FBI conducted little strategic analysis before
September 11, and it never attempted to connect _myof these disparate pieces
of information. For this reason, these pieces of information and all of the other


                                       98
information in the FBI's possession that might have been used to analyze the
use of airplanes and civil _tviation for terrorist purposes was; never considered
systematically or analytically.

     D.   Conclusion
       In sum, our examination of the FBI's handling of the Phoenix EC found
that the individuals who handled it did not violate FBI policies and practices at
the time, but they did not do all they could have, and should have, to respond to
it or the recommendations in it. They should have sought input from others in
the FBI, assured that the EC received the necessary analysis, and also sought
input from the,Intelligence Community about the theories and suggestions
contained in it.

        But we believe that their actions were not surprising, :given that the
 policies and practices under which they operated were extremely flawed. We
 found that IOSs were not properly managed and that supervisors should have
 been more actively involved in the work assigned to IOSs. In addition, as an
 institution, the FBI was focused on its operational priorities at the expense of
 conducting strategic analysis. Furthermore, the FBItacked a systematic
 approach to information sharing and lacked adequate tools _Iofacilitate such
•information sharing both within and outside the FBI. As a result of these
 systemic failures, the FBI did not give the Phoenix EC the consideration that it
 deserved.
        We cannot know for certain what the FBI would have: concluded prior to
 September 11 if the FBI had applied strategic analysis to the theory posed by
 the Phoenix EC or what information may have,'been uncovered in support of
•the theory if the Phoenix EC had been shared 'with the Intelligence Community
 or within the FBI. We also cannot know what role, if any, the pieces of other
 information described above would have played in the analysis of this question.
 What we do know is that the FBI was not adequately analyzing information for
 the purpose of drawing conclusions and making predictions. This was a
 significant intelligence failure, which hindered the chances of the FBI being
 able to detect and prevent the September 11 attacks.




                                        99
                                  J




Chapter Four has been redacted.

       (Pages 101-214)
                               CHAPTER     FIVE
               TWO     SEPTEMBER    11 HIJACKERS:            KHALID
                 AL-MIHDHAR          AND    NAWAF      AL-HAZMI

I.      _ntroduction

      In this chapter, we examine the FBI's handling of intelligence
information concerning two of the September 11 hijackers, Khalid al-Mihdhar
and Nawaf al-Hazmi. Mihdhar, Hazmi, and three other terrorists hijacked and
crashed American Airlines Flight 77 into the Pentagon.
       The FBI has asserted that it learned in late August 2001 that Mihdhar and
Hazmi were al Qaeda operatives and that they had traveled to the United States
in January 2000. In August 2001, the FBI also discovered that Mihdhar had
entered the United States on July 4, 2001, puq_ortedly for a month-long stay.
In late August, the FBI initiated an investigation to determine whether Mihdhar
was still in the country and to find him. The FBI was still searching for him at
the time of the September 11 attacks.
       We examined the information that the Intelligence Community and the
FBI had aboulLMihdhar andHazmi prior to September 11. We found no
evidence indicating the FBI or any other member of the Intelligence
Community had specific intelligence regarding the September 11 plot.
However, beginning in late 1999 and continuing through September 11,2001,
we found five junctures at which the FBI eithe,r learned of intelligence
information about Mihdhar and ttazmi, could have learned of additional
intelligence information about them, or could ihave developed additional
information about their location and terrorist connections. These five junctures
were"
                                                   )

          Q.




                                        The CIA also discovered   in March 2000
               that Hazmi had traveled to Los Angeles in January 2000.




                                         215
         •    In late January 2000, Mihdhar and Hazmi both trave,led to Los
              Angeles and then moved to San Diego, where they associated with a
              former' subject of an FBI investigation and also lived with a long-
              time FBI asset. TM

        _In      late December 2000 and early January 2001, a reliable joint
              FBI/CIA source provided information related to the FBI's ongoing
              investigation of the attack on the U.S.X Cole. 152



         •    In the ,summer of 2001, the CIA and the FBI had various
              interactions regarding the FBI's investJigation of the Cole attack.
              These interactions touched on the participants in the January 2000
              Malaysia meetings and information developed by the CIA about the
              Malaysia meetings.
         •    In August 2001, the FBI learned that Mihdhar had entered the
              United States on July 4 and began searching for him in early
              September 2001.

                             The FBI did not locate him before the September        11
              attacks.

      Yet, despite these ongoing discussions and opportunities for the FBI to
learn about and focus on Mihdhar and Hazmi, including their presence in the
United States, the: FBI was not made aware of and did not conntect important
details about them until late August 2001, a short time before they participated
in the terrorist attacks. Even in August, the FBI's search for Mihdhar and
Hazmi was not given any urgency or priority, and was not close to locating
them by the time of the attacks.
                         .




   15_Hazmi had also traveled to and attended the January 2000 meetings in Kuala
Lumpur, Malaysia.
     152As noted previously, on October 12, 2000, two terrorist operative,;in an explosive-
laden boat committed a suicide attack on the U.S.S. Cole naval destroyer ,:lutinga brief
refueling stop at the port in Aden, Yemen. Seventeen sailors were killed and 39 were
wounded in the attack.



                                            216
       In this chapter, we describe each of these five oppommities in detail. We
set forth the available intelligence information regarding Hazmi and Mihdhar
that existed at the time, whether the information was made .available to the FBI,
and what additional information about Hazmi and Mihdhar the FBI could have
deyeloped. In the analysis section of this chapter, we evaluate the problems
that impeded the FBI's handling of the intelligence information about Hazmi
and Mihdhar before September_ 11.

II.   Background

      A.   OIG investigation
      To investigate the issues involving Hazmi and Mihdhar, the OIG asked
for and reviewed all documents the FBI had regarding them before
September 11. The FBI search for these documents included searches of its
Automated Case Support system (ACS), Integrated Intelligence Information
Application (IliA) system, 153and. CTLink. _54 In addition, searches were
conducted on archived FBI e-mail messages and the FBI Director's briefing
documents. These searches were initially conducted in response to a request
by the Congressional Joint Intelligence Committee's Inquiry Staff, which, was
conducting its',own inquiry into this subject. The OIG also obtained direct
access to ACS so that we could conduct our own searches tor relevant
documents. In addition, we reviewed hard copy case and informant files to
search for documents relevant to Mihdhar and Hazmi.

       In addition to reviewing 'these documents, we conducted more than 70
interviews related to the Mihdhar and Hazmi matter. These, included
interviews of FBI lOSs, special agents, attorneys, and supervisors who had
access to some of the relevant information or participated in meetings or


     153IIIA is a database designed to capture comprehensive amounts of information from
counterintelligence, international, and domestic terrorism investigations. The system
includes information ranging from biographical data on persons to profiles of terrorist
groups. The FBI describes the system as "conducive to putting together information
regardless of office of origin or case."
    154CTLink is a shared database used for the dissemination of intelligence information
among agencies within the Intelligence Community.



                                            217
    operations related[ to these hijackers. We also interviewed FBI employees
    detailed to the CIA and FBI agents who participated in debriefings of
    intelligence sources who had relevant information.
           Because mulch of the information discussed in this chapter of the report
    involves the FBI's interactions with the CIA, we also obtained information
    directly from the CIA. The DOJ OIG does not have oversight authority over
    CIA operations or personnel, and we therefore did not make assessments of the
    performance of CIA personnel. That issue is the responsibility of the CIA
    OIG, which is conducting its own inquiry in response to the JICI report. We
    had to rely on the cooperation of the CIA in providing access to CIA wimesses
    and documents that were relevant to the OIG's oversight of the FBI.
     ..... We interviewed CIA staff operations officers, analysts, and supervisors,
    as well as CIA employees detailed to the FBI, inc][uding a CIA employee
    detailed to the FBI's New York Field Office's Joint Terrorism Task Force. (S)
           Initially, the CIA made available to the OIG for review warious
    documents that the CIA's "Director of Central Intelligence (DCI) Review
•   Group' '_55.had identified as being relatedto our 'inquiry. The Review Group
    had gathered:these and other documents during its;review of the September 11
    attacks and during additional searches conducted at the request of the JICI
•   staff. We did not have independent access to CIA databases, and therefore we
    could not independently verify that all relevant documents had been provided
    to us. However, we had several lengthy sessions with members of the Review,,
    Group at which they identified the documents they used to support their
    conclusions regarding Hazmi and Mihdhar. The CIApermitted usto review
    but not have a copy of these documents.
        • In addition, a member of the CIA General Counsel's staff conducted
    additional searches for documents relevant to particular disputed issues. As a
    result of that review, copies of additional relevant documents were also made
    available for our review.



         155The CIA formed the DCI Review Group in late 2001 to assist the CIA in"
    determining why it had not detected the September 11 plot. The group included former CIA
    case officers and CIA OIG personnel.



                                              218
       In response to the JICI report issued in December 2002, the CIA OIG
initiated a review in February 2003 of the CIA actions related to the
September 11 attacks. In July 2003 the CIA OIG review team informed us it
had several more documents that were relevant to our review. These
documents were made available to us to review, and redacted copies of the
documents were provided to us in November 2003. The CIA OIG review team
also provided additional relevant documents and information to usthat it found
during the course of its review.
       In February 2004, however', while we were reviewing, a list of CIA
documents that had been accessed by FBI employees assigned to the CIA, we
noticed the title of a document that appeared to be relevant to this review and
had not been previously disclosed to us. The CIA OIG had not previously
obtained this document in connection with its review. We obtained this
                         __



document, known as a Central Intelligence Report (CIR). This CIR was a draft
document addressed to the FBI containing infi)rmation about Mihdhar's travel
and possession of a U.S. visa. As a result of the discovery of this new
document, a critical document that we later determined had not been sent to the
FBI before the September 11 attacks (see Section III, A, 4 below), we had to
re-interview several FBI and CIA employees _mdobtain additional documents
from the CIA. The belated discovery of this CIA document delayed the
completion of our review.

    B,   Background on theCIA
      In this section of the chapter, we describe background information
relevant to the interactions between the CIA and the FBI and the ways in which
they exchanged intelligence. We begin with a discussion of the CIA's
authority and mission, organization, forms of communications, and ways in
which the CIA passed intelligence to the FBI. We also discuss the role of the
FBI's employees who were "detailed" to work at the CIA.

         i.   CIAauthority and mission
       As discussed in Chapter Two, the National Security Act of 1947 created
the CIA and established it as the nation's lead foreign intelligence agency of
the United States. The CIA engages primarily in the clandestine collection of
"foreign intelligence" information- information relating to the capabilities,
intentions, and activities of foreit_ governments or organizations, including


          ,                           219
information about their international terrorist activities. The CIA is charged
with evaluating and disseminating the intelligence information it collects.
      The CIA reports directly to the: President through the Director of Central
Intelligence (DCI), who is the head of both the CIA and the Intelligence
Community. The DCI is the primary advisor to tile President and the National
Security Council on national foreign intelligence matters. George Tenet was
named to that position in 1997.

           2.    Organization       of the CIA
       The work of the CIA is conducted primarily through three "directorates":
the Direct0rate of Operations, the Directorate of Intelligence, and the
Directorate of Science and Technology.     Each is lied by a Deputy Director.
Below webriefly describe the relevant structure and positions within each
directorate.

                 a.   Directorate     of Operations
        The Directorate of Operations is responsible for the clandestine
collection Of foreign intelligence. Tlhis takes place in field offices known as
',stations. ''_56Smaller cities may have "bases," whicti are sub-offices of the
stations, "Operations officers," also known as "case officers," are responsible
for collecting intelligence through contacts with human sources and through
the use of technology. Collection management officers, also known as "reports
officers," are responsible for taking raw intelligence reported by the operations
officers and removing from it the information that reveals the source, method
of collection, orother sensitive information. The reports office,rs publish
intelligence information in a form that can be made available to the Intelligence
Community.
     The head of a station or base is usually an operations officer and is
knownas a Chief of Station (COS) or Chief of Base (COB). Stations and bases



     156The CIA also has field offices within the United States that are part of the National
Resources Division within the Directorate of Operations. They are responsible for the overt
collection of foreign intelligence vohmteered by individuals and organizations in the
country.



                                            220
            are usually grouped by geographic division and report to the chief of the
            geographic division at CIA Headquarters. Within the geographic division at
            CIA Headquarters are "staff operations officers," or "desk officers," who
            provide operational research, advice, and other forms of case management
            support to the officers in the field.
                   The CIA's Counterterrorist Center (CTC), which is based in the
            Directorate of Operations but which draws on all CIA resources, is charged
            with preempting and disrupting international terrorism. The CTC is staffed by
            managers, analysts, operations officers, desk officers, and reports officers. The
            CTC collects and analyzes strategic intelligence on terrorist groups and state
        -   sponsors of terrorism to ascertain the capabilities, sources of support, and
            likely targets of terrorist elements, and to furnish detailed information on
            terrorist-related intelligence to the Intelligence Community.
                  At the time of the events relevant to our review, the C,TC operated a unit
            - that we call the "Bin Laden   Unit" - that dealt exclusively   with issues related
            to al Qaeda and Usama Bin Laden. The Bin Laden Unit was later merged into
            a larger group in the CTC. Although staffing levels fluctuated, approximately          ,
    .       40-50 people worked within the Bin Laden Unit before September 11,2001.
            The.Bin Laden Unit was known as a "virtual station" because it operated from
            within CIA Headquarters but collected and operated against a subject, much as
            stations in the: field focus on a country.

                           b.   Directorate of Intelligence
               • The Directorate of Intelligence, the analytical branch of the CIA, is
            responsible for the production and dissemination of timely, accurate, and
•           objective intelligence analysis on foreign policy issues. It focuses analysis on
            key foreign countries, regional conflicts, and issues such as terrorism and
            narcotics trafficking.
                  The Directorate of Intelligence is primarily composed of analysts who
            concentrate on particular areas of expertise. F'or example, intelligence analysts
            are assigned a particular geographic region to monitor the leadership,
            motivations, plans, and intentions of foreign governments in relation to U.S.
            national-security interests. Additionally, counterterrorism analysts stationed in
            the CTC produce a range of long-term intelligence products about terrorist
            organizations and provide tactical analytic support to intelligence operations.


                                                    221
               c.   Directorate of Science and l_echnology
      The Directorate of Science and Technology is responsible for creating
and applying technology in support of the intelligence collection mission. It
employs a broad range of professionals, including computer programmers,
engineers, scientists, and linguists.

          3.   The CIA's collection and internal dissemination of
               information
      Official inte,rnal communications between entities within the CIA are
normally conducted by an electronic communication known as a "cable."
Cables areaddressed to the stations, offices, or units within an office from
which some action is expected. Information acceptable for sharing with a
foreign government service is put into a section of a cable called a "tear line."

          4.   Passing of intelligence informatie, n by the CIA to the FBI
      The CIA shares intelligence with the rest of the Intelligel_LCeCommunity
through a communication known as a "TD" ("Telegraphic Dissemination").
TDs can be sent to other Intelligence, Community agencies, including the FBI,
and are available to .the Intelligence Community through the Intelink system.
      AnotherJtype of intelligence report used by the CIA when conducting
business with other agencies is a CIR, or "Central Intelligence Report." CIRs
are used for disseminating information to a specific agency or group of
agencies. CIRs tothe FBI normally concern something occurring in the United
States, involving a U.S. person or an ongoing FBI investigation.
       In addition lloformal methods of communicating by the CIA to the FBI,
much information can be shared with the FBI informallyl CIA and FBI
employees who have similar positions and expertise develop relationships and
communicate informally while working together on related mal:ters, either by
secure telephones or in person. In addition, meetings are somellimes held to
discuss a matter or a piece of intelligence that is of value to both agencies.
According to the CIA employees we interviewed, when the CIA passed
intelligence infonnation or other kinds of information verbally or by another
informal mechanism to the FBI, the information exchange no_aally would be
documented through a TD or a CIR. However, they said that not every
telephone call or conversation was documented.


                                       222
      C.   FBI detailees to the CIA CounterterroristCenter

       In 1996, the FBI began detailing employees to work in the CIA's CTC.
During the time period relevant to this chapter of the report, five FBI
employees were detailed to the CTC's Usama Bin Laden Unit in four separate
positions. Two of the positions were filled by personnel from the FBI's
Washington Field Office, and one position each was filled :from the FBI's New
York Field Office and FBI Headquarters. 157
                     /



           1.    FBI Headquarters        detailees

       One of the FBI detailees assigned to Bin Laden Unit, who we call "Eric,"
held a supervisory position as a deputy chief of the Bin Laden Unit. 158Eric, an
FBI Headqual_ers supervisor in the Radical Fundamentalist Unit, was detailed
to the CTC as a branch chief for a particular terrorist group in September 1997.
In March 1999, FBI Headquarters transferred him from that part of the CTC to
the deputy chief position in the Bin Laden Unit. According to Eric, he was told
by FBI Assistant Director Neil Gallagher that there were a lot of problems
between the FBI's New York Field Office and the Bin Laden Unit and that he
needed to mend the relationship. 159Eric stated that althOugh he acted as a
liaison between the CIA and the FBI, his primaryjob was to perform
substantive work related to the Bin Laden Unit's mission.

      Eric left: the Bin Laden Unit in January 2000 and was replaced in July
2000 by an FBI employee who we call "Craig. ''16° By this time, the Bin Laden
Unit had been placed into a newly formed group, which was a much larger



     157Other FBI employees were also detailed to the'CIA during this time. However, the
FBI detailees to the CTC's Bin Laden Unit were the only ones relevant to the issues in this
review.
     _58A CIA employee was the other deputy chief in the Bin Laden Unit. Both the FBI
detailee and the CIA employee reported to the chief of the Bin Laden Unit, a CIA employee.
     159Eric told.the OIG that when he arrived at Bin Laden Unit, he "walked into a buzz
saw" and there was a great deal of animus from CIA employees toward the FBI detailees.
Eric said this experience was vastly different from his tenure in another CTC section, where
he was readily accepted and integrated into the CIA's operations.
    160No one filled the deputy chief position between January 2000 and July 2000.



                                            223
organization than the Bin Laden Unit. Craig was designated as a deputy chief
in the new, larger group. He described his primary job as being a "referent" for
law enforcement :issues. He explained this role as involving coordination
between the FBI and CIA when they wanted to c-onduct joint interviews or
when the CIA requested assistance with a law enforcement ma_Lter.
       Eric and Craig had access via computers,on their desks to the CIA's
internal cables. Eric said that while he was at the CIA, he attempted to read all
incoming Bin Laden Unit cables. However, he said that the amount of cable
traffic was overwhelming and was too much for one individual to read
consistently. In contrast, Craig told the OIG that lhe did not believe his job was
to read all the cable traffic and that he did not even attempt to do so.
             .,   .    ,




          •2.         Washington   Field Office detailees
       Another FBI employee detailed to the Bin Laden Unit, an Intelligence
Operations Specialist (IOS) who we call "Mary," wasassigned to CIA
Headquarters from the FBI's Washington Field Office in April 1998. Although
she was assigned to work on issues of mutual interest to the FBI and the CIA,
such:as the East African embassy bombings, 161she also was assigned to work
on unilateral CTC matters. She said that as a desk officer, she read and
responded to cable traffic that was pertinent to the matters she 'was assigned.
She nominally reported to a supervisor in the FBI's Washington Field Office,
but her work was assigned by her CTC supervisors at the Bin Laden Unit.! 62
      The Washington Field Office also detailed to the CTC a ,;pecial agent,
who we call "Dwight." His performance evaluations were done by the
Washington Field Office, but his assignments came from CTC managers. He
focused on the financial aspects of terrorism and obtained infon'nation through
the CTC to help identify and investigate persons who were responsible for




     161On August 7, 1998, nearly simultaneous vehicle bombs were detonated at the U.S.
embassies in Nairobi, Kenya, and Dares Salaam, Tanzania, killing over 2:00people and
injuring over 4,000.
   162Her position was later transferred from the Washington Field Office to FBI
Headquarters' Usama Bin Laden Unit.



                                             224
                                                                                          t
        funding terrorism. He had access to CIA cables and reviewed them for
        potential leads or other iriformation related to terrorist financing.

                  3.   New York Field Office detailee
              An FBI New York Field Office agent from its Bin Laden squad, who we
        call "Malcolm," was also detailed to the CIA's Bin Laden Unit in early 1999 at
        the request of"John O'Neill, the New York FMd Office Special Agent in
        Charge for Counterterrorism at the time. Malcolm replace(] another New York
        Field Office Bin Laden squad agent who had left the CIA's Bin Laden Unit in
        August 1998. Malcolm told the OIG that he was not given instructions as to
_       his specific duties at the CIA. He said he understood his jeb there was to be
        the "eyes and ears" of the New York Field Office and "to monitor" New York
        Field Office cases. He said his role was to "facilitate inquiries of mutual
        interest" and to act as a liaison for FBI offices',around the country by following
        up on tracing requests and reporting on their status' He stated that he also
    ,   spent a significant amount of time coordinating with the CTC in preparation for
        and during the trials that arose out of the FBI's investigations into the East
        African Embassy bombings. He told the OIG that he did not review all cables;
        he reviewed only the cables that he thought Were interesting, generally based
        solely on his review of the cable subject line. He said he reported to an SSA in
        the New York Field Office, not to anyone at tlhe CIA.

        llI, Factual chronology regarding Hazmi _tnd Mihdhar
              In this section of the report, we discuss iindetail the f_ivejunctures before
        September 11,2001, during which the FBI had an opportunity to obtain or
        develop information about Mihdhar and Hazmi but did not. We describe in
        chronological order the sequence of events regarding these five opportunities,
        including the information that the FBI obtained or could have obtained about
        Hazmi and Mihdhar.

               Many of the witnesses told the OIG they did not have: specific
        recollection of the events and conversations related to the Itazmi and Mihdhar
        matter. In addition, we found few notes and documents relating to these events
        and conversations. The following is our best reconstruction of the events based
        on the participants' recollections', and the existing documentary evidence.




                                                225
      We show a timeline of the Hazmi and Mihdhar events described         in this
chapter on the next two pageg Of the report.

     A.   Identification in January 2000 of Hazmi and Mihdhar           as al
          Qaeda operatives
        This section describes the initial development and dissemination of
intelligence information concerning Hazmi and Mihdhar. lill_
__                                                    The intelligence led to a
surveillance operation in Malaysia in which it was discovered that Mihdhar,had
a valid multiple-entry U.S. visa and photographs of Mihdhar meeting with
other al Qaeda operatives were taken.
       There were several ways the FBI could have acquired this information
from the CIA - through a CIR from the CIA to the FBI, informally through
conversations between a CIA employee and FBI Headquarters employees, and
through the FBI employees detailed to the CIA reviewing the CIA cable traffic.
We reviewed whei_her this information was in fact passed tothe FBI by the
CIA, and based on the evidence, concluded that while the CIA passed some of
the information about Mihdhar to the FBI, it did not contemporaneously   pass
the information about Mihdhar's U.S. visa to the FBI. We con,zluded it was
not disclosed by the CIA until late August 2001, shortly before the September
11 terrorist attacks. We also reviewed whether FBI detailees to the CIA
contemporaneously     acquired this infbrmation   and what action, if any, they took
with respect to this information.




                                        226


                                                                                /
                                                                i




      In addition, the CIA learned in March 2000 that Hazmi had boarded a
United Airlines flight in Bangkok, Thailand, bound for Los Angeles,
California, on January 15, 2000.163 We also re,viewed whet!her the FBI was
informed of this information, and concluded that it did not learn about this
information until August 2001.

           1.    Background
       In late 1999, the Intelligence Communi_ developed significant
intelligence information regarding Hazmi and Mihdhar. At this time, the
Intelligence Community was on high alert because of concerns involving
possible terrorist activity planned in conjunction with the coming of the new
Millennium. In addition to concerns about attacks at New "gear's Eve
celebrations, the Intelligence Community was concerned that a terrorist attack
was planned fbr January 3, 2000, which in the_Islamic calendar is considered a
"night of destiny. ''_64There were additional concerns about potential terrorist
attacks coinciding with the end of Ramadan, around January 6, 2000.165
      Several of these planned attacks were uncovered in December 1999. For
example, on December 1, 1999, in Jordan, a pilot to disrupt New Year activities
with explosives designed to kill thousands of revelers, including U.S. citizens,
was uncovered and thwarted with the arrest of"16 people. On December 14,
1999, Ahmad Ressam was stopped at the United States/Canadian border in
Washington state as he attempted to enter the United States in a vehicle loaded
with explosiw_s. It was determined later that he had intended to detonate the
explosives at the Los Angeles airport.
      To be prepared for possible terrorist activity at the end of 1999, the FBI
activated its Strategic Information Operations Center (SIOC). The SIOC is
            J




     163Mihdhar was also on the same flight, but that :fact apparently was not known within
the Intelligence Community until much later, in August 2001.                        t-
     164During the course of the Cole bombing investigation, it was learned that an attack
also had been planned against the U.S.S. The Sullivans in Aden, Yemen, on the same date.
That attack failed because the attack boat sank before reaching its target.
     165Ramadan is the ninth month of the Islamic calendar. Ramadan begins when
authorities in Saudi Arabia sight the new moon of the ninth month.
                                    /




                                            229
located in a secure area within FBI Headquarters _mdcontains ,;everal meeting
rooms, conferencing equipment, communications equipment, computers, and
other operational equipment. It allows the FBI to manage major investigations
or other significant operations 24 hours a day, 7 days a week.
       During the Millennium period, the FBI operated its International
Terrorism Operations Section from within the SIOC. In addition, the FBI
detailed field supervisors with counterterrorism experience and other
counterterrorism personnel to the SIOC for around-the-clock monitoring and
response to possible terrorist activities.
       At the CIA, additional personnel were called in to work at the CTC and
planned leave was canceled. In addition, personnel from the CIA and other
Intelligence Corrrmunity agencies were detailed to work in the FBI's SIOC.
       During this period, personnel in the FBI's SIOC prepared two daily
briefings for the FBI Director and his executive staff, one at 7:130a.m. and the
other at 4:30 p.m. The daily briefings contained summaries of significant
terrorism investigations and the latest intelligence related to counterterrorism.
Accompanying the briefings were daily threat updates prepared each afternoon
for the Director and his executive staff. The briefings and the threat updates
were prepared by various people throughout the course of the day andnight in
the SIOC.

           2.    NSA provides intelligence regarding planned travel by al
                 Qaeda operatives to Malaysia



                                                                                    _l_le

communications indicated that several members of an "operationalcadre" were
planning to trave]l to Kuala Lumpur, Malaysia, in early January 2000. Analysis
of the communications revealed that persons named Nawaf, Khalid and Salem
were involved. In early 2000, the NSA analyzed what appeared to be related
communications concerning a "Khalid. ''166


     166The NSA had additional information in its database further identifying "Nawaf' as
Nawaf al-Hazmi, a friend of Khalid. However, the NSA informed the OIG that it was not
(continued)


                                           230
       The NSA's reporting about: these communications was sent, among other
places, to FBI Headquarters, the FBI's Washington and New York Field
Offices, and the CIA's CTC. At the FBI, this information appeared in the daily
threat update 1:othe Director on January 4, 2000.

           3.    Mihdhar's     travel and discovery      of his U.S,, visa
     A CIA desk officer working in the Bin [,aden Unit who we call
"Michelle" determined that there were links between these people and A1
Qaeda as well as the 1998 East African embassy bombings. In addition, the
CIA identified "Khalid" as Khalid al-Mihdhar.       ..




      Mihdhar arrived __,                         on January 5, 2000.
Mihdhar was traveling on a Saudi passport. This passport contained a valid
U.S. visa. Mihdhar's passport was photocopied and sent to CIA Headquarters.
   •   SeVeral _CIA cables contemporaneously    .discussed Mfhdhar's travel and
the discovery of his U.S. visa in his Saudi passport. CIA records show that a
CIA employee, who we call "James ''167and wlho was detailed to FBI
Headquarters during the Millennium period, accessed one of these cables
 approximately two hours after it was disseminated in the morning, and he
accessed another of the cables about eight hours after it was disseminated on
the next morning. James discussed some information about Mihdhar with two
FBI Headquarters employees on the evening of January 5, which we detail in
 Section 7 below.

           4.    CIR is drafted    to pass Mihdhar's       visa information     to the FBI
      Dwight., the special agent detailed to the CIA's Bin Laden Unit from the
FBI's Washington Field Office, also read the ,cables discus:_ing Mihdhar's U.S.
visa within hours of each cable being disseminated.    CIA records also show


(continued)
asked to conduct research on these individuals at that time, and it did not uncover that
information on Hazmi. It was thought at the time that Salem might be Hazmi's younger
brother, and this was later confirmed.
    _67The CIA has asked the OIG not to identify the true names of CIA employees for
operational reasons.



                                            231
that Dwight's immediate supervisor in the Bin Laden Unit opened one of the
cables soon after Dwight.
       Dwight opened one of the cables, which reported that Mihdhar's visa
application had been verified and that he had listed New York as his intended
destination.

       Around 9:30 a.m. on the same morning, Dwight began drafting in the
CIA's computer system a CIR addressed to the UBL Unit Chief at FBI
Headquarters and an SSA in the UBL Unit at FBI Headquarters who we call
"Bob." Dwight's CIR also was addressed to the FBI's NewYork Field Office.
The CIR first described the NSA information that had been received about
Mihdhar, including the planned travel to Kuala Lumpur, Malaysia in early
January. The CIR also discussed the potential links between the suspected
terrorist facility in the Middle East and the 1998 East Africa embassy
bombings. The CIR stated that photographs of Mihdhar had been obtained and
wouldbe sent to the FBI under separate cover. The CIR detailed Mihdhar's
passport and visa information, including that Mihclhar had listed on his visa
application his intended destination as New York and that he planned to stay
three months. Dwight also wrote that the CTC was requesting "feedback" on
"any intelligence uncovered in FBI's investigation" resulting from the
information in the CIR.
      Michelle, the Bin Laden Unit desk officer who originally had taken
notice of the infomaation about Mihdhar and his connections to A1 Qaeda,
accessed Dwight's draft CIR less than an hour after Dwight drafted it at
approximately 9:!30 a.m. Around 4:00 p.m. on the same day, Michelle added a
note to the CIR in the CIA's computer system: "pls hold off on CIR for now
per [the CIA Deputy Chief of Bin Laden Unit]."
      CIA records show that the same morning, the CIA Deputy Chief of Bin
Laden Unit, who we will call "John," also had read the cable indicating that
Mihdhar!s visa was valid and that New York had been listed as his intended
destination. Around 6:30 p.m. on the same day, J,ohn again accessed this cable
and then another ,cable, the same two CIA cables about Hazmi :and Mihdhar in




                                      232
             the CIA's computer system that Dwight had used in drafting the CIR. CIA
             records do nolLindicate that John accessed Dwight's draft CIR. 168
                 CIA records show that the CIA employee detailed to FBI Headquarters
             who we call James and who discussed the Mihdhar information with two FBI
             Headquarters employees, also accessed the draft CIR on the day it was drafted.
             In addition, two other FBI detailees accessed the draft CIR: Eric, the other
             Deputy Chief of the Bin Laden Unit, accessed it two hours after Dwight began
             writing it, and. Malcolm, the New York Field Office's detailee to the Bin Laden
             Unit, accessed it two days later.
               ..



                    CIA records show that as of eight days later the CIR had not been
     .       disseminated to the FBI. In an e-mail to John in mid-January, Dwight had
             attached the draft CIR and wrote, "Is this a no go or should I remake it in some
             way." The CIA was unable to locate any response to this e-mail.
                   By mid-February, the CIR had not been sent to the FBI and was still in
             draft form in the CIA's computer system. CIA records show that Dwight e-
..           mailed a CIA contractor who handled computer matters and asked him to
             delete several draft cables in the computer system unrelated to this matter, but
             to save the draft CIR concerning Mihdhar. The contractor accessed the draft
             cable in the system the next day.
                    When we interviewed all of the individuals involved with the CIR, they
         .   asserted that they recalled nothing about it. Dwight told the OIG that he did
             not recall being aware of the information about Mihdhar, did not recall drafting
             the cIR, did not recall whether he drafted the CIR on his own initiative or at
             the direction of his supervisor, and did not recall any discussions about the
             reasons for delaying Completion and dissemination of the CIR. Malcolm said
             he did not recall reviewing anyof the cable traffic or any information regarding
             Hazmi and Mihdhar. Eric told the OIG that he did not recall the CIR.

                   The CIA employees also stated that they did not recall the CIR.
             Although James, the CIA employee detailed to FBI Headquarters, declined to


                  168According to John, once CIRs were drafted the CIA's standard operating procedure
             was for the drafl:erto "coordinate" the CIR in the computer system, which notified the
             persons designalledby the drafter that there was a CIR.that required their attention. He said
             that it was not standard operating procedure to access CIRs in draft form.



                                                          233
be interviewed by us, he    told the CIA OIG that he did not recall the CIR. John
(the Deputy Chief of the    Bin Laden Unit) and Michelle, the desk officer who
was following this issue,    also stated that they did not recall the CIR, any
discussions about putting     it on hold, or why it was',not sent.

           5.   Mihdhar in Dubai

       On the same day that Dwight was drafting the CIR, the CIA reported in
an internal cable additional information about Mihdhar. The cable Stated that it
appeared that, despite his multiple entry visa, Mihdhar had not yet traveled to
the United States. The cable then stated that it was up to the CTC as to
whether anyone slhould inquire with the INS to verify whether Mihdhar had
traveled to the United States. _69

      The cable al[so reported additional information about Mihdhar while he
was in Dubai.

      CIA records reveal that this cable also was read by FBI d,etailee Dwight.
However, Dwight did not include in the draft CIR the additional information
about the lack of any indication that Mihdhar had traveled to United States or
the additional information about Mihdhar in Dubai. 17°

           6.   CIA cable stating that Mihdhar's         visa and passport
                information     had been passed to FBI
       Also on the same day that Dwight was preparing the CIR, Michelle, the
Bin Laden Unit desk officer who was following the issue of Miihdhar, prepared
a lengthy cable to, several stations summarizing the information that had been
collected at that point on Mihdhar and three other individuals who also were
possibly traveling to Malaysia. The cable began, "After following the various
reports, some much more credible than others, regarding a possible [Bin



     _69We did not determine whether the CIA actually contactedthe INS pursuant to this
suggestion. As we discuss below, we did determine INS records reflect that Mihdhar first
entered the United States on January 15, 2000, and only entered again on July 4, 2001.
    170This cable also was read by James, the CIA employee detailed to the FBI's SIOC.
As detailed below, he later discussed some of its contents with an FBI Headquarters
employee.



                                           234
Laden]-associated threat against U.S. interests',in East



      This cable then summarized the CIA's information that indicated several
individuals were planning to travel to Malaysia. In the paragraph describing
Mihdhar, Michelle stated that Mihdhar's trave,1documents, including a
multiple entry U.S. visa, had been copied and passed "to the FBI for further
investigation."
      This cable -the fifth CIA cable to discuss Mihdhar's U.S. visa- did not
state by whom or to whom Mihdhar's travel documents were passed. It also
did not indicate how they had been passed, or provide any other reference to
the passage of the documents. Because this cable was an internal, operational
cable, it was not forwarde d to or copied to the, FBI.
      This cable was disseminated to various CIA stations approximately three
hours after Michelle had noted in the cable system that Dwight was directed to
hold off on sending his draft CIR to the FBI ":fornow per [the CIA Deputy
Chief of the Bin Laden Unit]."
       When we interviewed Michelle, she stated that she had no recollection of
who told her that Mihdhar's travel documents had been pa,;sed to the FBI or
how they had been passed. She said she would not have been the person
responsible for passing the documents. According to Michelle, the language in
the cable stating "[the documents] had been passed" suggested to her that
someone else told her that they had already been passed, but she did not know
who it was. The CIA Deputy Chief of the Bin Laden Unit also said he had no
recollection of this cable, and he did not know whether the information had
been passed to the FBI.
      Neither we nor the CIA OIG was able to locate any other witness who
said they remembered anything about Mihdhar's travel documents being
passed to the FBI, or any other documents that corroborated the statement that
the documents were in fact passed to the FBI.

          7.   The Malaysia meetings and surveillance efMihdhar
      After he arrived in Malaysia, Mihdhar was followed :andphotographed in
various locations meeting with several different people. These events are


                                       235
referred to as "the',Malaysia meetings." CIA employees wrote several cables
contemporaneously about the Malaysia meetings, which we discuss below.

                 a.   First cable regarding Mihdhar in Malaysia
      The CIA prepared an internal cable stating that Mihdhar had arrived in
Kuala Lumpur on the evening of January 5. The cable also described his
activities with other Arabs who were unidentified at the time. This cable,
which we refer to as the "first Malaysia meetings cable," did not contain any
information regarding passports or visas.

                 b.   January 5 FBI threat update
      It appears that this first Malaysia meetings cable was provided to the FBI.
Sometime before the daily FBI executive briefing that took place on January 6
at 7:30 a.m., the January 5 threat update information concerning Mihdhar was
edited inthe FBI's SIOC.
     ....   ,.




       This January 5 threat update reflected an alraost verbatim recitation of
portions of the C1A's first Malaysia meetings cable, including the same
spelling mistake in reference to a particular place in Malaysia, which indicates
that the CIA provided a copy of the first Malaysia meetings cable to the FBI.
However, we were not able to determine who in the FBI received this
information from the CIA or who edited the January 5 threat update. No one
we interviewed at the FBI said they recalled handling information related to
Mihdhar or the January 5 threat update. The threat update contained no
reference to Mihdhar's passport information or his U.S. multiple-entry visitor's
visa.

       The Januar3r 5 threat update also was made part of the January 6
7:30 a.m. executive briefing document. This briefing did not contain any
additional information about Mihdhar. The January 5 threat update was the
only official document from this period located by the FBI that referenced the
Malaysia meetings that were discussed in the first CIA Malaysia meetings
cable.




                                      236
                c.   Discussion between CIA and FBI employees             about
                     Malaysia meetings               _J
       As noted above, computer records show that James, the CTC employee
detailed to the FBI's SIOC, read the cables and the draft CIR indicating that
Mihdhar had a U.S. visa. Contemporaneous e-mails show that James discussed
the Malaysia meetings with two FBI Headquarters employees in the SIOC in
the early monaing hours of January 6. Below we detail the cables and the
evidence about the discussions that took place: between the CIA and FBI
personnel in the SIOC about the Malaysia meetings.
      Contemporaneous e-mail messages among CIA employees show that
during the night of January 5 James briefed the FBI SSA who we call Bob
about Mihdhar's travel. At the time, Bob was an SSA in the UBL Unit in FBI
Headquarters:, which was operating out of the SIOC during this period.
       James wrote an e-mail to several CIA employees in which he stated that
he was detailing "exactly what [he] briefed [the FBI] on" m the event the FBI
later complained that they were not provided with all of the information about
Mihdhar. 17_This e-mail did not discuss Mihd]har's passpor, Lor U.S. visa.
       As previously mentioned, James told the CIA OIG that he had no
recollection of these events. He declined to be interviewed by us.
       Bob told the OIG that he had no independent recollection of any briefing
from a CIA employee regarding the Malaysia meetings. However, he was able
totocate a scant contemporaneous note that confirmed he had been briefed
regarding Mihdhar and his trip to Malaysia. This note contained no details as
to the content of the briefing and no reference to Mihdhar's: U.S. visa.
      Bob told the OIG that he does not believe that he had been told in this
conversation about Mihdhar's U.S. visa. Bob stated to us t!hatthe presence of a




     171James wrote these e-mails in response to an e-mail from anotherCIA employee who
was detailed to the FB'ISIOC. That employee reported on the morning of January 6 that he
had been asked by an FBI employee for the latest on Mihdhar. James responded in a series
of e-mails that he had already briefed the FBI. The final e-mail by James sets forth the
details of his briefings.



                                          237
U.S. visa in Mihdhar's passport would have been extremely important and
would have triggered a more significant response than his minimal notes.
      Bob also told the OIG that he did not know why James chose to brief him
about Mihdhar. Bob said that he was not a designated point of contact for the
CIA while the SIOC was activated, although he also said that he did not know
whether there was a designated point of contact in the SIOC. Bob said that he
knew James because James had previously been detailed from the CTC to FBI
Headquarters and had worked in ITOS with Bob.

              d.    Second cable regarding Mihdhar and the, Malaysia
                    meetings
       The day after the CIA employee discussed tlhe Malaysia meetings with
the two FBI SIOC employees, the CIA sent another internal cable providing
new information about the activities of Mihdhar. This cable, "the second
Malaysia meetings cable," provided information about Mihdhar's activities
once he left the Kuala Lumpur airport and his meetings with various
individuals.

              e.   Discussion between CTC officer and FBI employee
                   about Malaysia meetings
      Shortly after 7:30 a.m. on January 6, James briefed another FBI SSA-
who we call "Ted:"- who was detailed to the SIOC from an FB.I field office,
about information contained in the second Malaysia meetings cable. Ted told
the OIG he was working in the SIOC as an "assistant" to the day shift
commander and the UBL Unit Chief, but that he had no specific duties.
Because Bob had left FBI Headquarters on a trip to New York by this time,
James briefed Ted to ensure that someone at FBI Headquarters had the latest
information on Mihdhar.

      In the same e-mail in which he: had detailed What he told Bob, James
provided specifics of what he told Ted. The e-mail also stated that the CIA
would "continue to run this down and keep the FBI in the loop.,' The e-mail
did not contain any reference to Mihdhar's passport or U.S. visa.
       Based on this briefing by James, Ted prepared an update for the January
6 afternoon FBI executive briefing. Ted e-mailed the update to the ITOS
Assistant Section Chief at 8:40 a.m. This update reflected the details of the


                                      238
information Ted had received from James. It did not contain any reference to
Mihdhar's pa,;sport or U.S. visa.
       Like Bob, Ted told the OIG that he had no recollection ofbeing briefed
regarding the Malaysia meetings. Although he said he did not recall these
events, Ted asserted hedid not believe that he had received Mihdhar's passport
or U.S. visa information because if he had he would have unquestionably
recognized their significance and documented such information in the update
for the executive briefing.
      Ted told the OIG that he did not know why James briefed him about the
Mihdhar information. Like Bob, Ted stated he was not a designated point of
contact for the CIA while the SIOC was activated. Ted also knew James
because of James' previous detail to ITOS in FBI Headquarters when Ted
served as an SSA in the RFU.

              f.   Cables updating the Malaysia meetings information,
                   including Mihdhar's travel to Bangkok
      On January 8, the CIA reported in another internal cable that a new
individual had joined Mihdhar and the others, and that additional surveillance
photographs were taken. The cable did not state how many'photographs were
taken or what would be done with the photos.
      In another cable sent five hours later, the CIA reported in an internal
cable that Mihdhar and two of the unidentified men- one of whom turned out
to be Hazmi - departed Malaysia from Kuala Lumpur airport en route to
Bangkok, Thailand.

              g.   Cables regarding Hazmi's travel to the United States
      On January 9, the CIA's Bin Laden Unit prepared a cable asking that
Mihdhar and his associates be identified while in Thailand. CIA records show
that on January 13, the CIA was attempting te locate Mihdhar and his traveling
companions. In addition, Mihdhar had been watchlisted at the airport in the
event that he attempted to leave Thailand.
       Several weeks later, CIA officers in Kuala Lumpur followed up with
their Bangkok counterparts for additional information about Mihdhar and his
traveling companions. Approximately two weeks later, Bangkok reported that


                                      239
there was a delay in responding due to difficulties in obtaining the requested
information.

       In early Mm:ch 2000, officials in Bangkok reported internally that it had
identified one of Mihdhar's traveling companions as Nawaf al-Hazmi. The
cable reported that Hazmi had traveled to Bangkok on January 8 and had
subsequently traveled on a United Airlines flight to Los Angeles, California on
January 15. The cable also stated that Mihdhar had arrived in Bangkok on
January 8 but that:it was unknown if and when he had departed. 172In addition,
the cable identified the third traveler as Salah Saeed Mohammed Bin Yousaf.173

      CIA records; show that none of'the FBI detailees accessed this early
March cable. The OIG found no documents or witnesses indicating that the
information that ttazmi had traveled to Los Angeles on January 15, 2000, was
shared with the FBI at this time. Rather, as we discuss below, this fact was not
shared with the FBI until August 2001.
       We found no indication that CTC personnel took any action with regard
to the important information that Hazmi had traveled to the Un:ited States. For
example, he was not placed on any U.S. watchlists. The day after Bangkok
reported about Hazmi's travel to Los Angeles, one office that i'eceived the
Bangkok cable sent a cable to the CTC stating the Bangkok cable regarding
Hazmi's travel had been read "with interest." Yet, despite this effort to flag the
significance of this information, the cable was not shared with llhe FBI and did
not result in any specific action by the CIA.
      As we discuss below, it was not until August 2001 that FBI Headquarters
personnel learned that on January 15, 2000, both Mihdhar and ![-Iazmihad left
Thailand and traveled to Los Angeles, California, where they were both



    172In fact, Mihdhar had traveled to the U.S. with Hazmi on January 15, 2000. This fact
was not discovered by anyone in the Intelligence Community until August 2001.
     _73Yousaf left Bangkok on January 20 for Karachi, Pakistan. Some time after
September 11, Yousafwas determined to be Tawfiq Muhammad Salih Bin Rashid al Atash,
a/k/a Khallad, the purported mastermind of the Cole attack. We discuss t]heFBI's discovery
of information about Khallad and the Cole attack, and the FBI's opportunities to connect
Khallad to the Malaysia meetings, in Section III, C below.



                                           240
admitted into the United States on non-immigrant           visas and. authorized to
remain until July 14, 2000.

           8.    OIG findings regarding FBI's knowledge             about Mihdhar
                 and the Malaysia meetings
       We discuss here our findings regarding the FBI's knowledge of
information about Mihdhar and the January 2(100 Malaysia meetings, including
whether the intelligence information concerning Mihdhar's valid multiple entry
U.S. visa and Hazmi's travel to the United States in Januaw 2000 was passed
to the FBI. Several witnesses told the OIG that Mihdhar's possession of a U.S.
visa provided a clear domestic nexus that should have triggered the passing of
this information from the CIA to the FBI.

       At the outset, we note that the CIA has acknowledged that it obtained
information that Mihdhar had a U.S. visa and that Hazmi had traveled to the
United States, and that the CIA should hiave pl[aced their names on U.S.
watchlists, but that this didnot occur. 174 The CIA OIG is reviewing this matter
to determine why this failure occurred and who is responsible for it.

                 a.   Formal passage of information   ..
                                                             from the CIA to the FBI
       As noted above, the formal method of communicating intelligence
information between the CIA and the FBI was. an intelligence report called a
CIR. CIA records show that between July 1999 and September 10, 2001, the
Bin Laden Unit disseminated over 1,000 CIRs, most of which were sent to the
FBI CTC employees as well as FBI detailees to Bin Laden Unit had authority
to draft CIRs, and the detailees collectively drafted over 150 CIRs to the FBI
during this period. However, CIRs could only be disseminated by persons with
authority to "release" the CIRs. _75In the Bin Laden Unit, only supervisors,




    174Mihdhar and Hazmi were placed on watchlists by other countries, including
Thailand.
     175Once a supervisor approved a CIR for release, it was electronically disseminated by
a unit in the CIA known as the Policy Community Action Staff.



                                            241
including John and Eric asthe deputy chiefs of the station, had authority to
release CIRs. 176

      Dwight drafted a CIR in which he summarized the information that had
been disseminated by the NSA about Mihdhar. He also provided detailed
information about Mihdhar's passport, visa, and visa application indicating that
New York had been his intended destination. According to CIA records, this
CIR never was di,sseminated to the FBI. A desk officer's note on the draft CIR
indicated that the Deputy Chief of the Bin Laden Unit, John, had instructed the
draft CIRbe put on hold, and Dwight contacted him through an e-mail about
the disposition of the CIR a week later. Despite this e-mail, the evidence
clearly shows thalLthe CIR never was disseminated to the FBI.
      The evidence shows, however, that Dwight acted in accordance with the
system that was in place at the time by drafting the CIR to formally pass the
visa information to the FBI. In accordance with Bin Laden Unit policy,
Dwight   was not permitted     to pass the CIR to the FBI without      permission.

     All0f the witnesses stated, however, that they did not recall the CIR or
any communications about it. Other than the note.,written by the desk officer,
we found no documentary evidence about why the CIR was not disseminated.
Thus, we were unable to determine why it was not sent.
     The information in the CIR, whichwas documented in the appropriate
format for passage to the FBI, was potentially significant to the FBI and should
have beenpassed to the FBI. We believe it was a significant failure for the
CIR not to be sent to the FBI.

                b.    Informal passage of information from CIA to FBI
      Wealso considered what information that James, a CIA detailee to the
FBI, informally passed to FBI Headquarters and whether he inl!'ormedanyone
of the visa information about Mihdhar. Based on the contemporaneous e-mails
in which James documented in detail what he told FBI SSAs Bob and Ted, we
concluded that he, reported to the FBI the information regarding Mihdhar's



     176CIA records show that Eric released five CIRs during his tenure at the Bin Laden
Unit.




                                            242
transit through Dubai, his arrival in Kuala Lumpur, his activities after his
arrival, and his meeting with other suspected al Qaeda operatives. It is far less
clear, however, whether he provided Mihdhar's passport aa_Ld   U.S. visa
information to the FBI.
       We do not believe that James briefed either Bob or Ted on Mihdhar's
 passport or U..S. visa information. First, nothing in Bob's contemporaneous
 notes or Ted's e-mail or briefing update referred to Mihdhar's passport or visa
information.




      Moreover, James wrote a detailed e-mail to document the contents of his
conversations, with Bob and Ted. Since the stated purpose of James' e-mail
wasto prevent the FBI from later claiming he had failed to brief them on some
important details, he had every incentive to include all relevant details in that e-
mail. At the time he wrote this e-mail, he had read three of the CIA cables
indicatingthat Mihdhar had a U.S. visa, as well as the draft:CIR. Yet, James'
e-mail contained no mention of Mihdhar's passport or visa..
      We found only one piece of evidence suggesting that the FBI was made
aware in January 2000 of Mihdhar's U.S. visa- the early January cable by the
desk officer who we call Michelle which state,d that Mihdhar's travel
documents, including a multiple entry U.S. visa, had been copied and passed
"to the FBI for further investigation." We could not, however, find any
evidence to corroborate that this information actually had been passed to the
FBI.

      This cable did not state by whom or to whom the documents were passed
or make any other reference to the passage of the documents. The cable was an
internal cable.,,which means it would not have.'been forwarded to or accessible
tOthe FBI. In addition, Michelle, the CIA desk officer who wrote the cable,
had no recollection of who told ]herthat the documents had been passed or how
they had been passed. She said that she would not have been responsible for
passing the information but instead would have been told by someone else that
the documents had been passed.
      We were unable to locate any witness who said they remembered
anything about the documents being passed to the FBI, as Michelle's cable

                                        243
asserted. Even if her cable was accurate, and she ihadbeen told by someone
that the documents had been passed to the FBI, there is no evidence that such
information was correct. The CIA madFBI witnesses we intelwiewed described
this period as vepy hectic and said they were flooded with information. Several
witnesses suggested that these hectic circumstances could have created an
environment where unintentional misunderstandings might have occurred
about whether information was actually passed to other Intelligence
Community agencies.
     We also searched ACS for any FBI record of the travel documents having
been provided to the FBI, since this cable indicated that a physiical copy of the
documents, not merely information about the documents, was passed. We
found no reference to the documents.
     Aside•-from this cable, we found no other evidence that the information or
documents about Mihdhar's passport or visa information was in fact provided
to the FBI during this time period.

                 c.    FBI detailees' handling of information on Mihdhar
       As discussed above, five FBI employees were detailed to the CTC to
work on Bin Laden matters during 2000 and 2001, and all had access at their
desks to CIA internal cable traffic. Four of those employees- the supervisor
whowe call Eric, the IOS who we call Mary, and the agents who we call
Dwight and Malcolm- were at the Bin Laden Unit in January 2000 when the
Malaysia meetings occurred. 177 We considered how each handled the
intelligence infonmation concerning Mihdhar during this period.
      After reading two of the cables indicating that Mihdhar had a U.S. visa,
Dwight prepared a draft CIR to officially notify the FBI about _Ihatinformation,
since the U.S. visa presented a nexus between MiMhar and the United States.
But the CIR was not provided to the FBI. However, we also examined whether
any of the detailees took any other action to notify FBI Headquarters or, in
Malcolm's case, the New York Field Office, about the information concerning
Mihdhar.


     177The fifth detailee - the manager who we call Craig - did not arrive at the CTC until
July 2000.



                                            244
       The evidence shows that each FBI detai][eereviewed some of the cables
about Mihdhar's U.S. visa. Dwight accessed several of thecables that
indicated Mihdhar had a U.S. visa, such as the:cables stating that Mihdhar had
transited through Dubai and had a U.S. visa, the cable stating that Mihdhar's
visa application listed New York as his intended destination in May 1999, and
the cable stating that based on a review of Mihdhar's visa, Jitdid not appear that
he had actually traveled to the United States.
       Malcolm also accessed the cable stating that Mihdhar's visa application
listed New York as his intended destination in May 1999, and the cable stating
that it did not appear that Mihdhar had actually traveled to _LheUnited States.
Malcolm also accessed the two cables stating that Mihdhar had arrived in •
Kuala Lumpur and that surveillance photos showed him meeting with others in
Malaysia. Malcolm also accessed Dwight's draft CIR indicating passage of the
visa informati0n to the FBI, including the New York Field 'Office.
       Mary accessed     the January    cable stating that Mihdhar's       travel documents,
including a multiple-entry U.S. visa, had been passed to the: FBI, but she did
not access the,previous cables reflecting the visa information or Dwight's CIR.
She also accessed the two cables stating that Mihdhar had arrived in Kuala
Lumpur and that surveillance photos showed him meeting with others in
Malaysia.
      Eric did not access these cables, but he accessed Dwight's draft CIR
which detailecl Mihdhar's visa information and which SUlmnarized the NSA
information.
       However, Dwight, Malcolm, Mary, and Eric all told the OIG that they
did not recall anyone from the CIA bringing to their attention the fact that
Mihdhar had a U.S. visa. In addition, despite the records of their access to the
cable traffic or the CIR, they all told the OIG that they did not recall
discovering allthe time - such as by reading a cable- that Mihdhar had a U.S.
visa. 178 As discussed above, Dwight told the OIG that he dJid not even recall



     178The detailees also told the OIG that they did not necessarily read all of the cables
they accessed. They explained that they often skimmed cables to determine if any action
was required on their part or to find specific information in connectien with a particular
assignment or issue.



                                              245
    writing the CIR or even being aware of the Malaysia meetings or of the fact
    that Mihdhar had a U.S. visa. Eric told the OIG that his CIA counterpart-
    John, the CIA Bin Laden Unit Deputy Chief- mentioned the Malaysia
    meetings and that surveillance photos had been taken, but Eric did not recall
    ever hearing anyt]hing about Mihdhar having a U.S. visa. Mary told the OIG
    that she did not recall even being contemporaneously aware of the Malaysia
    meetings. 179Mar.Vexplained that she did not have',reason to be made aware of
    the Malaysia meetings at the time because the malLterhad been assigned to
    another CIA desk officer- Michelle (the one whowrote the cable indicating
    that Mihdhar's travel documents had been passed to the FBI).
               ,   :



          Malcolm said he was not aware of the fact that Mihdhar had a U.S. visa
    until after September 11. He stated that he recalle,d being shown the Kuala
    Lumpur photos, but he could not remember whether that was before or after
    September 11. He said that it was not until he was shown the Kuala Lumpur
    photos that he became aware ofthe Malaysia meetings.
          Yet, the evidence shows that all had accessed contempor_meously cables
    indicating that MJihdhar had a U.S. visa, which was important intelligence
    information that was never provided to FBI Headquarters. They did not violate
_   any specific policy or procedure in t]heirhandling of the information, and they
    did not have the authority to unilaterally pass CTC information to the FBI
    without permission. This restriction included any informal passage of the
    information, such as by telephone call or in-person discussions. However,
    none of them, particularly Dwight, ensured that the information was provided
    to the FBI. Dwight drafted a CIR that would haw_ provided the FBI with the
    important information about Mihdhar, but the CIR was not released by the
    CIA. Although Dwight followed up a few days later to ask whether the cable
    was going to be sent or whether he should remake',it in some other way, there is
    no record of a response to his request, find no one could explain why the cable
    was not sent. We:believe it was critical that the information be:sent. We found
    no indication that this ever happened.



         179When we showed Mary copies of an e-mail written by the CTC officer who had
    briefed SSA Bob and Ted, which indicated that she was copied on the e-mail, she said that
    she did not recall haring read the e-mail.



                                               246
       This failure to send the information to the FBI, in our view, was also
attributable to problems in how the detailees were instructed and supervised,
and that these problems significantly impeded the flow of information between
the CIA and the FBI. We discuss these systemic problems in detail in our
analysis section later in this chapter.

               d.       OIG conclusion

     In sum, the evidence shows that in January and Marctl 2000, the CIA
uncovered important intelligence information about Mihdhar and Hazmi:
                    t




     ® They lxaveled to Bangkok with a third person;
     ® Mihdhar had a valid, multiple-entry U.S. visa; and
     ® Hazmi had traveled to Los Angeles in January 2000.
       Yet, we found that the CIA did not share significant pieces of this
information with the FBI - that Mihdhar had a U.S. visa and that Hazmi had
traveledto Les Angeles. An FBI detailee at the CIA drafted a CIR to share this
information with the FBI, but that information was not released by the CIA to
the FBI. We 'were unable to determine why this did not occur. No one we
interviewed said they remembered the CIR or why it was not sent to the FBI.
We consider it a significant failure for this CIR not to be sent to the FBI.
      In addition, the evidence shows that the limited information that was
provided to FBI Headquarters - that Mihdhar traveled __
__                                          was never documented by the FBI
in any system that was retrievable or searchable, thus limiting the usefulness of
the information that was shared. The FBI's only official record of having
received this information was in the hard copies of the January 5 threat update,
which was attached to the January 6 executive, briefing, and Ted's e-mail
summarizing information from his discussion with the CIA employee. We
discuss this madother systemic problems in our analysis section below.




                                         247
         B.    Hazmi ;and Mihdhar        in San Diego

               1.   Introduction

           The second set of events that may have led the FBI to diScover Mihdhar
    and Hazmi's presence in the United States related to their stay J[nSan Diego.
    As noted above, on January 15, 2000, Mihdhar and Hazmi boarded a flight in
    Bangkok, Thailand, for Los Angeles. They were ;admitted to the United States
    on non-immigrant visitor visas and authorized to remain in the U.S. until
    July 14, 2000. Shortly after arriving in Los Angelles, they traveled to San
    Diego, California, where they were aided in finding a place to ,;tay by Omar
    al-Bayoumi. Bayoumi had been the subject of an FBI preliminary intelligence
    investigation that had been closed.
           In late May 2000, Hazmi and Mihdhar rented a room in tl_e residence of
    an FBI asset. 18° Mihdhar remained in San Diego until June 10, 2000, when he
    left the United States. TM Hazmi remained in the San Diego area until
    approximately December 2000, when he moved to the Phoenix, Arizona area.
    In Phoenix, Hazmi lived for approximately three months with another
    September 11 hijacker, Hani Hanjour. In April 2001, Hazmi and Hanjour
    moved to New Jersey and remained on the East Coast until September 11.

            Whileresiding     in San Diego in 2000, Mihdhar and Hazmi did not act in
     an unusual manner that would draw attention, but they did not attempt to hide
     their identities. Using the same names contained in their travel documents and
     known toat least some inthe Intelligence Community, they rented an
     apartment, obtained driver's licenses from the state of California Department
     of Motor Vehicles, opened bank accounts and received bank credit cards,
•    purchased a used vehicle and automotive insurance, took flying lessons at a
    local ilying school, and obtained local phone service that included Hazmi's
     listing in the local telephone directory.




        180This kind of individual is often referred to as an "informant" - the common
    vernacular for an individual providing information to an investigative agency. Within the
    FBI's foreign intelligence program, they are known as assets.
        181Mihdhar departed from Los Angeles on Lufthansa Airlines.



                                                248
      Although Hazmi and Mihdhar were in San Diego for a significant period
of time, the FBI did not learn of their presence there until after September 11,
2001. After September 11, much would be learned about Hazmi and
Mihdhar's time in San Diego and the Intelligence Community's missed
opportunities to find and investigate them befi)re the terrorist attacks in which
they participated. In this section, we describe the facts surrounding Hazmi and
Mihdhar's residence in San Diego, including their associations with two
persons known to the FBI.

          2.    Hazmi and Mihdhar's association with B_tyoumi
    _ Omar al-Bayoumi is a Saudi Arabian national who came to the United
States in 1993. In early 2000 he had been living with his wife and four
children in Sa_ Diego for at least four years. Although he described himself to
others in San Diego as a graduate student in business administration, he took
classes interrnittently and was not enrolled in a program of study. He did not
work in the United States and received a momhly stipend of $4,000 plus "other
allowances," ranging from $465 to $3,800 each month, from Dallah/Avco, a
Saudi contractor to the Presidency of Civil Aviation. _82Bayoumi was active in
the San Diego Muslim community and was involved in the establishment of
several mosques in the United States.
      In September 1998, the FBI's San Diego Field Office: opened a
preliminary inquiry on Bayoumi based on allegations raised by the manager in
the apartment complex where he was living at the time. The manager alleged
that Bayoumi had received a suspicious package from the Middle East, and the
maintenance 'worker for the apartment comple,x had noted strange wires in
Bayoumi's bathroom. In addition, the manager reported frequent gatherings of
young Middle Eastern males at Bayoumi's apartment on weekend nights.
      The FBI case agent conducted a limited investigation of Bayoumi, but the
preliminary inquiry was closed in June 1999 and was not converted to a full




    182Bayoumi was employed by the Saudi Presidency of Civil Aviiation from 1975 until
1995 and became a contractor for the organization beginning in 1995.




                                          249
field investigation. _83As a result, the FBI was no longer investigating Bayoumi
at the time that Hazmi and Mihdhar met Bayoumi in February 12000. However,
the following paragraphs describe what was later learned about Bayoumi's
interactions with Hazmi and Mihdhar.
      On February 1, 2000, Bayoumi traveled by car from San Diego to Los
Angeles, to resolve a visa issue at the Saudi consulate. Bayoumi invited an
associate, Isamu Dyson, to accompany him. TM Dyson provided the following
account to the Ft3I of the trip with Bayoumi. _85
      Dyson said that at the time of the invitation, Bayoumi mentioned a Los
Angeles restaurant serving halal food where they could eat lunch after .
Bayoumi's meeting at the consulate. 186After Bayoumi spent approximately
onehour at the Saudi consulate, he and Dyson went to the rest_mrant but
discovered it had been converted to a butcher shop. The butcher shop
employees recommended another nearby halal restaurant, the "Mediterranean
Gourmet."            Bayoumi    and Dyson    walked    to that restaurant.   W_.ile they were
eating there, Hazmi and Mihdhar entered the restaurant and the',four talked in
Arabic. Although Dyson had limited Arabic language skills, he said that
Bayoumi kepthim apprised of the content of the conversation. Hazmi and
Mihdhar told Bayoumi that they were in the United States to study English, but
they did not like living in Los Angeles. Bayoumi invited the men to visit San
Diego and offered to assist them. Bayoumi provided the men with his phone
number. Bayoumi and Dyson left the restaurant, and after stopping at a nearby
mosque forsunset prayers, returned to San Diego.. Dyson asserted that the
encounter with Hazmi and Mihdhar seemed to be a coincidental meeting.
       ..



 : Within several days of the meeting, Hazmi and Mihdhar accepted
Bayoumi's invitation and traveled to San Diego. In San Diego, Bayoumi
  •.                                                                                            \




     183In Section IV B 1 of this chapter, we examine the :investigative steps taken by the
FBI in this preliminary inquiry and assess the appropriateness of the deci,;ion to close the
inquiry.
    184Dyson is an .American Caucasian who converted to Islam. He has',since changed his
name to Caysan Bin Don.
            _85Dyson provided the information to the FBI in an interview after September 11.
            186Halal is an Arabic word meaning "lawful" or "penxfitted."



                                                   25O
arranged for Hazmi and Mihdhar to rent an apartment on Mount Ada road in
the same apartment complex where Bayoumi lived. Bayoumi also co-signed
their lease. Shortly after Hazmi and Mihdhar :moved into fl_e apartment,
Bayoumi hosted a party to introduce them to the local MusJlim community.
       Within a few weeks of moving into the apartment, Hazmi and Mihdhar
filed a 30-day notice to vacate the apartment, apparently to move to another
 apartment. However, they later rescinded the vacate notice and continued to
lease the apal_Lmentuntil June 2, 2000.187
      The apartment manager told the FBI that Bayoumi paid Hazmi and
Mihdhar's first month's rent and security deposit because they had not yet
established a local bank account and the apartment complex would not accept
cash. A review of Bayoumi and Mihdhar's financial records after September
11,2001, indicate that Bayoumi was reimbursed for this expense on the same
day it was paid. is+

           3.    Hazmi    and Mihdhar's       communications

      On March 20, 2000, a long distance telephone call was placed from
Mihdhar and Hazmi's Mount Ada apartment to a suspected terrorist facility in
the Middle East linked to al Qaeda activities. (See section III; A, 2 above.) A
record of the call was captured in the toll records. After the September 11
attacks, the call was identified through a record check.




     187Bayoumi left the United States for some of the time Hazmi and Mihdhar lived in the
apartment. INS records do not indicate when Bayoumi left the country, but the records
indicate that he obtained a United States visa in Jeddah on May 10, 2000, and returned to the
United States or.tMay 31, 2000. Bayoumi left the United States permanently in July 2001
and was living in England on September 11,2001.
     t88Bayoumi's bank records show a cash deposit in the exact amount of the rent and
security deposit ($1,558). Mihdhar's financial records also indicate that he opened an
account with a deposit of $9,900 in cash within seven minutes of Bayoumi's cash deposit,
which suggests that they were in the bank together.



                                            251
           4.    Hazmi and Mihdhar's          association   with an FBI asset
                 beginning    in May 2000
       Sometime in May 2000, Hazmi and Mihdhar moved out of the apartment
Bayoumi had found for them on Mount Ada Road and moved as boarders into
the home of an asset of the FBI's San Diego Field Office. 189Hazmi and
Mihdhar met the asset at the mosque they attended. 19° Mihdhar stayed at the
asset,s residence until June 10, 2000, when he left: the United States. Hazmi
resided in the asset's house until December 10, 20,00, when he moved to
Arizona.
.     !


                 a.    Background      on the FBI asset
       In 1994, the asset was recruited by San Diego FBI Special Agent who we
call "Stan" The FBI had interviewed the asset in connection with a bombing
investigation seve,ral years before. Stan remained the asset's h_mdling agent-
or "control agent"- until Stan retired in February 2002.191
       The asset was opened as an asset on May 14, 1994.192 He: worked as an
informational source, providing to the FBI information acquired in his normal
daily routine. He normally was questioned about specific individuals who
were under investigation by the FBI, although he occasionally volunteered
information that he thought might be relevant. According to Stan, during some


     189The OIG wa,;not able to interview the asset. The Joint Intelligence Committee
Inquiry had attempted to interview the asset without success. The Committee then
submitted interrogatories that the asset declined to answer:,asserting his Fifth Amendment
privilege. The asset indicated through his attorney that if,;ubpoenaed by _iheCommittee, he
would not testify without d grant of immunity.
    _90There is some dispute about whether Hazmi and Mihdhar actually responded to an '
advertisement for boarders posted by the asset or whether they were introduced to the asset.
The OIG did not have access to the witnesses who could address this issue.
     191Stan was interviewed twice by the JICI staff, and he testified before the Joint
Intelligence Committee. After his retirement from the FBI, Stan declined repeated requests
for an OIG interview. The OIG does not have authority to.subpoena individuals and cannot
compel former Department of Justice employees to submit to an interview.
    192Initially the asset was not paid. In July 2003, the asset was given a $100,000
payment and closed as an asset.



                                            252
periods, he would talk to the asset several times per day, but there were periods
in which he diidnot talk to him for several weeks or months'.. Stan said that
many of their conversations were about family matters, the informational
asset's health, and other non-substantive issues.
      In 1996.,the asset began renting out rooms in his home. Prior to
September 11,2001, he had 14 different boarders in his house, including
Hazmi and Mihdhar. When Hazmi and Mihdhar rented rooms from the asset in
2000, two other persons also were renting rooms there.

               b.   Information from asset on Hazmi and Mihdhar
    It is not clear what information the asset provided to the FBI about
Hazmi and Mihdhar before theSeptember 11 attacks.
       After the September 11 attacks, the FBI interviewed the asset and asked
about the conduct and activities of Hazmi and Mihdhar while they were living
with the asset. In those interviews, the asset described them as quiet tenants
who paid their rent. He said they were good Muslims who regularly prayed at
the mosque. The asset said that Hazmi and Mihdhar oftel_twould go outside
when using their cellular telephones. The asset insisted that he noted no
indicators of nefarious activity by Hazmi or Mihdhar that s]houldhave resulted
in his reporting their identities to the FBI.! 93
       The asset was asked what information he provided to Stan about Hazmi
and Mihdhar before September 11. In these interviews, the asset provided
conflicting accounts regarding the information on Hazmi and Mihdhar that he
had disclosed to Stan. The agent who interviewed the asset- this agent had
taken over as the asset's control agent after Stan's retirement from the FBI -
told us that the asset said he told Stan about his boarders in general terms,
although he had not fully identified Hazmi and Mihdhar. The control agent
said that the asset later said that he had not told Stan about the boarders at all.



    193TheFBI openedan investigationafterSeptember11to determinewhetherthe asset
was involvedin the attack. The assethas consistentlymaintainedafterSeptember11that he
had no suspicionsaboutHazmi andMihdhar. The res.ultsof apolygraphexaminationonhis
potentialrole wereinconclusive.Basedon its investigation,however,the San DiegoFBI
concludedthat theinformationalassethadnot been complicitin plottingthe attacks.



                                        253
       Although Stan declined to be interviewed by the OIG, after
September 11, his',FBI supervisors had interviewed him about the asset. Stan
also had discussed the asset with co-workers and was interviewed by, and
subsequently testified in, a closed session before the Joint Intelligence
Committee. 194Stan reported that the asset had told him contemporaneously
that two Saudi national visitors were residing in a room at his r,esidence. Stan
said that the asset merely provided the first names of the boarders, Nawaf and
Khalid. Stan conlLendedthat he had asked the asset for the boarders' last names
but never received them and did not follow up. He said that the asset told him
that his boarders were in the U.S. on valid visitors.' visas, and they planned to
visit and to study while they were in the country. In addition, Stan said that the
asset told him that he believed that the two boarde,rs were good Muslims
because of the amount of time that they spent at tile mosque. Stan stated that
he did not recall tlhe asset ever telling him that either of the boarders had
moved out. According to Stan, the asset did not describe his boarders as
suspicious or otherwise worthy of further scrutiny. Stan reported that he never
obtained Hazmi and Mihdhar's full identities from the asset and that he did not
conduct any inve,;tigation of them.

           5.    OIG conclusion
      In sum, the FBI did not obtain information about Mihdhar's and Hazmi's
time in San Diego, either as a result of the Bayoumi preliminary inquiry or
from the asset. In the analysis section of this chapter, we evaluate Stan's
actions with regard to Hazmi and Mihdhar and whether he should have pursued
additional information about who was living with one of his assets.

     C.    Mihdhar's association with Khallad, the purportedmastermind
           of the Cole attack

     The third potential opportunity for the FBI to acquire information about
Hazmi and Mihdhar occurred in January 2001

                                                          However, the FBI has


      194The OIG was permitted to review the transcripts of Stan's testimony before the Joint
Intelligence Committee's Inquiry.



                                            254
         asserted that it did not learn of the source's identification or"the al Qaeda
         operative at the Malaysia meetings until much later in 2001, just before the
         September 11 attacks. This section of the report describes the events
         surrounding this third opportunity for the FBI to focus on Hazmi and Mihdhar.

-                   1.    Background
                In 2000, the CIA and the FBI began debriefing a source who provided
         significant infbrmation on operatives and operations related[ to Usama Bin
         Laden. The source gave the CIA and the FBI information about an al Qaeda
         operative known as "Khallad" and described him as being involved with the
         East African embassy bombings in August 1998. Shortly after the U.S.S. Cole
         was attacked JinOctober 2000, the CIA and the FBI received a photograph and
         information that a man named "Khallad" was the purported mastermind behind
         the attack on the Cole. In December 2000, the CIA and the FBI showed the
         source the photograph of Khallad, and the source identified the person inthe-
         photograph as the same Khallad he had described as involved with the East
         African bombings. As part of the Cole investigation, the FBI sought to find
         Khallad.

               In January 2001, the source Was shown photographs ii'om the Malaysia
    ..   meetings in an effort to determine whether Khallad Wasin the photographs.


                                                                       195




                     As a result, they Said, they may have uncovered earlier the CIA's

                                                                                                        \


              195Information developed after September 11, 2001, revealed this was a
         misidentification, and the person identified as Khallad was actu_illy Hazmi. We discuss this
         misidentification in detail below.




                                                     255
information about Mihdhar and Hazmi and found them in the United States
well before the summer of 2001.        _



                             For example, on September 26, 2002, Cofer Black,
who served as Director of the CIA's CTC from 1o99 until May 2002, testified
before the Joint Intelligence Committee:
            FBI agents and analysts had full access to information [the
      CIA] acquired about the Cole attack. For example, We ran a
      joint operation with the FBI to determine if a Cole suspect was
      in a__]l            surveillance photo. I want to repeat- it was
      a joint operation. The FBI had access to that information from
      the beginning. More specifically, our records establish that the
      Special Agents from the FBI's New York Field Office who were
      investigating the USS Cole attack reviewed the information
      about the __              photo in late January 2001,
      We therefore examine in detail the evidence relating to whether the FBI
was aware of the identification of Khallad in the photographs of the Malaysia
meetings.

           2.    Source's identification     of Khallad

                 a.   The source

       In mid-2000, Drug Enforcement Administration (DEA) personnel
arranged for FBI Legal Attach4 (Legat) Office personnel overseas to meet a
source who had substantial information on Bin Laden an d his eperatives and
operations. This particular FBI Legat office was staffed by the Legal Attach4
(the "Legat") and the Assistant Legal Attach4 (the',ALAT), who were FBI
Special Agents. _96



     _96The primary mission ofFBI Legat Offices is to establish liaison with foreign law
enforcement agencie,s to support the FBI's investigative activities overseas. While Legat
staff may become involved in specific investigations, they have no flawenforcement
authority in foreign countries. For a description of the role and responsibilities of FBI
(continued)

                                            256
           Because', of the FBI Legat personnel's inability to converse in any of the
    source's languages, limits onthe FBI's authority to conduct unilateral
    intelligence activities overseas, and the source:'s potential value as a source of
    intelligence information relevant to the CIA, tlhe FBI contacted the CIA for
    assistance with the source. The source was subsequently handled as a joint
    FBI/CIA source. Even though the FBI ALAT- who we call "Max"- was
    unable to directly communicate with the source due to the lack of a common
    language, he was designated as the FBI control agent for the source.
          Because: the source had significant information about Bin Laden and his
    operatives and operations, the FBI New York Field Office-- the office that was
    leading the investigations on the East African embassy bolnbings, the Cole
    attack, and other Bin Laden-related investigations - also became involved with
    the source. This joint handling of the source created concerns within the CIA.
-   The CIA's most significant concern was the FBI's desire to use the source for
    the criminal investigations involving Bin Laden conducted by the FBI's New
    York Field Office. The CIA believed thatthe source shouM not face possible
    exposure in criminal proceeding,;.
           CIA Headquarters was asked to work with FBI Headquarters to convert
    the source to purely an intelligence role, solely under CIA control. According
    to CIA documents, the CIA and the Legat had discussed the FBI's "wall"
    whereby separate but concurrent intelligence _mdcriminal investigations were
    conducted within the FBI, but the CIA expressed concerns :about the CIA's
    ability to continue clandestine handling of the source if the FBI was involved.
    Although the CIA acknowledged that the source had value to the FBI's
    criminal case, the CIA argued that the source's potential as an intelligence
    asset was more important then his potential assistance in the criminal case.
    Despite the CIA's concerns, the source remained a joint FBI/CIA asset.

                   b,   Debriefings of the source
          Beginning in 2000, the CIA and FBI began to debrief the source on a
    regular basis. Over the course of several months, the source frequently was

    (continued)
    Legats,see the OIGreportentitled,"FederalBureauof InvestigationLegal Attach6
    Program"(March2004).



                                            257
shown photographs and asked to identify people in them. Although Max was
the source's designated control agent, aCIA officer who spoke one of the
source's language,s conducted the debriefings. Max was present for some of
these debriefings, but not all. Some of the debriefings were unilateral CIA
interviews. The time spent with the source was kept short because of issues of
travel and security.
       According to Max, during the debriefings the CIA officer usually did not
immediately translate the source's statements for 1Lhe benefit of Max. He said
that the CIA case officer would only immediately translate something when
Max had specific questions for the CIA officer to ask the source. The CIA case
officer told the O][Ghe recalled translating for Max things that the source said,
but he did this only when he recognized the significance of the information to
Max or an FBI operation.
       In an effort not to duplicate the reporting of information received from
the source,   the CIA and the FBI agreed that the C][A would be responsible           for
reporting the information from the debriefings. However; in instances where
the source was solely being shown FBI photographs or questioned based on an
FBI lead, Max would document the source's information, either in an EC or an
FBI FD-302 form, and the CIA wou][dnot document the same information.
       After the debriefings, the CIA officer would write internal cables
covering the debriefings and forward them to the CTC and other appropriate
offices. These cables were internal CIA communications and were not
provided to or shared with Max or other FBI personnel. _97Instead, Max and
FBI Headquarters'. would be informed of the debriefings when the information
was reported by t]heCIA in a TD. As previously discussed, TDs were prepared
by CIA reports officers who reviewed the internal cables and determined what
information needed to be disseminated and to which agencies. Based on our
review of internal cables reporting the source's debriefings and the TD
reporting of the same interviews, it is clear the TDs often contained only a part
of the information obtained during the source deb]riefings. As a result, either


     197As discussed above, FBI detailees to the CTC had access to these CIA cables, but the
review and dissemination of source information to the FBI was not considered their
responsibility.



                                           258
through direct knowledge or through the TDs, Max had access to only some of
the information obtained from the source during the debriefings.
       In addition to the debriefings of the source by the CIA case officer, FBI
agents from the New York Field Office working Bin Ladel_L-related criminal
investigations also interviewed the source with the CIA case officer present.
Max occasionally was present for these interviews. After each of these
interviews, the New York agents documented the source's J[nformation in detail
in an FD-302 that was entered into ACS and retrievable by all FBI personnel
working on the Bin Laden cases. _98These FD-302s were routinely shared with
CIA personnel in the field and at the CTC.

                 c.   Source identifies Khallad from Yemeni-provided
                      photograph

       Over a 3-month period in 2,000, FBI New York Field Office personnel
interviewed tile source overseas four times. During one of these interviews, the
source described an individual known as "Khallad" as a trusted senior Bin
Laden operative with potential connections to the East African embassy
bombings.
      As noted above, on October 12, 2000, two terrorists in a boat laden with
explosives committed a suicide attack on the U.S.S. Cole, a U.S. naval
destroyer, during its brief refueling stop in the port in Aden, Yemen. The
FBI's investigation into the attack was led by the FBI's New York Field
Office.

      After the attack on October 12, the Yemenis provided[ the FBI and the
CIA with information onthe Bin Laden operative known a,; "Khallad."
According to this information, Khallad had been described as the purported
mastermind of the Cole attack. U.S. intelligence agencies had already


     198When a witness is interviewed as part of a criminal investigation, the FBI prepares
an FD-302 todocument what was said in the interview. When information is being obtained
as part of an intelligence investigation, the FBI documents the information in an EC. There
was often a significant lag time between the interview and the completion of the
documentation due to a variety of factors, including the intensity of investigative activity,
the agents' extensive travel, and the required review of the document:ationby FBI
supervisors before dissemination.



                                            259
connected Khallad to the East African embassy bombings. The Yemenis also
identified "Khallad" as Tawfiq Muhammad Salih Bin Rashid allAtash. On
November 22, 20,00, the Yeminis provided the FBI with a photograph of
Khallad ("the Yemeni-provided photograph").   Around this same time, the
Yemenis provided the FBI with several photographs of other Cole suspects.        r




       The New York FBI agents investigating the Cole bombing wanted to
determine whether the Khallad identified by the Yemenis was the same
Khalladwho had been previously described by the source. At llhe same time, a
CIAinternal cable to was sent to several CIA offices suggesting that the
photographs of the Cole suspects that the FBI had obtained from the Yemenis,
including the Khallad photograph, be shown to the source. Because the FBI
did not have the technological capability to easily transmit the Khallad
photograph from Yemen to the ALAT who was handling the source and who
we call Max, the ]photograph was forwarded through CIA cha_aels to the
nearby CIA office in order to show the photograph to the source. 199
      CIA documents show that on December 16, 2000, the CIA officer
conducted a debriefing of the source. Max was present for the debriefing. 200
During the debriefing, the CIA case officer showed the source :many photos of
Cole bombing suspects and other suspected Arab terrorists, including the
Yemeni-provided photograph of Khallad. The source immediately identified
the individual in the Yemeni-provided photograph as the same Khallad he had
previously described as a trusted senior Bin Laden operative with potential
connections to the East African embassy bombings.
      The CIA officer prepared a cable documenting the debriefing, which was
addressed to several CIA offices. The CIA officer wrote in the cable that the
source was shown the many photographs             and "quickly"   identified Khallad in


     199Max told the OIG that at the time he and the CIA case officer believed that this
photograph had come from the FBI's New York Field Office. Max added that it was not
uncommon for him not to know the source of photographs that were shown to the source
and that the source was shown hundreds of photographs.
     2ooAlthough FBI agents from New York had traveled overseas several times in 2000 to
interview the source, in December 2000 the agents with the appropriate language abilities
were tied up in Yemen after the Cole attack and were unable to travel to debrief the source.
Therefore, the FBI relied on the CIA to conduct this debriefing.



                                            260
    the Yemeni-provided photograph. Notably, file CIA cable ..stated that the CIA
    officer had the source repeat the identification specifically for the benefit of
    Max. In addition, the cable stated that before the debriefing ended, the CIA
    officer again showed the photographs to the source and asked the source to
    verify the Khallad identification.
           Max acknowledged to the OIG that he was contemporaneously      aware of
    the identification of Khallad in the Yemeni-provided photograph by the source
    on December 16. Max stated that he recalled specific circumstances of the
    debriefing and recounted them to us. Max told us that he recalled the source
    immediately identifying Khallad in the photo[vaph.

                    d.    CIA suspects that Khallad may be Miihdhar in Kuala
                          Lumpur surveillance photographs
           Around this same time; CIA personnel were beginning to connect
    Khallad with Mihdhar _l__lll.                                       In a
    December 2000 cable, CIA personnel overseas asked for copies of the January
    2000 Kuala Lumpur surveillance photographs of Mihdhar. The cable noted
    that further connections had been made between Mihdhar and A1 Qaeda. As a
    result of these further connections, the CIA be.lieved there might be a
    connection be,tween Mihdhar and the Cole perpetrators.
            The CIA office reported in the December 2000 cable that the it had
    learned that Fahd al Quso, who was in Yemeni custody for his participation in
    the Cole attack, had received $7,000 from someone named Ibrahim, which
     Quso had taken to Bangkok, Thailand, on January 6, 2000, to deliver to
•    ',Khallad," a IYiend of Ibrahim's. It was noted in the cable that because
    Mihdhar had .departed Kuala Lumpur around that same time to travel to
    Bangkok, the CIA suspected that the "Khallad[" mentioned by Quso could
     actually be Khalid al Mihdhar or one of his associates) °_ It: was noted further
    that this information had "added significance" because KhaLllad had been




         201As previously discussed, the CIA had reported previously in an internal March 2000
    cable that Mihdlhar,Hazmi, and another individual had left Malaysia on January 8, 2000,
    and traveled together to Bangkok.



                                               261
identified as a "key operative likely serving as an intermediary between Usama
Bin Laden and the [Cole] perpetrators."
      In another December 2000, cable the CTC concurred with the overseas
CIA office's theory and forwarded a Kuala Lumpur surveillance photo of
Mihdhar to the CIA case officer to show to the source. According to the cable,
the purpose was "to confirm/rule out this particular Khalid [Mi:hdhar] as a
match for [Khallad]. ''2°2 The next day, the CIA officer received permission to
show the Kuala Lumpur surveillance photographs to the source.
      Max told the OIG, however, that he was not aware of the CIA cables or
the theory that Khallad was actually Mihdhar. We found no other evidence
that Max knew about the information that Mihdhar was at the Malaysia
meetings, or the CIA's theory that Khallad was actually Mihdhar. 2°s

                 e.    Source identifies Khallad from Kuala Lumpur
                       photograph

     The CIA case officer debriefed the source again in early January 2001.
At some point, the CIA case officer showed the source photographs, including
two of the surveillance photographs taken during 1Lhe
                                                    January 2000 Malaysia
meetings. One of the photographs from the Malaysia meetings, which we call


     2°2The CIA cable referred to its forwarding of only one Kuala Lumpur surveillance
photograph,; although subsequent cables showed that the receiving office received two Kuala
Lumpur photograph,; to show the source. It is unclear why the sending office sent only two
of the photographs instead of all three of the Kuala Lumpur photographs it had.
     2o3In fact, CIA cables suggest this information was not shared with tlm FBI. We saw
several CIA cables during this time that discussed working with the FBI in relation to the
FBI's investigation of the Cole attack. For example, we saw a December 2000 cable stating
that the FBI had provided an update on its investigation of the location associated with
telephone numbers tlae CIA had provided to the FBI in cormection with an investigation, and
the office that drafted the cable asked to be advised of whether the two offices to whom the
cable was addressed were aware of additional information that could assist the FBI.
However, we saw another December 2000 cable, which discusses Khallad and other
information not related to Khaliad, which specifically instructed two CIA offices to share
with the FBI the other information in the cable that was not related to Khallad, but it did not
instruct the offices to share the information regarding the possible connection of the
Malaysia meetings and Khallad.



                                             262
           )                          f




                                                                .!.



    "Photo No. 1'" included an unknown subject. 1__
    __                                            According to a January 2001, cable
    written by the CIA case officer, the source was askedifhe     was sure, and he
    replied that he',was "ninety percent" certain. TM

,         The second photograph from the Malaysia meetings, which we call
    "Photo No. 2," contained a picture of the person the CIA knew to be Mihdhar.
    The source could not identify the person in the,"photograph. :2°5
                                                                 1




                    First, the source previously provided information that Khallad
    was a Bin Laden operative who was connected to the ."Cole;attack and the East
    African embassy bombings.




    Thus, the som'ce's identification of Khallad atthe Malaysia meetings raised the
    question whether Mihdhar and Hazmi also were linked to the Cole attack.
          We tried to determine if the FBI's ALAT learned of tlhe source's
    identification of Khallad in the photograph. Max told the OIG that he did not
    specifiCally re,call the early January 2001 debriefing Qf the source.




           The CIA case officer told the O!G that he had no independent
    recollection of any particular meeting with the', source, including the meeting in
    early January 2001.




        204As noted above, information developed after September 11, 2001, revealed this was
    a misidentification, and the person identified as Khallad was actually Hazmi.
        205This failure to identify Khallad in the photograph known to be of Mihdhar should
    have ended the theory that Mihdhar and Khallad were the same person.



                                               263
                      ,i




                 f.        Documentation   regarding the source's identification             of
                           Khallad in the early January 2001 debriefing

                           (1)   CIA cables
      To examine whether the FBI learned of the ,;ource's identification                of
_                                             , we reviewed the CIA
documentation concerning the meeting with the source in early January 2001.
In an internal cabi[e written the day after the debriefing, the CIA case officer
reported that the source had identified I__ll__ll_
              with a "ninety percent" certainty. HOwever, unlike in the
December:2000 CIA cable, which stated that the CIA officer had the source
repeat the identification of Khallad in the Yemeni.-provided photograph to
Max, the January 2001 cable did not suggest the identification was repeated for
Max or was brought to the attentiOn of Max. The January 2001 cable did not                         _   :
provide any other details about the debriefing, such as where the meeting took
place, when exactly during the debriefing the photographs were shown to the
source, who was present when the photographs were shown to :Lhesource, or
what other topics were discussed with the source.
       We also reviewed a detailed January 2001 CIA TD to the Intelligence
Community regarding the early January 2001 debriefing. The TD reported
specifics about w]hat the source discussed and that he had provided a stack of
documents to his CIA and FBI handlers.     The TD made no mention of any
photographs being shown to the source __ll_l_1.2°6
       A few days later, the CIA case officer wrote another cable describing the
logistics of the early January 2001 meeting with the source. In addition, the
cable summarizecl what was discussed during the meeting. This cable also did
not mention the photographs being shown to or discussed with the source, but
the CIA case officer told the OIG that these kinds of cables were not always
comprehensive with respect to the information obtained from the source.



     206Although no witness can recall the details of this particular debriefing, it is possible
that Max, who lackeclthe appropriate language skills for a debriefing, either photocopied or
hand wrote the information from the documents thus explaining his absence at the time that
the photographs were shown to the source.



                                              264
                            (2) FBI documents
               We also reviewed FBI documents from this period relating to the source.
         On January 9, 2001, a New York FBI agent Who was the FBI's lead case agent
         on the Cole investigation sent Max an e-mail stating that he, and his co-case
         agent wanted to meet with the source to talk about some of the Cole suspects,
         including Khallad. The New York agent wrote that he Was "specially [sic]
         interested in all [the source] knows about Khallad and his associates." The
         agent noted that the source previously had given the agents important
         information regarding Khallad and the Cole attack.
            In a January 10 e-mail response, Max referred to the December 16
     meeting with the source in which the source had been shown many
     photographs and had immediately identified tile Yemeni-provided photograph
     as Khallad. Max also mentioned the early January 2001 meeting, summarizing
    specific ' information provided by the source in the debriefing. Max wrote that,
     due to the lack of technological capabilities in the Legat Office, he promised to
     make the CIA TD numbers relating to the source available _Lothe case agent
     within a few Claysso the agent could read them before his nip to interview the
     source. However, Max made no mention of any identificatiion of photographs
     by the source in the early January. 2001 debriefing.
           Around the same time as this e-mail exclhange, Max was criticized by the
     head:of the FBI'sUBL Unit at Headquarters for insufficient reporting
     regarding the source's information. The UBL Unit chief wanted toknow from
     Max what infi_rmation the source was providing. She also was concerned
     because Max was not producing any repOrts regarding the source.

.   ,,       In response, on January 16, 2001, Max wrote a 34-page EC summarizing
      the source's debriefings and other information obtained from the source since
      mid-2000, most of which was based on the information tha had been
      disseminated in the TDs by the CIA. Max explained in the EC that he merely
      was repeating what the CIA had previously reported in TDs, which had already
      been forwarded to FBI Headquarters. He noted the agreement with the CIA
      that there would not be duplicative reporting on the source's information. He
      explained the CIA was doing the primary reporting on the source debriefings
      Max noted that the interview was conducted in the foreign ]tanguage, and he
      would read the CIA's report of the interview (the TD) once it was completed.



                                              265
Max then listed all of the CIA's TDs that summarized         what the source had
said.

        On page 29 of this January 16 EC, Max summarized the CIA's reporting
of what had occmxed at the December 16, 2000, meeting with the source. The
EC stated the source was handed a stack ofmany photographs and immediately
identified thetop photograph as a photograph of _allad,    the person the source
had previously implicated in the attack on the Cole. The EC stated, "At that
time it was the clear impression of [the Legat] and [the CIA officer] that both
FBIHQ CTD and NYO were receiving all of the reporting above from CIA
liaison in the U.S., as soon as it was being filed."
       In the next paragraph of the EC, Max summarized what tlhe CIA had
reported in the TD about the early January 2001 debriefing of the source. This
summary is contained on pages 29 through 33 of the EC. Max reported at
length about the source's information, and the EC provided a lengthy
description ofthe documents provided by the source.



       Max discussed with the CIA case officer the',complaint from FBI
Headquarters about Max's reporting on the source. As a result:, the CIA case
officer provided Max with a report of the next debriefing of the',source in late
January 2001. Tile day after this debriefing, Max prepared a lengthy EC
summarizingthis    debriefing. He noted in the EC that the report was based on
the CIA's report of an interview conducted by a CIA officer and, although Max
was present for the debriefing, he only became aware of what was said after the
CIA officer provided the report. 2°7




     2o7Around the same time, the CIA officer sent a cable to CIA Headquarters that
described the FBI's need for reporting directly through FBI channels, as opposed to CIA
channels. The CIA office then asked permission to provide electronic copies of TDs to Max
so that Max could se,nd the same reporting through FBI channels.



                                          266
                     g.    New York FBI agents' interview of source on February
                           1, 2001
           Around the same time, Max was preparing for the arrival of the Cole case
'   agent from the FBI's New York Field Office. The Cole case agent was
    traveling to interview the source about Khallad, along with another FBI agent:
    who spoke one of the languages of the source and was going to assist in the
    preparation of the FD-302 for the criminal• investigation. Max had received a
    January 17 e-mail from one of the Cole agents', stating that the information
    being provided by the source was very important to the FB]Z's criminal
    investigation of the Cole attack and discussing the arrangements for the
    upcoming interview of the source by the Cole agents.
      • The New York Cole agents also asked Max to prepare an FD-302
    documenting Max's personal knowledge of the source's identification of
    Khallad from the Yemeni-provided photograph on December 16. On January
    24, 2001, Max sent an EC to the New York Field Office and FBI Headquarters
    with an attached FD-302 regarding the source's December 16, 2000,
    identification of Khallad.

            On February 1,2001, the New York Cole case agent _md another agent
     who spoke one of the source's languages interviewed the source overseas. 2°8
     The CIA case officer who had shown the Kua]ta Lumpur photographs to the
     source in early January was also present at the interview. During the interview,
     .they showed the source the Yemeni-providedphotograph      of Khallad, which
    previously had been shown to the source by the CIA officer on December 16,
     2000. The source again identified Khallad in the photograph.
           As discussed above, the agents had received information indicating that
    Quso, who was in custody for his participation in the Cole attack, had traveled
    to Bangkok and met Khallad in January 2000. The New York agents were
    investigating llhe circumstances of that trip. The agents knew that Quso
    previously had claimed that he had intended to meet Khallad in Malaysia. The


         208In anticipation of the Cole agents' interview of the source, the CIA case officer had
    sent a cable asking the Bin Laden Unit to touch base with FBI Headquarters regarding the
    case status and the planned trip of the New York FBI agents. The CIA case officer noted
    that the source was "currently of very :highinterest to our [FBI] colleagues."



                                                 267
agents were concerned about Quso' s veracity and_




          3.   OIG conclusions regarding whether the FBI was aware of
               the source's identification of Khallad in the Kuala Lumpur
               photograph




                                       Neither Max nor the CIA case officer
specifically recalled the early January debriefing, butthe documentary
 evidence supports this conclusion. In numerous CIA and FBI documents
 discussing the source and-the early January debriefing, other important
 informationfromthe source is described,
                                                                  ,Given the
 importance of that identification and the other details reported Jn the




               \




                                       268
documents, we believe such information would have been included had the FBI
been made aware of the identification. _
       For example, as described above, in the CIA case officer's cable
reporting the ]December 16 debriefing of the source during which the source
had identified Khallad in the Yemeni photograph, the CIA officer specifically
noted that ALAT heard the identification and that the identification was
repeated for the benefit of him. lVlaxsaid he recalled this debriefing and the
identification of Khallad being brought to his ;attention by tlhe CIA case officer.
       By contrast, in his cable reporting the early January source debriefing,
the CIA case officer did notstate that he brought to the attention of Max the '
identification of__.                                            Likewise in his
cable describing the logistics of the debriefing:, the CIA case officer provided a
description of what was discussed with the source and stated that Max was
present for a significant portion of the meeting with the source,



       The documents prepared at the time by Max about the early January
debriefing also suggest that Max was not aware of the identification of Khallad
in the Kuala Lumpur photographs. For example, in response to the Colecase
agent's January 9 e-mail specific:ally requesting "all [the source] knows about
Khallad," Max did not include any information about the Khallad identification
from the Kuala Lumpur photographs. This was shortly after the early January
debriefing, and the case agent had specifically indicated his. interest in any
information about Khallad.
      Max's January 16 EC to FBI Headquarters in which he described at
length what the source had reported in the early January meeting also did not
mention the identification of Khallad or that any __
were shown to the source. In addition, Max prepared an FD-302 to document
the source's identification of Khallad from the: Yemeni photograph to provide
documentation for the criminal investigation. We believe tlhatif Max had
known of the source's identification ofm[[mn__,
he likely would have prepared a similar FD-302 of that identification as well.
        We also found that the New York Field Office agent's who interviewed
the source ow:rseas in February 2001 were not made aware of the early January
identification of Khallad. The agents insisted that they were completely

                                        269
                                                                                   other
        than the Yemeni-provided photograph. In addition, we found no documentary
        evidence that the New York FBI agents were even aware

                   i Because the agents were keenly interested in Khallad and had
        asked the source to confirm his identification of Khallad from the Yemeni
        photograph, we believe the agents would have noted, remembered, and acted
        upon any information regarding another Khallad identification. We also
        believe that had the FBI known about the identification of
.   .




                                                                          , which could
        have increased the FBI's chances oflocating     them before the September 11
        attacks.

               Due to the OIG's lack of complete access to CIA employees and
        documents, we were unable to fully examine why the CIA did not inform Max
        or the New York agents that the source had identi:fied 1_
        "_                                                    i    We believe the FBI
        should have been made aware that the joint FBI/CIA source had provided such
        significant inforrnation about the personpurported      to be the mastermind behind
        the Cole attack. This failure demonstrated significant problems in
        communication between the FBI and the CIA. However, the FBI employees'
        inaccurate belief that CIA reporting in TDs was comprehensive contributed to
        the FBI's failure to obtain this critical piece of information. We discuss this
        and other systemic problems that this case revealed in the analysis section of
        this chapter.

             D.   FBI and CIA discussions      about the Cole investigation    in May and
                  June 2001

              The fourth opportunity for the FBI to have acquired intelligence
        information about Hazmi and Mihdhar- including Mihdhar's possession of a
        U.S. visa, Hazmi's travel to the United States, and the source's identification of
        __-                                              oc,curred in May and June 2001
        when the CIA and FBI Headquarters. discussed the stares of their information
        concerning the Cole attack. Once again, these discussions could have caused
        the FBI and the CIA to focus on the other persons attending Ill


                                                270
_l,                       and there,by led the FBI to search for Mihdhar and
Hazmi earlier than it did. But, as we describe below, the FBI did not obtain the
critical inforrnation about the identification ofl__ll[
!           despite several interactions in May and June 2001 between the FBI
and the CIA about Khallad.

           1.    Background

                 a.   The Cole investigation
       As discussed above, the FBI's investigation on the Cole attack was led by
the FBI's New York Field Office. 21° One of the case agents investigating the
Cole attack was an agent who we call "Scott," and who was assigned to the
New York FBI's counterterrorism squad that handled only al Qaeda
investigations (the "Bin Laden squad"). TM After serving eight years in the U.S.
Navy as a fighter pilot, in April 1996 Scott became a special agent in the FBI's
New York Office. In July 1996 he wasassigned to the TWA Flight 800
investigation because of his experience as a military pilot. Shortly after the
East African embassy bombings in August 19'98, he was trzmsferred to the New
York's Bin Laden squad to assist with the embassy bombings investigation,
and then was assigned as one of the case agents on the investigation the Cole
attack.

       The New York FBI was assisted on the Cole investigation by several
Intelligence C}perations Specialists (IOS) assigmed to the UBL Unit and the
Radical Fundamentalist Unit (RFU)at FBI He,adquarters.
      One of the primary IOSs who worked on the Cole investigation was an
IOS who we call "Donna." She had joined the FBI in 1988 as a clerk while she
completed her college education. After graduating from college in 1995, she
entered the FBI's language training program and became a Russian language

     2_0Through. their work on the 1993 attack on the World Trade Center and the
subsequent discovery of the terrorist plot to attack New York landmarks, the New York FBI
became the primary office for the investigation of al Qaeda, eventually leading to the
indictment of Bin Laden in the Southern District of New York in November 1998.

     211The other primary case agent on the Cole investigation was o_atof the country during
the events discussed in this section of the report.



                                            271
specialist working on foreign counterintelligence :matters. In November 1997,
she became an InlMligence Research Specialist (IRS), and a year later was J
assigned to assist the RFU on the East African embassy bombings
investigation. In 2000 she was permanently assigned as an IOS in the UBL
Unit and was assigned to work on the Cole investigation in October 2000.
       With regard to Donna's work on the Cole investigation, she stated that
 she and the other UBL Unit IOSs conducted the investigation as directed by the
 New York Field Office, sent out requests for information to other law
 enforcement and intelligence agencies, obtained budget enhancements to
support the investigation, and perfor_med other duties in support of the
 investigation. She and the other UBL IOSs often traveled to New York where:
 they met with the Cole agents and worked on the investigation.

              b.   The wall and the caveat on NSA information
       The information relevant to this section of the report includes NSA
information disseminated about Mihdhar in late 1!;)99and early 2000. As noted
in Chapter Two, bY the summer of 2001 NSA counterterrorism intelligence
information could[not be disseminated within the FBI without adhering to
certain procedures and protocols. At this time, the FBI was required by the
Department and t]heFISA Court to keep criminal: investigations, separate from
intelligence investigations, a policy which was commonly referred to as "the
wall." Information obtained from FISA intercepts; and search warrants had to
be screened by someone not involved in the criminal investigation and then
"passed over the wall" from the intelligence investigation to the criminal
investigation. The FISA Court became the screening mechanism for FISA
information obtained from al Qaeda intelligence investigations that the FBI
wanted to pass to criminal investigators.
      As described in Chapter Two, in response to notification lihat there had
been many errors in FISA applications approved by the FISA Court, the Court
imposed additional restrictions before information could be shared. First,
based on the FISA Court's concerns about the errors in the FISA applications,
the FBI directed tlhat only intelligence agents were,'permitted to review FISA
intercepts and materials seized pursuant to a FISA warrant (called "FISA-
obtained material"') or any CIA and NSA intelligence provided to the FBI
based on information obtained through FISA search or intercept (called "FISA-
derived" material) without further Court approval. The Court required anyone

                                     272
  who reviewed the FISA-obtained or FISA-derived intelligence to sign a
  certification acknowledging that the Court's approval was required for
  dissemination to criminal investigators.
         Because,,FISA-obtained information ofte,n was passed from the FBI to the
 NSA and the CIA, the question was raised to the FISA Court whether the FBI
 was required 1:oobtain certifications from all NSA or CIA employees who
 reviewed the FISA-obtained material. The Court exempted the NSA and CIA
  from the certification but required that the two agencies note on any
  intelligence shared with the FBI if it was FISA-derived. This was referred to
 as "a caveat."

        When made aware of this requirement, the NSA reported to the
  Department of Justice that for the NSA to determine in real-time which
  counterterrorism intelligence that it had acquired was FISA-derived would
  delay dissemination of the information. As a result, the NSA decided to
  indicate   on all[ its counterterrorism   intelligence   provided   to the FBI as being
  FISA-derived so that it could not be disseminated to criminal agents or
  prosecutors without approval from the NSA. 212Therefore, when the FBI
, wanted to pass this NSA intelligence to criminal investigators, it had to contact
  the NSA General Counsel's Office to determine whether the information was
  in fact FISA-derived before it could be passed. 213

              2.    Discussions in May 2001
        In May 2001, the potential connection o:f__
            was again discussed by CIA persormel. FBI personnel also discussed
  Khallad in reference to his nexus to the Cole attack. There were also


       212According to the NSA, its average response time to FBI requests for approval to pass
  information to criminal investigators was one to five business days.
       213The NSA information concerning Hazmi and Mihdhar was from late 1999 and early
  2000, and contained the initial caveat stating that information could not be disseminated to
  law enforcement officials without approval from OIPR. By the time FBI Headquarters was
  dealing with this information in the summer of 2001, the new caveat was being placed on
  NSA reporting, and FBI Headquarters was operating under the understanding that the NSA
  General Counsel had to approve dissemination of NSA counterterrorJ sm information .to
  criminal investigators.



                                               273
discussions   betwe, en the CIA and FBI in reference., to the

                                                                     such as
Hazmi and Mihdhar, were not addressed during tktese May discussions between
the FBI and the CIA.

                 a.    John's inquiries     about Khallad
     Between the early January 2001 debriefing of the source and May 2001,
the CIA's focus on whether Khallad, the suspected mastermind behind the Cole
attack, had attended _                       appears to have subsided. In May
2001, John, a former Deputy Chief of the Bin Laden Unit, who by that time
was detailed to ITOS in FBI Headquarters, had continuing concerns about I1
                     especially whether they had any nexus to tile Cole
attack.    John also noted to the OIG that during this period the,re were
heightened concerns in the Intelligence Community about the tJflreat of an
imminent terrorist attack in Southeast Asia.

      CIA records show that on May 15,2001, Jolm accessed the March 2000
cablestating that Mihdhar, Hazmi, and another person had traveled to Bangkok
from Malaysia on January 8, 2000. The cable also stated that Hazmi hadleft
Bangkok on January 15, 2000, flying from Bangkok to Hong Kong and then to
Los Angeles.
      Around this same time in May.. John began inquiring about the Malaysia
meetings with a CTC analyst, who we call "Peter," at CIA Headquarters.   John
said he knew that Peter had been "down in the weeds" and knew the "nuts and
bolts" of the Cole investigation because Peter had been assigned to prepare a
CTC report on who was responsible for the Cole attack.

     Pete r told the OIG that his area of expertise and focus since August 1999
was the AraNan Peninsula. He said that because the Cole attack took place in
Yemen, he was assigned to develop an intelligence report on who was


     2!4John told the OIG that in this detail to the FBI he acted as the CIA's chief
intelligence representative to ITOS Section Chief Michael Rolince. John stated that he did
not have line authority over anyone at the FBI and that his primary role was to assist the FBI
in exploiting information for intelligence purposes.



                                            274
responsible for the Cole attack. He completed, his report in January 2001,
finding that UBL/al Qaeda was circumstantially tied to the .attack. 215Peter
stated that while working on the Cole report he regularly interacted with the
IOSs in the FBI's UBL Unit. By the spring 2001, he was no longer working
directly on the Cole attack, and had moved on to potential threats in Saudi
Arabia and Yemen. However, Peter said he had a continued interest in the
Cole information and continued to gather information on an ad hoc basis.
        According to John, he and Peter discussed __1_,                     and
 Peter provided him with a copy of the timeline of events related to the Cole
 investigation that Peter had compiled as part of his work on. the Cole attack._.
In addition, John saidthey discussed

            John and Peter were awarethat Quso had •stated that he was
supposed to take money to a person named "Kha!lad" [mlll_          but had met
him in Bangkok instead in January 2000. Jol-m told the OIG that Peter had
posited that perhaps



       In an e-mail to Peter in mid-May 2001, John noted that Mihdhar had
•arranged his travel to Malaysia and was associatedwith


                                                                                     .217   In

addition, John wrote that he was interested because Mihdh_x was traveling with
two "companions" who had left Malaysia and gone to Bangkok, Los Angeles,
and Hong Kong and "also were couriers of a sort." John noted in the e-mail


  • 215   The report did not mention Mihdhar's visa, H_;tzmi'stravel to the United States n




    217ASpreviously discussed, after Quso was detained in Yemen, he acknowledged that
he had received $7,000 from someone named Ibrahim, which Quso asserted he took to
Bangkok, Thaikmd on January 6, 2000, to deliver to "Khallad," a friend of Ibrahim's.
Mihdhar had traveled to Bangkok on January 8.



                                              275
that "something bad was definitely up." Peter replied in an e-mail dated May
 18, "My head is spinning over this East Asia travel. Do you _tow if anyone in
[the CIA's Bin Laden Unit] or FBI mapped this?"

               b.   Discussions among FBI and CIA employees
        Around this same time, FBI IOS Donna and other FBI IOSs working on
 the Cole investigation were focusing on Quso's connection to Bangkok and his
 trip to deliver money to Khallad. The FBI, like the CIA, was aware that in
 January 2000 1                                    l_/_l/
:l          According to an FBI document drafted by Donna in May 2001, Quso
 had claimed that on January 6, 2000,. he and Ibrahim A1-Nibras went to
 Bangkok first but were unable to travel on to Kuala Lumpur because of
problems with their travel documents, and Khallacl had travelecl toBangkok to
meet them there instead. The FBI began researching telephone numbers that
 appeared to be connected to Qus0's trip and requested that several Legat
 Offices contact local law enforcement authorities to obtain subscriber
 information.

      Donna told the OIG that she and others were tracking the information
related to the telephone numbers associated with Quso in an attempt to
determine the truth of his statements. In addition, she said that she was focused
on the identity and whereabouts of Khallad, since he was the purported
mastermind of the Cole attack.

       At somepoiint before the end of May 2001, John discussed with Donna
the East Asian travel of Quso. In response to Pete,r's May 18 e-mail that asked
whether anyonehad "mapped" the East Asia travel, John replied in anundated
e-mail that "key travel still needs to be mapped" and stated "[D,onna] sounds
really interested in comparing notes in a small forum expert to .expert so both
sides can shake this thing and see what gaps are common."
       In addition to reviewing the East Asia travel of several Bin Laden
operatives in January 2000, ___1_
                               John obtained three of them. John told the OIG
that he had not read the cable stating that the joint source had identified
Khallad in the photographs, but he was aware that an identification of Khallad
in the photographs had been made. At the end oflhis e-mail to Peter, John
stated that he had obtained three surveillance photographs of Mihdhar in


                                      276
Malaysia, but he did not see "Khallad"       in any of the photographs,


                                                 218



      In response to John's e-mail, Peter wrote in an e-mail dated May 24 that
he had thought one of the ___.                                     Peter added
that Donna and another FBI IOS in the UBL Unit, who we call "Kathy," were
meeting with Peter on May 29 to discuss the Cole investigation.




_     On May" 24, Donna sent John an e-mail ..stating that a :meeting with Peter
and others was "tentatively scheduled" for May 29 for "an :in depth discussion
about the Cole."

       We were unable to determine with certainty whether a meeting with
Peter, Donna, and Kathy actually took place on May 29. None of the witnesses
had notes of any such meeting, nor were there any e-mails discussing the
meeting after it would have taken place. The witnesses told the OIG that they
could not recall whether a meeting took place on May 29. For example, when
asked whether she knew Peter, Kathy told the OIG that his name sounded
familiar and tlhat she may have met him, but s]he did not recall a meeting on
May 29, 2001, about the Cole investigation. A May 29 e-mail from Peter to
Mary indicates that he met with Mary earlier in the day, bu_ it does not identify
the other participants or what was discussed.




    2_8As noted above, John was correct - Khallad was not in any or"these three
photographs. After September 11 it was learned'that the person the sourcehad identified as
Khallad was actually Hazmi.




                                           277
       However, it is clear that at some point before the end of May 2001,
 Donna became aware of the existence of the Kuala Lumpur photographs in
 January 2000. Donna told the OIG that she recalled John printJing one of the
 CIA photographs on the printer in his office at FBI Headquarters, and Donna
 acknowledged that she obtained two other Kuala Lumpur photographs from
him. According to Donna, Peter had raised the photographs in a discussion
with her prior to her obtaining the photographs from John, although she said
 that she did not recall the details of their discussion about the photographs.
 Donna said she did recall that, at the time, Peter had posited that one of the
photographs could relate to Quso, which if true would contradict Quso's
 statements about going only to Bangkok and not going to Malaysia. According
to Donna, the FB][was attempting to determine the veracity of Quso's
information, so the photographs potentially were connected to the Cole
investigation. She stated, however, that outside of this potential connection,
the photographs were "another piece of a thousancl things coming in" at the
time. She said that if Quso were determined to be, in the photog-raphs, then the
photographs wou]td have become significant to the Cole investigation.
       Donna also told the OIG that she did not recall a "substantive
conversation" with John about the photographs or the Malaysia meetings.
Donna told the OIG that she wrote on the back of the photographs what John
told her about the photographs, which included that "Khalid A1-Midar"
traveledfr0m Sana, Yemen, via Dubai, to Kuala Lumpur on Jmluary 5, 2000,
and he :was in Kuala Lumpur between January 6 and 8. She also wrote Khalid
Mihdhar'S_name on the back of the photograph in which hehad been identified.




               Donna also said that no one told her that Mihdhar had a U.S.
visa or that Hazmi had traveled to the United States.

      John told the OIG that he did not recall anything about his discussion
with Donna when he printed the Kuala Lumpur photographs for her. John said
he recalled that at the time the FBI wastrying to "nail down Quso's story,"




                                      278
     John emphasized that the FBI was focused on the Cole investigation, not
the Malaysia meetings.




      Peter toJ[dthe OIG that he recalled talkingto FBI IOSs, including Donna,
about mapping the telephone number information based on information
provided by Quso.
 ..   :                         .   .

                                                                             ..


          3.   June 11, 2001, meeting

               a.   Planning for the meeting
       Around the same time that Donna was discussing Quso and the Cole
 investigation 'with Peter and John, she alsowas planning a meeting at theNew
 York FBI Office to discuss the Cole investigation. The planned participants
 for the New York meeting included personnel from FBI Headquarters, the
•CIA's CTC, and the New York FBI agents working on the ,Cole investigation.
 FBI documents show that Donna began organizing the meeting as early as
 May 24.
      There was no record of an agenda for the meeting, and no supervisors
were involved in the preparation for this meeting or were consulted regarding
what should be accomplished at the meeting. Donna told the OIG that she
organized the meeting in an effort to consolidate information and determine
what further action was warranted on the Cole investigation. She stated that
the purpose of the meeting at the New York FBI Office was to address
unresolved is,;ues and produce additional leads or other activities focusing on




                                        279
the Cole investigation. According to a May 24 e-mail by Donna, the meeting
was "to discuss our direction, particularly as it relates to Nashifi. ''219
       Donna stated that she planned to take the Kuala Lumpur photographs
with her to New York to find out whether the New York FBI Cole agents, who
had met and debriefed Quso, could identify him in the photographs. She said
that if Quso was in the photographs, the FBI would have reason to question
Quso's statement that he had not gone to Malaysia but had met Khallad in
Bangkok instead.
      Sometime after obtaining the Kuala Lumpur photographs from John, _
Donna queried CTLink for the name Khalid al-Midhar [sic], which John had
provided to her and which she had noted on the back of one of the
photographs. 22°In CTLink she discovered the NSA information from late 1999
and early 2000 referencing Mihdhar's planned travel to Malaysia and

                                    She also queried    ACS about Mihdhar        but did
not obtain any additional information about him.
       Mary, an FBI detailee to the Bin Laden Unit who worked as a CTC desk
officer, also attended the June 11 meeting, as did Peter, the CTC analyst.
According to Mary, Donna invited her to the meeting and told her the meeting
was intended for information sharing and as a "brainstorming session"
concerning the Cole investigation. Mary told the OIG she had :recently been
given the assignment by CTC management of',getting up to speed" in her
spare time on the
                                                      Mary said that she had not
yet begun reviewing the Malaysia meetings at the time of Do_La's invitation.




    219Abdul Rahim al-Nashiri was al Qaeda's chief of operations in the Persian Gulf and
was suspected to have been involved in the attack on the Cole. According to Donna, at the
time he was believed[ to be the "on-scene commander" for the Cole attack:, and the IOSs had
been assigned the tas;k of trying to locate him based on the intelligence reporting on him. He
has since been arrested outside the United States.

    22oCTLink is a database administered by the CIA and used to disseminate information
within the Intelligence Community.



                                            280
      According to Peter, the meeting was also described to,him as an
"information sharing and brainstorming session" to determine whether any
further leads should be pursued. Peter said that he heard about the meeting
from Mary and contacted Donna about attending because he was interested in
learning what the New York FBI agents had uncovered in tlheir investigation of
the Cole attack.

      According to FBI personne,1 in New York, Donna told them that FBI
Headquarters and CIA personnel had indicated they had "information to share"
regarding the Cole investigation. The FBI New York pers_z,nnelanticipated the
meeting would be a mutual exchange of information. Scott, one of the New
Yorkcase age,nts on the Cole investigation, said he was told that the CIA
representatives who would be attending the meeting wanted a briefing on the
Cole investigation. On his own initiative, Scott arranged for David Kelley, an
AUSA from t]he SDNY who was assigned to tlhe Cole matter, to discuss with
the CIA representatives other issues related to the Cole investigation, one of
which was the impact on the prosecution if some of the targets of the Cole
investigation 'were captured or detained outside the United States.

               b.   The June 11 meeting
       On June: 11, the meeting was heldin a conference room at the FBI's New
York Field Ot'fice. We could not determine with certainty :tll the participants
at the meeting. There was no list of attendees.,and the witnesses could not
recall exactly who was there. However, we confirmed that Donna, Mary,
Peter, Scott, and another New York agent assigned to the Cole investigation
who we call "Randall," attended. AUSA Kelley attended %r part of the
meeting. Although it was unclear exactly how long the meeting lasted, the
witnesses said it lasted between two and four hours.
      In inteawiews with the OIG, the attendees said they did not recall the
specifics of what was discussed at the meeting. The only contemporaneous
notes from the meeting that we were able to obtain were Donna's. Her notes
indicate that the latest developments in the Cole investigation were discussed.
The second page of the notes is labeled "to do" and referenced several items.
       Randall said he recalled that at the beginning of the meeting, Scott gave
an update of the results and status of the investigation. Mary said she recalled
that the attendees "brainstormed" various issues, but she did not recall any


                                       281
      significant ideas being developed during the meeting. Peter said he recalled
      that the New York agents "railed" about the U.S. Ambassador 1:oYemen and
      the lack of cooperation they believed they were receiving from the Yemeni
      government. At some point during the meeting, AUSA Kelley discussed the
      feasibility of prosecution in the Cole case.

             Toward the end of the meeting, Donna produced the three Kuala Lumpur
      surveillance photographs and asked the agents if tlhey recognized Quso in any
      of thephotographs.   Donna said she told the agents that the photographs had
      been taken in Malaysia around the Millennium. Donna said she provided
      Khalid al Mihdhar's name to at least some ofthe agents present.

                                                     '.21   The witnesses'   accounts of what
      happened   next differ.                                                              _'




• ,          Scott told the OIG that after reviewing the Kuala Lumpur photographs,
      the FBI agents began to ask questions, such as whether there were additional
      photographs or information concerning the backgn'ound on the photographs,
      including questions about Mihdhar, who was in the photographs. According to
      Scott, he pressed Donna and Peter for details of the Malaysia meetings.




             Scoit contended that Donna "refused _' to provide any furt]her information
      about the photographs or the Malaysia meetings due to "the wall." Scott told
      the OIG that he previously had numerous conversations about the wall with
      Donna, which had been an issue between them. Hie stated that ,:luring this June
       11 meeting, he disputed that the wall was applicable to the information at hand
      because the photographs had not been obtained as the result of a FISA Court
      order, and he continued to press Donna for more information.      Scott said the
      meeting degenerated into an argument about the wall.




            221Only a limited number of New York agents had actually met Quso. The others
      had only seen photographs of him.



                                               282
      In his initial OIG interview, Scott described the meeting as very
contentious and combative. 222In a second OIG interview, although Scott did
not characterize the meeting as having the same level of combativeness, he
contended that he pressed Donna for more intbrmation but none was
forthcoming. Scott stated he had heated telep]hone conversations and e-mail
exchanges with Donna over this issue after the June 11 meeting.
      Donna, Mary, and Peter described the showing of the Kuala Lumpur
photographs as a sidebar to the main meeting and generally inconsequential.
All three asserted that neither the display of the surveillance photographs nor
the meeting overall was contentious. Although Donna agreed that the FBI
agents asked further questions regarding the origin of the p]hotographs and
asked for addiitional information regarding the Malaysia me,etings, she '
c_ontendedthat she responded simply by saying she did not know anything
further. She told the OIG that these questions made sense to her when they
Were asked, but she did not know the answers.i She stated that someone asked
what kind of passport Mihdhar was traveling on, and Peter responded that it
was a Saudi passport. 223According to Donna, she had not lmown this
information prior to Peter stating it. Donna told us that this.was the only
information volunteered by Peter, and she believed he woulLdhave provided
additional infi_rmation if he knew it.
      Peter told the OIG that he was not asked any questiol_Sat the June 11
meeting, he had no formal role, and he did not brief anyone on anything at the
June 11 meeting. Peter explained that it is not within his purview or authority
as an analyst 1:0share CIA information. He said he did not recall the meeting
becoming heated or contentious. He said he did not recall _mytime during the



     222When we asked Scott whether an intelligence-designated agent could have been
provided the infc)rmation outside the presence of the criminal agents, Scott agreed that could
have been done, but he did not think of it at the time and no one else suggested it. During
his subsequent testimony before the Joint Intelligence Committee, however, Scott said that
the wall must not have been at issue because the criminal agents could have just left the
room and any information could have been related to an intelligence agent.
     223Donna's contemporaneous notes reflect this information. It appears as the last entry
on the notes, indicating that this was discussed at the end of the meetiing.



                                             283
meeting where Donna said, "I can't answer that question" or directly refused to
answer   a questiorlL. 224

      Mary stated that she had not been "up to speed" on the case at this time,
so she was not in a position to provide information at the meeting. She stated
that She and Peter were not asked any questions during the meeting. She said
that she did not re,call any serious disagreements arising during the meeting.
      According to Donna, she remained in New :fork after the meeting,
without Peter and Mary, and she continued the discussions with the New York
agents regarding the photographs after the meeting. She said that these
subsequent conversations became fairly "heated," as the agents pressed her
with questions such as whether there were additional photographs and any.
documentation about the photographs. 225
       Donna told the OIG she had provided to the agents all the information
she had received :fromthe CIA regarding the photographs. She told us that all
she knew was that these three photographs were taken in Malaysia around the
Millennium, and one of the persons iinthe photogn,aphs was someone named
Khalid al Mihdhar. Donna stated she advised the agents of this: and told them
that efforts would be made to obtain the requested[ information. She said she
was not aware that there would have been additional information to provide.
She added that she recalled having the impression that the agenLtsdid not
believe her when she said that she did not have the information about the
photographs that the agents were requesting.
      As discussed earlier, however, Donna had aclditional NSA information
about Mihdhar that she had discovered through her CTLink query.


                                                                   Donna told us that she


     224AS described earlier, Peter and John had exchanged several e-mails about the
Malaysia meetings and the photographs. However, it is unclear based upon the information
available to us exactly what Peter knew at this point. He said he was unable to remember
exactly what additional information he had on June 11, 2001.
     225We believe it likely that the agents were confusing: the post-meeting discussions with
the showing of the photographs at the meeting.



                                             284
could not provide this information directly to llheagents werking the Cole
criminal inve,;tigation due to the caveat, which prevented all1NSA
counterterrorism-related intelligence information from being provided to FBI
criminal agents without approval from the NSA. 226
       Donna told us that the New York FBI primarily worked criminal
terrorism investigations and the sharing of intelligence information with the
criminal agents was' often an issue. She said tlhat some of the New York agents
had become "overly sensitive" about a perceived lack of information sharing.
Donna emphasized that any information could be shared but often a process
had to be followed before certain intelligence information could be shared with
agents working criminal investigations. She added that it was not her job to
keep:information from the agents but instead to ensure they had the tools
necessary to do their job.
      According to Donna, the only issue regarding the Illlm_
photographs    would have been obtaining       pernxission   from the CIA to allow
individuals outside of the FBI to see the photographs in furtherance of the Cole
investigation, such as in interviews conducted in Yemen. 227Donna said at
some point wlhile she was in New York, she and the agents discussed providing
the photographs to the agents workingin Yemen in order to get a positive
identification of Quso in the photographs and to conduct further
investigation. 228She stated that ,;hetold the agents that she would attempt to
obtain the requisite permission to provide the photographs li0the agents
working the Cole investigation in Yemen.


     226It is important to note, however, that this NSA information originally had been
routed not only to FBI Headquarters but also to the New York FBI Office in late 1999 and
early 2000.
     227A policy in the Intelligence Community, which is designed to,protect intelligence
sources and methods, is that the originator of intelligence information controls the further
dissemination of the information. This policy is described as origina_Iorcontrolled, or
"ORCON." Dissemination of ORCON information requires permission from the originating
agency to further disseminate the information outside the receiving agency.
    228Apparently unbeknownst to the involved FBI and CIA persormel, the Yemeni
authorities already had been given the photographs on January 3,2001, six months before
anyone at the FBI received the photographs.



                                            285
      Although she had no explicit discussion witla John regarding the use of
the photographs, ]Donna stated she understood that the photographs were "not
formally passed" to the FBI when John gave them. to her, but only provided for
limited use in the meeting. Therefore, Donna said she did not believe that she
could leave the photographs with the,,New York agents until the requisite
permission to show the photographs outside of the,FBI had been obtained.
      However, John told the DIG that that since the photographs had been
given to Donna, an FBI employee, they could be thrther distributedwithin the
FBI. John agreed that the photographs could not be used by the FBI in any
manner where they would be disclosed to a foreign government. For example,
he said that without approval from the CIA, the FBI agents could not keep the
photographs and ,;how them to Quso, who was in Yemeni custody, because
Yemeni officials also would see the ]photographs.

              c.   Follow-up after the June 11 meeting
       We looked for evidence as to whether Donna or the New York agents
conducted any follow-up efforts about the,llll      I       photographs or
obtaining permission from the NSA to pass the intelligence information to the
New York agents. Donna said that she "probably" had follow-up
conversations with John, Peter, and Maryabout the photographs, but she did
not specifically recall the conversations or obtaining additional information.
Mary told the DIG that she recalled conversations with Donna about obtaining
permission for the FBI to use the photographs of the Malaysia meetings in their
investigation.
     Donna stated she was not contacted by Scott after the meeting, although
she was working ,with another agent on the squad, who we call "Glenn," in
connection with tracking telephone toll records. Those records related to the
Cole participants, the travel of Quso to Bangkok, and Quso's potential travel to


      According to Scott, over the course of the summer, he had several more
conversations witlhFBI Headquarters asking about any additional information
on the __,                          but he wasnot provided any additional
information. He stated that he did not seek assistance from any supervisor in
obtaining additional information. He told us that he and the rest of the New
York Field Office,,had been fighting a battle with FBI Headquarters over


                                      286
information sharing for months, and he was "dumbfounded" that he could not
obtain the information about the __|.                         He stated that in
hindsight he probably should have sought the intervention of a supervisor.
      Documentary evidence shows that, as a result of the June• 11 meeting,
Donna and the New York agents discussed the__                               in
several follow-up conversations. In an e-mail dated August 22 from Donna to
Glenn, she wrote that there were additional photographs of the Malaysia
meetings and that the reason that:Mihdhar was of interest at the time was
because of some threat information that led to the CIA looking at all persons
named "Khalid." In addition, she wrote that She had received assurances that
the FBI would be able to use the __|                          outside the FBI,
We discuss this e-mail in further detail in the next section.

      Documents also show that on August 27 Donna requested permission
from the NSA to provide the intelligence infol_ation about Mihdhar to the
New York Cole criminal agents. However, this request came after the FBI had
discovered on August 22 that Mihdhar might be in the United States and had
opened an investigation to determine whether he was in the country. We
discuss the events that led to that investigation and the investigative efforts of
the FBI in the nextsection of the report.

          4.   OIG conclusions on May and June discussions
       While there were several interactions between FBI and CIA personnel in
May and June',2001 that could have resulted in theFBI learning more about the        (

__i                            and Mihdhar, the FBI personnel did not become
aware of signiificant intelligence information about Mihdhar and _
_1.                         The fact that Mihdhar had possesseda United States
visa was not disclosed at this tirne by the CIA to Donna or l_heFBI. The fact
that Hazmi had been at the Malaysia meeting and then traw:led to Los Angeles
also was not disclosed by the CIA. In addition, the fact that the source had
identified Khallad, thepurported mastermind of the Cole bombing, from the
__                                          was not disclosed during these
interactions.

      Although Donna knew about the nl/m__
             we do not believe that she was informed that Mihdhar had a U.S.
visa or that                                               Donna's


                                       287
contemporaneous notes on the back of the mimm__                          reflect
the limited information that she had obtained about the photographs and the
Malaysia meetings. The notes do not mention anything about ]Vlihdhar's
possession of a U.S. visa. In addition, Donna stated that she was aware of the
significance of IZdhalladto the Cole investigation, but the notes on the
photographs also do not mention Khallad. Moreover, John£ who provided the
photographs to Donna, told the OIG he did not recall discussing the i
_n                     withher, and he did not believe that he would have
discussed with Donna that-___,
because at the tirne he was not sure that this was true and he thought the
information was "speculative." Although an e-mail message indicated that
         ..


Peter was planning to discuss the Khallad identification with Donna in a
meeting on May 29, we were unable to determine that this meeting actually
occurred.

      It was impossible for us to determine exactly what happened at the
June 11 meeting with respect to the __1                           because the
witnesses cannot recall the specifics of.the discussions and there is little
documentary evidence. It is clear, however, that the information regarding
Mihdhar's U.Si visa and the fact that ___
                      was not discussed at the June 1l meeting..
      Donna told the agents about the photographs and provided them limited
information that she had obtained from the CIA about'the photographs. Most
of the questioning about the photographs took place after the meeting, when
Peter and Mary had left. We believe those interactions after the meeting
became very contentious, with the New York FBI wanting more information.
Donna did notprovide the New York agents with the NSA intelligence
information about the Mihdhar's
                                                    which she obtained through
her research. She,said she did not because of the restrictions placed on sharing
such NSA information. As we discuss further in the next section, Donna
subsequently contacted the NSA in reference to having the NSA information
passed to the agents, but this did not occur until much later, on August 27,
2001.

       We found little attempt by either the FBI agents or Donna after June 11
to follow up on the information about the photographs that was discussed at the
meeting. There is little evidence of follow-up until some time iinAugust 2001,

                                      288
when, as we discuss in the next section, the FBI learned that Mihdhar had
recently entered the United States, and theFBI opened an investigation to
locate him.

       The interaction between the CIA and the FBI in May and June 2001 was
 another failed opportunity for the FBI to obtain the critical information about
 Mihdhar and Khallad. The failure of the FBI to learn about Mihdhar, ll[
_l_l,                     and his travel to the United States at that time
 demonstrated significant problems in the flow of information between the CIA
 and the FBI. We discuss these deficiencies in the analysis section of this
chapter.
                                          p



     E.   The, FBI's efforts to locate Mihdhar in August and September
          20011

      The fifth and final opportunity for the FBI to locate -Mihdhar and Hazmi
occurred in late August 2001, when it was infi)rrned that Mihdhar and Hazmi
had traveled to the United States. The FBI learned in August 2001 that
Mihdhar had entered the United States in July 2001 and that Mihdhar and
Hazmi had previously traveled together to the United States in January 2000.
On August 29, the FBI began an investigation to locate Mihdhar, but it did not
assign great urgency or pri0rity to the investigation. The New York FBI
criminal agentswho wanted to participate in t]he investigationwere    specifically
prohibited from doing so because of concerns about the wail1and the
procedures to keep criminal and intelligence investigations separate. The FBI
did not locate Mihdhar before the September ]L1 attacks.

      We review the facts surrounding the FBI's discovery of this information
about Mihdhar and Hazmi and what the FBI did with this information in
August. We also examine the FBI's unsuccessful efforts to locate Mihdhar
before the September 11 attacks.

          1.    Continuing review of the Malaysia     meetings in July and
               August 2001
       As discussed above, John, the CIA Bin Laden Unit Deputy Chief, was
detailed to the,,FBI's ITOS in May 2001. SholXly before assuming his duties at
the FBI, John had asked CTC management to assign a CTC desk officer with
"getting up to speed" on the Malaysia meetings and determJining any potential



                                       289
_                                                 ___1|.          This
assignment wasgiven to Mary. She told the OIG that "getting up to speed"
meant she would have to research and read the pertinent cable lxaffic as her
schedule permitted. She emphasized that her priority assignment during this
period was the credible threats of an imminent attack on U.S. personnel in
Yemen, and she said that she worked the Malaysia meetings connections to the
Cole attack whenever she had an opportunity.
      In early July 2001, based on recent intelligence information, the CIA had
concerns about the possibility of a terrorist attack in Southeast Asia. On July 5,
2001, John sent an e-mail to managers at the CTC's Bin Laden Unit noting
"how bad things look in Malaysia." He wrote that there was a potential
connection between the recent threat information and information developed
about the __.                                     In addition, he noted that in
January2000 when Mihdhar was traveling to Malaysia,



Therefore, he recommended that the Cole and                         be re-
examined for potential connections to the current :threat information involving
_.          He wrote, "I know your resources are strained, but if we can prevent
something in SE Asia, this Would seem to be a productive place to start." He
ended the e-mail bystating that "all the indicators are of a mass;ively bad
infrastructure being readily completed with just one purpose in mind."
     On July 13, John wrote another e,mail to CTC managers ..statingthat he
had discovered the CIA cable relating to the source,s identification of

       Jolmbegan the e-mail by announcing "OK.' This is important." He then
described Khallad as a "major league killer who orchestrated tl_eCole attack
and possibly the Africa bombings." The e-mail recommended revisiting the
                     especially in relation to any potential information on
          Significantly, John ended the e-mail asking, "can this [information]
be sent via CIR to [the FBI]?"
      Despite John's recommendation that this infbrmation be forwarded to the
FBI in a CIR, we found no evidence indicating that the CIA provided this
information to the: FBI until August 30, 2001, which, as we describe below,
was after the FBI learned about Mihdhar's presence in the United States.

                                       290
      In a response e-mail dated .July 13,2001, a CTC Bin ]Laden Unit
supervisor stated that Mary had been assigned to handle the, request for
additional information on the Malaysia meetings. In addition, the e-mail stated
that another FBI detailee to the CTC, Dwight, who was out of the office at the
time, would be assigned to assist Mary upon his return.
      Later in July, Mary drafted a cable to another CIA office requesting
follow-up inf0rmationabout the Malaysia me_;tings.


                          A week later, the CTC supervisor :forwarded the cable
to John for his review prior to release, and the cable was sent to the office to
which it was addressed three days after that.
       On the same day she drafted the cable re,ferencing the, source's
identification of Khallad, Mary located one of' the CIA cables referencing
Mihdhar's   possession    of a U.S. visa.   On the same date, Mary also reviewed
the CIA cable: that stated this visa information had been passed to the FBI in
January 2000..229


_               August,  Maryonand
                In an e-mail        Donna
                                August    continued
                                        7 from  Donnato todiscuss
                                                            Mary, the
                                                                   Donna requested
a copy of the flight manifest for Mihdhar's January 2000 _[p to Malaysia in
order to determine whether ]]mm[had traveled with Mihdhar. She also asked,
"if we could get the pictures cleared to show |_]]m."        230She continued, "the
reasoning behind this would be that first, we do not have a concensous [sic]
that the individual with Midhar [sic] is in fact:_...           [second] to
determine if|_]l        can identify Midher by an other [sic] name." Donna then
discussed her continuing efforts to track telephone number information
developed in the investigation. At the close of the e-mail, Donna wrote, "I plan
to write something Up, but perhaps we should schedule another sit down to
compare notes on both sides. Let me l_now."


     229As discussed above, we found no evidence that this information had, in fact, been
provided to the FBI.
     23oApparently the desk officer was unaware that clearance had been received and that
the photographs had been shared with Yemeni officials.



                                            291
      In a response e-mail on the same date, Mary wrote, "okay, all sounds
good." Mary also wrote that she thought Donna had Mihdhar's flight manifest
because John had mentioned it, but Mary indicated she would tind the
manifest. She wrote, "I think we will be able to c]Learthe pictta'es, they are for
passage to Quso, :right?" Mary also asked whether the FBI would be able to
meet with Quso again. Mary ended the e-mail, "I think a sit down again would
be great" and mentioned the potential logistics of arranging the meeting.
      In another e-mail exchange on August 7, Derma thanked Mary and
advised her that the FBI would again have access to Quso. Dolma continued
by stating that :the:_                        alsowould be passed to a
foreign government because Quso was currently in its custody. She stated that
John could call if he had any questions. Donna tentatively scheduled a meeting
with Mary at FBI Headquarters on August 15,2001. However, it appears that
the meeting did not take place. TM

           2.    Discovery of Mihdh_r's entry into the United States
       On August :21,Mary located the CIA cables referencing ttazmi's travel
to the United States on January 15, 2000. 232Mary checked with a U.S.
Customs Service :representative to the CTC about Hazmi's and Mihdhar's
travel. She discovered that Mihdhar had entered the United States on July 4,
2001, and had not departed. In addition, she confirmed that Hazmi had
traveled to the United States in January 2000.
     Mary immediately relayed to Donna in a voicemail message on                              _
August 21 that Mary had something important to discuss with her. Donnawas
on annual leave on August 2 i. Mary told the OIG shedid not have an
                                                                                                  /



     231Mary told the OIG that she took a week of annual ]leave during August, which she
thought was during that week, and she thought that the meeting therefore ihadnot occurred.
Although the e-mail references a meeting, Mary and Donna both told us that they had no
recollection of any meeting on August 15 or any one prior to August 22.
     232Mary was copied on an e-mail from John to Peter in mid-May, 2001, in which John
discussed the travel of Mihdhar and others who appeared to be "couriers on a sort." In this
e-mail John stated, among other things, that "Nawaf' [Hazmi] had traveled with someone            ..
from Bangkok to Los Angeles to Hong Kong. Mary stated to the OIG that she received this
e-mail before she was "up to speed" on the Malaysia meetings.



                                            292
    opportunity to focus on the Malaysia meeting,; until August, but upon
    discovering on August 21 that Hazmi had traveled to the United States "it [the
    importance of the information] all clicks for me."
           On August 22, Mary met with Donna at FBI Headquarters and informed
    her ofMihdhar's July 4 entry and Hazmi's travel to the United States in March
    2000. 233 Donna verified in INS indices Mihdhar's recent entry. She also
    learned that both Mihdhar and Hazmi had entered the United States on January
     15, 2000, and that they were allegedly destined for the Sheraton Hotel inLos
    Angeles, California. The INS records showed Mihdhar had departed the
    United States from Los Angeles on June 10, 2000, on Lufthansa Airlines. No
:   departure record could be located for Hazmi. An INS representative advised
    Donna that de,parture information often was not captured in INS indices. TM
    Therefore, she incorrectly surmised Hazmi had also departed on June 10,
    2000.   235

            Further INS indices checks; confirmed Mihdhar had re-entered          the U.S.
    on July 4, 2001, at the JFK Airport in New York, allegedly destined for the
    "Marriott hotel" in New York City. By the terms of his entry, Mihdhar was
    authorized to remain in the United States until October 3,2001. The INS had
    no record indicating Mihdhar hacl departed the United State,s as of August 22,
    200I.

          Mary and Donna met with John on August 22 in his office at FBI
    Headquarters to discuss their discovery that Mihdhar recenl_ly had entered the
    United States and there was no record of his departure. All of them said they
    could not recall the specifics of the conversation, but all agreed that they




         233There is some discrepancy in witness statements on whether this meeting occurred
    on August 22 or August 23. Although it is unclear on which date this;meeting occurred, we
    believe the meeting occurred on August 22, 2001.
        234The problem of INS departure records not being complete or :accurateis described in
    an August 2001 OIG report entitled "The Immigration and Naturalization Service's
    Automated 1-94System."
        235Investigation conducted after September 11 found that Hazmi had remained in the
    United States.



                                               293
realized it was important to initiate an investigation to determine       whether
Mihdhar was still in the UnitedStates and locate him if he was,

       On August 22, 2001, Donna sent an e-mail to the New York FBI Special
Agent who we call "Glenn." He'was one of the agents assigned to the Cole
investigation.: In the e-mail, Donna advised Gleml that she had obtained
Mihdhar's flight manifest. Donna also wrote, "the reason they [the intelligence
community] were looking at Midhar [sic] is relatively general -- basically they
were looking at all individuals using the name Khalid because of some threat
information."     Sigqaificantly, the e-mail also advised that the CIA had
addifionalsurveillance      photographs beyond those she had taken to New York,
andthe source had identified one of the individuals in these additional
photographs as Khallad. Donna said that she was "requesting the details on
that [Khallad's identification]." Donna also stated in her e-mail that the
clearance to show" the ___                                                 should
not be a problem. 236
      This e-mail was the first reference we identified that the FBI had been
informed of additional



       After her meeting with Donna on August 22, 2001, Mary asked another
CTC officer to draft a CIR to the State Department, INS, U.S. Customs
Service, and FBI requesting the placement of Mihdhar and his 1:ravel
companions, Hazmi and Salah Saeed Muhammed bin Yousaf, on U.S.
watchlistsY 7 The', CIR briefly outlined Mihdhar's attendance at the Malaysia
meetings and his ,.subsequent travel to the U.S. in January 2000 and July 2001.
On August 24, the State Department placed Mihdhar and his travel companions



    236Donna was unable to recall how she first discovered the information on the Khallad
identification. We were unable to find any documents or other evidence c,larifying this
issue.

    237At this time, several agencies maintained separate watchlists. The State Department ,
watchlist was the VISA/VIPER system. Within VISA/VIPER, the TIPOFF systemfocused
on suspected terrorists. The INS maintained the LOOKOUT system, which was also
available to the Customs Service through TECS.



                                           294
on its terrorism watchlist. This is the first record of the placement            of Mihdhar
or Hazmi on _my U.S. watchlist.
       On August 23,2001, Donna contacted the State Department and
requested a copy of Mihdhar's most recent visa application from the U.S.
Consulate in Jeddah, Saudi Arabia.

          3.       The FBI's intelligence        investigation   on Mihdhar

                   a.      Steps to open the investigation
      On August 23, Donna contacted her supervisor, an SSA who we call
"Rob," regarding the information about Mihd]har's travel te the United States.
As discussed in Chapter Three, Rob was the acting Unit Chief of the UBLU at
the time. 238

     After reviewing the information, Rob concurred with Donna that the
appropriate course of action would be toopcn an intelligence investigation in
New, York, Mihdhar's last known destination in the United States, to locate
Mihdhar.

       To expedite the investigative process and provide a "heads up [alert]" to
the New York Field Office that the informatien was coming, on August 23
Donna telephoned an agent on the Bin Laden squad in the New York Field
Office who we call "Chad." To comply with th_ wall, the New York Field
Office had designated agents as either "criminal" or "intelligence," and Chad
was an intelligence agent. Donna discussed with Chad Mihdhar's most recent
entry into the United States and FBI Headqum_ers' request for the New York
office to open a full field intelligenc e investigation to locate Mihdhar. Donna
told the OIG that she did not normally telephonically contact the field on these
types of issues, but there was some urgency to her request because the FBI did
not want to lose the opportunity to locate Mihdhar before he left the United
States.




    z38He wasthe        acting Unit Chief of the UBL from June 28, 2001. until September   10,
2001.




                                                295
       Chad told the OIG that although he routinely worked with Donna, this
was the first time that Donna had relayed a need for urgency in an intelligence
investigation. Chad told us, however, that he questioned both the urgency and
the need for a separate intelligence investigation. Chad explained that the
attempt to locate Mihdhar seemed to relate to the criminal investigation of the
Cole attack, and efforts to locate an individual normally would be handled
through a sub-file to the main investigation and not as a separalle full field
investigation. Nevertheless, he told Donna that New York would open an
intelligence investigation.

        On August ;23,Donna sent an e-mail to Jobxi concerning her telephone
conversation with Chad. She advised in the e-maJ.L1  that [Chad] will open an
inte l[lig ence] case ."

She wrote; "I am still looking at intel, but I think we have more of a definitive
connection to the Cole here than we thought." She ended by stating that she
was Working on tTheEC requesting a full field inw_stigation, bull doubted that it
wouldbe completed that day.

       On August ;27,Donna requested permission through the NSA
representative to the FBI to pass to the FBI agents, working on l_.heCole
investigation the information
                                                          Donna told the OIG
that she thought t]hatthe NSA inforrnation on Mihdhar could be useful to the
 Cole criminal investigators, even if the Mihdhar search remained an
intelligence investigation.
      On the monaing of August 28, Donna sent Chad a draft copy of an EC            ,
requesting the intelligence investigation to locate Mihdhar. In _Ihecover e-
mail, Donna stated, "here is a draft" and that the EC had not been uploaded due
to some tear line reformation that was not yet approved for passage. 239 She
concluded, "I do want to get this going as soon as possible."
      The EC, entitled "Khalid M. A1-Mihdhar" with various aliases, stated in
the synopsis, "Request to open an intelligence investigation." The EC outlined
Mihdhar's travel to the United States; in July 2001, his previous travel to the


    239According to, the NSA, the request was approved later that same day.



                                           296
    United States with Hazmi in January 2000, the background on and his
    attendance at the Malaysia meetings,


                   to the identification of Khallad in the
    by the source,. Donna told the OIG that she did not include this information
    because it had not yet been officially passed to the FBI, although she had
    requested the passage from a CTC Representative to the FI:II. 24°                       /_

          While Donna had relayed urgency to opening the inw_stigation in her
    telephone conversation with Chad and in her cover e-mail, she designated the
    EC pre_dence as "routine," the lowest precedence level. 241She explained this
    by saying this case was "no bigger" than any other intelligence case. She also
    told us, however, that there was a time consideration because Mihdhar couldbe
    leaving the United States at any time and that is why she had personally
    contacted Chad.

                    b.    The FBI opens the intelligence investigation
          On August 28, Chad forwarded Donna's draft EC to his immediate
    supervisor, a Supervisory Special Agent who we call "Jason." Jason became a
_   supervisor on the JTTF in the New York Field Office in 19'96. He had been on
    the New York JTTF since 1985.
          At approximately 2:00 p.m. on August 28, Jason forwarded the EC to
    various agents on the Bin Laden squad, including the Cole criminal case agent
    who we call "Scott." In the cover e-mail, Jason directed the Relief Supervisor,
    who we call "Jay," to open an intelligence investigation and assign it to a
    Special Agent who we call "Richard." Jason also directed another agent to




        24oThis information officially was passed to the FBI in a CIR on August 30, 2001.
         241As discussed in Chapter Three, ECs are marked with a precedence level based on an
    escalating scale beginning at "routine;" "priority," cormoting some urgency; and
    "immediate," connoting the highest level of urgency.



                                               297
check on an investigative lead related to Mihdhar while the agent was in
Malaysia. 242
      Scott received the EC on August 28. Scott, who had been at the June 11
meeting and had discussions with Donna about the __,
contacted Donna to discuss the appropriateness of opening an intelligence
investigation as opposed to a criminal investigatic,n. Donna told the OIG that
when she realized that the EC had been disseminated to Scott, she asked Scott
to delete it becau,;e it contained NSA information and therefore', required
approval for review by criminal agents. Scott told the OIG tha_Lhe deleted the
EC as she requested.
       shortly thereafter, Scott, Donna, and Rob engaged in a conference call to
discuss whether tlhe case should be opened as a Criminal instead of an
intelligence investigation. Scott told the OIG that he argued that the
investigation should be opened as a criminal inve,;tigation due _Lothe nexus to
the Cole investigation     and the greater    investigative   resources   that could be
brought to bear in a criminal investigation. Scott .explained that more agents
could be assigned to a criminal investigation due to the squad designations. He
also asserted that criminal investigation tools, suc]has grand jut), subpoenas,
were far quicker and easier to obtain than the tools available in an intelligence
investigation, such as a national security letter.
       Donna told the OIG that the information on Mihdhar was received
through intelligence channels and, because of restrictions on using intelligence
information, could not be provided directly to the criminal agents working the
Cole investigation. The only information that could be provided directly to
them was the limited INS information. She stated that without the intelligence
information on Mihdhar, there would have been no potential nexus to the Cole
investigation and no basis for a criminal investigation. Rob told the OIG he
had concurred with Donna's assessment that the matter should be an
intelligence investigation. He added that there was also a process through




     242Jason told the OIG that he did not specifically recall this e-mail, tte said he was out
of the office the majority of the time from June until September 11, 2001, due to a serious
medical condition, and he did not return to work full-time until September 11, 2001.



                                             298
    which the information could potentially be shared with the criminal agents in
    the future. 243

           Scott was not satisfied with that response, and he asked for a legal
    opinion from the FBI's National Security Law Unit (NSLU) whether the
    investigation should be opened as a criminal matter relating to the Cole
•   criminal investigation. Additionally, Scott wanted a legal opinion on whether a
    criminal agent could accompany an intelligence agent to interview Mihdhar if
    he was located.
           According to Donna, she subsequently contacted the NSLU attorney who
    we call "Susan" on August 28, and she and Rob discussed the issue with Susan.
    It is unclear how she presented the matter to Susan because there were no
    documents about the conversation and she and Susan had little or no
    recollection of the specific conversation. Donna told the OIG that she provided
    the EC to Susan. According to Donna, Susan agreed with her that the matter
    should be opened     as an intelligence   investigation.   Donna    said Susan also
    advised that a criminal agent should not be present for an interview of Mihdhar            '
    if he was located. During an OIG interview, _.,usansaid she could not
    specifically re,call this matter or the advice she,,gave. Rob told the OIG that he
    did not recall the specifics of this consultation, but he stated that the NSLU
    opinion was supportive of FBI Headquarters' determination that the case
    should be opened as an intelligence investigation.
         At approximately 7:30 a.m. on August 29, Donna sent an e-mail to Jason,
    which stated:

           I think I might have caused some unnecessary confusion. I sent
          the EC on A1-Midhar [sic] to[Chad] via email marking it as
          DRAFT' so he could read it before he went on vacation. There •is
          material in the EC...which is not cleared for criminal
           investigators. [Scott] called and [Rob] and I spoke with him
           and tried to explain why this case had to stay on the intel, side of
           the hous;e...In order to be confident...for this case to be a 199,


         243Rob told the OIG that the squad's Supervisor)' Special Agent acted as "the wall"
    between intelligence and criminal investigations during this period, and Jason could
    subsequently open a criminal investigation if warranted.



                                                299
      and to answer some questions that [Scott] had, [Rob] and I
      spoke with the NSLU yesterday afternoon244...The opinion is as
      follows" A1-Mihdar [sic] can be opened directly as a FFI EFull
      Field Investigation] ....The EC is still not cleared for criminal
      investigators...Per NSLU, if A1-Mihdar [sic] is located the
      interview must be conducted by an intel agent. A criminal agent
      CAN NOT be present at the interview. This. case, in its entirety,
      is based on intel. If...information is developed indicating the
      existence of'a substantial federal crime, that information will be
      passed overthe wall according to the proper procedures and
      turned over for follow-up criminal investigation. 245
       Approximately 15 minutes after sending the e-mail to Jason, Donna sent
an e-mail to Scott with the same language advising that the NSLU agreed the
investigation should be an intelligence investigation and a criminal agent could
not attend the inte,rview if Mihdhar was located. That same morning, Scott
responded in an e-mail to Donna stating:
      ...where is the wall defined? Isn't it dealing with FISA
      information? I think everyone is still confusing this
      issue...someday someone will die - and wall or not- the public
      will not understand why we were not more effective and
      throwing every resource we had at certain 'problems.' Let's
      hope the National Security Law Unit will st_mdby their
      decisions then, especially since the biggest threat to us now,
      UBL, is getting the most 'protection'.
      Later that morning, Donna replied in an e-mail:
      I don't think you understand that we (FBIHQ) are all frustrated
      with this issue. I don't know what to tell you. I don't know
      how many other ways I can tell this to you. These are the,,rules.


   244Rob told the OIG that he could not recall whether he had talked to anyone from the
NSLU about this issue.

    245Rob told the OIG that the New York Field Office technically couM have ignored
Headquarters' recommendation and opened a criminal investigation. However as a practical
matter, the field would not normally ignore Headquarters' decision.



                                           300
      NSLU does not make them up and neither does UBLU. They
      are in the MIOG 246and ordered by the [FISA] Court emd every
      office of the FBI is required to follow them including FBINY...

           4.   The New York Fie]ld Office's investigation
       On August 29, 2001, the FBI's New York Field Office opened a full field
intelligence investigation to locate Mihdhar. The investigation was assigned to
a Special Agentwho we call "Richard."        Richard was a relatively
inexperienced agent, who had recently been transferred to the Bin Laden
squad. 247 This was Richard's first intelligence: investigation.

       On August 29, Donna received Mihdhar's visa application from the U.S.
Consulate in Jeddah. The application indicated that Mihdhar planned to travel
as a tourist to the United States on July 1,2001, for a purported month long
stay. On the application, Mihdhar falsely claimed that he had not previously
applied for a U.S. non-immigrant visa or been in the United States. 248

       On August 30, 2001, Donna sent an e-mail to Richard. After a paragraph
introducing herself, Donna advised she was attaching Mihdhar's visa
application form, which included Mihdhar's photograph, and that she would be
faxing the remaining documents. Donna stated she would ,;end a couple of
pages from the Attorney General Guidelines "which apply 1Loyour case" and
then she would mail the documents.

       Richard told the OIG that on August 30, he received a telephone call
from Donna in reference to the investigation. He said that Donna said the goal
of the intelligence investigation was to locate and identify Mihdhar for a




    246The MIOG is the FBI operational manual - Manual of Investigative Operations and
Guidelines. Donna asserted this reference actually related to the Attorney General's FCI
Guidelines that :arecontained in the MIOG.
    247Richard began working in the New York Field Office after graduating from the FBI
Academy in June 2000. After serving briefly on an applicant squad, a drug squad, and a
surveillance squad, Richard was assigned to the UBL squad in July 2001.
   248Donna said she did not notice this discrepancy. As we discuss below, neither did the
New York FBI.


                                                                                  ]

                                          301
    potential interview. According to Richard, Donna did not indicate the
    investigation was an emergency or identify any other exigent circumstance.
           On August !30,2001, the CIA sent a CIR to the FBI outlining the
    identification of"Khallad" from one of the_llllmm_m
                  in January 2001 by the source. The first line of the text stated the
    information should be passed to Rob. The CIA cable stated the.,FBI should
    advise the CIA if the FBI did not have the.lmllmm_m                       so they
    may be provided. This is the first record documenting that the .source's
    identification of I_Jaalladin the _m                         was;provided by
    the CIA to the FBI.

           Richard told the OIG that he began to work .onlocating Mihdhar on
    September 4. He stated that he had received theassignment on Thursday,
    August 30, but he worked all weekend and Monday on another exigent
    investigative matter involving a Canadian hijacking. As a resuh, he said he did
    not have the opportunity to begin work on the Mihdhar investigation until
    Tuesday, September 4.
•          On September 4, Richard completed a lookout request for the INS,
    identifying Mihdhar as a potential witness in a ten:orist investigation. Due to
    his unfamiliarity with completing the lookout form, Richard contacted an INS
    Special Agent who was assigned to the FBI's JTTF in New York. We call this
    Special Agent "Patrick." The INS lookout form has a box indicating whether
    the individual was wanted for "security/terrorism'" reasons. Richard did not
    check this box. I-liesaid that he thought Patrick told him to identify the subject
    on the form as a witness, not a potential terrorist, to prevent ow_rzealous
    immigration officials from overreacting. By contrast, Patrick, who was
    assigned to the JTTF since September 1996, told us that he did not provide this
    advice to Richard and he always checked the security/terrorism box whenever
    he completed the lookout form for a potential witness in a terrorism
    investigation.
         However, Richard asked Patrick to review the lookout request form for
    completeness, and Patrick sent the form to INS Inspections for inclusion in the




                                           302
INS lookout system, without making any changes. 249 During his initial
interview with the OIG, Richard asserted that he also asked Patrick to review
and explain Mihdhar's travel documents, including the INS indices printouts
and the visa application. In a follow-up inter-v'iew, Richard said he could not
definitively recall whether he had actually provided the predicating materials to
Patrick or whether he merely had Patrick review the INS lookout request form.
       Patrick told the OIG that he recalled this', request because it was the first
one from Richard and because of Mihdhar's subsequent involvement in the
September 11 attacks. Patrick stated that he had not reviewed the predicating
materials, but had only checked the request form for completeness.       He added
that if he had been shown any of the predicating materials on Mihdhar's travel,
the review would only have been cursory. Patrick and Richard both
acknowledged that they did not notice the false statements on Mihdhar's visa
application.
       Richard   also contacted    a U.S.   Customs   Service   repres;entative   assigned   to
the JTTF and verified that a TECS lookout was in place for Mihdhar. Richard
conducted other administrative tasks such as uploading the initial information
about Mihdhar into ACS.

       On September 4, Richard requested a local criminal history check on
Mihdhar through the New York City Police Department. Richard told the OIG
that he initially focused on Mihdhar, since he was captioned as the subject of
the investigation in the predicating EC. After reviewing the EC several times,
Richard noted the connection to Hazmi, so he conducted the same record
checks on Hazmi as he had on Mihdhar. On September 5, ]Richard requested
an NCIC crirninal history check, credit checks, and motor vehicle records be
searched in reference to Mihdhm: and Hazmi.

       On September 5, Richard and another JTTF agent contacted the loss
prevention personnel for the New York area Marriott hotels, since Mihdhar had
indicated when he entered the United States in July 2001 that his destination




     249Patrick explained that agents often provided just the information and he completed
the lookout form, but "new" agents often completed the form themselves.     Patrick estimated
he received approximately 10 lookout requests each month.




                                              303
was the Marriott hotel in New York. Richard learned that Mihdhar had not
registered as a guest at six New York City Marriotts.
       Richard stated he also conducted Choicepoint TM searches on Hazmi and
Mihdhar. 25°Richard said he recalled he had another JTTF officer assist him
withthe searches because he was not familiar with the system. Richard did not
locate any record,; on either Hazmi or Mihdhar in ChoicepointTM.TM Richard
told the OIG that it was not uncommon not to find a record because of
variations in spelling of names or other identifying information.
      Hazmi and Mihdhar had traveled to Los Angeles, California on January
1, 2000, via United Airlines, and INS records indicated that they claimed to be
destined for a "Sheraton hotel" in Los Angeles. Therefore, on September 10,
2001, Richard drafted an investigative lead for the FBI Los Angeles Field
Office. He asked that office to request a search of the Sheraton hotel records
concerning any stays by Mihdhar and Hazmi in early 2000. He:also requested
that the Los Angeles    office check United    Airlines   and Lufthansa   Airlines
records for any payment or other information concerning Mihdhar and Hazmi.
However, the lead was not transmitted to Los Angeles until the next day,
September 11, 20,01.
      By the morning of September 11, when the American AMines flight 77
that Mihdhar and Hazmi hijacked and crashed into the Pentagon, Richard had
not uncovered any information regarding Mihdhar's or Hazmi'.s location in the
United States.

         • 5.   OIG conclusions on the intelligence investigation
     Although FBI and CIA persormel had manydiscussions tlhroughoutJuly
and August 2001 about the Cole attacks ll_ll_l_ll,            the CIA


     25oChoicepointT Mis a commercial service that mines information such as names,
addresses, phone numbers, and other identifying information from public sources (such as
telephone directories., local taxing authorities, and court records), as well as purchase
information from merchants or other companies. The information is then consolidated into a
large database and is accessible to law enforcement and otlher subscribers for a fee.
     251After September 11, however, the FBI located records on Hazmi in this commercial
database.




                                           304
did not provide and the FBI did not become aware of the significant
intelligence information about Mihdhar's U.S. visa, the Malaysian matter, and
the_                                            __              until August 22,
2001. In May 2001, one detailee to the CTC was assigned to "get up to speed"
on tile Malaysian matter in her spare time but said she had been unable to focus
on the matter until August 2001. On July 13, even after Jolm had suggested in
an e-mail to tile CTC that the ___
              be passed to the FBI via CIR, this was not done for several weeks.
The CIR was not sent to the FBI until August 30, after the FBI learned of
Mihdhar's presence in the United States.        \




       The CIA also did not provide to the FBI the information about Hazmi's
travel to the United States in January 2000 until August 22. Donna stated that
she did not receive this information until August 22, and her actions upon
receipt of the information clearly indicate that she understood the significance
of this information when she received it. She took immediate steps to open an
intelligence investigation when she learned of this information.
       On August 22, once the FBI was aware of the intelligence information
about Mihdhar and that he was in the United States, the FBI took steps to open
an intelligence investigation to locate him. Yet, the FBI did not pursue this as
an urgent matter or assign many resources to it. It was given to a single,
inexperienced agent without any particular priority. Moreover, the dispute
within the FBI about whether to allow a criminal investigation to be opened
again demonstrated the problems with the wall between criminal and
intelligence investigations. The FBI was not close to locating Mihdhar or
Hazmi when they participated in the terrorist attacks on September 11,2001.
In the analysis section of this chapter, we address in more detail the FBI's
decision to open the matter as an intelligence investigation instead of a criminal
investigation, and the inadequacy of the FBI's efforts to investigate Mihdhar in
late August and early September 2001.

     F.   Summary of the five opportunities for the FBI to learn about
          Mihdhar and Hazmi

      In summary, there were at least five opportunities for the FBI to have
learned about Mihdhar and Hazmi, __ll_i_l_
__                            and their presence in the United States, well
before the September 11 attacks. First, in early 2000, the FBI received the

                                       305
NSA information about Mihdhar's planned travel to Malaysia. Although the
CIA informed the FBI of the Malaysia meetings in January 2000, the existence
of Mihdhar's U.S. visa and the surveillance photographs was not disclosed to
the FBI. FBI detailees at the CTC read the pertinent CIA cable traffic with this
information and drafted a CIR to pass this information to the FBI. But the CIR
was not .released to the FBI, purportedly at the direction of a CIA supervisor,
and the\FBI did not learn of this critical information until August 2001. In
addition, in Marcia 2000 a CIA office discovered that Hazmi had traveled to the
United States in January 2000, but no one from the CIA shared this information
with the FBI.

•      Second, in.February 2000, Mihdhar and Hazmi moved to San Diego,
 where they were aided in finding a place to live by the former subject of an FBI
 preliminary inquiry. In May 2000, Hazmi and Mihdhar moved in with an FBI
asset in San Diego, California. However, the FBI did not learn of this
 information until after the September 11 attacks.
                       f


       Third, in early January 2001, the CIA showed __
                            to a jointCIA/FBI source, andthe source stated that
                                             This identification could have led
the FBI to.focus on who else was.
                                             which could have led the FBI to
identify andlocate Mihdhar. However, we concluded that, despite the CIA's
assertions, i_                                      __                   was not
known.,by the FBI.
        Fourth, in Mayand June 2001, due to concerns about possible terrorist
 activities,iCIA employees were again examining the __
._,             Hazmi's and Mihdhar's travel (including Hazmi',; travel to Los
 Angeles), and_                                     __
 At the same time, these CIA employees were discussing with FBI employees
 the Cole investigation and the __.                            Yet, despite these
 interactions between the two agencie,s on the telephone, in e-mails, and in a
 June 11 meeting in New York, the FBI never was informed of the critical
 intelligence information that ___
 _              with Mihdhar, and that Hazmi had traveled to the United States.
 Again, this infom_ation could have led the FBI to initiate a search for Hazmi
 and Mihdhar earlier than it eventually did.


                                        306
       Fifth, in July 2001 a former Bin Laden Unit Deputy Chief who was
 working in ITOS in FBI Headquarters confimled that [mm[l_
:__                                            and wrote in an e-mail to CTC
managers thai:this information needed to be sent in a CIR to the FBI.
However, this; information was not sent in a CIR to the FBI until severalweeks
later. On August 22, an FBI employee detailed to the CTC notified the FBI
that Mihdhar ihad entered the United States on July 4, 2001. The FBI began an
/


intelligence investigation to locate Mihdhar and Hazmi. However, the FBI
 assigned few :resources to the investigation and little urgency was given to the
 investigation. The FBI was not close to locating Mihdhar and Hazmi before
 they participated in the September 11 attacks.

IV. OIG's analysis of the FBI'shandling       of the intelligence information
    concerning Hazmi and Mihdhar
       We found systemic and individual failings in the FBI:'s handling of the
Hazmi and Mihdhar matter. As a result of these failings, there were at least
five opportunities for the FBI to connect information that could have led to an
earlier investigation of Hazmi and Mihdhar and their activities in the United
States.

       In this analysis section, we first discuss the systemic problems involving
the breakdowns in the gathering or passing of information about Hazmi and
Mihdhar between the FBI and CI[A. We then turn to the problems in handling
intelligence information within tlheFBI. Finally, we discuss theactions of
individual FBI employees in handling information about Hazmi and Mihdhar
information.

       In this section, we do not make recommendations regarding the actions of
the CIA and its employees. We believe the C][Ashares a significant
responsibility for the breakdowns in the Hazmi and Mihdhar case, and that
several of its employees did not provide the intelligence information to the FBI
as they should have. We leave it:to the CIA OIG, the entity with oversight
jurisdiction over the CIA and its employees, to reach conclusions and make
recommendations on the actions of the CIA and its employees.




                                       307
     A.   Systemic impediments that hindered the sharing of information
          between the CIA and the FBI
       The most critical breakdown in the Hazmi and Mihdhar case was the
failure•of the FBI to learn from the CIA critical information about them; their
travel to the United States;
                                  These breakdowns reflected serious problems
in the process befbre the September 11 attacks for sharing infolxnation between
the FBI and the CIA.

       The FBI failed to receive from the CIA three critical pieces of
intelligence about Mihdhar and Hazmi in a timely manner:
     • Mihdhar's possession of a valid, multiple-entry U.S. visa;
     • Hazmi's travel to the United States; and




      The CIA became aware of these three piece,; of intelligence in January
2000, March 2000, and January 2001. Despite claims to the contrary, we
found that none of this information was passed from the CIA to the FBI until
August 2001. Although the CIA failed to timely pass this infoimation to the
FBI, there were several opportunities for the FBI 1:ohave obtained this
information in other ways. But significant systemic problems, which we
describe below, hindered the flow of information between the CIA and the FBI.
          1.    Use ofdetailees

       One of the most significant opportunities for the FBI to have obtained the
intelligence information relating to Hazmi and Mihdhar was through the FBI
detailees at the CTC. As discussed above, the FBI detailees to the CTC had
access to CIA cable traffic and could read the canes that discu,;sed Mihdhar's

Hazmi's
U.S  visa,subseqUent
           the surveillance
                       travel of
                              to the
                                  the meetings
                                      United States,
                                               Umllm__l___in
                                                     and the              Malaysia,
__.                                        Several of the FBI detailees accessed
and read some of these cables. Significantly, in J_muary 2000, one detailee,
Dwight, prepared a draft CIR to pass to the FBI the information about
Mihdhar's visa, |_,                            and his travel to Malaysia. The FBI


                                        308
should have been informed of this information because of its clear domestic
nexus.
       However, the CIR was never sent to the FBI. According to a note on the
CIR, John, a Deputy Chief of the Bin Laden Unit, directed that the CIR be
placed on hold, and FBI detailees did not have authority to disseminate CTC
information without approval from the CIA. Eight days later, Dwight inquired
about the disposition of the CIR through an e-mail to John asking whether
anything needed to be changed on the cable. However, this e-mail failed to
prompt further action on this CIR. The witnesses we interviewed had no
recollection of the CIR and why it was not sent. We found no further record
that anything was done with regard to the CIR..
      In our view, the CIA should have sent the CIR to the FBI because of the
important information it contained, and the FBI detailee should have followed
up to ensure tlhatit was sent. While we found evidence thall Dwight inquired
about its status at least once, there is no evidence      that he took any other action
to ensure that the information was sent to the FBI, including inquiring with
other CTC supervisors about the need to send the cable to the FBI.
       In reviewing the actions of the detailees, we found that the FBI lacked
clear guidance on the role and responsibilities of FBI detailees to the CTC's
Bin Laden Unit. This led to inconsistent expectations about what they were
supposed to be doing at the CTC. Our review of the documents and interviews
with the five FBI detailees to the CTC's Bin [,aden Unit found that none of
them had defined duties that were clearly understood, either by them or FBI
managers. Nor were there any memoranda of understanding (MOU) between
the FBI and the CIA setting out the job duties and responsibilities of any of the
detaileesY 2

     Moreover, we asked the FBI for the pertbrmance appraisals for all five of
the detailees to the Bin Laden Unit during this. period, and we received


     252We asked both the FBI and the CIA for any memoranda of urLderstanding between
the agencies specifying the job duties of any of the detailees. The only MOUs we received,
which were provided by the CIA, related to the administrative nature of the details, such as
time and attendance reports, travel and training expenses, security clearances, and medical
coverage. The MOUs did not address their substantive duties or responsibilities.



                                            309
appraisals for three of them. They revealed that the FBI detailees were
evaluated based on the elements for their positions at the FBI, not based on
whatever they were supposed to be doing while working at the eTC. 253 The
FBI was unable to provide any other documents defining or oulLlining the roles
or responsibilities', of these detailees.

       We also interviewed the detailees about their understanding of their roles
andresponsibilities   at the CTC. They stated that they were not given any
specific instructions about their job duties. They described theJir details at the
CTC as ill-defined and with little direction. As a result, each detailee defined
the job at the CIA as he or she determined it to be., and there was significant
variation in their conceptions of the job.
       For-e×ample, Dwight told the OIG that he focused on leads that were
related to financial components of terrorism, which he developed from various
sources, such as fromreviewing    cane traffic, from his supervisors at the CTC,
and from referrals from CIA officers at the CTC. By contrast, Malcolm told
the OIG thathe thought he was the "eyesand ears" of the New York Field
Office, and that his role was "to monitor" cases being worked jointlyby the
CIA and the New York Field Office, such as the Fiast African embassy
bombings investigation. He said that he also would follow up on requests for
information from the FBI to the CIA. Moreover, Mary said she was not given
any specific instructions about her role at the CIA, but she was eventually
trained to be a CTC desk officer and that was how she operated[- like other
CTC desk officers with specific assignments or "accounts."
       Eric, who.was a Bin Laden Unit Deputy Chief, said_that he was told "to
fix" the relationship between the Bin Laden Unit and the FBI, but he was not
given any specific instructions about how to go about accomplishing this
objective. He said that he assisted in the running of the Bin Laden Unit by
directly overseeing CTC operations and that he also functioned in a liaison role
between the CIA and the FBI. He supervised the FBI detailees like he did
other Bin Laden Unit employees. He was not giw_n any other supervisory


    253For a fourth detailee, Mary, the FBI produced only a performance plan but no
appraisal reports. The performance plan was related to her duties as an FBI IOS. Mary told.
the OIG that she was;directed by CTC management based on her work as a CIA desk officer
and was not evaluated by FBI personnel.



                                           310
oversight particular to the detailees. He said tlhat on his own initiative he tried
to stay abreast of matters that might be of interest to the FBI by reading the
CTC cable traffic. However, he explained that determining what might be of
interest to the FBI was very subjective because there were no criteria defining
what should be brought to the attention of the FBI.
        We also interviewed the highest-ranking FBI employee detailed to the
 CTC, who was a Deputy Chief of the CTC from 1999 through 2002. We call
 him '_Evan." Evan believed that one of the FFII detailees' functions would
 have been to review CIA cable traffic for infon'nation of potential relevance to
 the FBI. Yet, the detailees told the OIG that while reviewing CIA cable traffic
 was part of their jobs, it was not their function to review cable traffic for items
 of interest to the FBI, and they did not review all of the cable traffic on a daily
 basis. They said they did not think they were acting as backstops to ensure that
 anything that :might be relevant to the FBI was;brought to the FBI's attention. TM
 The detailees asserted emphatically that their function did not entail scouring
 CIA cable traffic for the FBI, and their efficacy would be limited if they were
•perceived by CIA personnel merely as moles for the FBI. 25:'They also
 explained that even if this had been their role, it would haw: been difficult to do
 because of the;volume of cables, especially during the chaotic Millennium
 period.
       The two FBI employees who held similar supervisory positions - one as
a deputy chief in the Bin Laden Unit and the other as a deputy chief in another
unit that later housed the Bin Laden Unit- also had differing views on their
responsibility for reviewing cable traffic. Botih agreed that their role was not
merely to review cable traffic for items of interest to the FBI. Eric told the


     254We also interviewed the first FBI employee detailed in March 1996 to Bin Laden
Unit soon after it was created. This detailee was an a_gentfrom the FBI's New York Field
Office, and he remained at the CTC until August 1998. He said that he did not attempt to
review all of the cable traffic. He indicated, however, that when he did locate information of
interest to the FBI, he did not encounter problems obtaining the CIA's permission to share
this information with the FBI.

     255Some CLA employees we interviewed stated that they, by contrast, believed that this
was the functionLof the New York Field Office detailee. We discuss this further in the next
section.




                                            311
OIG that while he tried to review the traffic in order to stay abreast         of the
information in the CTC, it was too much for one person to manage               effectively.
By contrast, Craig, who followed Eric as a manager detailed to the             CTC, told
the OIG that he did not even attempt to review the cable traffic but           only
focused on those ,cables that required action on his part.
       In addition to failing to clearly define the roles and responsibilities of the
detailees, the FBI did not provide oversight of the detailees. Eric acted as one
of two deputy chiefs within the Bin Laden Unit. After Eric left the CTC, Craig
was a deputy chie,f in a much larger unit that included the Bin Laden Unit.
Bothsaid that,they performed day-to-day supervi,;ion of the detailees in the
same manner in,which they supervised the other CTC employees assigned to
their groups. 256 According to Eric and Craig, they did not focus specifically on
the role of FBI de,tailees.

      Evan told the OIG that he did not supervise any of the detailees, and he
had no authority    to oversee   their duties or direct their activities,   except by
virtue of his position as a senior manager within tlhe FBI. He said that they
were evaluated by their chain of command in the FBI office from which they
had been assigned, which is supported by the limited documents we reviewed.
We found that there was no oversight by the FBI of the detailees based on their
function as detailees.

•      The FBI's f_tilure to adequately oversee the detailees is ililustrated by the
               ..


role of Mary, the only FBI analyst detailed to the Bin Laden Unit. She has
been detailed to the CIA since 1998. Mary had the opportunity to learn
valuable analyst skills by working alongside CTC personnel and then use those
skills at the FBI. Additionally, the detail provided an opportunity to learn
about the CIA infi'astructure and establish liaison contacts at the CIA.

       Mary told us that she operated as a full-fledged CIA desk officer, and that
•she has worked with FBI personnel (luring her detail but from the position of a
 CIA employee, not an FBI employee. We believe: there needs to be a review of
 the duration of these details to ensure the value of' these details is maximized.


     256Eric left the CTC in mid-January 2000, and Craig ,did not arrive at the CTC until July
2000. Thus, between mid-January and July 2000 the FBI ihadno supervisory presence for
the FBI employees detailed to work Bin Laden matters at the CTC.



                                             312
At a time when the FBI is concerned about the shortage of qualified analysts to
do the work it has, a 5-year detail of an FBI mlalyst working as a CTC
employee wan'ants review by the FBI. 2s7
        The same lack of oversight and direction was evident regarding the work
 of Malcolm, the FBI New York Field office detailee to the CTC. He had been
 traveling to the CTC from New York on a weekly basis for four years, unti.1
 January 2003.. On Mondays he traveled from New York to the CTC, stopping
 by FBI Headquarters:. On Fridays he stopped by FBI Headquarters on his way
 back to New York. After the bombing of the .Cole, he spent at least half ofhis
 days in Washington, D.C. at FBI Headquarters.     Thus, he was frequently away
from the CTC, and not in a position to maximize his potential for obtaining
 information at the CTC. This also left the perception with other CTC
 employees that he was not fully integrated into the CTC.
       We found that that the FBI lacked a systematic approach to its use of
detailees at CTC's Bin Laden Unit. The detailees could have functioned in one
of three ways - as fully integrated members of the CTC working unilaterally
 on CTC matters, as backstops ensuring all pertinent CTC information was
 forwarded to the FBI, or in some combination thereof. While there are
potential benefits to using the detailees in any of these functions, the potential
benefits were not maximized because there was no clear understanding of the
 detailees' roles and no system to ensure that any objectives were met. The lack
 of oversight over FBI detailees to the CTC resulted in squandering critical
 opportunities for informationsharing    between the CIA and FBI.
        We also, found significant misunderstandings   between employees of these
two agencies regarding their respective responsibilities for information sharing.
First, as noted above, we found that some CIA employees believed that FBI
detailees had more responsibility for reviewing the CIA cable traffic than the
FBI detailees believed that they had. One CIA Bin Laden Unit employee told
the OIG that the CIA was not going to "spoon feed" information to the FBI and
that the FBi personnel at the Bin Laden Unit had access to all of the CIA cable
traffic. She stated that while the CTC provided to the FBI intelligence



    257The OIG is in the process of completing a comprehensive review of FBI's analyst
program.



                                          313
information that contained a domestic nexus, she ,:lidnot believe it was the
CIA's responsibility to provide all of the predicating material, since the FBI
detailees also had access to the same cables. In addition, CIA personnel
described FBI detailee Malcolm as a "mole" for the FBI's New York Office,
suggesting they thought he was reading CIA cables for the exwess purpose of
reporting back to the New York Field Office on what he found._                              _:,
      In addition, we found that a similar misunde,rstanding existed among FBI
employees in New York with respect to the role of the CIA employee detailed
to.the FBI's New York Field Office. A ClA employee assigned to the JTTF in
the New York Field Office had a desk in that office's sensitive compartmented
information facility (SCIF). 258 FBI agents in the New York Field Office
asserted to the OIG that this individual was knowledgeable regardingtheir
investigations and that he was responsible for reviewing CIA traffic, finding
items of interest t,othe FBI, and bringing this information to the attention of
appropriate New York agents.
       The CIA employee, however, denied that this was his role. He told the
OIG that he .had been sent to the New York Office to "improve the relationship
between the CIA and the FBI" and that he provided the FBI with CIA
intelligence that was designated for the FBI New York Field Office's review.
He stated, however,j his job was not to "spoon feecl" information but only to
make it accessible to the agents in New York. This meant that he would print
information obtained from CIA databases that was of potential interest to the
FBI New York Field Office and make that information available for review in
the SCIF if FBI agents decided to come and review it. But, apparently
unknown to many New York FBI agents, he believed the onus was on FBI
personnel to come into the SCIF and see if any new, relevant information had
arrived, rather than to alert them to that information. He also said that while he
generally knOWSwhat the various FEll squads are investigating, the New York
JTTF has over 300 members and he could not reasonably be expected to have
knowledge of all their investigative interests. He ,saidthat if he:spent his time


     258The FBI agents do not routinely work in a SCIF area. The computers on which they
access ACS do not contain sensitive compartmented information or materials classified
above Secret. Because a high percentage of CIA traffic contains this infomaation, the CIA
detailee must work in a separate area.



                                           314
solely looking for information    of interest to the FBI, he would never get any
work done.

       As a result, FBI agents in New York believed they were receiving from
this CIA employee assigned to the JTTF all of the CIA information of interest
to the FBI, when in fact they were not. Therefore, the New York agents could
have received information on Hazmi and Mihdhar directly through their own
CIA employee, but they misunde, rstood the process.

           2.    FBI employees'    lack of understanding    of CIA reporting
                 •process
       These gaps in the information sharing process were exacerbated by FBI
rpers0nnel's lack of understanding of the CIA',s reporting process. This
 problem is cle,arly illustrated by the failure of the FBI to obtain the information
on
                by the joint FBI/CIA joint source.
 ..... As detailed above, we concluded that the FBI's ALAT was not made
aware of
              :Although the ALAT attended the debriefing of the source, the
ALAT did not immediately receive the information that the source had
identified Khallad. We were unable to ascertain the reasons-for this significant
omission. However, our review found that there were later opportunities for
the ALAT to ]have obtained information about the identification from CIA
documents. In addition, we found that the New York FBI agents working the
Cole attack investigation did not learn of this ,;ignificant information, despite
interviewing the source on several occasions. We believe this was due in part
to the fact that the FBI personnel were not familiar with the CIA's process for
reportingintelligence   information.
        As discussed previously, the CIA primarily relies on cable traffic to share
intelligence among its personnel who are stationed around the world. None of
these cables are available for FBI review, except by the limited number of FBI
personnel wit]h direct access to CIA computer systems, such as the detailees at
the CTC.

      The CIA uses a certain type of cable called a TD to disseminate CIA
information outside of the CIA to other U.S. government agencies. These
cables are created by CIA reports officers based on their review of the internal


                                         315
CIA cable traffic. The reports officers were described to us as :'editors" who
remove references to sources and methods contained in the cables and
determine what information should be further disseminated in the TDs. As a
result, TDs did not necessarily include all the substantive information
contained in the internal cable traffic',.
       Our review found the ALAT did not understand that the TDs did not
necessarily contain _illof the intelligence gathered by the CIA from a particular
source or on a pm_ticular event. The ALAT had been keenly aware of the
significance of Khallad to the FBI, and contemporaneous FBI documents
outline his efforts in mid-January 2001 to try to ensure that all the information
obtained from the joint source was provided to the UBL Unit al_FBI
Headquarters and the Bin Laden Squad in the New York Field ,Office.
However, he relied on the TDs concerning the source's reporting to ensure the
completeness of tlhe information that he had provided to his FBI colleagues.
The ALAT erroneously believed he 1hadobtained all the source reporting
through the TDs. This was not the case. ___
               was only reported in an internal CIA cable and was never
included in a TD.

      In addition 1:othe ALAT, New York FBI agents working on the Cole
investigation told us that when they read a TD regarding a particular subject
(which they could access through CTLink), they mistakenly bei[ieved that it
contained allrelevant information from the source debriefings. The primary
Cole case agent told us that he believed that the CIA operationaL1cables dealt
with techniques and methods, but he did not know that these cables also
contained the details of debriefings. He said that he had "assunaed" all the
substantive reporting would be contained in the TDs, so he nev,er asked the
CIA to allow him to review the underlying cable traffic.
       If these FBI employees had a more thorough knowledge of the
information flow within the CIA, they could have ensured that they received all
the relevantinfonnation from the joint source. This was especially significant
in the case of Hazmi and Mihdhar because the CIA and FBI had decided the
majority of the joint source's reporting would be handled through CIA
channels, and the ALAT did not independently report in FBI documents most
of the source's information. For example, in this case, the FBI could have
requested to review the CIA's internal cables or asked the inter¢iewing CIA
officer to review the TDs and the FBI documentation to ensure all the

                                       316
information had been captured. However, the lack of understanding by FBI
personnel of the CIA reporting process and its procedures fbr sharing
intelligence contributed to the FBI not learning of significant information in
CIA cables about Khallad-



          3.   Inadequate procedures for documenting receipt of CIA
               information
      We also found that the FBI lacked consistent policies or procedures for
the receipt and documentation of intelligence :information r,eceived from the
CIA. In addition, structural impediments within the FBI undermined the
appropriate documentation of information received from the CIA.
    ":As we detailed above, the information c0ncerningthe: surveillance of

was verbally conveyed in January 2000 by a CIA officer to two FBI employees
who were working in the FBI's Strategic Information Operations Center
(SIOC). But this important information was not documented in any retrievable
form at the FBI.
       The FB][was able to provide only three documents regarding the briefing
on this information. First, one FBI e-mail message was recovered through a
painstaking re,view of messages on an FBI server that the FBI searched in
connection wJitha request from the JICI. Although this written record survived
from that time, no analyst or agent would have had access to the information,
learned of its existence, or been able to conduct the type of search that led to
the discovery of this document. Second, information regarding the briefing
was also located in one of the FBI Director's daily briefing documents
prepared in response to the Millennium threats. These briefing documents,
however, were not electronically archived in a searchable database that
analysts or agents in the field could access. Third, abrief handwritten note
about the information he received from the CIA was contained in the personal
daily calendm of one of the FBI employees briefed by the CIA officer in the
SIOC.
    We found there were no clear procedures for documenting intelligence
communicatecl by the CIA to the FBI in an informal manner, such as the verbal


                                       317
briefings on Mihdhar in the SIOC. Although the SIOC had been activated
during the Millennium for the express purpose of handling threat information
from various sources, FBI personnel assigned to tlhe SIOC during this period
told us that there were no procedures for the receipt and handling of
interagency infon_ation communicated informally unless it related to an
ongoing FBI investigation. Although one witness suggested that some type of
log might have existed to record incoming physical information, such as
documents, the FBI found no such log. Moreover, FBI witnesses told us that
the log would not have been used to document verbal briefings. Therefore, any
documentation of'information received informally would have been at the
discretion of the recipient.
       We are not ,.suggesting that every informal communication from the CIA
to the FBI should be documented. We also recognize it is difficult to know the
significance of any individual piece of information when it is received. Yet,
we believe that the FBI should attempt to establish criteria or guidance for
determining what information from informal briefings should be documented,
and how it should be documented. The information received in the SIOC on
Mihdhar was recorded only in a briefing provided to the Director and executive
staff, which is not available to others throughout the FBI. Clearly, the authors
of the Director's daily briefing believed there was some import to this
information. Because the Mihdhar information was never documented in an
accessible format., only those individuals personally informed about the CIA's
information on the Malaysia meetings or those present for the Director's
briefings were made aware of the Mihdhar information. In effect, it was lost to
every0neelse because no analysts or field agents would be able',to search for or
locate this information. An effective analytical program requires that analysts
have access to all available information, and that pertinent information is not
contained solely in the personal memories of selected individuals.
       This was particularly significant because the: information on Mihdhar
initially did not appear to be important. But it sub,sequently became very
significant.
                                          At this time, the e-mail and the
information from the Director's briefing in January 2000 were not available to
the FBI personnel. Without mechanisms to maintain information in which the
significance is not immediately apparent, the FBI will not be able to fully
connect and analyze disparate pieces of information for their significance.


                                      318
       In addition, even if the agents who received the information in the SIOC
had wanted to document it in a form that was available throughout the FBI, the
FBI lacks an information technology system capable of adequately handling
this type of information. As discussed previously, the FBI's primary electronic
information storage system is the Automated Case Support (ACS) System.
ACS is a case management system designed to capture information related to
specific investigations and not for this type of general intelligence information.
There was no FBI system that would allow this type of information to have
been maintained so that it would be available for directed searches or other
subsequent data mining. It is also important to note that ACS is not approved
for storage of information classified above the,,Secret level and is not approved
for storage of any sensitive compartmented information. Thus, it is not
available for storage of the majority of the relevant Intelligence Community
information, including the information on Hazmi and Mihdhar.
       In the absence of effective methods for recording and retrieving
information obtained from other intelligence agencies, the benefits of increased
information sharing among the agencies will remain of limited use. Based on
the system in effect during this period, the value of the information was
minimal, unless the information was relayed to an individual who could
immediately use the information or the information related to an ongoing FBI
investigation. When, as here, subsequent additional information increases the
significance of the prior information, the absence of an effective information
retrieval system effectively precludes any me_mingful effort by the FBI to
analyze the disparate pieces of information over time.
      in sum, despite the fact that some persormel at the FBI were aware in
January 2000 that Mihdhar
                                                                       this
information was unavailable for further analysis or use once the SIOC closed
down in late January or early February 2000. Because no one was assigned to
document, follow up, or track the information on Mihdhar, the FBI's
opportunity to discover Mihdhar's valid U.S. visa during this period and
therefore try to locate him was lost.

          4.   Lack of appropriate infrastructure in FBI field offices
       Information sharing with the FBI also was impeded by the inadequate
facilities for the handling of intelligence information in thejjtwo field offices

                                        319
    most directly involved in the HazlTii/Mihdhar matter. Intelligence information
    from the CIA is often classified at a :highlevel. As a result, safeguards must be
    taken in handling the information, while still allowing appropriate FBI
    employees the ability to access and use the information. Unfortunately, the
    FBI's field offices generally lacked both the necessary physical[ infrastructure
    and information technology to readily use this type of information. Without
    the appropriate physical infrastructure, the FBI will not be able to handle
    sensitive information in an effective manner.

           TO handle SCI classified material, employee,s must store and review such
                      I   "J   "              *    '



    information in a _,CIF. Access to the SCIF is limited to individuals with the
    appropriate clear,race level and the need to know the information in the SCIF.
    Adequate security measures must be implemented to prevent unauthorized
    individuals from gaining access to the spaces containing such materials. The
    type of equipment that may be brought into the space is also strictly limited.
    For example, cellular telephones, two-way pagers, and other unsecured
    communication devices are prohibited: Telephones in SCIFs rrmst be
    designated for secure transmissions. Computer networks also must be secured
    for transmission of information.

          During our :review, we observed the workspaces in the FBI New York
    and San Diego Field Offices and found that they were not set u:p to adequately
.   handle the type of information involved in the Hazmi and Mihdhar cases.
    These workspaces were not adequately secured to permit FBI personnel to
    handle CIA and NSA information at their own des;ks, even if they had been
    given the information. Nor were the SCIFs suitable to permit agents to
    regularly access or handle such information. In the New York Field Office, for
    example, the SCIF we were shown was extremely small. The CIA detailee to
    the JTTF worked in this SCIF, but there was little room for any other personnel
    to enter, let alone use it as a workspace. In the San Diego Field Office, a small
     SCIF was used as a secure communications center for the entire office. The
     San Diego office lacked a separate SCIF for the JTTF, 259including the CIA



        259Wewere informedthat a separate__,CIF
                                         _q
                                              forthe JTTFis undercon,;tructionin the San
    DiegoFieldOffice. However,this SCIFwill onlybe large.'enoughto accommodatethreeor
    four employeesat anyonetime.



                                                  320
representative: assigned to the task force. As a result, the San Diego agents
were hampered in their ability to access CIA information.
       We also found that New York and San Diego FBI agents did not have
sufficient access to secure telephones, known as Secure Telephone Unit third
generation or STU III telephones. The limited STU III phones available had to
be shared among numerousagents. Again, this made communications
involving classified material within the FBI or with other members of the
Intelligence Community more difficult. An entire squad cemprising as many
as 25 individuals shared one or two STU III phones.

    _.
      In addition, as noted above, the FBI agents did not have access to
         .


computer systems that could store much of the information received from the
CIA. The computers at each agent's desk in the New York and San Diego
Field Offices only provided access to ACS. This system does not permit
storage or access to any information classified above the Secret level or any
information   deemed   sensitive   compartmented   information.   Therefore,   even if
the FBI recipients of the CIA information regarding Hazmi and Mihdhar had
wanted to document and store such information in a retrievable fashion, they
could not have stored it on the system that FBI agents use. The FBI had no
internal system in New York and San Diego that allowed them to use the type
of information involved in the Hazmi and Mihdhar case.

      In addition, most FBI agents in the field did not have direct access to
CTLink, the shared Intelligence Community database that did contain some of
the information on Hazmi and Mihdhar, such as the NSA information. Field
agents could not access, let alone conduct research, on this system. As a result,
even if the New York and San Diego agents wanted to search foi relevant
information about Hazmi and Mihdhar, any sensitive or highly classified
information obtained from the NSA and CIA could not be stored in the one
system that they used.
      In contrast; we observed that the CIA's workspaces permitted their
employees to access highly classified information on computers in their
personal workstations. Each CIA employee had their own .,securecomputer on
which they could receive and research highly ,classified ma_Ierial. They had
several secure: telephones that could be used to discuss Top Secret information
with others. The difference in CIA and FBI workspaces was particularly stark
in the FBI's San Diego Field Office where, due to the lack ,of access to an


                                           321
appropriate SCIF.. the CIA employee co-located with the FBI's San Diego
Field Office could not access CIA systems. To access CIA systems, he had to
travel to a domestic CIA station.

          5.   OIG conclusion   on impediments    to information   sharing
      In sum, significant and systemic problems that were evident in the FBI's
handling of the Hazmi and Mihdhar case inhibited information sharing between
the FBI and CIA. The FBI failed to define the roles and respovLsibilities of the
FBI detailees to the CTC's Bin Laden Unit. TheFBI failed to ensure effective
oversight of the detailees at the CTC. The FBI and the CIA failed to develop a
clear understanding of the function of detailees from each other's agencies.
The FBI failed to understand the CIA's reporting process. The FBI lacked an
adequate computer system and appropriate infrastructure for handling
intelligence information not directly related to a specific investigation.
       Although these systemic problems affected the flow of information
between the FBI and CIA, we do not believe they fully explain the FBI's
failure to obtain the critical information on Hazmi and Mihdhar. Employees at
both the CIA and the FBI failed to provide or seek important information about
Hazmi and Mihdhar, despite numerous interactions between them on issues
related to Hazmi and Mihdhar from January 2000 through August 2001. We
found these interactions were substantive and that much of the :information
about Mihdhar and Hazmi was exchanged through these ongoing efforts.
Unfortunately, the critical pieces of information relating to Hazmi and Mihdhar
did not become kaaown to the FBI until shortly prior to September 11. As a
former CTC Bin Laden Unit Deputy Chief aptly summarized it to us,
"information that should have been shared was not, repeatedly."

    B.   The actions of the San Diego FBI
      In addition to issues that affected information sharing between the FBI
and the CIA, the !FBI had other opportunities to find information about Hazmi
and Mihdhar before the September 11 attacks. The time that Hazmi and
Mihdhar spent in San Diego was an opportunity daring which the FBI could
have obtained infi)rmation about them but did not. As discussed above, Hazmi
and Mihdhar entered the United States in January 2000 and moved to San
Diego in February 2000, where they resided unbeknownst to the FBI. While in
San Diego, Hazmi and Mihdhar associated with O,mar al-Bayoumi, a person


                                      322
    whom the FBI had previously investigated, and they also lived with an active,
    FBI informational asset. Yet, the FBI did not become aware of their presence
    in San Diego until after September 11,2001.
           Because.,Bayoumi spent a significant amount of time with Hazmi and .
    Mihdhar in early 2000, it is possible that- had a full field investigation of
    Bayoumi been open at the time--the FBI could have discovered Mihdhar and
    Hazmi's presence in San Diego and also uncovered the CIA information about
    their attendance at the Malaysia meetings. Because Hazmi and Mihdhar lived
    with an FBI asset, it is also possible that if the FBI had documented their
    presence in S_mDiego, it would have provided additional investigative leads
    :that could have aided the New York FBI in locating them in August 2001. We
    therefore evaluated the San Diego FBi's investigation of Bayoumi and the
     decision to close its preliminary inquiry on him in June 199'9. We also.
    examined the San Diego FBI control agent's decision not to obtain or
     document information from his information as;set about Hazmi and Mihdhar,
    who were boarders in the asset's house.
           In examining the San Diego Field Office's handling of the Bayoumi
    investigation and the informational asset, we also found that, despite the fact
    that FBI Headquarters had established countet_errorism as a top priority of the
'   FBI in1998, the San Diego Field Office was continuing to pursue drug
    trafficking as its top priority in 2001 While the FBI made counterterrorism its
    top priority on paper, the FBI took few steps to ensure that field offices
    complied with this directive. We discuss this issue at the end of this section.

              1.   The San Diego FBI's preliminary investigation of Bayoumi
          As discussed above, Bayoumi is a Saudi national who in January 2000
    had been living in the United States for approximately six years, was well,paid
    by a Saudi company that contracted with the Saudi government, and was
    involved in setting up mosques in the San Diego area. Hazmi and Mihdhar met
    Bayoumi in Los Angeles approximately two weeks after entering the United
    States in January 2000. A few days later they moved to San Diego, where
    Bayoumi assisted them in obtaining an apartment in the complex where he
    lived. They lived in this complex for four months.
          Bayoumi's name had first surfaced at the FBI in 1995 in connection with
    other investigations. Bayoumi's name resurfaced at the FBI on August 31,


                                          323
 1998, when his apartment manager contacted the FBI to report her suspicions
 regarding Bayoumi's activities. The manager reported that she had been
 notified by the U.S. Postal Inspection Service in March 1998 that Bayoumi had
 been sent a ,'suspicious" package from the Middle',East. According to the
 manager, the package had broken open and had a number of wires protruding
 from it. She reported further that the apartment complex maintenance man had
 noticed a number of wires protruding beneath the bathroom sink in Bayoumi's
 master bedroom. She reported that there had been large meetings of men, who
 based upon their dress appeared to be Middle Eastern, gathering in Bayoumi's
 apartment onweekend evenings. She also complained that several parking
 spots were being :illegally used by the people gathering at Bayoumi's
•apartment.
  • On September 8, 1998, the San Diego FBI opened a preliminary inquiry
on Bayoumi. 26° The assigned agent checked FBI indices for further
information regarding Bayoumi and conducted other investigative steps.
      The agent contacted the U.S. Postal Inspection Service in reference to the
alleged "suspicious" package sentto Bayoumi. A postal inspector advised the
FBI agent that"suspicious" did not necessarily mean "nefarious," and the vast
majority of suspicious packages were benign. The postal inspector reviewed
the report relating to the Bayoumi package and told the agent that the package
had been deemed "suspicious" because it had no customs papers or appropriate
postage and originated in Saudi Arabia. According to the report, there was no
record of any wires protruding from the package, Bayoumi had retrieved the
package, and it was no longer called a "suspect parcel."
      According to the FBI agent, the apartment manager agreed to record the
license plate numbers of the meeting participants. However, the manager later
advised the agent that meetings had dwindled to a few particip_mts and then
stopped all together.


     26oIn accordance with the Attorney General's Foreign Counterintelligence Guidelines, a
preliminary inquiry could be opened when there was information or allegations indicating
that an individual is or may have been an international terrorist or a recruitment target of an
international terrorist organization. Preliminary inquiries were permitted to remain open for
120 days and had to be closed unless the FBI obtained sufficient evidence to open a full field
investigation.



                                             324
      The agent asked fellow FBI agents to ask their "logical sources" for
information regarding Bayoumi. The sources related the following concerning
Bayoumi:
           •   Bayoumi was married with small children and had recently
               ,completed a master's degree program and he was looking for a
               Ph.D. program, but his test scores were too low. He was
               approximately 30 years old and unemployed.
           •   Bayoumi was a Saudi who regularly attended the ICSD (Islamic
               ,Center of San Diego). He was married with children and was
               working on a master's or other advanced degree.
           •   Bayoumi reportedly delivered $400,000 to the Islamic Kurdish
               ,community in E1 Cajon, California in order to build a mosque.
               Source opined Bayoumi "must be an agent of a foreign power or
               an agent of Saudi Arabia."
           •   Bayoumi was in the U.S. on a sVadentvisa but was applying for a
               green card. Bayoumi claimed to, have a master's degree and was
               working on a Ph. D His father was sending him $3,000 a month
               for support while he was in school.
      The FBI agent also contacted the INS in reference to Bay0umi's
immigration status. An INS special agent advised that Bayoumi was in the
U.S. on an F-1 student visa, but his work visa had expired. However, the INS
reported that 1hisvisa could be renewed.
      The FBI agent received no further substantive information in response to
various information checks. According to the agent, the only remaining option
was to conduct an interview of Bayoumi. After her supervisor consulted with
fellow FBI agents who were working on a large, sensitive counterterrorism
investigation :involving an alleged terrorist organization, the supervisor
instructed the agent not to conduct the subject interview of Bayoumi. 26_The
agent told the OIG that she did not believe the: decision was;inappropriate


    261 The file indicatesthat the decisionnot to conductan interviewwas dueto an
investigationthat includeda proposedproactiveelement. TheFBIbelievedthat the benefits
of interviewingBayoumidid notjustify the risk to the proposedoperation.



                                        325
based on the potential effect of such an interview ,on the other sensitive
investigation.
     On June 7, 1999, the FBI closed its preliminary inquiry on Bayoumi, and
he was no longer actively under investigation by tlhe FBI.
      The FBI case agent told the OIG that she had no concrete information
linking Bayoumi to any terrorist activities. She stated that the allegations that
gave rise to the preliminary investigation were nolLsubstantiated. With respect
to the source reporting that Bayoumi had received large sums of money from
overseas, the case: agent explained it was not unusual for foreign smdeiats,
especially from Saudi Arabia, to regularly receive money, even large sums of
money. Therefore, the case agent did not consider this to be inherently
suspicious.' The agent's squad supervisor at the time and other agents onthe
squad also told the OIG that it was not unusual or suspicious for Saudi students
to have received large sums of money from Saudi Arabia.
      As stated above, one source had provided unverified infomaation that
Bayoumi could potentially be a Saudi intelligence operative or source.
Accordingto the agent, Bayoumi was allegedly very involved and interested in
Saudi affairs in San Diego, andthis probably led to the suspicions about
Bayoumi's connection to the Saudi government. ]However, the agent told the
OIG that Saudi Arabia was not listed[ as a threat country and the Saudis were
considered allies of the United States. 262Therefore, Bayoumi's; potential
involvement with the Saudi Arabian government would not have affected the
FBI's decisionto close the preliminary inquiry.
       The squad supervisor at the time of our investigation, who had been an
agent on the squad for several years, told the OIG that before September 11,
 the Saudi Arabian government was considered an ally of the United States and
 that a report of an individual being an agent of the Saudi government would not
 have been considered a priority. Other agents on llhe squad also said that a
 source reporting that an individual was an agent of the Saudi government


     262Country threats are defined by the FBI as foreign governments or entities whose
intelligence activities are so hostile, or of such concern, to the national security of the united
States that counterintelligence or monitoring activities directed against such countries are
warranted.




                                               326
                                                                      /



would not have been cause for concern because the Saudi government was
considered an ally of the United States.
      In addition, the case agent explained that more intrusive investigative
techniques could not be conducted because of the restrictions of the Attorney
General FCI Guidelines in effect at the time. No meaningt_l surveillance
could be conducted, no bank records or other financial records could be sought,
and very little investigative activity beyond fully identifying the individual
could be done',.
      In sum, we do not believe that the FBI's actions with regard to Bayoumi
and its decision to close the preliminary inquiry were inappropriate. The agent
conducted logical investigative steps that were; permitted under the Attorney
General Guidelines in effect at the time, such as checking FBI records for
information, asking other intelligence agencies for information about the
subject, and asking agents to query their sources about the ,;ubject, but the
agent did not uncover any information to support the allegations. The
Guidelines did not permit the case agent to engage in more intrusive
investigative techniques, such as a clandestine search of Bayoumi's property,
obtaining his telephone or financial records, or secretly recording his
conversations.
      Although the Attorney General Guidelines would have permitted a
subject interview of Bayoumi prior to closing the preliminary inquiry, the
decision not to conduct an interview appeared warranted, given its possible
effect on an ongoing significant investigation.

         2.   The FBI's handling of the informational asset
      As described above, in May 2000 Hazmi and Mihdhar began renting a
room in the home of an FBI informational asset. An FBI San Diego Special
Agent who we call "Stan" was the asset's control agent since the asset was
opened in 1994. The asset had provided the FBI with significant information
over the years',and was considered a reliable source. He was well known in the
Muslim community. He often rented rooms in his house to Muslim men in the
community who needed temporary housing. At the time that Hazmi and
Mihdhar moved in with him, he lhadtwo other individuals renting rooms in his
house. Mihdhar lived with the asset until June 10, 2000, wihen he left the


                                                            J


                                      327
United States, and Hazmi remained as a boarder at the asset's home until
December 2000.

       According to Stan, the asset told Stan that two young Saudis who had
recently come to theUnited States to visit and study had moved in as boarders.
The asset described them as good Muslims who oftenwent to the mosque and
prayed. The asset provided Stan with their first names but little other
identifying information. Stan did not obtain any additional information from
the asset about the boarders, such as their last names, and he did not conduct
any investigation of them.
      Had Stanpursued information about Hazmi and Mihdhar:, he might have
uncovered the:CIA information about them. In addition, he might have created
a record inFB! computer systems about Hazmi and Mihdhar's presence in San
Diego, which would have provided the FBI with additional information and
avenues of investigation when it began to search tbr them in August 2001. For
these reasons, we examined Stan's actions with regard to the asset.
        In interviews with the JICI staff and in congressional testimony, Stan
stated that the infi_rmational asset primarily provided information about the
activities and identities of persons in the Muslim community in San Diego who
were the subjects of FBI preliminary inquiries or Jhll field investigations. 263
Stan said that the asset volunteered some information about other individuals
as well. He said he thought that the asset had good judgment aibout which
individuals might pose a threat and that his reporting had been ':'consistent"
over the years. We reviewed the asset's file and noted the asset provided
information on a regular basis on a variety of different individuals and topics.
Although we coul[d not evaluate the asset's judgment from the :file, we consider
Stan's description of the asset's reporting to be apt.
      Stan also stated that he was aware that the asset had boarders in his house
over the years, and the fact that two new boarders had moved in with the asset
did not arouse suspicion. He noted that the asset volunteered that the two
boarders were liwing with him soon after they moved in, but the asset provided
the information about his boarders as part of a personal conver,;ation and not


   263As noted above, Stan has retired from the FBI and declined to be interviewed by the
OIG.



                                           328
     because the asset believed that it hadany significance. Stan stated the
     information provided from the asset was that the two boarders were from Saudi
     Arabia, which, according to Stall.,was not a country that the United States had
     placed on the list as a threat to national securitT. Stan said that the asset did not
    •describe his boarders as suspicious or otherwise worthy of fiarther scrutiny. He
     also asserted that he was prohibited from further pursuing tlheinformation
     about Hazmi and Mihdhar, including documenting the information that he had
     obtained, because of the Attorney General Guidelines in effect at the time.
          In examining Stan's actions, we first considered whether the Attorney
    General's FCI Guidelines were applicable to the situation involving Hazmi and
    Mihdhar. As suggested by Stan, the Attorney General's FCI Guidelines were
    designed to ensure that the FBI opened preliminary inquiries and conducted
    investigations only if the required predicating information was present.
    Because there were no allegations or information provided to Stan that Hazmi
    and Mihdhar 'were terrorists or agents of a foreign power, we agree that Stan
    did not have sufficient information to open a preliminary inquiry and actively
    investigate Hazmi and Mihdhar.
          We also. considered whether, at a minimtam, Stan could have attempted to
    obtain additional information about people who were living with his
    informational asset, such as their full names, and .whether he was required to
    document the information on Hazmi and Mihdhar that he had received from his
    asset. First, we reviewed FBI policies and procedures for handling assets.
    Those policies did not require Stan to obtain information from an informational
    asset about pe,ople living in the asset's house or to conduct record checks to
    obtain this intbrmation. In addition, the policies do not appear to require Stan
    to have documented information received from the asset about anyone living
    with him, or to even document their full identities if he had obtained that
    information.

/         We also, interviewed several FBI agents who were on Stan's
    counterterrorism squad and asked them whether it wouldhave been their
    practice to seek additional information about boarders living with an
    informational asset and what, if anything, they would have done with this
    information. We found no consensus among them about whether information
    on boarders like Hazmi and Mihdhar who lived with an in%rmational asset
    should have been obtained and documented, o_ome agents stated that they
    would have pursued more information about boarders living with an

                                             329
informational asset, while others stated that they would not have. Some of the
agents stated that they would have noted the fact of the informational asset
having boarders in his file. Some agents statedthat they would have
documented the identities of the roommates in an EC that would have been
uploaded to ACS. However, former San Diego Division Special Agent in
Charge William Gore told the OIG that he "did not believe anything had been
done wrong" in the handling of the informational .asset and he did not fault
Stan for not obtaining the information.
       While we re,cognize that no FBI policy addressed this issue and there was
a lack of consensus on what should have been done in a situation like this, we
believe that it would have been abetter practice for Stan to have questioned the
informational asset about his boarders and obtaine,d their full identities. Stan
was aware that Hazmi and Mihdhar were relative strangers to the informational
     ..


asset, and that they were not friends, family, or long-time associates of the
asset. Stan also was aware that the asset had no direct knowledge of Hazmi
and Mihdhar's backgrounds and could not vouch :['ortheir character.
Moreover, the boarders in the asset's home were in a position to put the asset
and the information he supplied to the FBI in jeopardy. Therefore, prudence
and operational security would suggest that information about persons living
with the asset should have been sought, at least to the extent of learning and
documenting their names, and perhaps running a records check on them.
      If Stan had asked more questions about the asset's boarders, he also may
have acquired enough information to pursue further inquiry. For example, the
asset has stated after the September 11 attacks that Ha_zmiand Mihdhar did not
make telephone calls from his house, and that in retrospect he found this            ,.
behavior to be suspicious. The asset also stated after September 11 that he had
told Hazmi to stay away from Bayoumi because of his alleged association with
the Saudi govermnent. Therefore, if Start had asked the asset a few more
questions about Hazmi and Mihdhar and acquired this kind of information, it
may have led Stan to conduct further inquiries, particularly since Bayoumi had
been the Subject of an FBI investigation.
      Moreover, while no specific FBI policy required agents to obtain
information aboull persons living in a house with an informational asset, FBI
policies required control agents to continuously evaluate the credibility of their
informational assets. Before informational assets are approved, they are
required to undergo a background investigation to assess their suitability,

                                       330
credibility, and "bona fides. ''264 Certain minimum checks were required, such
as a check of FBI indices, local criminal checks, and CIA traces. The policy
provided-that additional checks "may be deemed necessary," such as querying
other assets and running indices checks on in, mediate family members. In
addition, FBI policy provided that an asset's bona tides "should be continually
addressed," even after the initial assessment was completed.
       More specifically, the FBI field office is required to conduct a yearly
evaluation of each informational asset and provide the eval_aation report to FBI
Headquarters. This report is required to contain, among other things, the FBI's
number of contacts with the informational asset during the reporting period, a
summary of the most significant information t'urnished by the informational
asset; :the number of preliminary inquiries and full investigations that were
opened based on information provided by the informational[ asset, and "steps
that have been taken to establish asset bona tides since last evaluation."
Although Stmawould not have been required to obtain additional information
about his informational asset's boarders to complete this report, the FBI's
policy of continually vetting the credibility of its assets penv_itted Stan to seek
more information about Hazmi and Mihdhar and the other boarders from his
asset and run indices checks on any persons 1Mng with his informational asset.
      We reviewed the informational asset's t_ile,Stan's yearly evaluation of
the asset, and Stan's reporting on the bona tides checks con_ductedon the
informational asset. Based on our review, we were concerned by the lack of
information included in the file in support of the bona tides checks conducted
by Stan each year. In each of the documents provided to FBI Headquarters
about the informational asset that we reviewed, Stan wrote the following
perfunctory paragraph: "Asset bona tides have been estaNished through
independently received reliable asset reporting, [redacted] _mdphysical
surveillance."

     Stan maintained no predicating information in the file on these bona tides
checks. The file did not disclose which checks or surveillance had been

     264The FBI defines "bona tides" to mean that the asset or informational asset "is who
he/she says he/she is;" that the asset "has the position or access the asset claims to have;"
and that the asset "is not working for or reporting to a foreign intelligence service or
international terrorist organization without the knowledge of the FBI."



                                              331
conducted, by whom, when, or the results. Without that material, the
informational asset's bona tides were merely verifiedthrough tlhe attestation of
Stan. It is possible that Stan conducted numerous indices checks and
conducted an exhaustive bona tides check on the informational asset each year.
It also is possible that he conducted minimal or no checks and merely attested
to the informational asset's credibility based on their personal history and
relationship. Because we were unable to interview Stan, we could not
determine which 'was more likely.
      :However, n,o FBI policy described the level of detail to be contained in
an asset file, We believe the policy ,;hould require an asset file to contain at
least minimal information to allow a reviewer to independently verify that an.
adequatebackground check has been conducted. This informal:ion is necessary
to allow FBI managers to determine whether the control agent Js continuing to
assess each informational asset's credibility. This information would also help
ensure that the.control agent has notbecome too comfortable with the
informational asset and thus vulnerable to being misled or failing to obtain
adequate information about the asset.
       We also were concerned by the lack of policy or practice specifying what
information from the asset must be documented. The Hazmi and Mihdhar case
clearly demonstrates that information must be documented to be useful. Even
if Stan had obtained the full names of Hazmi and Mihdhar from the
informational asset, he would not have been required to document it in any
retrievable format. Without the requirement to document such information, the
information would not have been accessible to other FBI personnel. For
information to be useful, it must be documented in a retrievable form and it
must be available for consideration and analysis.
      In sum, we believe that Hazmi and Mihdhar's presence in San Diego
should have drawn some scrutiny from the FBI. Although untcnown at the
time, documenting their presence in San Diego in a searchable and retrievable
manner would have provided an opportunity for the FBI to connect information
in the future. If Hazmi and Mihdhar's presence in San Diego in 2000 had been
documented, an FBI indices record check in August 2001, when the FBI
received information from the CIA that Hazmi ancl Mihdhar had entered the




                                       332
United States, might have led the FBI to the San Diego information. This
connection would have provided substantive leads for the New York FBI's
effort to locate Mihdhar in August 2001.265

           3.     San Diego FBI's failure to prioritize counterterrorism
                  investigations
       As discussed in Chapter Two, in 1998 the FBI adopted a 5-year strategic
plan that established the FBI investigative priorities in a 3-tier system. Tier I
priorities were "foreign intelligence, terrorist,:and criminal activities that
directly threaten the National or Economic Security of the United States."
Tier II priorities were "crimes that affect the public safety or undermine the
integrity of American society: drugs, organized crime, civil fights, and public
corruption." Tier Ill priorities were "crimes that affect individuals and
property such as violent crime, car theft, and telemarketing scams..."
       On March     15, 1999, shortly    after Director   of Central   Intelligence   George
Tenet asserted the U.S. Intelligence Community was declaring war on Usama
Bin Laden and al Qaeda, FBI Headquarters established national level priorities
within its Counterterrorism Program. Bin Laden and al Qaeda, along with the
Bin Laden-allied Egyptian Islamic Jihad (EIJ) and al Gama'at al Islamiyya
(IG), were designated as "priori .tygroup one" for the FBI,s counterterrorism
efforts.

       Our review of the Hazmi/Mihdhar chronology revealed no appreciable
shift in resources by the FBI's San Diego FieM Office in response to these
changed priorities. We found that prior to September 11, 2,001, the actual
investigative priority for the San Diego Field Office was drug trafficking.
According to former San Diego Special Agent: in Charge William Gore, the
highest concentration 0fFBI agents and resources in San Diego was directed at
combating drag trafficking based on the FBI's process and procedures used
each year to set priorities in its field offices. He said that white-collar crime
was the office's second priority, and violent crime was its tihirdpriority.



     265AS noted, Mihdhar and Hazmi used their own names to open bank accounts, conduct
financial transactions, obtain state identification cards, purchase a vehicle, obtain telephone
service, take flying lessons, and rent an apartment while residing in San Diego.



                                              333
Counterterrorism was only the fourth priority for the San Diego FBI office.
The counterterrorism efforts in San Diego were directed primarily at another
terrorist organization and related groups not connected to A1 Qaeda, and the
majority of San Diego's counterterrorism investigations targeted activities
related to the indirect support of terrorism conducted by those groups.
       We found that the San Diego FBI focused little tO no investigative
activity on al Qaeda prior to September 11. San Diego FBI personnel stated to
us that they had believed there was no significant al Qaedaactivity in San
Diego based on information from their sources and investigative activities. _
The former supervisor of the San Diego counterte:rrorism squad explained their
job at the field orifice level was to "shake the tree and see what fell out".in
relation :topotential terrorism activities in their area_ Although San Diego
agents assigned to counterterrorism conceded they had received little to no
 specific training c,onceming Bin Laden or al Qaeda, they asserted that al Qaeda _   :
did not have a significant presence in San Diego prior to September 11.
      Yet, al Qaeda was present in San Diego, unbeknownst to the FBI. Hazmi
and Mihdharresided in San Diego. Unfortunately, the San Diego agentswere
not focusingon al Qaeda. Even though FBI Headquarters had ,designated al
Qaeda as the number one counterterrorism priority, the San Diego FBI was not
attempting to identify individuals that were associated with al Qaeda.
       Since September 11, many San Diego agents have been moved from
other squads and ;assigned to counterterrorism. Significantly, the San Diego
office opened a large number of intelligence investigations on potential al
Qaeda subjects immediately after September 11. Obviously, the focus and
priorities dramatically changed after September 11. But there is no reasonto
believe the al Qaeda presence in San Diego began only after September 11 If
San Diego's focus on counterterrorism and al Qaeda had occur_cedearlier in
San Diego, there 'would have been a greater possibility, though no guarantee,
that Hazmi's and Mihdhar's presence in San Diego may have come to the
attention of the F]3I before September 11.
      However, it is important to note that San Diego's allocation of resources
before September 11 and the lower priority it gaw_ to the Coun_Ierterrorism
Program were not atypical of FBI field offices before September 11. In an
OIG September 2002 audit report entitled "A Review of the Federal Bureau of
Investigation's Counterterrorism Program: Threat Assessment, Strategic


                                      334
Planning, and Resource Management," we found that "Although the FBI has
developed an elaborate, multi-layered strategic planning system over the past
decade, the system has not adequately established priorities or effectively
allocated resources to the Counterterrorism Program."
       FurtheaTnore, the OIG report found that resources were not allocated
consistent with the FBI's priorities - particularly at the field office level -
because of the lack of"management controls" in the FBI's "complicated and
paper-intensive strategic planning process.,' Insteadof allocating resources
based on FBI priorities, field offices allocated resources primarily based on
previous case]Loadsin the field office. According to the report, prior to       +
September 11, "the Bureau devoted significantly more special agent resources
to traditional law enforcement ac,tivities such as white collar crime, organized
crime, drug, and violent crime investigations than to domestic and international
terrorism inve,stigations." For example, in 2000 twice as many FBI agents
were assigned to drug enforcement than to counterterrorism. Thus, the San
Diego's office allocation of resources was not different from many other FBI
field offices, despite the stated priorities of the,'FBI.

     C.   Events in the spring and summer of 2001
      As described in the factual chronology, the FBI had several opportunities
in the spring and summer of 2001 to obtain critical intelligence about Mihdhar
and Hazmi. Although the FBI and the CIA were discussing Mihdhar, Khallad,
andthe Cole investigation throughout the spring and summer of 2001, the FBI
did not become aware of the critical intelligence involving Mihdhar's U.S. visa
and subsequent travel to the U.S.. until late August 2001. As we discussed
above, we believe that systemic ]problems regarding information sharing
between the two agencies contributed to the FBI's failure to obtain this
irlformation earlier. But restrictions within the FBI also contributed to the
FBI's failure to acquire critical information about Hazmi and Mihdhar before
September 11. In this section, we discuss those problems.

          1.   Restrictions on tl)e flow of information within the FBI

       By the summer of 2001, the effect of the various restrictions within the
FBI on information sharing - commonly referred to as "the wall" - had
resulted in a nearly complete separation of intelligence and criminal
investigations; within the FBI. This separation greatly hampered the flow of


                                       335
information between FBI personnel working criminal and intelligence
investigations, including information concerning Hazmi and Mihdhar in the
summer of 2001.
       As discussed in Chapter Two, in late 1999 the FISA Com_ had become
the "wall" for purposes of passing FISA information on targets of a particular
terrorist organization from FBI intelligence investigations to criminal
investigations, i Any information that intelligence agents wanted to give to
criminal agents had to be provided to the FBI's NSLU, which then provided it
to OIPR, which then provided it to the FISA Court, which then had to approve
the passage of the: information to criminal agents. In addition, after the FISA'
 Court was notified in the fall 2000 about errors in approximately 100 FISA
,applications; a significant portion of which related to the FBI's representations
 about the "wall" procedures in al Qaeda cases, the FISA Court imposed new
restrictions on the',FBI's handling of FISA information. The FISA Court
required a certification from all individuals who received FISA information
 stating that they understood this requirement.
       The FISA Court exempted CIA and NSA personnel, who often received
FISA information from the FBI, from this certification requirement. But the
FISA Court required that the CIA and NSA indicate on the information they
provided tothe FBI whether the information had been obtained based on FISA
information previously provided to them by the FBI (called "FISA-derived
information"). In response, the NSA decided that it was more efficient not to
delay dissemination of intelligence while checking to see if it was derived from
FISA, and it therefore placed a caveat on all NSA counterterrorism reports to
the FBI stating that before information could be considered for dissemination
to criminal perso_mel, the FBI had to check with the NSA General Counsel
about whether the intelligence was FISA-derived. Once the NSA determined
whether the information was FISA-derived, the FBI had to comply with the
wall procedures for passing FISA-derived information to criminal agents or
prosecutors. If the information was not FISA'-derived, it could be passed
directly.
      FBI Headquarters personnel became wary that any involvement of
criminal agents in intelligence investigations could present problems for the
FBI with the FISA Court.. A former ITOS unit chief described the FISA
Court's certification requirement as a "contempt letter" and said that it "shut
down" the flow of information in the FBI. He further stated that FBI


                                       336
Headquarters employees became worried that any misstep in handling FISA
information could result in harm to their careers because an FBI agent was
banned from appearing before the FISA Court and OPR began an investigation
on him. These three factors - the Court had become the screener in al Qaeda
cases, the certification requirement imposed by the FISA Court, and concerns
about violating the Court's rules - combined to stifle the flow of intelligence
information within the FBI. FBI employees described this _Lo   the OIG as the
walls within tlhe FBI becoming "higher" over time. New York FBI agents told
the OIG that the wails were viewed as a "maze" that no one',really understood
or could easily navigate.
      As we discuss below, these walls affecte,d the FBI personnel's
discussions about the Mihdhar information at the June 11,2001, meeting in
New York and the FBI's decision to open an investigation to locate Mihdhar in
August 2001.

           2.   Problems at the June 11 meeting
      At the June 11,2001, meeting, FBI Headquarters and CIA CTC
personnel discussed with New York FBI investigators issues relating to the
Cole investigation. At the time of this meeting, the FBI analyst who we call
Donna had received information fromthe CIA concerning l_avel in January
2000 of an al Qaeda operative named Khalid _d-Mihdhar to Malaysia through
Dubai.



     After receiving the information from the:CIA, Donna had conducted her
own record check on Mihdhar in CTLink and discovered the NSA information
from late 1999 and early 2000 associating




     266Although not shared with Donna or known to anyone else in the FBI, the CIA also
knew in June 2001 that Mihdhar had a U.S. visa, that Mihdhar's associate -- Hazmi -- had
traveldd to the United States in January 2000,




                                           337
           This NSA intelligence about Mihdhar would have been important to the
    FBI agents conducting a criminal investigation n__,                  However,
    Donna did not share this information with the criminal agents at the June 11
    meeting because of concerns about the wall. By tlhis time, the FBI was
    operating under the requirement that all NSA counterterrorism information had
    to bereviewed by the NSA's General Counsel's Office for a determination of
    whether it was FISA-derived before it could be considered for dissemination to
    criminal agents. Because she had not yet asked the NSA whether the
    information could bepassed, Donna did not provide the New York agents with
    any of the NSA information. That information would have been important to
    the New York agents who were working the Cole investigation because they
    specialized in al Qaeda operations and at the June 11 meeting showed great
    interest__i                                      That information may also
    have provided the criminal agents with additional leads and could have led to
    the information that Mihdhar and Hazmi had traveled to the Un:ited States in
    January 2000.
          We recognize that the caveat on sharing any NSA counterterrorism
    information did not mean that the criminal agents were prohibil:ed from ever
    obtaining access to the NSA information on Mihdhar. But if the information
    was FISA-derived, the caveat created a delay in the criminal agents receiving
_   the information because of the lengthy procedures that had to be followed to
    share the information with them.

          With respect to the information Donna had received from the CIA about
    the Malaysia meetings, Donna showed the photographs to New York agents
    and asked whether they could identify___                                         .:
                  . After one of the agents made a tentative identification, the agents
    asked questions about Mihdhar and the photographs. The agents continued to
    ask Donna questions about Mihdhar, the Malaysia meetings, a_Ldthe
    photographs on June 11 after the meeting. As we discussed above, it is unclear
    how much questioning occurred during the actual meeting and how much
    occurred after the meeting. Donna was unable to answer most ,ofthe agents'
    questions because: she had not obtained the information from the CIA. This, in
    our view, was not: because of the wall, but was because of Dorma's failure to
    plan the meeting adequately or ask sufficient questions from the CIA in
    advance of the meeting.



                                            338
      First, we believe the planning for the June 11 meeting was flawed.
Although Donna and other IOSs frequently traveled to New York to work on
the Cole investigation, she told the OIG that this was the first time that she had
arranged for a meeting involving CTC personnel in New York. Yet, according
to what the meeting participants told the OIG, the purpose _mdthe agenda of
the rneeting were not clear. The participants agreed that they knew there was
going to be a cliscussion of the investigative results on the Cole attack. The
New York agents believed that the CTC and FBI Headquarters had information
to sharewith New York. Donna and the CTC participants, however, described
the meeting as a "brainstorming'" session to de,termine what new leads could be
pursued' and what FBI Headquarters could do to assist New York.
       No agenda was preparedand no supervisors were consulted for their
 inpui about the meeting. Even though Donna said that she ,called the meeting
 to explore further leads or avenues of investigation in the Cole case, she
apparently did not ask the CTC participants to be prepared to present
 information or answer questions. Mary and Peter told the OIG they were not in
 a position to discuss the Cole investigation. Mary said she was not up to speed
 about the Cole investigation or the Malaysia meetings. Peter told the OIG that
 as an analyst at the CIA, he did not have authority to discuss CIA information
 atthe meeting and he was merely "tagging along."
      :Donna told the OIG that she considered Mary to be another FBI
employee at tlhe meeting, and for this reason did not provide her with any
specific instructions in preparation for the meeting. Donna also said that she
had not invited,Peter and because she was not in his chain of command, shedid
not ask him to be prepared. However, the New York agents we interviewed
told the OIG that they believed that CTC personnel were coming to the
meeting in part to share information with them. The fact that all the
participants we interviewed described the meeting as unproductive and a
"waste of time" highlighted that a more useful exchange of information could
have occurred.

      With respect to the __l,                        Donna had obtained only
limited information from CIA employee John about the photos when'she
received them. She did not ask general background questions such as whether
anyone else in the photographs had been identified, or what else was known
from the Malaysia meetings. Donna told the OIG that because she believed the
CIA provided her with everything she was entitled to know, she did not have

                                       339
        /
an in-depth discus;sion about the photographs. Jotm said he did not recall
anything about his discussions with Donna regarding the ]]re[Illm


       Donna told the OIG that when the New York agents asked her questions
about Mihdhar, the Malaysia meetings, and the photographs, she thought that
they were reasonable questions, but she did not know the answers. She stated
that at the time she obtained the _n                         from the CIA, she
believed that they were only potentially related to Quso and their significance
to the Cole would, hinge on whether Quso was in the photographs.
      We believe Donna should have asked the C!A additional questions about
the photographs.
                                                           Given her interest in
                                         , she should have wanted to ascertain,
and asked the CIA, what, if anything, was known about the purpose of the
Malaysia meetings, who were the other participants at the meetings, what was
known about the ]participants, and any other available information.
       Donna also did not ask the CIA whether there were additJLonal photos Or
documentation,   Donna told the OIG she was unaware that there could have
been additional photographs or other relevant information avai}table. We
believe that someone in her position should have known or at least asked for
additional information about the subject of the photographs in preparation for
the meeting.
      We alsowere troubled by Donna's inadequate efforts to obtain additional
information after the June 11 meeting, particularly information about the
Malaysia meetings, since ithad been the subject of a dispute between Donna
and Scott, Although Donna told the New York agents that she would check
with the CIA about additional information regarding the photographs and the
Malaysia meetings, Donna made little effort to obtain this information until
two months later, in August 2001. Donna told the,'OIG that she believes that
she made some unsuccessful follow-up phone call[s to Peter and John about the
photographs. It is not clear from the documentary evidence how much Donna
did before August to obtain the information, but she did not provide additional
information to the New York agents about the photographs for at least two
months. We recognize that FBI analysts were ow_rwhelmed with assignments
and had to juggle many responsibilities, however, given the possible


                                      340
connections of this information to the Cole investigation, we believe Donna
should have made more aggressive and timely efforts to oblLainthis information
soon after the June 11 meeting and to keep the',New York agents informed
about what her follow-up efforts were.
       By the same token, Scott, the New York Cole case agent, did littleto
 follow up after the June 11 meeting to obtain information he requested
 _lll.                    Scott told the OIG he "often" asked Donna about the
 status of the information, but he was not provided any such information.
 Donna contended that Scott did not follow up on his June I 1 requests. We
 found no evidence such as e-mails or other documents to support Scott's claim
•that he raised the issue often with Donna. We believe that neither Donna nor
 Scott made significant efforts after the meeting to obtain the information.

         3.    The FBI's investigation in August 2001 to find Mihdhar and
               Hazmi
       As discussed above, on August 22, 2001, the FBI learned that Mihdhar
and Hazmi had entered the United States in January 2000, that Mihdhar had
again flown to New York on July 4, 2001, and[that there was no record of
either of them leaving the country. The FBI also learned that Khallad hadbeen
identified in tl_eKuala Lumpur photographs. Upon discovery of this
information, the FBI opened an intelligence investigation in New York in an
effort to locate Mihdhar.
      Once again, however, the separation between intelligence and criminal
information affected who could receive access; to the information about Hazmi
and Mihdhar. This interpretation of the wall also hampered the ability of the
FBI New York agents working on the Cole investigation to participate in the
search for Hazmi and Mihdhar. In addition, we found that llhe FBI's efforts to
locate Hazmi and Mihdhar were not extensive. We do not i['aultthe case agent
assigned to locate them. He was new and not instructed to give the case any
priority. Rather, we found tlhatthe FBI New York did not pursue this as an
urgent matter or assign many resources to it.




                                      341
               a.   The effect of the wall on the FBI's attempts to locate
                    Mihdhar

      As discussed above, Donna drafted an EC to the New York FBI
requesting it open an investigation to locate Mihdhar. She also called Chad,
the FBI New York agent who primarily handled intelligence investigations for
the Bin Laden squad, to give him a "heads up" about the matter, and she
subsequently sent the EC to him. She wrote in the e-mail that she wanted to
get the intelligence investigation going and the EC could not be shared with
any of theagents working the Cole criminal case. Chad forwarded the EC to
his squad supervisor, Jason, who nevertheless disseminated the EC via e-mail
within the Bin Laden squad, including to the criminal agents assigned to the
Cole investigation.
       Scott read the EC and contacted Donna regarding it. Donna informed
Scott that he was :not supposed to have read the EC because it contained NSA
information that had not been cleared to be passed[ to criminal agents. Donna
told Scott that he needed to destroy his copy. Scott responded that the effort to
locate Mihdhar II                                    ill|,          and he argued
with Donna regarcling the designation of the investigation as an intelligence
matter. Donna asserted that, because of the wall, criminal agents were not yet
entitled to the underlying intelligence provided by the NSA, andll
_l                      the FBI could not establish any connection between
Mihdhar and the Cole criminal investigation.
       Scott, Donna, and acting UBL Unit Chief Rob then spoke: via conference
call. Scott argued that the investigation should be opened as a criminal
investigation and that more resources and agents couldbe assigned to a
criminal investigation by New York. He also argued that criminal investigative
tools, such as grmad jury subpoenas, were far quicker in obtaining information
than the tools available in intelligence investigations.
       Donna consulted with an NSLU attorney, Susan. According to Donna,
Susan concurred that the matter should be handled as an intelligence
investigation and that because of the wall, a criminal agent cou![d not




                                       342
participate in the search for or any interview of Mihdhar. 267 When Donna
advised Scott of Susan's opinion in an e-mail message, Scott responded by e-
mail that he believed the wall was inapplicable. Scott ended his message by
suggesting that because of the NSLU's positien, people were going to die and
that he hoped that NSLU would stand by its position then.
       The way that FBI Headquarters handled the Mihdhar information
reflected its interpretation of the requirements of the wall prior to September
 11. First, because the predication for the search for Mihdhar originated from
the NSA reports, this information could not be,immediately shared with
criminal agents. Instead, it first had to be cleared for dissemination by the
NSA, which would determine whether the intelligence was based on FISA
information. If so, the information had to be cleared for passage to the criminal
agents - the information had to be provided to the NSLU, which then provided
the information to OIPR, which then provided it to the FISA Court, which then
had to approve the passage of this information, to criminal agents. In fact, the
limited INS information concerning Mihdhar's and Hazmi's entries into the
United States was the only unrestricted information in the EC immediately
available to the criminal investigators.
       __,                         the decision to open an intelligence
investigation resulted in certain restrictions. FBI Headquarters employees
understood that they needed to ensure that they avoided any activities that the
FISA Court or OIPR could later deem "too criminal" and could use as a basis
to deny a FISA application. This included pre.venting a criminal agent from
participating in a subject interview in an intelligence investigation. While
Scott was con:ect that the wall had been created to deal with the handling of
only FISA intbrmation and that there was no legal barrier to a criminal agent
being present for an interview with Mihdhar if it occurred in the intelligence
investigation, FBI Headquarters and NSLU believed that the original wall had
been extended by the FISA Court and OIPR to cover such an interview.
      Scott's frustration over the wall was similar to Henry"s
               when Henry was told by Don that seeking prosecutor


   267AS discussed above, Susan told the OIG that she did not recall this discussion with
Donna.




                                            343
involvement prematurely could potentially harm any FISA request. Scott, like
Henry, wanted to pursue a criminal investigation _mdbecame fi:ustrated when
he was advised by FBI Headquarters that he could[not proceed in the manner
he deemed appropriate. Scott's perception was that FBI Headquarters had
misconstrued "the wall" and the wall had been inappropriately expanded. He
told the OIG that he believed the wall should only relate to FISA or FISA-
derived information. Like the Minneapolis FBI, Scott believed that he was
being "handcuffed" in the performance of his job and that FBI Headquarters
"erred on the side of caution" in its approach to intelligence information.
      FBI Headquarters, on the other hand, acted in accordance: with its
experience with OIPR and the FISA Court. FBI Headquarters believed that
OIPR and the FISA Court requiredstrict adherence to the procedures for the
passage ofintelligence information to criminal investigations and required
separating criminal and intelligence investigations;. Donna explained that the
FISA Court's rnandates resulted in the need for the FBI to creaTLea near
complete separation between intelligence and criminal investigations in order
to effectively use intelligence inforrnation. Rob also told the OIG that there
were "land mines" in dealing with intelligence versus criminal information,
and it was difficult to appropriately straddle the two sides.
      ,Our review of this case showed that the wall had been expanded to create
a system that was complex and had made it increasingly difficult to effectively
use intelligence information within the FBI. The wall - or "maze of walls" as
one witness described it- significantly slowed the flow of intelligence
information to criminal investigations. The unintended consequence of the
wall was to hamper the FBI's ability to conduct effective counterterrorism
investigations because the FBI's efforts were sharply divided in two, and only
oneside had imrnediate and complete access to the available information.
      The wall was not, however, the only impediment in the FBI's handling of
the investigation to find Mihdhar and Hazmi. We found there were also other
problems in how the search for Mihdhar and Hazmi was handled.

               b.   Allocation of investigative resources
       We found that prior to the September 11 attacks, the New York Field
Office focused its;al Qaeda counterterrorism efforts on criminal investigations,
but it did not expend a similar effort on intelligence investigations or the


                                       344
development of intelligence information. New York agent,; told the OIG they
believed that criminal prosecution was the most effective tool in combating
terrorism. They asserted that criminal investigations are al,,;oa preventive
activity and the FBI had always focused on preventing terrorism, even before
September 11. They pointed to the TERRSTOP investigation in 1993, an
investigation to uncover a terrorist plot to attack New York City landmarks,
and the criminal investigation into the East African embassy bombings.
       Prosecutors also argued that criminal investigations and prosecutions are
an effective preventive measure against terrorism. Testifyi_ag before the Joint
Intelligence C,ommittee, Mary Jo White, the former U.S. A_Ltorneyfor the
Southern District of New York (SDNY), stated, "[W]e viewed the terrorist
investigations and prosecutions we did from 1993-2002 as a prevention tool."
Patrick Fitzgerald, currently the U.S. Attorney for the Northern District of
Illinois and formerly an Assistant U.S. Attorney in the SDNY, told us that it is
a misconception that there has to be a difference between prosecution and
gathering intelligence. He added that the SDNY prosecutions produced a
"treasure trove of [intelligence] information."
      However, prosecutors alsorealizedcriminal investig_tion and
prosecution were not the only means:of countering terrorism. White stated,
"the counterterrorism strategy of our country in the 1990s was not, as I have
read in the media, criminalprosecutions."    She further stated, "none of us
considered prosecutions to be the country's counterterrorism strategy, or evena
major part of it." As Fitzgerald told us, "in order to connect the dots, you need
people to gather the dots."
       Although we agree criminal investigations are a highly effective
counterterrorism tool, intelligence investigations were not given nearly the
same level of resources and attention in the FBI's New York Field Office
before September 11,2001. This criminal focus was clear in the assignment of
personnel on the New York Bin Laden squad. From October 2000 to June
2001, only one agent on the Bin Laden squad was designated as the
"intelligence'" agent- the agent we call "Chad." The remainder were
designated as "criminal" agents. 268Chad told us that he was inundated with


    268One criminalagentworkedon intelligencematterson a part-timebasis.



                                        345
intelligence investigations and information, and he rarely had enough time
even to review all the incoming Bin ]Ladenintelligence information, let alone
to digest, analyze, or initiate the procedures to pass the information to the
criminal agents Where applicable. Chad also told us that the "intelligence"
agent designation was "not a desirable position" within the Bin Laden squad.
He described himself as the "leper" on the squad clue to "the wall."
Furthermore, Chad stated that the intelligence side of the squad received far
less and lower quality resources.
       The handling of the investigation to locate Mihdhar provides a clear
indication of the primacy of the criminal over intelligence investigations in the
New York office. On August 28, ZOO1, the New :fork Field Office opened an
intelligence investigation to locate Mihdhar based upon Donna"s EC. Donna
told the OIG that .she believed there was some urgency to the Mihdhar
investigation, not because of any evidence that he was operational, but because
he could leave the;United States at maytime and the opportunity to find out as
much as possible about him would be lost. She said she therefore called Chad
about the EC in advance, which she did not normally do.
      However, when she sent the EC to New York, she assigned the matter
"routine" precedence, the lowest precedence level. When asked about this
discrepancy, Dorma told the OIG that the Mihdhar investigation was "no
bigger" than any other intelligence investigation that the FBI was pursuing at
the time.

       The NewYork Bin Laden squad relief supervisors, who we call "Jay"
and "David," told the OIG that they recognized that there was some urgency to
the Mihdhar investigation. Yet, the FBI in New York did not treat it like an
urgent matter. The investigation was given to an inexperienced agent-
"Richard"- who ihad only recently been assigned to the Bin Laden squad. This
was his first intelligence investigation. As one of the largest field offices in the
FBI, with over 300 agents assigned to the JTTF, the New York Field Office
could have assigned additional or more experienced agents who were not
involved in the Cole criminal investigation to assist Richard. However, the
New York Field Office Bin Laden Squad was focused on criminal
investigations. As a result, the designation of the Mihdhar mat_Ieras an
intelligence investigation, as opposed to a criminal investigation, undermined
the priority of any effort to locate Mihdhar.



                                        346
        Finally, we also noted that there was a dear predicate for a criminal
investigation that no one appeared to notice at the time. In her EC, Donna
noted that Mihdhar had previously traveled to the United States, according to
information she had obtained from the INS. After the FBI's intelligence
investigation was opened, she obtained and forwarded to Richard a copy of
Mihdhar's June 2001 visa application on which he stated that he had not
previously been issued a visa'and had never traveled to the United States.
Thus, there was a clear basis to charge Mihdhar criminally with false
statements or visa fraud. Significantly, this information had been provided to
the FBI without the restrictive caveats placed on NSA reports and other
intelligence information. As a result, if Mihdhar had been found, he could
have been arrested and charged with a criminal violation based on the false
statements on his visa application. However, tlhe FBI did not seem to notice
this when deciding whether to use criminal or intelligence resources to locate
Mihdhar.

    D'    IndJividual performance

      This section summarizes the performance of individual FBI employees in
the Hazmi and Mihdhar matter. While none of them committed misconduct,
we believe that several FBI employees did not perform their duties as well as
they could have and should have. We address in turn the FBI employees
involved in each of the five lost opportunities.
      In this section, we do not discuss the performance of J[ndividual CIA
employees. However, we believe that a significant cause of the faihlres in the
sharing of infi_rmation regarding the Hazmi and Mihdhar case is attributable to
the actions of the CIA employees. It is the responsibility o1_the CIA OIG to
assess the accountability of the actions of CIA employees.

          1.   Dwight
       In January 2000, intelligence information was developed about Hazmi,
Mihdhar, and _l                           meeting in Malaysia. Dwight, an FBI
detailee to the CTC's Bin Laden Unit, read the CIA cables about the Malaysia
meeting. The cables indicated that Mihdhar had a U.S. visa and that he listed
New York on the visa application as his intended destination. Dwight
recognized the significance of this information to the FBI and drafted a CIR to
pass this information to the FBI.


                                      347
      Unfortunately, his draft CIR was never sent. A notation added to the CIR
suggested that it was held at the request of the CIA's Deputy Chief of the Bin
Laden Unit. Seve,ral FBI detailees accessed the CIR, and Dwight inquired
about it again five days later, asking the Deputy Chief in an e-mail whether it
was going to be sent or whether he needed to "remake" it in some way. We
found no response to his e-mail, and none of the participants, including Dwight
and the Deputy Chief, said they remembered this CIR at all.
       We believe the primary responsibility for the failure to pass this
information rests with the CIA. The evidence indicates that the CIA did not
provide permission for the CIR to be sent.269However, we also believe that
Dwight should have followed up as much as necessary to ensure that the
information was sent to the FBI. Although we found evidence that he inquired
once about the disposition of the CIR, we found no additional e,vidence that he
continued to follow up to ensure that:the information was sent. If Dwight was
stymied in his attempt to learn about the disposition of the cable, or if the CIA
gave no reasonable explanation for why the information was not being sent, he
could have brought this issue to the attention of another superwisor in the CTC.
In our view, Dwight took the commendable initiative to draft tile CIR to share
the information with the FBI, but did not follow through adequately to ensure
that it was sent, and the information in the CIR was not provided to the FBI
until shortly before the September 11 attacks.

           2.   Malcolm
      Malcolm was a New York FBI agent detailed for several years to the
CTC. He toldthe, OIG that he understood his role, at the CTC was, among
other things, to be the "eyes and ears" of the New York Field Office. We do
not believe that he performed this role sufficiently. He acknowledged to the
OIG that one of his duties was "to monitor" New York Field Office cases, but
he said he read only the cables that he thought were "interesting," generally


     269The CIA has asserted that the information in the CIR was sent to the FBI through
another cable, which may be why the CIR was not sent. A CIA cable stated that Mihdhar's
travel documents, including a multiple entry U.S. visa, had been copied and passed "to the
FBI for further investigation." As discussed above, however, we found no evidence that this
cable was correct and that this informationhad actually be,en provided to the FBI.



                                           348
based solely on his review of the cable subject line. In addition, while he said
his role was to "facilitate inquiries of mutual interest," the only example he
could provide was his acting as a. liaison for FBI offices areund the country by
following up on tracing requests and reporting on their statals. This was not
very onerous or substantive. We believe that FBI management is primarily
responsible for failing to provide the FBI detailees to the CTC, including
Malcolm, with clear duties, direction, and supervision. But we believe
Malcolm should have done more and taken more initiative JLnperforming his
duties at the CTC.

          3.   Stan

       For several months in 2000, Hazmi and Mihdhar lived as boarders in the
house of an FBI informationalasset.    The asset briefly mentioned the two
boarders to his FBI control agent:, who we call "Stan." Stan did not document
this information, seek to learn the boarders' full identities, or conduct any
checks on them.

       No FBI policy required Stan to seek or document this type of information
from the asset, and we founddifferences among the other FBI agents who we
interviewed about whether they would have sought such inl'ormation from an
asset. While Stan did not violate any specific FBI policy, vie believe it would
have been a better and more prudent practice for him to have sought at least
minimal information from his asset about the boarders livinLgwith him. The
asset knew little about the boarders, and the boarders could have compromised
information provided by the asset to the FBI.
       Moreover, FBI policy required Stan to continually evaluate the asset's
credibility and provide a yearly evaluation report on the asset. Stan's yearly
report on this asset was minimal, with a bare attestation of the asset's bona
tides. It contained no indication of what evidence Stan had used to make these
attestations. _N%ilewe do not suggest that Stan had to conduct extensive
reviews of everyone living with the asset, Stan's actions in following up on this
information were not particularly thorough or aggressive.

          4.   Max

      In January 2001, a joint FBI/CIA source: identified IChallad l
__.                                    Because the FBI ALAT who was



                                      349
involved in the handling of the source, Max, was unable to speak any of the
joint source's languages, a CIA employee conducted the debriefings of the
 source, including the debriefing in which the source identified Khallad. We
 concluded that Max was not informed of the source's identification of Khallad
__,                                                .either at the time of the
identification or afterwards. Although CIA cables covering the: debriefing
described the identification of Khallad, these were',not shared with Max.
Instead, he saw CIA TDs that did not contain the information about the
identification.
       CIA documents do not indicate that the ALAT was informed of the
identification, and no other evidence indicates that the ALAT knew. We found
that the ALAT included detailed descriptions in hJisreports of other
information from the source, which indicates he was not provided the
information about the identification of Khallad. We also found that the New
York FBI agents who interviewed the source in February 2001 were not
informed of the identification of Khallad. In sum, we believe t]heALAT did
not learn about the source's identification, not that he knew about identification
but failed to share this information with others.
        We believe that, as the ALAT, Max should have been more familiar with
 the CIA's reporting process. He was not aware that the CIA's TDs contained
 only a part of the information obtained during the source debriefings.
 Although our review revealed that many FBI employees operated with
 misunderstandings about the ways the CIA recorded and reported intelligence
 information, a significant function of the ALAT position is to interact with the
 CIA. Had he recognized that he could not rely on TDs for ful! reporting about
 the source's information, he could have asked his CIA counterpart directly for
 any additional infbrmation from the source, and the ALAT may have learned
 about the identification of Khallad. In addition, given Max's concern that he
 provide FBI Headquarters with all of the information reported by the source, it
,would have been prudent for him to consult with the CIA case officer and ask
 sufficient questions to ensure that he had received all of the infi_rmation. We
 found no indication that he did so.

          5.   Donna

    Donna, the FBI analyst who worked on the investigation of the Cole
attacks, planned a June 11,2001, meeting with the Cole investigators and CIA

                                       350
                !




employees to discuss information relating to the Cole investigation. She
deserves credit for organizing this meeting and seeking to share intelligence
information with the Cole investigators. However, we faul_Lher performance in
two respects. First, we found that the meeting: was poorly planned, and Donna
did not clearly communicate the purpose of the meeting to _Lhe    participants.
Donna also failed to obtain significant information prior to the meeting that
could have been shared with the investigators __.
After the meeting, although Donna devoted a significant amount of time to the
Cole investigations, she did little specific follow-up to provide answers to the
investigators about their logical questions regarding I_-
We believe she did not do all she could have to acquire thai:information for the
New York agents, even though she had said that she would as a result of their
discussion at the June 11 meeting. As a result, the FBI missed another
opportunity to focus on Mihdhar and Hazmi earlier than it did.
       When Donna finally learned from Mary on August 22, 2001, that Hazmi
and Mihdhar were in the United States, Donna dluickly and appropriately took
steps to have the FBI open an investigation to locate them. She personally
called the New York Bin Laden intelligence agent and told him about the
matter. This was an unusual step to call the agent directly, and it suggested
that the investigation should be given some priority. However, when she sent
the EC to New York, she designated the EC as having a routine precedence.
Donna's actions indicated some urgency in the need for the investigation yet
the subsequent EC did not convey any urgency. The New York Field Office
assigned the case immediately, and the agent began working on the case within
two business days of the assignment. If the EC had conveyed urgency, the FBI
New York FMd Office might have assigned additional or more experienced
agents to locate Mihdhar and Hazmi and initiated the search sooner.

          6.   Rob

      We believe that Rob, as Donna's supervisor, is also responsible for
Donna's failures. While the FBI at the time permitted IOS,; to make significant
decisions, often with little supelwisory input, we believe that as a supervisor, he
should have ensured that she was handling the:June 11 meeting appropriately
and, if necessary, become involved with the p]lanning or execution of the
meeting. Although Donna often traveled to New York to work on the Cole
investigation, the June 11 meeting involved the CIA and an AUSA, which


                                       351
should have led to more supervisory involvement in the purpose, agenda, and
outcome of the meeting. But Rob had little supervisory involw_ment with it,
either before or after the meeting. In. addition, although Donna drafted the EC
requesting the investigation of Mihdhar, the EC was ultimately approved and
sent by Rob: Therefore, we believe he also bears some responsibility for
failing to ensure tlhat the appropriate precedence level was used on the EC.

         7.   Richard

       We do not fault Richard for his limited investigation, which was still in
the nascent stages, by the time of the September 1]Lattacks. As we described
above, Richard took logical steps to try to locate Mihdhar and Hazmi, such as
completing a lookout for Mihdhar with the INS, requesting local criminal
history checks, checking with New York hotels about Hazmi and Mihdhar, and         :
conducting commercial database checks on them. However, there were many
more investigative steps that could have been purs;ued, in New York and
elsewhere, had the investigation been assigned greater priority and had the FBI
provided more resources to this investigation. The FBI was not close to
locating Hazmi and Mihdhar when they participated in the Sepl:ember 11
attacks. We believe that the FBI in New York should have assigned the matter
more priority than it did.

         8.   Mary
       Mary was assigned by her CIA managers in May 2001 wJith finding and
reviewing the CIA cables relating to the Malaysia meetings and their potential
connection to the Cole attack. Mary did not find the relevant CIA cable traffic
until late July and. mid-August 2001. She told the OIG that she did not have
time to focus on this assignment until then. Upon discovering on August 21
that Hazmi and Mihdhar had travelecl to the United States, she iimmediately
passed this information to the FBI.
                 .J
       We recognize that the disparate pieces of information about the Malaysia
meetings were not easyto connect and that the task of developing patterns
from seemingly unrelated information was complex. Yet we question the
amount of time that elapsed between Mary's assignment and her discovery of
the important information. As we discussed previously, however, Mary's
assignments were directed and controlled by her raanagers in the CTC. We,
therefore, leave this issue to the CIA OIG for its consideration.


                                      352
V.   OIG conclusions

       In sum, we found individual and systemiic failings in the FBI's handling
of information regarding the Hazmi and Mihdhar matter. The FBI had at least
five opportunJities to learn about their presence in the United States and to seek
to find them before September 11,2001. Much of the cause for these lost
opportunities involved systemic problems. We found information sharing
problems be_veen the CIA and the FBI and systemic problems within the FBI
related to counterterrorism investigations. The systemic problems included
inadequate oversight and guidance provided to.FBI detailees at the CIA, the
FBI employees' lack of understanding of CIA procedures, the inconsistent
documentation of intelligence information received informally by the FBI, the
lack of priority given to counterterrorism investigations by the FBI before
September 11, and the effect of the wall on FBI criminal investigations.
     Our review also found•that the CIA did not provide information to the
FBI about Hazmi and Mihdhar when it should•have and we believe the CIA
shares significant responsibility for the breakdown in the Hazmi and Mihdhar
case. However, the FBI also failed to fully exploit the infolTnation that was
made available to them. In addition, the FBI did notassign sufficient priority
to the investigation when it learned in August 2001 that Ha:zmi and Mihdhar
were in the in the United States. While we do not know what would have
happened had the FBI learned sooner or pursued its investigation more
aggressively, the FBI lost several important opportunities to find Hazmi and
Mihdhar before the September 11 attacks.




                                       353
354
                           CHAPTER SIX
                RECOMMENDATIONS   AND CONCLUSIONS

        Our review found many deficiencies in the FBI's handling of intelligence
information related to the September 11 attacks. In addition to individual
failures, whidh we detail at the end of each chapter, we found significant
systemic problems that undermined the FBI's Counterterrofism Program. For
example, before the September 11 attacks the FBI lacked an effective
analytical program, failed to use the FISA statute fully, and was inadequately
organized to disseminate timely and sufficient information within the
Intelligence Community. As we detailed in this report, these systemic
problems significantly affected the FBI's handling of the Phoenix Electronic
Communication (EC), the Moussaoui investigation, and the:pursuit of
intelligence information relating to Hazmi and Mihdhar, two of the September
 11 terrorists.

       Since September 11,2001, the FBI has taken numero_as steps to
reorganize and strengthen its Counterterrorism Program. In this report, we
have not analyzed each of these changes, manly of which are substantial,
ongoing, and evolving. The National Commission on Terrorist Attacks Upon
the United States (9/11 Commission), as well as other OIG and GAO reviews,
is assessing the impact of the changes in the FBI since September 11, 2001.
       In this chapter, we make broad systemic recommendations    to address the
specific problems examined in our review that webelieve t]he FBI must address
as it continues to change its Counterterrorism Program. Our recommendations
flow from the analysis of the deficiencies that we found in the way the FBI
handled infonmation related to the September 11 attacks. 27°

I.   Recommendations

     A.    Recommendations         related to the FBI's analytical program
      Recommendation       No. 1: Improve         the hiring, trainting, and
      retention of intelligence analysts.


    270Attached in the Appendix is the FBI's respons,e to this report and our
recommendations.
                          '\




                                            355                                    _,
        As discussed in Chapter Two, the FBI acknowledged shortly after the
September 11 attacks that its analytical program was inadequate and in need of
improvement.      Since then the FBI has made important changes to attempt to
address this deficiency. For example, the FBI has established the Office of
Intelligence with separate management and career tracks for analysts. In
addition, the FBI has created an analytical branch in the Counterterrorism
Division and has .established the College of Analytical Studies at the FBI
Academy in Quantico, Virginia, with a 6-week training program for all
analysts.
       In addition to these important changes, the FBI must ensure that it hires,
trains, and retains a sufficient number of skilled maalysts. Hiring sufficient
numbers of qualified analysts is a challenging task. As part of this effort,
training'for analysts must be improved. For example, we found that training
for analysts prior to September 11 was infrequent and often did: not occur until
months after they began working in their analyst positions. While training for
analysts has improved since September 11, the FFII needs to ensure that it
provides comprehensive and timely training for all its analysts. :271
       To retain analysts, the FBI must ensure that it creates an attractive career
path for analysts, with sufficient benefits and stature within the FBI. Analysts
should have the opportunity to receive promotions to senior positions, such as
assistant directors; or deputy assistant directors, rather than being supervised
solely by special agents who have risen to management positions within the
FBI. Prior to September 11,2001, the FBI did not sufficiently value or support
the critical work of its analysts. The FBI must ensure that it elevates the
importance of analysts and their work within the FBI.
      Recommendation         No. 2: Ensure effective managemel_lt of
      analysts.
      Our review revealed problems in the management of analysts within the
FBI, particularly the Intelligence Operations Specialists (IOSs) in the
International Terrorism Operations Section (ITOS) at FBI Headquarters. Our
review revealed t]flatsupervisory special agents in FBI Headquarters failed to


     271The OIG is currently conducting an audit examining the FBI's effi_rtsto hire and
train intelligence analysts.



                                            356
provide consistent oversight and supervision of these analysts. Part of the
problem was that the analysts were long-time FBI Headquarters employees J
with substantive expertise in terrorism matters, while their supervisors were
agents who often lacked analytical expertise and rotated through FBI
Headquarters on short assignments.
       Moreover, prior to September 11,2001, ITOS worked in crisis mode,
with insufficient resources to respond its many tasks. Consequently,
overwhelmed analysts had to respond to the emergency of the moment. They
did not have sufficient time to conduct comprehensive, proactive analysis to
assess the significance or the relationship of disparate pieces of intelligence
information. ;Supervisors also allowed the analysts to make.,critical decisions
independently', without requiring any supervisory consultation even on
significant matters.
       The FBI must ensure effective management of analysts. It must identify
the priorities for analysts and ensure that their workload is reasonable enough
for them to adequately perform the tasks assigned to them. The FBI should
more clearly define supervisors' responsibilities in managing its analytical
programs. On important decisions, including cletermination of the priority to
assign analytical requests, analysts should be required to consult their
supervisors. In addition, analysts should not be able to close leads by simply
reassigning them, which also occurred with regard to the Phoenix EC.
       We also believe that the analysts' supervisors must have greater
experience and broader knowledge of the activities under their area of
supervision. Moving supervisors rapidly through critical units dealing with
counterterrorism undermines the management of the program and the FBI's
critical need for continuity and expertise in these important units. Supervisory
positions that oversee analysts should be filled by experienced and permanent _-
personnel, not analysts in acting capacities or ;agents who rotate through the
units for short periods of time.
      Recommendation No. 3: Require greater coordination and
      consultation between the operational and analytical units.
      Various FBI analysts and managers told us that, in the past, operational
managers in the FBI frequently overruled the conclusions of analytical work
products. Before information could be dissemdnated to the field, ECs
containing the analytical information had to be approved by the operational

                                      357
unit with responsibility for the area. The wimesses stated that the job of
operational personnel is to verify that the facts cited by analyst,; are correct, but
that the expertise .andjudgment of analysts normally should be relied upon in
deciding the conclusions to be drawn from those facts.
      We agree that operational personnel generally should not alter or veto the
conclusions of an analyst in an analytical product. At the same time, analytical
products need the input and expertise of operational personnel. The FBI
therefore should take steps to institutionalize the operational components'
involvement in developing and reviewing analytical products and set up a
process for ensuring that these products reflect the'.consensus of the FBI's
analytical and operational components.
       Because the FBI combines intelligence and ]lawenforcement
components, disputes inevitably will arise between the operatic,nal unit and the
analyticalunit ow_r, among other things, whether ,certain infomlation should be
distributed to _thefield or should appear in a briefing document because of
concerns thatit could jeopardize a pending investigation or prosecution. We
believe that the FBI should establish a more defined and efficient process for
handling thesetypes of conflicts. The process should involve discussions
between the disagreeing components and the input of the FBI's Office of
General Counsel iinappropriate circumstances, with a decision resting with
upper-level FBI management.

     B.   Recommendations       related to the FISA process
      Recommendation No. 4: Ensure adequate training of FBI
      employees involved in the FISA process and
      eounterterrorism matters.
      We found that many FBI employees who were assigned t,o
counterterrorism work- whether analysts, special agents in field offices, or
FBI Headquarters', supervisory special agents- received little formal training
about counterterrorism matters in general or FISA in particular.. Even in
complicated matters, such as the intricacies of terrorist organizations such as al
Qaeda, these FBI employees primarily receivedon-the-job training.
      We found, in particular, that FBI employees' knowledge :about FISA was
limited and uneven. FBI Headquarters employees', we interviewed generally
were not even familiar with the 1995 Procedures. Although they were


                     :.                 358
knowledgeable about basic steps required for obtaining a F![SA warrant, they
were not welt versed in the requirements of the FISA statute, particularly when
the facts of the case did not fit within a standard pattern. We also found that
special agents in FBI field offices were not well informed about the FISA
process, such as the steps needed to finalize a FISA request, or the types of
information needed to meet the requirements for a FISA warrant.
       After the September 11 attacks, the 1995 Procedures and other
restrictions regarding FISA and the dissemination of intelligence information
have dramatically changed. By many accounts, the FBI and the Office of
Intelligence and Policy Review (OIPR) are now much more aggressive in their
approach to obtaining FISA warrants than be_re September 11. In addition,
we were informed that in the spring and summer of 2003, many FISA training
sessions were provided for FBI and OIPR employees, as well as employees
from other De,partment of Justice components and intelligence agencies
working on counterterrorism matters. This type of training., in our view, should
be expanded and provided regularly.
      In additiion, the FBI must ensure that its employees understand the
requirements for opening intelligence and criminal investigations that relate to
counterterrorism and the tools available to them to conduct these
investigations. This training should include detailed inforn_ation on FISA and
how it can be used, even when the case does not fit a standard fact pattern.
      FBI agents also should receive training about the rest_.'ictions on the use
of information acquired in intelligence investigations. Formal training should
be provided at all levels in FBI Headquarters and for all field office employees
who are involved with counterterrorism investigations, including the Chief
Division Counsels (CDC) in the field. Widespread and COl_Ltinual     training on
FISA and other counterterrorism issues is especially important given the
increase in the number of FBI employees who, since September 11,2001, have
been reassigned to counterterrorism matters from other programs.
      Recommendation No. 5: FBI attorneys should be better
      integralted into counterterrorism investigations.
       Our review found that the FBI lacked an effective system for ensuring
that FBI lawyers were sufficiently integrated into the FISA process or other
legal issues arising in counterterrorism investigations. For example, the FBI
Headquarters supervisor most involved with I/Ill                  had to consult

                                       359
with four different National Security Law Unit (NSLU) attorneys about the
II          FISA request because FISA requests were not assigned to a single
NSLU attorney who was responsible for seeing it through the process. In
addition, none of the NSLU attorneys consulted with anyone from OIPR about
the l/1         FISA request, despite its unusual nature, partly because one
NSLU attorney never was completely responsible for the matter.
       We believe that one NSLU attorney normally Should be assigned to
 handle a particular FISA request or other legal matter arising il_L
                                                                   a
 counterterrorism investigation. This would ensure that an NSLU attorney is
 familiar with the facts and legal issues from beginning to end of the case, and it
 would give the attorney greater responsibility for a particular matter. In
 addition, we belie.ve that NSLU attorneys should have more contact with field
 agents in important cases. None of the NSLU attorneys in the ll__
•spoke with the fie.ld agents, or even were provided the underlying documents
 drafted by the field agents.
      On the other hand, we found that the Minneapolis field agents in the
                 did not consult fully with their CDC about what was needed to
support their FISA request, despite their frustration and disagreement with the
advice they received from FBI Headquarters. Fie][dagents should be
encouraged to consult with CDCs about FISA requests or other legal issues that
arise out ofcounterterrorism investigations. CDCs also should be more
involved in the FISA process and better trained to be in a position to provide
useful guidance to field agents and represent the field office on a particular
FISA request.,   .



      Recommendation No, 6: Ensure closer consultation between
      theFBI and OIPR, particularly on important or unusual
      cases.

      In the 'll__,           the FBI never consu]lted OIPR about the
possibility of obtaining a FISA warrant, despite the strong disagreements about
the case between FBI Headquarters and the field office. The chief of the
NSLU told us that he had never seen. a supervisory special agent in
Headquarters so adamant that a FISA warrant could not be obtained and at the
same time a field office so adamant that it could. We believe that in unusual
cases, _                                         I did not ill: a standard fact
pattern for FISA and strong disagreement existed within the FBI about the


                                        360



                                                                                      t   L
strength of the evidence, FBI lawyers should consult with OIPR about the
issues involved in the case. OIPR is responsible for implementing FISA and is
the Department's expert on the requirements of the statute, and the FBI should
discuss with it the important and contentious issues involved in such a FISA
request.
       Since the September 11 attacks, much has changed about the
requirements and use of FISA, including the legal framework and the way the
Department uses the statute. We also underst_md that OIPR and the FBI now
consult more closely on the use of FISAs in particular case,;, as well as on the
requirements ,ofthe statute. We recommend that this closer consultation be
enhanced and promoted, and that the FBI be encouraged to seek assistance and
advice from OIPR at early stages of investigations involving the use of FISA.

     C.   Recommendations related to the FBI's interactions with the
          Intelligence Community
     Recommendation No. 7: Ensure effective management of
     FBI detailees.
      Our review found that the FBI detailees to the CIA's Counterterrorist
Center (CTC) lacked defined responsibilities. The detailees told us theywere
not given specific instructions about their responsibilities and each detailee
defined the job individually. As a result, they:,as well as the FBI and the CIA,
had significam misperceptions and inconsistent expectations about their roles.
For example, the detailees did not believe they were to act as "backstops" to
ensure that CIA information was passed to the,FBI, and they did not scour CIA
cable traffic fbr this purpose. Yet CIA employees believed that at least one of
the FBI detailees had been assigned to the CTC specifically' for this purpose.
      The FB][and the CIA did not have any memoranda of understanding
describing the',detailees' functions. Moreover, the detailees were not even
evaluated based upon what they did at the CTC. Instead, their performance
appraisals were based on what they did as FBI employees, not as detailees to
the CTC.

       The FB][needs to formally describe the roles and responsibilities of
detailees and communicate this to the detailees and to the CIA. To avoid
misunderstandings and ensure continuity in the program, the FBI should
document these responsibilities in a formal memorandum of understanding


                                      361
with the CIA. In addition, the performance work plan of each detailee should
be revised to reflect the critical elements of the job being performed by the
detailee at the CIA, and someone who oversees their daily work should
evaluate them.

      Recommendation     No. 8: Ensure FBI employees who
      interact with other intelligence agencies better understand
      their reporting processes.
      As we discussed in Chapter Five of this report on the Hazmi and Mihdhar
matter, FBI employees we interviewed did not fully understand the CIA's
system for reporting intelligence information. For example, the FBI's
Assistant Legal Attach_ (ALAT) who dealt with the source mistakenly
believed that the CIA's TDs he received contained all source reporting that was
available from the CIA. In fact, other operational cables contained significant
CIA information about the source, including that the source had identified
Mihdhar in the Malaysian meeting photographs. VVe found that other
experienced FBI agents who interacted frequently with the CIA also were
unaware of CIA procedures and important ways to obtain additional
intelligence information from the CIA.
        We believe that FBI employees who interact with the CIA should be
more familiar witlh CIA and other intelligence agencies' processes for reporting
intelligence information. Even if FBI employees clo not have fiJll access to the
reports :of other intelligence agencies or the systems from which these
intelligence reports are produced, the FBI employees should be aware of the
processes and reporting by other intelligence agencies to avoid the
misunderstandings     that occurred in the Mihdhar matter.
      Recommendation     No. 9: Provide guidance for how antd
      when to document _ntelligence information received fi'om
      informal briefings by other inteliigence agencies.
        The FBI lacked clear policies and procedures for how and when to
document intelligence information received from the CIA, partiicularly
intelligence communicated in an informal manner. For example, FBI
employees receiw_d verbal briefings on Mihdhar fi'om CIA employees in the
FBI's Strategic Information Operations Center (SIOC) around the time of the
Millennium threa_L. One of the reasons the SIOC was activated during this
period was to obtain and coordinate the response to threat information from


                                      362
various sources. Yet, the information the FBI received about Mihdhar in the
SIOC was never documented in a way that was accessible to other FBI
employees.
       We are not suggesting that every informal communication from the CIA
to the FBI must be documented. However, the FBI should establish better
guidance for its employees as to how and when such information from such
informal briefings should be documented.
      Recommendation     No. 10: Ensure thalt the FBI's information
      technology systems allow FBI employees to more readily
      receive, use, and disseminate highly classified information.
      The FBI has acknowledged for several years that its information
technology systems are not adequate. The FBI is in the process of
implementing widespread changes to its systems, and the upgrading of its
information technology systems is one of the highest priorities of the FBI. The
OIG and others have monitored and reported extensively oi1 the progress of the
upgrade to the FBI's systems, particularly the FBI's Trilo_¢ project. 272
      In this review, we found many examples; of how the FBI's poor
information technology systems hindered the ]handling and use of intelligence
information. For example, most of the persons listed on the attention line of
the Phoenix EC never saw it. Unless a lead is "set" for a specific person in the
FBI's ACS system, the system does not notify the person that a document is
addressed to them. While it was possible for the addressees to access the
document in ACS by searching fbr documents containing their names, the
system was so cumbersome that FBI employees usually did not do this.
      As the FBI moves forward in upgrading its information technology
systems, it must ensure that it is able to disseminate electronically throughout
the FBI intellJigence information., regardless of the classification level. Agents


     272The Trilogy project is the largest FBI information technology project, and has been
recognized as essential to upgrading the FBI's archaic and inadequate computer systems.
Trilogy's three main components involve upgrading tlheFBI's hardware and software;
upgrading the FBI's communications networks; and upgrading the FBI's most important
investigative applications, including its Automated Case Support (ACS) system and the
introduction of the Virtual Case File system.



                                            363
 and analysts at FBI Headquarters and in the field should be able to access
intelligence information readily to enable them to adequately perform their
jobs. They shouh:l also be able to communicate electronically with their
counterparts at otJher intelligence agencies. The FBI's upgrade of information
technology must take into account the needs for access and use of highly
classified information.

      Recommendation     No. 11: Ensure appropriate physical
      infrastructure in FBI field offices to handle highly classified
      information.

       In our review, we found that the FBI's field offices generally lacked the
necessary physical infrastructure to readily use highly classified intelligence
information from the CIA and NSA. For example',, the workspaces in the FBI's
New York and San Diego Field Offices did not permit FBI personnel to handle
SCI information at their desks. In addition, the FBI's sensitive compartmented
information facilities (SCIFs) in those offices were not large enLough or
adequate enough to permit agents to regularly accessor handle highly
classified information. In addition, many field agents did not have sufficient
access to secure telephones. For example, in the New York FMd Office, the
office most responsible for counterterrorism investigations before the
September 11 attacks, an entire squad with as marly as 25 individuals shared
one secure phone.. In order.to successfully carry out its counterterrorism
functions, the FBI must provide its personnel with adequate intiastructure to
handle highly classified information.
                   )

      Recommendation     No. 12: Improve dissemination      of tl_reat
      information.

       Prior to September 11,2001, the FBI provided little guid_mce to its
employees about what information constituted a "threat" and what threat
information should be disseminated in the FBI, to the Intelligence Community,
or more widely. FBI employees told us that it was left to the judgment of the
supervisory special agent or analyst in FBI Headquarters to decide what
constituted threat information and what should be disseminated[.




                                      364
                                                          The teletype was not
 distributed to all FBI field offices or even to all Intelligence Community
agencies.                                                                           /



      We recognize that threat assessments require judgments, and not every
piece of infol_mation suggesting some kind of harm should be disseminated
throughout the FBI and the Intelligence Community. By necessity, FBI
employees must exercise discretion in evaluating potential threat information.
However, we believe the FBI should issue clear guidance fi)r evaluating what
type of threat-information should be disseminated, within and outside the FBI,
and how it should be disseminated.

     D.   Other recommendations
      Recommendation No. 13: Evaluate the effectiveness of the
      rapid rotation of supervisory special agents through the FBI
      Headquarters' Counterterrorism Program.
      Many FBI supervisory special agents rolLatethrough important FBI
Headquarters supervisory positions for a short time, often two years or less.
Because of the rapid turnover, the supervisory positions can remain unfilled for
months at a time. We believe this turnover of managers in the FBI
Counterterrofism Program can harm the operation and management of the
program. For example, we found that analysts, often long-time FBI
Headquarters employees, were more knowledgeable than their supervisors
about the operation of the unit and the substantive subject matter. Brief stints
at FBI Headquarters can make it difficult for managers to become fully
conversant with the subject matter and procedures in the Counterterrorism
Program at FBI Headquarters before they are ,,senttoa new assignment.
       Part of the jobof a manager is to understand the context with respect to a
particular terrorist organization or part of the world, and to use this knowledge
when advising field offices about their various investigations. The rotation of
special agents, through supervisory positions in FBI Headquarters is so frequent


                                        365
and rapid that managers often do not have the time, ability, or incentive to
acquire the expel-t knowledge related to their functions. As a result, we believe
the FBI should evaluate the effectiveness of rotating supervisory special agents
and unit chiefs so rapidly through FBI Headquarters.
      Recommendation    No. 14: Provide guidance on the type of
      information that agents should obtain for evaluating atssets
      and for documenting the yearly check on assets.
       In assessing the FBI's handling of an asset in San Diego with whom
Hazmi and Mihdhar lived in 2000, we determined that the FBI control agent
who handledthe asset did not inquire about the individuals who the asset said
was living with him. The asset told the control agent that two young men who
recently came to the United States had moved in with him as boarders but the
FBIagent did not obtain any additional information about the boarders, other
than their first names. Had the control agent pursued information about the
asset's boarders, he might have learned about the CIA information regarding
Hazmi and Mihdhar and documented their presence in the United States.
      We found little FBI guidance about what information the control agent
should have obtained from an asset in circumstances Such as this. We also
found no consens:as among the FBI agentswe interviewed as to whether they
would have requested additional information from an asset in these
circumstances.

       The FBI's policy at the time was that the FBI agent was required to
"continually address" the asset's "bona tides" and provide a yearly evaluation
report to FBI Headquarters.    However, the policy ,did not specit_, how to assess
the bona tides of the asset or what information should be contained in the
yearly evaluation. The control agent's report on the San Diego asset used the
same boilerplate language each year, with no substantive information provided
about the asset or the checks done on the asset.

       We believe the FBI should evaluate its policies regarding evaluation of
assets and determine if agents are.collecting and documenting sufficient
information about its assets. For example, the FBI should consider the
circumstances when FBI employees should seek information about persons
living With or otherwise closely associating with an FBI asset. In addition, the
FBI should consider detailing the minimum info_nation an asset file must
contain to verify that an adequate background check has been conducted. This


                                       366
information i,; necessary to allow the FBI to determine whe,ther the control
agent is continuing to assess each informational,asget's credibility, as required.
Moreover, information from an asset is only accessible and useful if
documented. The FBI should evaluate its asset policies and consider what
information it:should require control agents to obtain and document about
assets.

       RecommendationNo. 15: Improve the flow of intelligence
       information within the FBI and the dissemination of
       intelligence information to other intel]ligence agencies.
       Prior to the September 11 attacks, sharing of intelligence information
 within and outside the FBI was piecemeal and ad hoc rather than systematic.
 The FBI's normal process for disseminating intelligence information was to
-route it primarily to analysts, who then used their judgment and experience to
 decide what needed to be disseminated further, and to whom. However, the
analysts   were overwhelmed     and had to address    crises and emergencies     as they
arose, with little time to conduct systemic evaluations or carefully consider
what information should be provided throughout the FBI. As a result;
information_that did not demand immediate attention, such as the Phoenix EC,
was not addre,ssed thoroughly or timely.
      Moreover, the FBI]acked clear priorities or requirements for the
dissemination, of information once it was colle,cted. There was little guidance
regarding the types of information that had to be disseminated or included in
reports to other intelligence agencies. I.naddition, FBI procedures for
disseminating: intelligence information were cumbersome, requiring many
levels of review just to distribute information, even within the FBI.
       Since September 11, the FBI has made significant changes as to how
intelligence is',routed and shared,, both within and outside the FBI, and we have
not examined in detail each of these changes. 273But the FBI's evolution is a
difficult and ongoing process. We believe that, as part of this process, the FBI
should continue to examine its policies to ensure that it has clear guidance for



    273For example, see the OIG report entitled "The Federal Bureau of Investigation's
Efforts to Improve the Sharing of Intelligence and Other Information" (December 2003).



                                           367
its employees to identify what kind of intelligence information must be shared
and how it must be shared, both within and outside the FBI.
       Recommendation No. 16: Ensure that field offices allocate
       resources consistent with FBI priorities.
        In 1998, the:FBI elevated counterterrorism t:oa top agency priority.
 However, the FBI failed to ensure that resources in field offices were
 redirected to counterterrorism to reflect this change in priority. For example, in
 our review of the Hazmi and Mihdhar matter, we found that the San Diego
 Field Office did not shift its resources in response to changed l:,riorities. As a
 result, the San Diego Field Office focused little• attention on counterterrorism in
 general and al Qaeda in particular. The relatively low priority the San Diego
•FBI gave to the Counterterrorism Program was not atypical of FBI field offices
 before September 11.
       After September 11, the FBI refocused its traditional crime-fighting
orientation and placed its highest priority on terrorism prevention, dramatically
shifting resources to the Counterterrorism Program. We believe the FBI must
ensure that it systematically evaluates the allocation of resources by field
offices to ensure that each field office directs its resources in accord with the
FBI's priorities. 274

II.   Conclusions

       Our review found significant deficiencies in the FBI's handling of
intelligence information relating to the September 11 attacks. Shortly after the
attacks, the FBI indicated that it did not have any :information warning of the
attacks. However, information was soon discovered that had been in the
possession of the FBI and the Intelligence Community before q'_,eptember 11
that related to the hijacking of airplanes by extrerrfists or that involved the
terrorists who committed the September 11 attacks.
      At the request of the FBI Director, we examined what the:FBI knew
before September 11 that was potentially related to the terrorist attacks. We             iI


     274For an evaluation of the changes that the FBI has made in the allocation of its
investigation resources, see the OIG report entitled "Federal Bureau of Investigation
Casework and Human Resource Allocation" (September 2003).



                                             368
focused on the FBI's handling of the Phoenix EC, the mml[lm_,       and the
information about Hazmi and Mihdhar, two of the September 11 terrorists.
      Our review found that the FBI had failed to fully evalLuate,investigate,
exploit, and disseminate information related to the Phoenix EC, the
m     and the Hazmi and Mihdhar matter. The,'causes for these failures were
widespread and varied, ranging from poor individual performance to more
substantial systemic deficiencies that undermined the FBI',,; efforts to detect
and prevent terrorism.
       By describing the action and inaction of individual FI3I employees in this
report, particularly the lower-level employees whose conduLctwe discuss in
detail, we do not suggest that they committed intentional misconduct. Nor do
we think that they are responsible individually for the FBI's deficiencies in
handling the information related to the September 11 attacks. We believe it
would be unfair to blame these individuals, wlhooften worked with insufficient
resources and with overwhelming impediments. Many pursued their duties in
good faith, making difficult judgments about where to focus their efforts.
Some perforated aggressively and well. Others did not do all they could have
and should have to respond to the information they received. While the FBI
should examine the performance of the individuals who we describe in this
report, we do not believe they are personally responsible for not preventing the
attacks or should be blamed for the tragedy that occurred.
       Rather, we believe that widespread and long-standing deficiencies in the
FBI's operations and Counterten:orism Program caused the problems we
described in this report. For example, the FBI did not handle the Phoenix EC
appropriately or give it the attention it deserved. The FBI did little with the
Phoenix EC before the September 11 attacks because of the',FBI's inadequate
analytical program, insufficient supervision of analysts in the program, the
focus on operational priorities at the expense of strategic aa_Mysis,the failure to
adequately share intelligence infi?rmation, and the lack of adequate tools to
facilitate info_nation sharing within and outside the FBI.
                                                    P_




These agents did not receive adequate support, either from :field office
,managers or from FBI Headquarters.



                                       369
            the handling of this •caseillustrated systemic deficie,ncies in how the
FBI handled intelligence cases. These deficiencies included a :narrow and
conservative interpretation of FISA, inadequate analysis of wh,ether to proceed
as a criminal or intelligence investigation, adversarial relations between the
field and FBI Headquarters, and a disjointed and inadequate review of potential
FISA requests by FBI attorneys.
        With regard[ to Hazmi and Mihdhar, the FBI had at least five
 opportunities to uncover information that could have informed the FBI about
 these two terrorists' presence in the United States and led the F'BI to seek to
 find them before ;September 11,2001. But the FBI did not uncover this
 information until shortly before the September 11 attacks. The:FBI's
investigation then was conducted without much urgency or priority, and the
FBI failed to locate Hazmi and Mihdhar before they participated in the attacks.
 Our examination of the five lost opportunities found significant systemic
 problems with information sharing between the CIA and the FBI, and systemic
 problems within the FBI related to its Counterterrorism Prograna. These
 problems included inadequate oversight and guidance provided_to FBI
 detailees at the C][A,FBI employees' lack of understanding of CIA procedures,
 inconsistent documentation of intelligence information received informally by
 the FBI, the lack of priority given to counterterrorism investigations by the FBI
 before September 11, and the impact of the "wall" between criminal and
 intelligence investigations.
       In evaluating the FBI's actions in the three matters examined in this
report, we cannot say whether the FBI would haw_ prevented the attacks had
they handled these matters differently. Such a judgment would be speculative
and beyond the sc,ope of our inquiry. But while we cannot say what would
have tiappened had the FBI handled the information differently or if the FBI
had pursued these, investigations more aggressively, the way the FBI handled
these matters was a significant failure that hindere,d the FBI's chances of being
able to detect and prevent the September 11 attacks.
      In this chapter, we make 16 recommendations to the FBI to address the
problems we found in our review. In providing these recommendations, we
recognize that the FBI • has made significant changes since the (_l
                                                                _.,eptember 11
attacks, and it is already addressing many of the matters that we describe in this
report. But we be,lieve that the FBI should know exactly what happened with

                                       370
regard to the Phoenix EC, _1                      and the Hazmi and Mihdhar
matter to ensure that it fu!ly addresses the systemic failures',we found in these
matters. We believe that our detailed descriptions of the FBI's actions,
together with our recommendations, can help the FBI improve its
counterterrorism operations as it transforms itself to better address the threat of
terrorism.




                                        Glenn A. Fine
                                        Inspector General




                                       371
tkPPENDltCE:S
                                                      i




                      LIST-O_FACRON S


ACS - Automated Case Support System
ADIC - Assistant Director in Charge
AG Guideline, s - Attorney General Guidelines
AGRT- Attorney General,s Review Team
ALAT- Assistant Legal Attache
ASAC - Assi,_tant Special Agent in Charge
AUSA-Assistant. United States Attorney

CDC - Chief Division Counsel
CIA- Central Intelligence Agency     .
CIR- Central Intelligence Report (CIA)
CIRG- Critical Incidents Response Group
CTC -Counter Terrorist Center (CIA)
CTD- Counterterrorism Division (FBI)

DCI - Directo:r of Central. Intelligence
DEA - Drug Enforcement Administration
DTOS- Domestic Terrorism Operations Section

EC- Electronic Communication                     ,:

FAA- Federalt Aviation Administration
FBI - Federal Bureau of Investigation
FCI - Foreign Counterintelligence
FFI - Full Field Investigation
FISA- Foreign Intelligence Surveillance Act
FISC, Foreign Intelligence Surveillance Cout_L
FTO- Foreign. Terrorist Organization

GAO- General Accounting Office

IIIA- Integrated Intelligence Information Appltication
INS - Immigration and Naturalization Service.
IOS - Intelligence Operations Specialist
Ills -Intelligence Research Speciiatist
ISD- Investigative Services Division
ITOS- International Te_ofism Operations Section

J-ICI-Joint Intelligence Committee Inquiry
JTTF - Joint Terrodsm Task Force

LEGAT- Legal Attache                                 .
LHM -Letterhead Memorandum                                ,

MAOP- Manual of Administrative Operations: .and Procedures.
MIOG - Manual of Investigative Operations and Guidelines
                                              •




NSA - National Security Agency           '
 NDPO- National Domestic Preparedness Offic,e
 NIPC ' National Infrastructure Protection.Program
 NFIP- National Foreign Intelligence Program
 NSD - National .Security Division
•NSL- National Security Letter
 NSLU- NationalSecurity Law Unit           -

OGC - Office, of General Counsel[
OIG - Office of the Inspector General        •       '-
OIPR- Office of Intelligence Policy and Review                               ..
OLC - Office of Legal Counsel
OPR- Office of Professional Responsibility
ORCON- Originator controlled

PI - Preliminary Inquiry.

RFU Radical Fundamentalist Unit

SAC- Special Agent in Charge
SCI- Sensitive compartmented information
SCIF - Sensitive Compartmented Information Facility               ........        ...


SDNY Southern District of New York
SIOC- Strategic Information & Operations Center
SSA- Supervi,_ory Special Agent         .
STU III - Secure Telephone Unit third generation

TAOG- Threat Assessment Operations Group
TD - Telegrapttic Dissemination (CIA)                         _
TECS- TremmryEnforcement Communication System

LIBL- Usama Bin Laden
UBLU- Usama Bin Laden Unit
USAO- United States Attorney's Office
USIC - U.S. Intelligence Community

WTC- World Trade Center


                          f
/
                 _'                                                         _i                                             '

                                                           FEDERAL BUREAU OF INVrSTIGATION!
                                                                                                                                                  .Q




                   Precedence:                        ROUTINE                                                       Date:      07/10/2001
                                             _'.. ,             :


                  To."             Counterterrorism                                       Attn:        RFU             _
                      ..                                                                       .       SSA,/lllll h------

                          ..   .
                                         •                                    . "                  _
                                                                                                       IRS
                                     :                                  .
                                                                                                        IRS
                                                                                                       e_. _..B_                                        :-.

                                                                                               _-       IRS
                                   New         York                                                     I-
                                                                                                       SSA
                                                                                                       SA"I

                  F rom:                 Phoen ix

:                                                Contact:       SA Kenneth           J. Williams                                      "
                                                 Squadl6                                                       _i

                 ApproVed                     By:     ..



                 Drafted                     By:.     williams      Kenneth          J
                                                                                                        . .


                 Case              .ID ' #:                                              .{PendJ ng }....                                                     "
                 ..   .


                 Title:
                                                                                                       THE          CAUCASUS)

    "            Synopsis:                            UBL: and AL-MUHAJIROUN   supporters attending                                       civil
                 aviation                      unlversitles/collegeS     in the State of Ariz(ma.
    ..


                                                                Derived   From :              G-3
                                                                Declassify    On.             Xl.

             I                     Full           Field    Investigation            Instituted:                    04/!7/2"08'O(NONUSPER}"             ..

                 Details:           The purpose _of this.-communication     is to advise the       '
                 Bureau             York of the possibility     of-a coordinated     effort by
                 USAMA-B:_N-LAD2_     (UBL} to. send students, to the United states to attehd
                 civil    aviation universities     and colleges.   Phoenix has Observed an
                 _nordinate     number of individuals    of investigative     interest who are
                 attending     or who have attended    civil aviation    universities   and
                 col-l-eges in the State of Arizona. The inordinate          number of these
         "       individuals     attending   these t_qse of schools and fatwas issuedby        AL-




                                                                                                                               .00038.3
         To :        CO'                                                                        From: _ Phoenix
         Re:         _                                                                            07/10/200i




         MUHJIROUN    spiritual   leader SHEIKH OIdAR BAKRI MoHAIg4ED                                                                               FOSTOK, an
         ardent    supporter of UBL, gives reason to belie'Je that                                                                                  a coordinated
         effort    is underway   to establish  a cadre, of individuals                                                                               who will one
         day be working in the civil.aviation        community   around                                                                             the world.
         These   individuals    will be in a position    in the future                                                                              to conduct
         terror    activity against civil aviation
                       -
                                                        targets.
                                                           ..
         . .
          "/           :               - ,.


•,...   _•!_ _                              Phoenix believes   that the FBI should accumulate a
        'lis.ting                           illavlation  un_iversities/colleges   around the country.
         ..FBI field                   0f.flceSlWith these types of schools     in their area shoul'd
                           •   "       a          :' _          . ...e     .
         establish     pp_oprzate   liaison. FBIHQ should discuss       this matter with
         other   elements of £_e u. s,. .intelligence comm.unlty and task the
 •-      community    for any information    that supports   Phoenix' s suspicions.
         FBIHQ   should ._0nsiider seeking _he necessary authority        to obtain visa
         Informati0hii_i_0m   the USDOS on individuals     obtaining   visas to attend
         these   _ypeS of schools    and notify the appropriate      FBI field office
         when   these individuals    are scheduled to arrive in 1:heir area of
         responsibility.
               • .                 .             . ,. ,     .   _      ,             ... ,      "      ,                         .                             "..
                                           >..    "., .:            • .        , ,      .-..                                         .   .,            -



                        _:].Ph0enix  has dra%m                                                             the aboW_i_iConClUsion:from                        several
           Phoenix    invest_tgations to
                            •            _                                                                  ....cam_o_ned::_nve StLi_n                      _and the
           :following    in_ estigat
        Arabian       nat'o al an
        ....I__).                and                                                                                                          i).   -.".-            _"

            .-...       _    Investigation o£,__Rwas.""initiated
          as the result .of.information -pr_,ded:.by__                                                                                          a -source who has
        • provided     reliabl                :in the .pas_,'-T-,T,he:.                                                                                       "
                  2 0 00.                                   ,.o_ UBL




                                Phoenix has identified       several                                                          associates   of__dat_
                     WhO  a:
                     e individuals at are
                                       :theSunni
                                            university imsaround  the
                                                            who have                                                          same  time radical
                                                                                                                              the±same    tha     "                       .
         fundamentali,sts                                        views                         as_             They   come   from__



                                                                                                           2
        To: •            te:L_L_/.__om:               Phoenix                       .                  .
        Re:              / o7/zo12oo

I                    ;es are:


                                                       as       enrolled           ia




                                                                                                                          s
        enro




                                                                                                                       is


                         •           above
                                 _.'he        individuals          are         i.nvoi:ved._wi!th_                and
        regulaIly            rtlcipate      in meetings         with       hlm     in__ona.

          • •    •           I   FBI'HQ,   _RS_                                    RFU,:wrote         an   analyti.cal"
        paper .on th 7AL'MU_. JIRO

                                                                                 .RS__S               _reSeaf,
                                                                                                             c-h
                                                                                                               pa--_
                                                                             The followlng                 information
    :was        gleaned      fro_    •                                 ...paper;        '
    ,                .                                                     .



                      The. AL-MUHAJiROUN,    which in English means THE
    EMIGRANTS,        a -Sunni Muslim   fundamentalist   organiza£ion   based .in the
    United   Kingdom.   The .organization' s spiritual •leader .is SHEIKH OMAR
    BAKRI   MOHAMMED   FoSTOK. The organization      is dedicated   to the overthrow



                                                            3
                                                                                            ;                                 ,




                                                                                                • .




                                                                                                                     000385
':'   m       " •




          4




                    000386
           To :       Counter'terrorlsm
                      .                    ,'tom: Phoeni_                            .'_.



           Re:        g                      07t'10/200!                         •   ....            .
                  •




    ....                           )enix   tnvestigatidn         o_
•                                                      ted            _.on_:el                 g




                          On 06J_20011    the I
                         P arre._    two indiv:
                          to being members of UBL:s AL-QA'IDA ¢_rganization.
            Evidence was developed demonstrating that •these individuals were
            planning an operation to bomb _the U.S. El_b     and .S. Military
                                                       ss_=_...._U
            forces in SaudJLArabia. A I       passport _           in the name of



                                                             5




             •            '                                                                 000387
To:     Counterterrori          rom:    Phoenix       :       ....        ,     .....   +
Re: ..1                        , 07/10/2001       "       "          /.       ' "




             PhOenix believes that it+ is highly,                has"an-
established • support network in place in Arizona. This network.was
most     likely established during the time period that EL-HAGE lived in
Arizona.                 .+.




                                         6




,                                                                                           000388
    To:         Coun '                       From:    Phoenix

    Re:         _:                             07/10,/2001                    :, .,:..
                                                                                   .....
                                                                                       _..


                             _..   This information,      is being provided      to   receiving
    offices               for information,       analysis    and comments.




                                                                       /




-       i/
      ..'_


    • ::!.           ..




       • ..7,




                                                       7
                                                              m




        To :    Countert                        From:   Phoenix                                               ' "     .
        Re:      IL
                 W'                               07110/200.1..
                                                     _  _ .                                       .... ..:...
                                                                                                            ....
                                                                                                            •     "   -




        LEAD (s)      :

        Set    Lead       I:

                COUNT ERTERROR ISI_4


                                                                  •                                             e
                                                         ..


•                                  The RFU/UBLU is  requested-to                               consider _ implementing
    "   the" suggested            a_:tions put forth by Phoenix                               at the beginning      of this
        communication.

        set    Lead       2:

                NEW       YORK


                ..... AT         NEW YORK,      I_EW YORK

                                   Read   and    Clear
                ..




                                                                                                                              f




                                                                                   _...
                                                    •                 . .',: ..!          .        ..




                                                                  _                                     .




                                                                                                                    0003[0
                                                      June ]t8,2004

               '   s




     The Honorable Glenn A. Fine
     Office of the Inspector General
     United States Department of Justice
     Room 4322
     950 Pennsylvania Avenue, N.W.
    3Vashington, D.C. •205.30

    Dear Mr. Fine:

                       Re: OIG DRAFT AUDIT REPORT- A REVIEW OF _IE FBI'S
                           HANDLING OF.INTELLIGENCE INFORMATION RELATED .TO
                           THE SEPTEMBER 11 ATTACKS

         '          Reference is made _oyourmemorandums, dated May 24, 2004 and June 10,
    2004, requesting the FBI renew the first five chapters and the recommendations of the
    subject drait audit reportfor faztual accnmcy and forwhether anything in the
    recommendations is classified or too sensitive for public release. In addition the
"   memorandums sought our comments as to whether Ornot theFBI beliv_,ed the
    recommendations and conclusions were either inaccurate or unwarranted. This document
    is the FBI's formal response to the factual inaccuracies which is attacho:l and the report's
    recommendations.. The classification aiadsensitivity review was+provided under separate
    cover.   (U)                                                                 • "


                     Onbehalf of the Director, I want to thank:you and your staff for this report
     and for the countless hours of hard Workthat it required. As you know, the FBI values the
     Office of the Itispector General's input as a comprehensive independent assessment of our
     operations and as a means of identifying weaknesses thnt require correcl_ve action to
     strengthen our operations. That iswhy_e Director requq_ed your office to conduct this
    •review shortlyaRer the 9/1.1 tragedy Based upon Our revtew, your findings and
     recommendations are consistent withthe FBI's internal reviews and with those of other
     oversight entities. I am pleased.to inform you _at the FBI has made significantprogress
     not only on the recommendations proffered in your repoli but on all the issues discovered
     by our own interm_lassessments. (U)   .




             Before re_,_ondingto the individual recommonc_sti0ns,the 0IG and the
    American public need to be made aware of the progress made by the Federal Bureau of
    Investigation (FBI)since the horrific attacks of Septemb¢_ 11, 2001. If we only
    responded to the recommendations in the report, readers would have an incomplete
    picture of the progress we have made and perhaps have a difficult time piecing together
               )




     the information_mdersixteen differentrecommendations.D/rectorMueller has
     implementeda a>mprehensiveplan thatfundamentallytransformsthe FBI to enhance
     our abilityto predict andpreventfutureactsof terrorism.We have overhauledour
     counterterrorismoperations,expandedourintelligencecapabilities,modernizedour
     business practices andtechnology, and improvedcoordinationwith ourpartners.(U)

               DirectorMueller replaced a prioritysystem Whichallowed supervisorsa great
      deal of flexibility,with a set of 10prioritiesthatstrictlygovern the allocation of personnel
      and resourcesin (everyFBI programand field office. C!ounterterrorism     is now the
      overridingpriority,and every terrorismlead is addressed,even if it requiresa diversion
      of resources from otherpriorityareas.(,_

                ' To impl(,_ment these new priorities, we increased the number of Special Agents
       assigned to terrorismmatterslandhiredadditional_teII/gence analyst_iandtranslators.
       We also established a numberof operationalunits andentities thatprovidenew or
       improved,capabilities to addressthe terroristthreat.Theseincludethe :24/7
       CounterterrorismWatch(CT Watch)andtheNational Joint TerrorismTask Force
       (NJTI'F) to manage and sharethreatinformation;the TerrorismFinancing Operation
       Section (TFOS)to centralizeeffortsto stopterroristfinancing; docum(mt/media
       exploitationsquads to exploit materialfoundbo_ domesticallyand o,_erseasforits
       intel!i'sence..value:;
                            deployable "Fly.Teams_-'. to.lendo0untertcrror/s
                                                                           m e_q3ertisewhereverit
       is needed;theTerrorist.Screening.Center(TSC)and.F.orei.gn.Terro_Tra_kingTask
      .Force (PTI'll _') to help identify terroris_andkeep themout of theUnited States, the
       Tenorism Reportsand RequirementsSection to dissen_'_te FBI terr0dsm,related
    ' intelligenceto the Intelligence Communi_y;an&theC_unt_,ermrism,_...knalysisSection       to
       "connect thedots', andassess tile indicators Of terrofi_ activity againstthe U,S. froma
       strategicperspective.(U)                                            ..

               _Wecentralized managementof our Counterterroris  m Programat HeadquarterstO
      limit "stove-pip_ of information,to (,=nsure
           •       .                               consistencyof counterterrorismpriorities
      and strategyacross theorganization, to integratecountertermrismoperationshereand
      overseas,to improve coordinationwith o_heragenciesand govemmen(_,andto make
      seniormanagersaccountablefor the overall developmentand success of our
      counterterrorismefforts.(U)

               TheFBI is building an enterprise-wideintelligenceprogram thathas .
      substantiallyimp1_vedOurabilityto strategicallydirectour integigence collection and to
      fuse, analyze, and disseminate our terrorism-relatedintelligence.After passageofthe
      USA PATRIOTAct, relatedAttorneyGeneralGuidelines,andthe en_Ltingopinionby the
      Foreign Intelligence SurveillanceCourtof Review removedthe ban_erto sharing
      informationbetween intelligence andcriminalinvestigations,we quicklyimplementeda
      plan to integrate all our capabilitiestobetterpreventtel_fist attaoks.DirectorMueller
      elevated intdligence tOprogram-levelstatus,puttingin place a formalstructureand
      concepts of operationsto govern FBI-wideintelligence functions,SUd,_tab]ishivgField
      Intelligence Groups(FIGs)in everyfiddoffice. (U)

o




                                                                                               2
             Under,tendingthatwe cannotdefeatterrorismwithoutstrongpartnerships,we
    have enhancedthe level of coordinationandinformationsharingwith state and municipal
    law enforcemelltpersonnel.Weexpanded_henumberof Joint TerrorismTask Forces•
    (YFTFs),increasedtechnological connectivitywith our partners,and implementednew
    ways of sharinginformationthroughvehicles such as theFBI Intelligence Bulletin,the
    Alert System,and the TerroristScreeningCenter.To improvecoordinationwith other
•   federal agencies and membersof the _n_elligenceCommunity, wejoined with our federal
    partnersto establish the TerroristThreatIntegration(',enter,exohaug(_ personnel,
    institutedjoint briefings,andstartedusing securene_vorksto sharei_aformation.We also
    improvedour.relationshipswith foreigngovernmentsby building on the overseas
    expansionbegun underDirectorLouisFreeh; by offering investigativeand forensic
    supportandtraining,and by working._g6theron task forces andjoint Operations.Finally,
    the FBIhas expandedoutreachto minoritycommunities,andimprov(_dcocoon             with
    privatebusinesses involved in criticalinfrastructureand finance. (U)
                                                ..
                        ..           •.                                     o




       •     The FEIIis making substantialprogress in upgradingourinformationtechnology
     to streamlineour business processes.andto improveourabilityto search for andaualyze
     information,drawconnections, andshareit both inside the Bureauand out. We have
     deployed a secure high,speed network,put newer up_c_ded.¢oniputerson desktops,and
     consolidatedt_rorist informationin a searchableoentraldatabase.We developed, andare
     p_aring to lat_ach,theVirtual CaseFile managementsystemthat will revolutionize           _
    •how:theFBI does business. 03)                                                  •

"       .     Re-engineeringeffortsaremakingourbureaucracymore efficient and more
    r_onsive to operationalneeds. We revisedour approachto strategicplanning, andwe
     refocused our recruiting and hiringto attractindividusls with skillscritical to our -
     counterterrorismand intelligencemissions. We have developed a morecomprehensive
     trainingprograatand institutednew leadershipinitiatives to keep our workforceflexible.
     We aremoder_z_ng the storageand managementof FBI records.We also built, and
    •continueto improve, an extensive,securityprogramwith centralizedleadership,
     professionalsecuritypersonnel,morerigoroussecuritymeasures,andimprovedsecurity
      educationand _ining. (U)                                   ,.

             These h_provementshaveproducedtangible _mdmeasurableresults. We
    significantly increasedthe numberof humansourcesandthe amountof surveillance
    coverageto supportour counterterrorismefforts.Wedevelopedand refined a processfor
    briefing daily threatinformation,andconsiderablyincreasedthe number of FBI
    intelligence reportsproducedand disseminated.Perhapsmost important,since September
     1!, 2001, we have participatedin disruptingdozens of terroristoperationsby developing
    actionable intelligence and bettercoordinatingour counterterrorismefforts.0J)

              Priorto september 11, 2001, the Bureauhad r_ocentralizedstructureforthe
     national managementof its Counterten'orismProgram,and terrorismcases were routinely
     managedout of individual field offices. An al-Qa'i_ case: for example,might have been
     runout of the New York FieldOffice; a HAMAS case mighthavebeea managedbythe
     WashingtonField Office. This arrangementfunctionedfor years, andproduced a number
     of impressiveprosecutions. Once counterterrorismbecameour overridingpriority,
          however, it became clear thatthis arrangementhad a numberof failingsin that it 1)
          "stove-piped"investigativeintelligen0e informationamong field offices; 2) diffused
          responsibilityand accountabilitybetween countorterrofismofficials atFBI Headquarters
          and the SACs who had prim_aryresponsibilityfor the individualterrorisminvestigations;
          3) allowed field offices to assign vsrying prioritiesand resourcelevels to terroristgroups
          and threats;4) impeded oversight by FBI leadership,and 5) complicati_ coordination
          with other federal,agencies and entities involved in the waragainstten_orism.ForaU
          thesereasons, it became apparentthatthe CountertorrodsmProgramneeded centralized
          leadership. (U)                                 ._
                                                                ..                ' i
                               r       -                    <                '


                     In December2001, the Directorreorganized_ad expandedthe Counterterrorism
           Division (CTD)and createdthe position of EXecutive1_sistant Director(EAD) for
           CountoRermrismand Court.terinteUigenco.(The Assistant Directorof C_D reportsto,the
           EAD.) We now kave the centralized management:tomn a.trulynatiomdprogram-to
          •ooo_         oountmorrorismoperationsand intelligenceproductiondomesticallyand
           overseas;to Conductliaison with otheragencies and governments; andto establish clear
           lines of accountabilityfor the overall development.andsuccess of ourCountmerrorism
           Program.With _is _¢ment           sl_cturo in.place, we are dfivingthe 15mdamontal
           changes thatare necessarytOaccomplish ourcounterterrorismmission. (U)


    ........
          sc_dons,.and.units,
                         eachofwhioh:focusesona
                                              diff_vnt_zpe_.n_:.currentlcrforism
          thre_facing
                   theU.S.Theseconymnentsarestaffedwii_inteUi'gence
                                                               analysts
                                                                     andsubject "
          matter
               experts
                     who workclosely
                                   withinvesti'gators
                                                 in._efield
                                                          andintegrate
                                                                    inteMgence
          across
               componentlines.
                             This.inte_'on
                                         allowsforreal-time
                                                        response:
                                                                tothreat
          information
                   andq_ckcommunicafion wi_ ' ""
                                         " decision-makers
                                                        andinvestigators
                                                                      inthefield.
          (u)                                                                              /




                    TheBureauis designed, and has always operated,as a law entbrcementand an
           intelligence agency. It has the dua_mission: 1)to inve_gate andarrest:perpetratorsof
           completedcrimes(the law enforcement,mission) and 2) to collect intelligencethatwill
          :helppreventfuture crimesand assist policy makers in theirdecisionmaking (the         •
           intelligence mission). Historyhas shown thatwe are most effective in protectin,
                                                                                        g the U.S.
           when we performthese two missions in tandem. (U).
                                   •        ..        ,




                   The FBI recognized that investigations could pfodu_ intelligence benefits
:          beyond arrestand prosecution.Startingwith.the Ku Klux Klan cases iu the 1960'sand the
           Mafia cases of the 1970's,:ouragentsbegan to view crhninalinvestigationsnot only as a
           means of arrestingand prosecutingsomeone for a completed crime, but als0 as ameans
           of obtaininginformationto prevent futurecrime.The goal was not simply to arrest
           individualmembe,zsof the Klan orthe Mafia, but tOpenetrateand di_tantle the whole
           criminalorganization.(U)

                    As this approachwas adopted,the FBI fiudherdeveloped the intelligenoetools-
     •     such as.electronicsurveillance and the cultivationofhumau Sources-.that are criticalto
           predictingand preventingcriminalactivity:We alsolena'nedto thinkstrategicallybefore



                                                 __                                                 4
                    makingarrests,Sometimesoptingto dday a suspect'sarrestto allow _moreopportuni.  'ty for
                    sttweillance that might disclose otherconspiratorsorothercriminal plans. We have used
                    this approachto greateffect in orgimizedcrimecases andespionage investigations,and
                    membersof 0ur Safe Streets TaskForcesuse it in th¢_ fight against_'eet gangs. (U)
                                                                                        ,   ..



                            This is the approachthatis neededto preventterrorism. Priorto September
                    1lth, however,we were h_mdicappedin Ourabilityto implementthis approachin the
                    counterterrorism,arena for two primary reasons.(U)

                            First,judicial rules and DOJimer_ procedures.prohibitedc,urcounter_errorism
                    agents working_intelligencecases fi'0mcoordinatingand sharinginfolanationwith
                            agents'who oftenwere workinginvestigationsagainstthestone targets.Second,
                    we had not dove)lopedthe.institutionalstructureandprocesses necessm'yfor a fully
                    functioning intelLligenceoperation.We_to        sdd_)ss each of these problems.
                    "tmmediatelY af_ the Septemb_ 11, 2001 aOacks.(U)

                              By definition, investigations of international(lerrorismareboth "intelligence"
                     and"criminal" investigations. They are intelfigenceinvestigationsb_)ause theirobjective,
                     pursuantto Executive Order12333, is '_e detectiona_d counteringof international
                    terrorist activities," andbecansethey employthe authorities-andinve_,Cigafi've   tools -
                     such-asForeign IntelligenceSurveillanceActwarrant_,-thatare designed forthe
_ .....         ,   into_ee       misi)ionof protectingthe U.S. _gainstatC_kor otherharm by foreign entities:"
•_, .                They are erimimdinvestigationssince international_rism agai_ (he U.S. constitutes
 •                   a violationof the federalcriminalcode.-CO)                        .
              ..    " I.'-L_>. ......
 %"                                  . ..   .                        ,



.,                    •,.,.:. .... Over the past two decades, a regimeof court rules and intonedDOJ pr_edur_
          •          developedsurrolmding the use of FISA warrantsthatbarredFBI agents and.other
                     Intel!i'g_ce Connnunitypersonnel working intelligencecasesthat employed theF_A
                     tool from coordinatingandswapping leads with.agent_;workingcrim_a_ cases. As a
                     result0fthis legal ',wall," "intelligence" agentsand "criminal" agentsworking on a
                    •terroristtargethad to proceedwithout kno.whg what tl!e othermay have been doing
                     about Chatsame _harget.      In short,we were fighting internationalterrorismwith one arm
                     tied behind ourback. (U)

                              The USA PATRIOTAct' enacted on October26, 2001 eliminatedthis ',wall"
                    and authorizedcoordinationamong agentsworkingcriminal mattersand those working
                     intelligence investigations. On March(5,2002 the Atto:meyGeneralis,,mednew
                     Intelligence Sharing Procedures for ForeignIntelfigenceand ForeignCounterintell/gence
                     Investigations Conductedby the FBI Orn_elligenceSharingProcedures)to capitalize on
                     thi'slegislative change. The new procedures_specificallyauthorizedag,_ts working
                     intelligence cases to disseminateto trim/hal prosecutors and investiga_Lorsall relevant
                     foreignintelligence information,including informationobtainedfrom FISA, in
                     accordance.Withapplicable minirn{zati'onstandards and other specific :restrictions
                     (originator con_ls): Likewise, theproeedures authorized prosecutors and criminal
                     agents to advise FBI agents working intelligence oaseson all.aspects of foreign
                     intelligenceinvestigations, including theuse of FISA. i_r)




                                                                         ,)
                                                                                 \




          (             ..     .                       ..                                    ..



                     . OnNovomber 18, 2002 theForeign Intefiigence SurveillanceC0urVofReview
              issuedan opinion.approvingthe IntelligenceSharingProcedures, therebyauthorizingthe
              FBIto shareinformation,includingFISA-derivedinformation,betweenourcriminaland
              intelligence investigations.With this opinion,we were finally able to conduct our
              terrorisminvestigationswith.the full use and coordinationof our criminaland '
    •         intelligencetools andpersonnel.(U)

                       To forma!izethismerger of intelligence and criminaloperations,we have
              abandonedthe Separatecase classifications for "cdm_ml" international,terrorism
              investigations(with the dassificafion number265) and "intelligence" intemationa]
              terrorisminvestigations(classificationnumber199), md have consolidatedthem,intOa •
              single classificationfor "intemati.
                                                "onalterrorism"(new classification namber 315).This
              reolassificationofficially designates.aninternationalmrodsminvestigation as one.that
              can employintel]ligencetools as wdlas _          processesand procedures..In July2003,
              we formalizedthis.approachin ourModel CounterterrorismInvestigative Strategy
              (MCIS), which was issued to all field offices and has been.the subjectof extensive field
              tni.nng",
                    to)                                                      .....
                                   .-



                           the dism--an_ of the lega! *'wall!!,.
                        With                                    and (lho,integrafionof.ourcriminal and
           •intelligence:personnelandoperations,.wenow :have_thelatitude_ coordinate our • .
          .int_liigence and(, "wiminal-.
                                       investigations and to .usethe.fullrange,of'investigative tools
            againsta subveotJ_dterrorist. On (heinteUigenceside, we can conductsurveillanceon the
            smspec_edterrori,,_ to learnabouthis movementsandidentifypossible confederates;We
            can obtainFISA authorityto monitorhis conversatiom;and/orwe canapproachand
        • .attempt.t0,cultivatehim.as a sourceor _0perational,a_set.:On the-criminalside,we have
            the option ofincapaoitatinghim throughatrest_detention, and proSeouti'on.We decide
            among theseoptions by cominuouslyba!anoing.theopport_ty to develop intelligence
            agvinstthe needlieapprehendthe suspectand prevent i'himfromcarryingout histerrorist-
            plans. This mtegl"atedapproachhas guided ouroperations andwe have successfully
          Soiled terrorist-related   operations and disruptedcells t_romSeattle, W_mhington,to Detroit,
            Michiga_ to Lackawanna,New.York. (U)                                         "
                                                  \


                      Although we are now able tocoordinate our iutelligence coll(_tion and
              _al     law enforcementOperations,wecan only realize ourfull pot_mtialas a
              terrorismprevenl_ion agency by developing the intelligence structure,oapabilities,and
              processes to dir_t those operations.Without an effective inteUigencecapacity, we
)
              cannotexpect to defeat a sophisticated and opportunisticadversarylike al-Qa'ida_(U)
                .   .




                      For a variety of historical reasons,the Bureau had not developed this intelligence '
              capacityprior to September 11. While the FBI has alwaysbeen one of the world'sbest
              collectorof information, wenever established the infnastructureto exploit that
              information full)' for its intelligence value_"IndividualFBI agents havo always analyzed
              the evidencein tl_eirparticularcases, andthen used that analysis to g_de their
              inveatigatiom.The FBI as'an institution, however,had not elevated that analytical "
              processabove the individual case orinvestigation to anoverall effort1Ioanalyze

                                              (
                                              u
      intelligence _d strategicallydirect intelligence
                                                     oollex:tion
                                                              against threats aer0ssall
      programs.(U)

               The attacks of September 11, 2001 highlighted the need to develop•an
      intelligence process for the Couuterte_TorismProgr_Land the rest of the Bureau. Since            "
      then, we have undertakento build the capacityto fuse, analyze,I_d d_sseminateour
      terrorism=relatedintelligence, and to directinvestigativeactivitiesb_ed on our analysis
      of gapsin ourcollection againstnational intelligencer_uiromentsl    "[hat.effort has
      proceededin four stages. (U)

                   Ourfirststep was to increase the numberof _alysts working on
         oountorterrorism.Immediatelyafter September11, we temporarilyreassignedanalysts
         f_omtheCriminalInvesti'gativ©    Division and Count_intelligene,e Division to various
         units in the Court.terten'orismDivision. In July 2002, 25analysts were;detailedfromthe
        •CIA to assist ot_r_tmtertem3rismefforts.Manyofthese analystsprovidedtaotical
         intelligence analysis; others provided strategic"bigpioture"analysis. All of them worked
         exceptionallyhard and helped us _al. yze the mass of datageneratedinthe aftermathof
         theterroristattacks.These deploymen_ were a tempoirarymeasure,but the progress
         made,the confldenoegained, andthe lessons learnedduringthis periodstartedus down
. .,<.
    .... thief.roadtowarda functioninginteUigenceanalysisop(.'ration.We also estabfishedthe
   • College ofAnal_cal StuSiesto help trainan,d develop ourown cadre,of analysts.(U)

                   OnDecember3, 2001, the Directorestablishedthe Office of Intell/gence(O1)
         within the Counl_rorism Division. TheOI Wasresponsiblefor establishingand
         executingstandardsforrecruiting,"hiring,training,and developingthe intelligenoe
•_:..... _ytic workforce,and ensuringthat_malys_are assignedto operatic)haland field
         divisions based on inteUigence priorities.Recognizingthat intelligence and analysis are
         integral to all of the Bureau's programs,"mFebruary2(_3, Director l_Iuellermoved the
         OI out of the CounterterrorismDivision and createda staudraloneOI, headed by an
         Executive Assistant Director (EAD-I), to providecenOadizedsupport _mdguidance for
         the Bureau's intelligence functions. (O)

              The next step in ourinteDigenceintegrationwaste elevate imelligence functions
      to program-levelstatus, instituting Centralizedmanagementand/mplementinga.detailed
      blueprintforthe Intelligence Program.(Lr)

                The Directoi"articulateda clearmission forthe IntelligenceProgram- to
       position the FBIto meet cunent and emergingnational secur!tyand ol.iminalthroatsby: 1)
       aiming investiga_Live
                           work proactively against threats;2) building and sustaining
       enterprise-wideintelligence policies and capabilities;_nd 3) providingUseful,appropriate,
       and timely info_nation and analysis to the national security,homeland security,and law
       enfo_ement communities. We then set out to:embed intelligence processes into the day-
       to-day workof the FBI; fromthe initiation.of a preliminary investigation to the   ,
       developmentof FBI=widestrategies. 0_Y)




                                                                                                   7
        •Now that
                theIntelligence
                            Programisestablished
                                             anddeveloping,
                                                         _e FB!is
  movingontothenextstage
                       oftransforming
                                   theBureauinto
                                               anintelliigence
                                                          agenoy-
  reformulating
             personnel
                     andadmhdstrative
                                  procedures
                                           toinstill
                                                  within
                                                       ourworkforce
                                                                  an
  expertise
          inthe
              processes
                      sudobjectives
                                ofintelligence
                                            work.(U)

           A majorelement    of_e Bureau's trausfonnationisourinore_tging  integrationand
  coordinationwith ourpartnersin the U.S. and intematJLonal law enfor_3ement  and
  intelligence Con_nunities.Morethan any othertype of enforcementmission,
  counterterrorism requirestheparticipationof everylevel of looal,.state,national,and
  internationalgovernment.A good example is the case of the Lackawannaterroristcell
  outside Buffalo,]NewYork.,Fromthe polioeofficers Whohelped to identify and conduct
  surveillanceon the cell members;to the CIA officersWhoprovidedin_'ormation:    from
  the_ sources,ovemeas; to the diplomaticpersonnelWhocoordinatedour effortswith
  foreigngov,emments; to the FBI agents andfederal prc.,secutorswho conducted the
  investigationlest'ring.tothearrest_and indictment,everyoneplayed a significantrole, (U)

      ..... We recognizethat a prerequisitefor any operationalcoordinationis the full and
  frecexchangeofinfonnation._Withoutproced_._ •and mechanismsthat allow             •
  informationsharingona regularandthncly basis, we _mdour partner_lCannotexpectto
  alignouroperationalefforts to best accomplishoursh_zedmission. A,_cordingly,we have
  tak_stcps •to._establish.:unified
                                  FBI-wide.policiesforslharing:informationand intelligence.
  • _U_                                                                ..
                                           •                                .   .
                                               •                                    .
                   : ....          .



             •To ensm_ a coordinated,enterprise-wideapproach,theD'n_x_,tor  recently -
....designatedtheEAD-I to-serveasthepfincipal::FBI0fficial:forinfommtionand ""
    intelligence.sharingpolicy. In thiscapacity, the EAD-I.functions,asazL:
                                                                         advisor to the
    Director andprovides policy direction on information amdintelligence/sharingwithin and
    outside the FBI with the lawenforcementand intelligencecommunities, as well as
   •foreign governm(mts.(U)

           On February 20,2004we fomledaninformationshm-ing      policy  group,
   comprised ofExecutive Assistant Directors, Assistant
                                                     Directors  ando_her  senior
   exeoutive managers.UnderjtheDirection .ofthe EAD-I, this group is establishing FBI
   informationand inteRigence sharingpolicies. (U)

            On Febnmry11, 2004 the Attorney General almounced the creation of the DO}
   Intelligence Coordinating Council. The Council is comprised of the heads of DOJ
   agenoies  withinteUigenceresponsibilities,andiscurrcatlychairedby theFBI'sEAD-I.
   The CouncilWillwork to improveinformation sharingwithinDOJ and to ensurethat
   DOJmeets the intelligence needs of outside customers and acts in acc_)rdancewith
   intelligence priorities. It will alSOidentify common ch_dlenges(such _ electronic
   connectivity, colIaborativeanalytictools, and intellig_lce.skills training)and establish
   policies andprograms_to addressthem.(U)                       • ,
                                   i



           Beyond these informationsha3iuginitiatives, we areincreasirLgour operational
    coordinationwith our state, federal, and internationalpartnerson a nmnberof fronts. _')
                                                 o



                   /        ° ,,
         ,;.                           ..



                We have establishedmuch strongerw0rkingrelationshipswilththeCiA and      ,
      other membersof the IntelligenceCommunity:Fr0mthe Director's&dlymeetingswith
      the Directorof CentralIntdligence andCIAbriefers,toour regularexchange of
      personnelamong agencies, to ourjoint effortsin specific investigations and in the
      TerroristThreatIntegrationCenter,the TerroristScreening Center,and othermultiagency
      entities, the FBI andits partnersin the IntelligenceCol_nunity arenow integratedat
      virtually every level of ouroperations.(U)
                                            ..
                                                                                 ..



                 The TerroristThroatIntegrationCent_ is a good exampleof our collaborative
        relationshipwithLthe CIA and oth0rfederalpartners.Establishedon May1, 2003 atthe
        directionof PresidentBush, TTICc_rdinates strategicanalysisof threatsbased on
        intdligence from the FBI, CIA,DHS, and DOD. Analysts fromeach _cgenoywork side-
        by-side in one location to piece togetherthe big pictureof threatsto _heU.S. andour
        interests.THCanalysts synthesize government-wide_format/on regerdingOutrent
        terroristthreatsandproducethe PresidentialTerrorismThreatReportfor thePresident.
        The FBIpersonnelat TTIC arepartof_he Office of Inlelligence andwork closely With
                                                                  •   .               •         :   .

        analystsat FBIE[eadquartersin comb'mingdomestic and intemationa!terrorism
        developmentsinto a comprehensiveanalysisof terroristthreats. In._dition to the
 __.. an_ysis developed by FBI anatys_ detai_ed_oTTIC, FBI analystsat Hemdquarters
"-"i"'I regularlycontributearticlesto the President'sTerroristThreatReport.(U)
 ..




            •The FBI currentlyhas Agents and Analy_ detailedtoCIA _Ltifies,including
     the CIA'sCountc_TerrorismCentcir(CTC).We also ktve FBI agents _mdintelligence
 .,  analysts detailedto theNSA, the NationalSecurityCouncil, DIA, the Defense Logistics
     Agency, DOD's Regional Commands,(theDepartmentof Energy,andother federaland
......
  ........
  '
 ..  state.agencies.QU)            .




               CIA personnel  arealso working   inkeypositions   throughout  theBureau. The
       AssooiateDeputy Assistant Directorfor Operationsin the Counterterro,rism    Division is a
       CIA detailee:CIA officers are detailed to the Security Division, includiLng
                                                                                 the Assistant
      .Director,the Chiefof thePersonnelSecuritySection, madmanagerswc)rkingwith the
       Secret CompartmentalInformation(SCI)programand ltteFBI Police.,Anexperienced
       managerfr0mflaeCIA's Directorateof Science and Tedmologynow heads the
      Investigative Tecl_olo .giesDivision andaSection    Chief inthat division isonrotation
       fromCIA.(U)
                    •   .



            Thisexchangeofpersonnel
                                  istaking
                                         place
                                             inoutfieldoffices
                                                            aswell.
                                                                  In33field
      locations,
             theCIA hasofficers
                              co-located
                                      withFBIagentsatYITFsites,
                                                             andthere
                                                                    are
      plans
          toaddCIA officers
                          toseveral
                                  additional
                                          sites.
                                              TheNSA hasanalysts
                                                               detailed
                                                                     to
      FBIHeadquarters,
                    theWashingtonField
                                     Office,
                                           theNew YorkFieldOffice,
                                                                andthe
      Baltimore
             FieldOffice.(U)

              Each mol_g, in addition to FBI Briefs, the Directoris bfiefe_/bya CIA briefer.
      The Directorof CentralIntelligence and the FBI Directorthen jointly brief the Pt_esident
                                                                                          : .
                                                    /   •




            on currentterrorismthreats.In addition,CIA andDHS personnelattendtheDirector's
            internalterrorismbriefings everyweekday morningand afternoon.(t_ _-
                 • .       _.




             "      -The FB1is now using secure systems.todisseminateclassified intelligence
            reportsand anal3fdcalproductsto the IntelligenceConnnunityandother federalagencies.
            The FBIhosts a 'website on the Top-SecretInte_Jomt World-WideIntelligence
            CommunitySystem (_CS), a fully-encryptedsystemthat connects:more than 100
            DePartmentof Defense, CDL,and other IntelfigenceCommunitysites. We also host a
            web site on SIPRNET,a similarsystemused by DOD forsharinginformationclassified
            atthe Secretlevel. In addition,a new TS/SCInetworkkno._ as "SCION" is being
            piloted in several field offices, scIONwilI ConnectFBIHeadquartersand field0ffices tO
            the CIA and othe,_membersof the Inte[tigenceCommlmity, and:_ increase •
            Opportunitiesfor inter:agencyColl_oration. (U)

                     ImprOvingthe COmpatibilitYOf information technology systems throughoutthe
            IntelligenceCommunityWfllincrease:_e Speedand ease ofinformatkmsharingand
            collaboration.iAcCordingly,theFBFs inform_on technologyteam has workedclosely
            with the ChiefInf0rmationOfficers(CIOs) ofDHS.and oth_ IntelligemceCommunity •
            agencies, to develop ourrecentandongdng t_hn01offyupgrades.Thiscoordinationhas
            affected.ourdedsions on Several.keytechnology upgrades,.(U) - '           .-
                                .   ,   .                   _,          .   •   :   .   .   ..   .



                      To facilitate:furthercoordination,the FBI CK)sitson the Intelligence
            Communi'tyCIO Executive Council TheCounoii developsand recommendsteohnioal
        :   req_ents,      policies and procedures;and:coordinatesinitiativesto improve:the :
            int_ility        of informafi'ontechnologysystems within_e htemgenceCommum'ty. It
            was establishedbyDirector of CentralIntelligencedirectiveand ischaired by the CIA's
                       •                    .   .


            CIO. _J)

                    DHS phys a criticalrole in assessing and Protectingvulnerabflitiesin our
            national_;ture       and atour borders,and in overseeingourrespoz_e capabilities.We
            have workedclosdly WithDHS to ensurethat we have the integration _mdcomprehensive
            informationsharhagbetween ouragencies that arevital to the success of our missions.
            The FBI and DHS share _ase      access at TTIC,intheNational YrrFat FBI
•           Headquarters,inihe FIITF and the TSC, andin local JTTFsin our field offices around
            the country.We workedclosely together to get thenew TerroristScreeningCenter up
            and running.We llold weekly briefings in which ourC]'D analysts brie_ftheirDHS
            counterpartson currentterrorismdevelopments.We coordinate all FBI warnings with
            DHS, andwe now coordinatejoint warnings through the Homeland So:urity Advisory
            System to address:our customers' concerns aboutmultiple and duplicativewarnings. We
            designatedan experiencedexecutive fromthe.Transporlmtion.SecufityAdministration     to •
            run theTSC anddetailed a seniorDHS executive to the FBI's Office of Intelligenceto
            ensurecoordinationandtransparencybetween the agencies. (U)

                    On Marcl_4, 2003, the AttorneyGeneral,the.Secretaryof H0meland Security,
            andthe Directorof CentralIntelligence signed a comprehensiveMemo_randumof
            UnderstandingOv[OU)establishing policies and proceduresfor informationsharing,
            handling, and use. Pursuantto that MOU, informationrelatedto terroristthreats and


    •                                                            m   ....                            10
                                                 B
           'vutnerabilitiesis providedto DHS automatioallywithoutDHS having,to requestit.
•           Consistentwith theprotectionof sensitivesourcesand methods and_heprotectionof
            privacy rights,we now shareas arule, andwithholdby exception. (U)

                     Withterroriststraveling,communicating,and planningattacksall aroundthe
           world,coordinationwith our foreignpartnershas becomemore cfitic_dthaneverbefore.
           We have steadilyincreasedouroverseas presence andnow routinelydeploy agents and
           crime scene exp,_ts to .assistin the investigation of overseas attaoks,moll as the May
           2003 bombings in SaudiArabiaand Morocco.AS of 3anuary7, 2004, 4i3FBI personnel
           were assigned overseas, over 200 of whom arepermanenttyassigtled:Theirefforts,and
           the relationshipsthatgrow fromthem, haveplayeda critical rolein _ie successful
           internationaloperationswe have conductedover the past 31months. !_U)
             .:



                     Bureaupersonnelhave participatedin numerousinvostigatioJ_ Ofterrorist
           attacksin foreigncountriesover the past 33 months.C_"approazhto those investigations
           differs f_omthe approachwe tradi'fionallyhavetaken..Pri6rto Septemberi lth, our
           overseas inves_gationspfimafilywere focusedon buildingcases for prosecutionin the
           U.$. Teday, ourfoous has broadenedto provideour foreignpartnerswithinvestigative,
           fore_."C,and other types of supportwhich enhanceour joint effortsto preventand disrupt
           terroristattacks.Ourpartnershave embraced:this approach,andit is paying dividends
           with greaterreciprocalcooperationandmore effectivejoint investigations. (U)
                                                                                     •   ..



                   The fotmdation of acentralized andeffective counterterrori_zoperationis the
           capabffitytoassemble, assimilate,anddisseminateinvestigativeandoperational
    -, '   _ormation both.internallyandwith fellow intelligenoeandlaw ¢_or_ement agencies.
           This Capabilityrq_uiresinformationtechnology (IT).th_:makes infomaationeasily
           accessible andtumbleby all personnetwhile protecting,the.security of that information.
           ([3")     .


                   Priorto September ! lth, the Bureau'sinformation:teChnology'     was inadequatet°
           supportitscounterterroristnmission. In previousyears:,substantialinvestments were
           made to upgradetechnologiesthat directlysupportedinvestigations,reichas surveillance
           equipment andforensic serviceslike the IntegratedAutomatedFingerprint identification
           System. Insufficientattention waspaid, however,to technologyrelatedto the more
           fundamentaltasks of recordscreation, maintenance,dissemination,and retrieval.In 2001,       ...


           many employees still used vintage 1987 386 desktop _3mputers.Some residentagencies
           could only access data in their field office via a slow dial-up connection.ManyBureau
           programswere using computersystems that operatedindependently aud did not .
           interoperatewithsystems in otherprograms0r other pe_csof the Bureau. (U)

                    TheFBI also had a deficient informationmamtgementsystem. TheFBI'slegacy
           investigativeinformation system, the AutomatedCase ',Support  (ACS), Wasnot very
           eff_tive in identifying information or supporting_vestigations, Users_navigatedwith the
           functionkeys instead of.the "point and click" method common to web-based applications.
           Simple tasks, such asstofing an electronic version of a document, required a user to
           perform12 separatefunctions ina "green.screen"envkonment. Also,.the systemlacked
                                                                   •':'_




    rnultimedi'afunctionalitytoallow forthe storageof i_ormation in its:original form.
    Agen_ could not storemany forms of digital evidence into electroni,0format, instead
    havi_g to describethe evidence md indicatewhere the evidencewas _gtored   in a control
    room.         CI.J)


                     to the character andresoiveof its pen:onnel,the:FBIWasableto achieve
    numerousinvestigative successes, in spiteof these obstacles.It was_c]Lear
                                                                            as of September
    11,however, thatWe needed an integrated1Tinfrastrtt_ture  to manage ourinformation.
    We broughton-boarda highly skied teamofexperts _mctset out to _'eate an IT         "
    infim_'uctureti_ is fast and secure, andthatties togeth_ the apph'cmionsanddatabases
    usectthr0ughouttheBureau, we also designeAuser-friendly,web-bas_ soRware
    applicationsto reducereliance on paperrecordsand :tostreamlineinveatigativewOrkflow.
    These hnprovementsare enhancingourabilityto collect, st0re, search,analyze, andshare
    information.CO.)._                        :        _                                                  ...

                              • "   "                      "       i       .


             The firststepintheFB!'s modernizationeffol_ is the Trilogy:Program,a multi-
    year.effortto enlmnceO_ effectivenessthroughtechnologiesthat allow us to better
    access,0rganize, and analyze _ormation_ The T_ogy Programis amled atprovidingall
    FBI offices, inc!udingoverseas Leg_ Attach6offices, :'withimproved._etwork
    ¢0r_rnu.lcafions,a commonandcurrentset of office xltomation togls, anduser-friendly
    Web-baSed appli'cations. Trilogy ttp[_d._ also i!!corpol_te controlsto providean
    enhancedlevel of security,for FB[ "mformafi'o_
                                                 (If)                                          ..._   .
                          •             .   ."   _   .......                   .   • ...   .     ,


      •      F011owhtgSeptember11, we saw theneedto:provide:counter,terrorism
              (                                                                                                 o


    investigatorsand analystswi'thquid_ easy acc_ssto:thefullbreadthoifinformation
    relatingto terro_sm.We developedathree-stepplau t_t wouldprovide immedi_e
    Supportto counteirterrorism   andthen inoremefitallyin_:ease therange _mdeffectiveness
    of thatsupportfor other criminal investigations.This Plan transitionstm away from
    separatesystems containingseparatedata,towardsan InvestigativeDatabase Warehouse
    (IDW) thatcontainsall datathat canlegally be storedt!_gether.TheIDW provides the
    BureauWitha si_e access point to severaldatasourc¢_thatwere previously available
    only throughsep_wate,stov_piped systems.By providingconsolidated access to the data,
    for thefirs.t time _malyticaltools canbe used.acrossdatasourcesto prc.videa more
     completeview of the informationpossessedby the Bureau.(U)
          •


"           Theinitial step towardthe IDW was the implementationof_ Secure
    C0mterterr0fist OperationalPrototypeEnvir0ment (SCOPE)progr_a. Under the
    SCOPEprogramwe quicklyconsolidatedcounterterrofisminformationfromvariousdata
    source_,providinganalysts atHeadquarterswith substantiallygreater _cess to more
    informationin fro'less time than with otherFBIinvestigative systems. The SCOPE
    databasealso gave USan opportunityto test new capabilitiesin a controUedenvironment.
    This prototypeenviroment has now been replaced by the IDW. (U)

             The IDW, delivered in its first phase to the Office of Intelligence in January
    2004, now provides analystswith full access to investigative information within F-BIfries,
    inclttdingACS aad VGTOFdata, open sourcenews feeds, and the file_ of otherfederal
                                                               •   .
                                                             m
                    agencies such as DHS. The IDWprovid_ physical storagefordata _d allowsusers to
                    access thatdatawithout needingto know itsphysical location or format.The &ta in the
                    IDW is at the Secretlevel, andthe additionof TS/SCI level datais _ the planningstages.
                     j),          •                           .




                             Laterthis year,we plan to enhance_heIDWby addingadditionaldatasources,
                    such as SuspiciousActivity Reports,andbymaking iteasier to searclh.When the IDWis
                    complete,agentsand analysts using nt,'wanalyticaltools will be able to searchrapidlyfor
                    picturesof known terroristsand matchor comparethe pictureswith otherindividua!s
                    minutesrathert_handays. They will be able to extractsubjects' addresses,phonenumbers,
                    and otherdata in secon&, ratherthan searching forit manuaUy.They will have the ability
                    to identifyrelationshipsacrosscases. Theywill be able to search,up t_ 100 millionpages
                    of international_terrorism-related
                                                     documentsin second_.(U) ....
                                                             •




                             Ultimately,we planto turnthe IDWinto aMasterData Warehouse(MDW) that
                    will include the administrativedatarequiredby the FEIIto manage its internalbusiness
                    processesin additionto the investigativedata_MDW will growto eventuallyprovide
                    physical.datastc)ragefor, andbecome the systemofrec0rd for, all FB! electronicfiles. (U)
.   ..


                     We areintroducingadvanced analyticaltools to helpUs makethemost of the
     ....
      :_ : data storedin the IDW. Thosetools allow FBI agents _mdanalysts to look acrossmultiple
         • ._   ,


        •   ca,sosandmultiple data sourcesto identify relationshipsand otherpi_:es of information -
            thatwere not readily availableusing older FBIsystem_;.Thesetools t])make database
            searches simple;rodeffective; 2) give analysts new visualization,gee-mapping,"link-chart
       • ._ capabilitiesandreportingcapab_fies; and 3) allow amdyststo requestautomaticupdates
            to theirqueryresults whenevernew, relevantdata is downloadedinto _thedatabase.03)
                                                                                            /
                           • ,?



                             As the t_t partof ourIT modernizationeffortsnear completio_ FBI gents,
                    analysts,and supportpersonnelarealready enjoyingnew capabilities_mdapplyingthose
                    Capabilitiesto th_ cotmterterr0rismmission. Theyhave uprto-datedesktops, fast and
                    secureconnectiviity,a user-friendlyinterfaceto the ACS case managezaentsystem, the
                    abilityto access and search consolidatedterr0rism-relateddata, andnew capabilities for
                    sharinginformationinsideand outsidethe Bureau.02)

                             While there is .stillmuchto be done,these effortsare startinglx_deliverthe
                     technology we need to stay aheadof evolving threats.Upgradingourteclmologywill
                    •remainan FBI priorityfor the foreseeablefuture,and o'arnew IT managementwill
                     ensurethat we continue to improveour systems. (I3)

                             With the recent directivesimplementingthe intelligence agent career track and
                    the adrninistratiw_,reforms relatedtobuilding an intelligence workforco,  we have in place
                    the essentialstructural elements of an intelligence-drive.__unterterroriism operation.The
                    challengenow is to refine and continue to develop that ,operation- an effort that will
                    requireadditionalresources,continuedattentionby FBI leadership,and constanttraining          _.
                    of FBI personnelin intelligence processes and objectives. 03)




                                                         i                                                 13
                                                                         .,




              While we have clearly made substantialprogress•overthepast 33 months,it is
     difficultt0 come up with an exactmessUrem_t of _e currenteffectivenessof our
     counterterroris-m efforts. Besides citing the absence of successful atts_l_ on thehomeland
    •since SeptemberI l th, there is no single measurethat oompletelycaptureatheprogreas
    we havemade. There are several yardsticl_,however, thatdemonstratethe effectiveness
     of the core functionsof a Counterterrorism     Program.These yar&ticlminclude the
     following:           .                             ...                 ..            ._
     • Development of human assets
     • Numberof FISAs                      ,     ....
     • Numberofintelli'gence reportsgenerate_                                         _,
'    .."
       Query ofdaily    briefings ......     '         ..
     , Effectiveness of COunterterrodsm    operations
     •Continuedpr0t.eoti0n    of civil liberties                ,-:                   .
     -Anapplicationo:fthese yar&ticks.demOm_-a_es       theprogress we have achieved since        . "
     SeptemberH, 2001.(U)                              : ..

           "The FBIhaslongrecognized     that.humanso.tw_e
                                                         inf0rmationi_oneofthe.  most
     impoi_mt  waystoinv_figate.cfiminal   activity.
                                                .We havel0ng-standing expertise in
    -recruitingandusing humansources,andwe have _ed those skills to gre_ effect acrossa
     wide rangeof:investigative programs,including
                                                 organizedcrime,drugs,public
     corruption,and white collarcrime. (U)
                            •   ..     • ,   " .   ,.
                                                      .       .            "" :
                                                                  ..



      " • While we also have developed,souroos.overthe years in theComltort_oriSm
    Program,September 11mmgh!i.'ghtedthe.ShomgeOfhtunan.inteliigenoereportingabout
    al.Qa'ida
            b0th:intheU.S.andabroad.  Withthe.U.S.govemmentha,     viJ_relatively
                                                                                few
    assets
         Wh0 wereabletopenetrate  andreportonai-Qa'ida!spl_,     We werevulnerableto
    surprise.attack,
                 ((Y)"-:                    "

            •TheBureauhasplaced      a priorityon
                                                deveioping  humanintelligence   sources
     reporting oninternatiOnal terroristS.
                                         We haverevised,ourtraining  program,  our
     personnel evaluation crited.a,and Ouroperationalpriorities:tofoous on source"
     development.Wldle we continue to growthiscapacity, we have already seen a marked
     increase in the numberof humanintelligencesources in the .C, ounterte_rorismProgram.               :


     Between Augus_30, 2001, and September 30, 2003, the numberof sources relatedto
     internationalterrorismincreasedby more than 60.p_cent, and the numberof sources
     related-todomestic terrorismincreasedby more than 39 peroent.(U)
                                                            ..,



             FLSAcoverage has also increasedsignificantly,reflecting both ourincreased
     focus on countert(_orism and counterintelligenceinvestigationsand improvementin the
     operationof theFISA process.From2001 to 2003, the:numberofFISA applicationsfiled
     annuallywith the ForeignIntelligence SurveillanceCo_ inc_asedby 85 percent.We
     haveseen a simih_ increase in the use of _e emergencyFISAprocess_thatpermitsus to
     obtainimmediatecoverage in emergencysituations.In '.2002,forexaml)le, the
     Departmentof Jus_ceobtained a total of 170 emergencyFISA authol_tions, which is
     more thanthree _mes the numberof emergencyFISAs we obtainedin lthe23 years
     betweenthe 1978 enactmentof FISA and September1.1,2001. CO)



    •.                                       Q                                             14
                                                                 W                     '"




                                                  •   ..,
                           ..
                                       • .                           ,,
                                                                               •   I        "   . 'J           '

                      In the past year, theFBI producedmorethan3,000 mtelligeuoeproducts,
             including"raw'"reports,intelligcncemomoranda)in-depthstrategic_malysisassessments,
             special event threatassessments, andfocusedPresidentialbriefings,we also conducted
             numerousintelligencebriefingsto membersOfCongress,othergovernmentagencies, _d
             the law enforcement and intelligence communities."ll_eseeffortsmarka new beginning
             for the FBI's intelligenceoperation.(I_

)                     Priorto September1I, 2001, the FBIproducedvery few raw.inteUigcncereports.
             inFY 2003; weproduced and disseminated2,425 Intc!ligenceInfommtionReports(IIRs)
              contains,g raw :intelligencederivedfxomFBIinvestigationsand intelligencecollection.
              ThemajorityContainedintelligencerelatedto internationalterrorism;the next greatest
             number,containedforeignintelligenceand_unterinte,Uigenceinform_ttion;andthe
              remainder.conc(_-med  criminalactivities andcybercthne. These firs Weredisseminated
              to a wide customer setin FBI field Offices,theintelligenceCommunity,Defense
              Community,ottterfederallaw enforcementagencies, _mdU.S. po!i'cyentities. (U)

                        • . In.additionto these raw.intelligcn_ reports,the FBI.has.be_m producing
                " analyticassesm_entsona parwiththose of the IntelligenceCommunity. TheFBI
                   developed and issued, in January2003, a classifiedcomprehensiveas:_essmentof the
                   terroristthroatto tho U.S. Thi'sassessmentfocuses on the threatsthat_theFBI sees
          .,. do, eloping over.the next two years,based.onan analy,ds of informationregarding.the
                   motivations, objectives, methods,andCspabilifies0f.¢xistingtaToristgroupsandthe.
                   potential foi:.theemergenceof neWterroristgroupsandthreatsthroug_outthe world,This
        ......
           : '".......
                   _-assessment       is used as a guideinthe allocationofinvesCigativeresources, as a
                   useful compilationOfthreatinformationforinvestigatorsand.intelligencepersonnel
                   withinand withouttheFBI, andasa resourcefor decidon'makerselsewherein the
                   government. The 2004 threatassessmentwas released,in April2004. FBI analystshave
                   producedover 100 in-depth.analysesaudseveralhun&redcurrentintelligence articlesin
                   additionto the work they do assistingl_I investigations.(U)
                                             ..




                         We are preparing to produce,in thenearfuture,theFBIDaily RePort andthe
              FBINationalRep.ort to providedailyintellige_cebriefingsto personnelin .thefield and
              externalcustomers.One will be producedattheclassified loyal and ihnitodin distribution
              ire,upper-levelfield managers.Theotherwill be unclassifiedandWidei[ydistributedto
               field office personnelandourpartners"mthe_awenforcementcomm_,_ity.(U)

                       A good example of ourabilityto exploitevide,_cefor its intetligoncevalue and
              sharethatintelli[/enceis ouruse of the al-Qa'idaterrorismhandbook.A terrorism
              handbookseized from an al-Qa'idalocationoverseashi themid-1990's was declassified
              andreleasedby DOJ shortlyafterthe eventsof September11, 2001. We determinedthat
              intelligenceglemed fromthe handbookcouldprovideuseful,guidanceaboutal-Qa'ida's
              interestsand capabilities.Accordingly,we producedanddisseminateda series of
              intelligenceproducts to sharethis intelligenceWithourpersonnelin th(s.fieldandwith our
              law enforcementpartners.Nine IntelligenceBulletinswerebased in w3_Ole     .orinparton
              this intelligence.In addition,we used informationderivedfi_m theal-Qa'ida Handbook
                                o




    '                                                                     .,



        ..
                                                            _"                                                     15
                                                                                                       .   •
                                                       gBl         /
                          ..



        to updateourcounterterrofismtraining,ino_udingthe IntelligenceAnalystBasic Course
        at the College of A_a!ytical Studies, the _ntroducfionto CountertenorismCourse a_the
        NationalAcademy, and sessions on TerrorismIndicatorsand Officer Safety in our
        SLATTtraining."TheunclassifiedVersionof the han_,ook is now maintainedas a
        referencein the FBI Eibraryandis accessibleto .allthe studentsat the Academy. It also is
        includedin the referencemanualCD-Romdistributed as Part     . of SLA'IT training..(U).

               Onetelling measureof ourimprovedcounterterrorismopera_ionsis the
        developmentof our capability to brief the daily terroristthreatinformation.The
        development of this capabilityreflects _hematuringof ourcentralizedCounterterrorism
    •
        Program.CO                   .
                                         -
                                               .                            •
                                                                                    :   :
                                                                                .




        •     ' .Prior to September i lth, theFB[ lackedthe capacityto provide a comprehensive
         dailyt.errorismbrie.fing-tO,assemblethe currentthrea_I   information,
                                                                             todetemdnewhat
         stepswere bein,gtaken to addresseach threat,andto p_esentaclearpi()tureof eachthreat
         andtheB_'S       response to that threat to the Director,seniormanag¢_,,the Attorney._
         General,and others in the AdministrationWhomakeoperationaland policy decisions.
         With a d.ecentra_.
                          "'_edpr0gram  in.which investigationswere runby inc_[vidualfidd offices,
         the.Bureauneve_hadto develop thisspeciafized skill. With the need.fi)r.centralized
         maaagement,however, it became an imperative.(U)                       .: .         •
                                                             -••



               • .. in the aftermathof._e terroristatta.c_,.weweire asked_ beginsending to the"
          •WhiteHouse each m0ming dai!y:reportson-counterten_rism.=related.events:   .Wehad no
         ..m_           in p_0e forcollecting that
                                                 information, so preparationofthereports  was •
        •.initiallyhaphazan.£ Duringthe past 33>months,',with:,:.the,ass'.tstaaceof._:eterans
                                                                                        fromthe
           InteUi'ge_ceCon_n.unity,we have establishedthe ."mf_,_uct_e andthe cadreof
         professionals,to p:.mduceeffective .daffybriefingsandto sharebriefingmaterialsmore
         widely withinthe Bureauand with ourp_tnors. (If)
                  .....                      ..              -             ..



                 In 2002 we establishedthe PresidentialSuppoi_Groupwithin,the
         CountertetrorismDivision to preparedailybriefingm_terials.In the summerof 2003, this
         group.Wasrenamedthe. S.trategicAnalysis Unit andmovedto the Office of intelligence.
         Be_:in       August 2003, the StrategicAnalysis.Unitbeganproducingthe Director's"
         DailyReP0rt (DDR), a daily intelligence briefingthat includesinformationon
         counterterrorism:operations,terrorismthreats,.andinfo_rmationrelatedto all areas ofFB!
         investigativeacti_dty.
                              (U)         ..                            ..                "

                  To .producethe DDR,.the StrategicAnalysis Unit consolidatesandrefines
         informationprovidedin a standardizedformatby intelligence personnelin,eachdivisionl
         Each.morning,int._ormation  aboutnew threatsis added, and information.aboutthreatsthat
         have beenthoroughlyvetted duringthe nightis rem0ve(1.TheDDR is ,$stributedto
         executivesin all FBI operationaldivisions. TheDirectoruses the DDRto brief the
         .Presidentnearly every weekday morning.   The FBIalsoproduces   the Presidential
         Intelligence Assessment, a finished FBI intelligenceproductcoveting topics of particular
         intere_ to thePresident, and as noted,earlier,out personnel atTTICand at FBI
            ...



i




                                                   i                   .                      16
                                                                       i




             HeadquaxterScohtdbute to the formulation of.the daily President's T(,,rrori'stThreat.
                                                                                            ,

             Report. (U)         '"
         J



                     Director Mueilerholds throat briefings twice a da_: an intell_tgencebriefingin
             the morning and a case-oriented briefing in theevening.At these briefings, a brieferand
             the operationalIexecutive managers providea summatyofthe currentthreats and our
             operations.With CIA and DHS representativesin attendance,these n_eetingsalso serve
             to ensure thatall[threatinformationis appropriatelypassed to those ai,)encies.(U)
                                                                                   •
                                                                               •                    ..




                     The development of this daily briefingoperationis atangiblemeasureof the
             progresswe have made since the day whenterrorisminvestigationswere runby
             mdivid.ualfield offices andlittle effortwas made to centrallydirector coordinatethem
             throughoutthe i_)ureauand with the other agenciesinvolved in protecl_g the U.S. against
             terrorism.
                     (U)                                                   •                             .   .
                                                                                                                 •
                        <
                               • .                                                     ..


              •   .
                   The Bt_roauhistoricallymeasuredits performance,to a largeextent, bythe
          number of crim_nais,it arrested.While useful for traditionallaw enfo_)ement, where the.
          primaryobjective is arrestand prosecution,this standardis under-inclasiveas appliedto _
          counterterrorism,where theprimaryobjectiveis to neutralizeterroristthreats.It only
          Capturesthat sub,set of terroristthreats.thatare neutmllzedby arresting terroristsand
          prosecutingthem with chargesof criminal_rorism. It fails to capture)theterroristthreats
          wenoutralize throughmeans otherthanformalterrorismprosecutions- such as
">"_":' deportation,detention, arreston non-_              charges:,seizureof financialassets,_andthe
          sharingof informationwith foreign governmentsfor_eir use in taki_ action against
...,..:...terroristswithin their borders:(U)               .               .                    .



 .....        ,..,'ii._.-/.
                        A more useful measureis one we have.used/u organizedc_nte cases- the
             numberof disruptionsand dismanfleme_ts.Thismeasurecountsever), time we-either
             by ourselvesor with our partners'inthe law enforceme,t andintelligencecommtm/ties-
             conductan operationwhich disables,prevents,or"interrupts terrori_fimdraising_
             recruiting,(rainh.zg,or operationa_planning.Since Sep!Iember11, 2001, the FBIhas
             participatedin &)zensof suchoperations,disruptinga'_de varietyof.domestic ,and
             international terrorist Undertaidngs,
                                                 (U). '

                     While the numberof disruptionsis Significant.,the most tellingmeasureof our
             progressis themanner in which we haveconductedin(fividualoperationsconsistentwith
             ourpreventionmission. Theextentof ourtransformationis most clearly seen in the
             approachwe take when confrontingSpecificterroristt_reats. Our app_>achto these
             operations demonstrates the extent to which coOrdinationand prevention through the
             development of eLctionableintelligence havebecome our gui_      opere_onal principles.
             Co)
                      The September 1l, 2001, terrorist attacks awakenedall of us to the deadlythreat
             of modemterrorism and to the need for b01daction. Woin the FBI have undertakenthat
             bold action over 1Lhe
                                 past 33 months. Whilethere is still much work to be done, we have
             madesignificant progress. With these efforts, and with the unwaveringsupportof the
             American people, we are confident that we will prevail in our war aga_astterrorism. (U)


                                                   i•                                                                17   .
                 sPECIFIc RESPONSESTO OIG RECOMMENDATIONS:

                 A. Recommend.afionsrelatedto the ESI's analyticalprogram: (U)                                       ..
                 •   ...




                 Recommendation rNO.,1: Improve the hirnng,_ralnfag and retention of intelligence
        ••       analysts. (U)           •                                        '
                 Response:     TheFBi has _akena numberof measurablestepsto ira.:provethehiring,
                 training,andretentionof analystssincetheSeptember11attacks.(U)                  •
                                                                                                     •




                       • The FBI's Office ofIntdligence (OI), ledby an ExecutiveAssistantD/rectorWho
                       • is a care_ intelligence analystin theU.S. Intelfigence CommUnity,has developed
                      ........
                         arecrui_ig    planto¢nmlre   that
                                                         _heFBIactivdyreeruits    candidates,
                                                                                            with_e.::_"
                         critical skills necessary toprovide world-classiintelligenoeenalysisfor theFBI_s
                                   mission. InSeptember2003, theDirectorapprovedtheFBI'sHumanTalentfor
.                                  .Intelligence
                                              Production   .Concept
                                                                 ofOporations(CONOPS),
                                                                                    wlfich
                                                                                         focuses
                                                                                              onthe
                                   reeruitment,.,hiring,devdo.pment,and
                                                                     _     ofintelligence
                                                                                     _alY_z.(U)i_

                               • Recruitn_mtMiring!
                                              Prior-to
                                                    theapproval
                                                             ofthe.HumanTalczLt
                                                                          CONOPStheFBI
                                   .didnot haves recrm'tmenteffort specific to the inte-lligenceanfiyst positio_ As
                     •-..-..!s_.
                           h,.intoltligenc¢
                                        aaalysts.we_notroutinelyp_mof_ruitment:teams;In
                         ©ffort:to
                                 ©nsuro.theFBIisprepared
                                                       to meetemerging.lecruitm,
                                                                              mtand._"
                           •       priorities:forintelligenceanalysts,,the OI selected intelligence anal.
                                                                                                       ym (FB_Q
                               .. 8ndfield) ,toserve as inte.iligenceanalystrecruiters.The intelHl_ce an.alyst"
                                   recruiters attendevents-at colleges and univer_ties, aswell as designated
                                    conferencesand.careerfairsthroughoutthe country, From October2003 - April             ./



             •
                                  •2004, theFBI participatedin more.than10recu._itmenteventsandplanS,to
                                          •   ._    .                                                                                  .   .

             •                     participatein at leastfive additionalevents throughseptember 2o04. (u)
                                                                      •                          .           .   •




                               •     A marketingplan was also.implementedtosupplement the Intd!igenceAna!.yst
                                     r_'ting efforts. OnFebruary8, 2004, an advertisementspe0ific to the
                                     intelligence'analystposition at theFBI was p!ac,_edin-the W.ashingtonPo_
                                     Washington Times, andthe New York Times, _id has sincebeen re-advertised
                                     severaltimes, OnFebruary9, 2004, _.e firstpressrelease ad&essing intelligence
                                   .-analystre_:ruitmentat the FBI was releasedby lhe FBI:Nati0nalPressOffice
                                    •kicking off an aggress.iveintel!igenceanalyst hj'_ngCampaign,.And,OnFebruary
                                     17, 2004,the Second  pres srelease Wasreleased featuringan interviewWithEAD
                                     for Intelligence MaureenA.Baginski andtwo FBI Intelligence Analysts.CrY)
                                                        -




                             , •In2004,the FBIreused its hiringproceduresforIntelligencetmalyststOmore
                               effectivelyrecruitandhirecandidateswithnecessarycriticalst_lls. Thenew
                               systemis a resumeandweightedqUestion-based   system. Theweightedquestions
                               were developedbya groupof seniorintelligenceanalystsandintelligenceanalyst
                           •" managers,underthedirection.oftheEADforIntd!i'gence,and weredesignedto. •                                                  .r
                                    identify themost highly:qualifiedcandidatesat all on'trygradelevels. Aside from
    ,                               directrecruitmentintothe intelligence analystposition, the oI i[sestabh"s
                                          •   ":.           • .   .       •     -.   .   .   .           ,
                                                                                                           .'hing              '   .   .       .
                                     ..




                                                                          q_'                                                                      18
                                                           /     n
                                  education cooperative programswherein college studontswc,uldhave an
                                • arrangcunentto workat the FBI and earn a four-yeardegree.'Students may
                                  alternatesemestersof Workwith full-lime study   or maywork:in the summersin.
                             •i exchange for tuition assistance. Theprogram targets_tud_l_ who intendto
                                  complete a four-year degree in disciplines needed forFBI Intelligence Analyst
                                  Workto include: InternationalStudies;ForeignLanguages; S._es pertinentto
                               • specific geographic areas and c_tures; History;Economics;Business;Political
                                  Science;Public Adminis_.ation;PhysicalSciences; and Journalism. In additionto
                                  financialt.assistance,studentswould bvnefitby obtainingsig_.'ificantwork
                                  experience, and the FB1W0uldbenefitthrough an agreement the studentto
             -                    continueworking forthe FBI for a period of time upon completionofthe_
                                   education:
                                         CO)                                                           "   .

                             •     College of Analytic Studies: Since Fiscal-Year2002, the ColI.egeofAn_ytic
                                   .Studies(CAS) has-deliv_13     iterationsoftheBasic Intellig,_nceAnalysis
                                   Course fi)rnewly hLredanalysts. In addition,tl_-oughintelIig_ce community
                                   partners_ipsandprivatevendors, the CAS has coordinatedspcx:ializedtrainingfor
                                   .novice.
                                          andexperienced FBIInteRigenceAnalysts.     (U)                 _
                                                                 /-



                •' 264 FBIAnalysts have graduatedfromthe College'ssix=weekBaSicIntelligence
         ,..:.:..
         ?
             .:" Analyst
                 .      i
                          Course
                            .: "
                                 since
                                   "
                                      itsestablishment,
                                                      (U) " .                      "   . . .       .   •




         -,,:.-_-
               :0 655I_Ifield andheadquarters   An-alys_
                                                      haveiattond(xl_¢_ial_ty
                                                                            co_se_ona
..                variety of topics suchas,analytical    tools, anddat_ases. (U)
                                                  methods,

             ":- ":_: 1,389 FBI field and headquarterspersOnnel(Analystaand Ag_ats) have attended
             •                                                                                 .   .           ..


                   • specialized
             .,....:    . --._:
                                 counterterrorimncourses offeredinconjunction
                                                                         •
                                                                             wi(_CIA University.
     '                             _       "




                             • "ACES I:'The     BasicIntelh"gence Analyst   Course curc_tly offc1._d
                                                                                                  by._eCASis
                                beingrevised/updated.   Upon completion     ofthis effortthecoursewillbere-tiUed:
                                Analytic_l  CadreFAucation   Strategy.I  (AC_qI).as  ou_JJnedin_theHuman Talent
                                .Conops.  TheACES Icourse    will  incorporate  sevencox,elements forinte.IHgence
                                training fornew agents  andnewanalysts..     Adcfitionally.the
                                                                                             new course
                                curriculumteaches .advanced.analytictrade craftand practice, fl_inkingand
                                writing skills, resources,and fiel[dskills;.An int_ediate courseentitledACT_ If
                                is anticipatedin the futurethat would targetmore exper/encedr_mlysts.CO)

                                   Mentoring Program.: The OI is creatinga career mentoringpro1_unto.provide
                                    guidance_d advice to Intelligence Analystson the analyticalcareerin the FBI.
                                    Once implemented,all new IntelligenceAnalysts (new to _heposition or nowto
                                    theFBI)w_llhave a mentorto assist them. This programwill be implementedin
                                   •calendaryear 2004. (U)
                                                                                                                         ..




                       ,Recommendation No. 2: Ensure effective
                                                           management of analysts. (U)




                                                                /'                                                  19
                                                                                   .'..                   :,_.
                                                                                 :, ,',_.           • :_....       .:   .      '   .,




                                   •   .   .    •   ,     .   ..    -   ..   .                      •          .              .'                    ;   .   .._   ..   '   ..        .



                 Response:      Tlie FBI agrees thatit mustdo all thatit cantoensure thatitsde_oated
                 intelligence Analystsreceive effective managementsupportand direction. Sino©
                 september 11,2001, a numberofchanges have takenplaceto improvethemamgement
             .   of Intelligence:kctalySts.The EAD-I and the OIhave i_nmediateprogrammanagement
                 responsibilityfor the FBI's analyticalfunctionsandproduced,forthe firsttime, a
                 comprehensivem_ategyfor_e entireamdyficalarena. The Intellige11_ce     Analystsatthe
                 FBi arekey players in achievingthe FBI's comprehermiveintelligence strategy.(U)
                                                              •



                     •   The Ofis_m_ supplemen_pefformance expectationguidaneoforall |nteUigence
                         AnaIysts,speeif3_g _ectafi0ns for the reportsofficer, operationsspecialist,and
                         all-sourceanalystwork roles:' This communicationwas intendednot only to
                         informanalystsas to the expectafi'ons,butalso to keepsupervisors informed as to
                 _   •   thePr0p_:u"til_ti0nof_e Inte!!i'gen_Anal_.t position. :TheOIhas instructed
                         aUFBI field offices that-/nte_gence _malysts must reportthroughthe Field
                         InteIiigen(_eGroupchain=of=command.,(U)
                                           :.                      ..               ,                                       . ..            .
                                                                                            .....                                               -                               ..       ._



                     • The O! assumed _ve               control forall IntelligenceAmdysts on February1,
                         2004. TheOI is responsiblefor establishingand executing standardsfor
                         _ting,     _g,    'Oaining, anddevelopingthe ]_Fs intelligenceanalytic
                         workforce,as Wellas for _         tl_ ey,_,_jsmgn
                                                                   ,      " " ed :to,ope,ration_-aadfield
                         divisions basedon intelligencepriorities.Operationalandfield divisions are
'                      -,..responsib!te
                                     for day-toMay.sup_on:_,         telli[gence_ys_and_foradhering
                        '0 sCand_dsfor .analystdevelopmentestablished by.the OL Ct_)

                     • .This new:managementroodel was implementedby placing the section chiefsat
                      Headquarters curr_fly perfo_,'mte_gence,      functions und_,,theoperational
                        controlofthe OL Those Sectionchiefs arented by the approF_iateofficial in OI
                        andreviewed by the Headquartersinvestigative division into which they are
                        integrated. CO)              ..




    J            -Re_,,.mmendationNo. 3: Require grea_ercoordination and consultation between the
                  operational and analytical Units. (U) . '
                                                                                     .,



                 Response:     TherBIagreeS,  thatanexaminationof the events.surrmmdingthe
        .,       Septemberl 1 a_tcks showed a need for imp_vementin .thecoordinationbetween
                 operationsandanalytic Units. We believe coordinationmd consultationhas dramatically
                 improved. Consistentwith theDirector'sMay 2002 a_nouncementof theFBI Strategic
                 Focus, the CounterterrorismDivision was r_rganizedto implementa threat-team
                 approachtObetter alignthe FBI's effortsto preventterrorism.Therevised approach
                 moves awayfrotha traditionalhierarchicalstructuretrodseparationbetween analyticand
                 operationalfunctions and employs matrix-managementconcepts used iinsuccessful
                 businesses andprivate organizations and in government agencies. (U)

                        The goal of the reorganizationwas the implementationof an organizational
                 s.tructureand concept of operationsthatempowersand enables the FBI to achieve the
                 priorityof protectingthe United Statesfi'omterroristattackby facilitatingthe flow of



                                                                                                                                        "                                                     20
                                                        ma
        iz_t'ormationbetween opera_onal  unitsand_eiran_]_ocolmte_1_s_1_).The FBI
        categorizes the currentthreatas follows: Radica_Fuadamentalists,Global Exists,
        andDomestic Terrorists.Additionally, a cross-cuttirgthreatin e_h of those areasis the
        terroristacquisition ofweap0ns of mass des_ction (WMD) and the misuse of U.S. sad
        internationalmonetary rules andprocedures.03)

              Using this threat-basedframework,the FBIstructuredthe op(_ationsof the CTD
     along a threat-teamconcept that organizedthe bulk oi'its investigative, financing,,reports
      andrequirements.andauaIyticalresourcesinto threel_reattean_. "E_ecomponentsof
      each threatteam areco-located to facilitateday-to-dayinteractionsaxtdcreatesynergy
     •betweenthe investigative and intelligence disciplines. The CTDAssiis.tantDirectorand
      Deputy Assistant Directors (DADs)jointly identify the investigative _mdanalytic
      priorities,establish integrated Operationaland analytical objectives,md allocate CTD
      resourcesfor each teambased on those prioritiesandobjectives. The operati6nal
      Strategiesagreedupon foreach threatteam have been disseminatedto all FBI field•
      offices whereth(_ will guide field operationalactivities. The componentsof eachthreat
      team.areoo-lo0atedto facilitate day,to-day interactionsand createsy_iergybetweenthe.
      investigative and intelligencedisciplines. (U)                  •.                    .   .




                   : Tae Office of Intelligence,meanwhile,has establishedprinoipi[eswithinthe -
-'_-=._,:,
      Bureau that information       belongs to the Bureau rather tl_ml a single field office or
      headquartercomponent_d will be sharedwith al_thOSewith a legitimate need-to-know.
:<::".'.,_.
      _Offlce of Intelligence is also workingwith the I_ifOrmation Resoeroes Division to
      develop the systems thatwill fazili_e informationsharing,02)
           :




        -     Since the September11attac_,the FBI's Office of Intelligencehas published a
.::_.._,,,...
      _t        of Openttions for htelligence Production_radUse. This publiicationguides the
      FBIin the coordination0f.intelligenceproduction. In general,the role of the operations
      componentscent_ on Commentingon the accuracyof thcts andthe p_)tecti0nto be
      afforded for sources and methods. The Executive Assi,,,qant  Director for Intelligence is
      the fiual arbiterin disagreements between operations aztd intelligence componentsin the
      production anddissemination of intelligence products. (_J)

                 The FBI has putinto place a number of other m_hanisms that have vastly
           improved coordinationbetween operations and analyticcomponents. These include: (U)

               •    Twice daffy inte_gence and operations briefiugs chaired by the Director and
                    attendedby executives, lower-level managers, sad line analysts from both the
               '    operationsand intelligence components oftheinvostigative divisions, as well as
                    the Executive Assistant Director for Intelligence (EAD-I)and other OI managers.
                    Coordinationissues are discussed and directions are given for both operations and
                    intelligenceissues in connectionwith theprioritythreatsand important
                    investigations."CO)
                                           .   .




               •    A daily IntelligenceProductionBoard (IPB) was establ/shed inAugust 2003. The
                    IPBmeets d_ly and is chaired by the EAD-I. Representatives _olude senior
                            /
    ....                                                                         _._




                                                   i.                                               21
                                                                 '!                                          ..


                               managers,uuit'levelmanagers, andline analy_s fromthe inte3_gence•
                               componcatsof all investigative divisions. Coordinationtssu_ _d _ocessos:are
                             ; discussed andresolved in these meetingsin accordancewith directionprovided
             •     ,-          by.the E/_-L _                                               ..
                                                                                ..




                            •         The Directorhas designatedthe EAD-I as the FBI's chiefpoli,_yofficial for
                                      IntelligenceandInformationSharing. In this capacity,the EAD,I has policy"
                                     .authority.to ensurethe coordinationrecommendeddoes indeed take'place,and she
                                      has<instituted
                                          "•        a numb_ of processes thathavelsignificantlyimprovedCoordinatiOn
                    .
                        .             andconsultationbetween operationsandanalyiic units_(U)..
                                                                                                    '     '
                                                                 .' .



                 B..Recommendati0ns related ¢othe FISAprocess: 0U)                      "                          ..
                                              ..
"                           .   ..                 .   ...   .          ,        -


                 Reconnnendatien No.4: Ensure adequatetrainingef FBI employees involved in _e
                 FISAprocess aud ¢ounterterrortsm nuttters. Off)                                  ..




             • Resvonse:    The FBIis m agreementwith the OIG's.recommendationto _
               adequatetrain/ngto employees involved in theFISA prooess and comtterterro_
               mattersandhas developed aprogram.toaddressthese issues. The Co_mterterrorism
               Division (CTD)has made:tremendousprogressin.developinga trainingprogramthat
                 enhances the FB]?s abili'ty to .oonduct o0unterterrorism investigations_ ehat _in          the
'                prosecution of ten'Orists, ..disruption of terrorist organi_'ations and Sitpport nefworks," and
                 has led to anincreasein the Overal!.contn'bution0fin_lligence:t0:'th6U,S. Intelligence
                 Communityand (tO'Seniorpolicy _ers in govemmenlI,_        Training focuses Onall aspeC_
                 of the FBPs response to the threatof terrorism, both domestic_y and abroad,which
                 includes intem_."onslterro"nstgroupsand/orcountries ofin_          do=!6sti0terrorism,
        ..       weapons 0fmass destruction,tetcorist:finanoi_.operations)Foreignzhttelligence
                 s m'ceillanceAct,.NationalSecuritTGuidelines,PatriotAct,source d_elopment,
                 interview,and interrogationtechniques,rapiddeployment,,and digital _mdeleotronic
    _            exploitati0_ The CTD has.deve!opedthistrsining thr0ugh.theidentifi.mfi0nofsubject
                 matter.expertsfromwithin .theFBI,.other GovernmentAgencies and privateo0ntraot0rs;
                 CTD has offeredthis tnin.---_gto FBI Special Agems and Analysts from both the field and
                 headquartersas well as to law enforoementpersonnelassigned to the JointTerrorism
                 Task Forces,(_YI.T)throughoutthe country. CID has contributedsignificantly to the
                 courses•developedby the College of AnalytioalStudio: and theCentral Intelligence
                 Agency Universityfor FBIAnalysts. These coursesa_mtoimproveand enhance
                 analyticalcapabiJLityto quickly ascertainthe reliability,implications,and:details of
                 ten-oristthrea_, _mdhow threat-relatedinformationis disseminatedto local, state,and
                  federalagencies. (U)      ._

                         CTD'sprimaryfocus is to address the most immediatetrainingneeds of the FBI's
                 workforce. CTD has beenWorkingwiththe TrainingDivision, Office of Training
                 Development, to Createcurriculawhich addressesthe needs of Agents..Analystsand Task
                 Force Officersassigned to counterterrorismrelatedmal_ters.This curri!culum  based
                 approachbegins 'witha basic understandingof the foundationof both domestic and
                 internationaltem>rismand ¢xpan& to a speoific appr0aohto oounterterr0rism "        ,
                 investigations .andimplementationof the CT investigative strategy. In,serviceUvining


                                                                            I                                     22
     being conducted on arvgularbasis include:InternationalTon'ofism.Ba_icOperations, •
     InternationalTerrorismSourceDevelopment,and Interviewand Interrogationof Islamic
     ExRemiSts.Thesetrainingcurriculaarebeing developedtomeet the,needsof theFBI's
     everChangingcounterterrorismmission. _                                     ..

       i    CTD h_sdeveloped the course, "Coanterterrc)rism:   A StrategicandTactical
    Approach",to addressthe overwhelmingdemandfortraining of stateand local law
    enforcementofficers engaged in counterterrodsmrelatedinVestigationsthroughtheH'TF.
    The corecont_Lt.0fthis _g         emphasizes an understandinguf adn"uni'strative
                                                                                  and.
    Operationa! requirementsin conductingterrorisminvestigationsan_ operati0ns. CoUrse
    participants_ebriefed ona varietyof internationalterroristorganizations;Middle East
    culture_d mind set;.andareexposed to concep_ involving ass_smc_t;recrui'tmentand,
    handlingof sources; surveillancemethodologY, mteryiew/interrogationproblems;
    techniquesinherent in internationalmrorism matters;andcase man_;ement. Thi'scourse
    is presentedregionallyand provides-thelaw .¢aforoementoffioe_, assignedtow0rk on
    theYiTF, a bett(_unde/standingof theirvitalrole in the FBI'scounterterrorismmission.
    Twenty five iter,ations ofthis courseare plannedfor this year. (U)

               ThroughoutFY03, CTD participatedin designing anew apprc)achto teaching '
       N_ Ag_mtsduringtheir fourmonths of New Agent'!_               (NAT) at the FBIAcademy.
 _ __          December 2002, a p!anwas designed to incorl_)ratea countertcrrorlsm(CT)and
        _terintellig_ce     (CI) instructionalblock.into theNAT to include 110 hoursof CT and
.... CIinvestigative _6urdculut_.Thenew instructionalbk)ck is an appmacht0 investigative
        tminingwhicht_es aMiddle F_stem _al            Enterprise(I_ECE)as a -thread. through_
"      th_'_vntiresession of New Agent Training. Thenew CF and CI instructionalblock begins
       with "basic investigative techniques"_ad culminatesin "advance investigative
:_.... _ques."        Eachbasic andadvanced instructionalblock incorporates
        informanqcoop_rativewitness/asset developmentaswell as.financial iinves_. "gative
        techniques. (U)

             Conferences_at have been coordinatedby CH) havetargeted SACs, ASACs,
     .ssAs, SAs, Analysts and _      Officersand have incktdedSuicideBomber Awareness,
     WorkingTogeth_ inCounterterrorism(FBI/CL_coonlination),TerroristFinancing,
      Domestic Terrorism,WeaponsofMassDestmction, YI_ Annual Conference,and
      SpecialEventM_magement.Individualcoursecontentisspecifically d._igned to address
      andmeet the neo_ ofa'group's activities. Additionalconferences arebeing scheduledto
      addressrecurring:issues on anim'alrights,eco-terrorism,black separatists,domestic
      terroxismfugitives and internationalterroristgroupsof interest such as Hamasand A1
    , Qa,ida. CTD continuesto supportcounterterrorisminternational:trainingtl_ugh the
      InternationalLaw EnforcementAcademies (_LEA)and.providesinstru:ctionbythe
      TerroristFinancingOperationsSection to the FBI's law enforcementpartnersworldwide.
     (U)                                        ""




           The FBi's Office of TrainingandDevelopment,.in coordinationwiththe
     CounterintelligenceDivision, Counterterrorism
                                                 Division, and the National SecurityLaw
     Brsuch(NSLB), Office of the GeneralCounsel(OCt), has prepared_ulddisseminated



                                          _.:                                             2.3
    ..                                                                         _'i..'
                                                                                  D




         Bureau,widea F!SA/Fordgn IntdHgenee/counterintelligenoe/Countc_rmri_:                 "
          interactive.,Dbtmce LearningProgram"for New Agents and all oth_ FBI personnel,
          resignedFCI/IT .re_onsibilities. ,.The_urseis entitled :"FISAandinformation Sharing:
          Thdr Impacton Investigations"and covers thef011o_ingtopics: HandlingClassified
          Information;SharingInvestigativeInformationwith fileIntelligence Community;FISA
          RequirementsandProcess; andSharin'g Intelligence.withProsecutorsasperleMarch6,
          2002 Procedures. The course providesthe user with a.foundationoninformation sharing
          andits impact on investigations,the handlingand safeguardingof cl_._Sifi.ed
                                                                                    material,and
    ..   the FISA _strative       proc..ess.,All agentsand analysts,wor_   on coenterter_fism Or.
         -count_te_genceinveatigatio_..at.    exequired.totake_s distanoe   le,_g cOurse,   It is.
          acCeSsible.t0.allimiployees through...theV_    Acadetny, the.FB_s L_aming
         .Manag_en.t Sy_,'tem,The C.TD.andtheOffice of TrainingandDevelOpmenthave also
          workedWiththeFBI'.   SYh'tua!Academyprogram       to.developan online'content :
          address_the PatdotAct.. (U)
          :, .       • ,.   .   •.....       ....   - :                         _ .....                                   .
                                                                                                                         .....
                                                                                                              ..
                            •                 -:                       "                             ..   •                      .   .
                 .              _; o           "         .       • •       .    •                     .

             • In additionto the.cHstanoelearnmgcourse, eactrofthe 56 fieldd!visions _mVe
          condticted2-day,aof"han,ds-on"FISA _...Inscuctional        teams aze appointedby the
         .cognizant Assislant Special.Agentin Charge(ASAC) and consist of an Assistan.tUnited.
          States.Attorney(AUSA), the.ChiefDivision Co_msel(CDC),a squad.,s'up_.or, and a
          CentralIiRelligenCeAgency (CIA) representative..:
                                                          :.Wh.ere.pomible..
                                                                           C)ffiee0f intelligence
          Po!icYandReVi'ew. (OIPR),.Department:ofSustice(DOJ).andFBI Headquartersporsonnel
.         stq_lement_the "mstruotional teams.Thetwo-c_.y e_rdculumcOVeredthe:entireF.I,.qA
          .process,
                  includm,g _e "initiation
                                        ofFISArequests,  _mizationproc_iutes , andthe
          renewalprocess, These_g.       sessionsbegan in_uly, 2003, and continuedthrough
          November 2003..(U)   _.                  .                                            "
                                                                                             •   .



              Additiomdly,NSLB assignedtw9lawyers
                                                tosupport
                                                        theCo.unterterrorism
         Division's
                 NationalS..ec
                            .uriC.
                                 ProgramsOperational
                                                 Training
                                                        Unit(OTU)atthe
                                                                     FBI
         Academy.OTU ihas expanded all
                                     New Agent_    toinclude
                                                           ForeiLgn
                                                                 _.
         Counterintelligence
                         andCounterterroris_m
                                           imtmction_
                                                   'That
                                                       Wainmgisprovided
                                                                     byOTU
         andNSLB personnd. 03) " .                                                                            ..                         --
                                                                                                                   ,:.




                NSLB also.conductsjoint-wainingwith OIPR,DOi, in seleckx! field divisionsat
                                         •


         leastonceamonth.Inaddition to six,hours   ofclassroom  instructlon,.t_evcral.day
                                                                                      sare
         .sPent_viewing currentand..closed:F!S.Aoases with the;
                                                              assigned case agonts andtheft
         supernsors.
                  (U).
                                                ,   ..



               NSLB furtherprovides FISA instruction forall Foreign C0uaterin_iligence(_I)/
         Counterintelligen.ce (CD/IntemationalTerrorism(133In-Servioe classes conductedat the
         FBI Academy. This trainingis conduotedfor more experiencedFBI p,_onnet(inoluding
         ASACs,Chief Division    Counsel, SpecialAgents, InteIligenceOperations Specialists,
         IntelligenceResearch   Specialists
                                         andother,support personnel)who  arenow assigned
         FCI/CIffF matters,  andforpersonnel wh0_e _ransitioning  tothoseassignmonts. (U)                     ..

                                                             }                 .        ..



              NSLB also
                      pmvidos:FLSAinstruotion
                                          toallFBIHQ operational
                                                             units
                                                                 asadditional
         FCI/C_ resources         NSLB hasa newly-croated
                        arcassigned.                   National..
                                                             Soourity
                                                                    Policy
                                                                                    (
                                              •        .     ._.                                                    .,




                         andTraining Unitwhich,whent iy-staffed,willassume
                                                                         b ad,training . .
                         responsibilities
                                       forbothFBIHQ andfielddivisiontrainingmFISA andrelatedmatters."
                                             J
                                    /




:                                  The CTD andtheFBFS Office of GeneralColmsel,National ,SecurityLaw
                          Broth, have workedto pi:ovidenafi0n_ securitytra_fingto fie!d Suipervisorsand ASAC
                           s atDepartmentof JusticeNational Securi_ TrainingConferenceshold atthe Department
                          of Yustice'sNationalAdvocacy Center. The NSLB assigned several attorneys,as
                           instructorsto supportthe conferenceswhich were conductedat the NationalAdvocacy
                           Center(NAC))DOL in Columbia,SC. The conferenceswere four days _ length,: This
                           conferencewas developed to addressthe overwhelmhlgconcem regardingrevisionsto
                         •the NationalSecurityInvestigativeGuidelinesandimplementationof the Foreign
                          Intelligence SurvdHance Act (FISA). The firstconference was heldbeginning on May6,
                           2003.A total   ofsixsuchconferences    wereconducted!attheNAC during   thesummer
                       • months,     and.twocon£erences  wereheld   atFortBelv0ir,Virginia
                                                                                         inSeptember2003,    The
                          •attendees  wereSACa,ChiefDivision     Counsel, Special
                                                                                Agents,AS_i_._,ntUnited-States..
                           Attorneys,  andtheattom.eys  assigned _otheOffice ofIntelligence
                                                                                          Po]_i.cy_.an.
                                                                                                    dReview,
                         •DOJ,who-.were     alsoproviding _mtction..   Thecurri'culumincludedi_3struction
                                                                                                        onthe.
                          mission   and.org._izationof the Intelligence Community, anoverview of the Foreign
                          IntelligenceSurveillanceAct, informationsharing,coordinationbetweeninteliigence and
                 -"':_.....lawl-enforcem_t   components,  foreign..inteiHgence
                                                                            and'.
                                                                                counterintelligence
                                                                                                  coil_tion
                     '     t_.ls, the _e of FISA informationin supportof crimhmllitigation, and practicaland
                  •>_::"_cal        decisiommaking..The conferencesa_soincluded a day-long,l,roblem-s0iving
                           exercise,conductedin individual"breakout"sections, to reinforcethe teaching objectives
                           of the conference..(U)                                .                           "
    b


                                TheCWDalso held anational securityconferencewith theDOJ to trainboth
                 • " " Agentsand Ana]_ts on informationsharingandcoovd_.'on between theIntelligence
        ..           • . Communityandlaw enforcement;FISA;foreignintelligence and foreign
                         counterintelligenceinvestigationsandcollection tools; and the PatriotAct. Based on the
                         .Successof both conferences,CTDimplementedand developed a regic)naltraining course
                         to guide all 56 FieldDivisions on the Attorney GeneralGuideLinesfor National Security
                         Inw, stigations andtheFISAprocess.   (U):

                                 TheComlterintelligence Law UnitinNSLB routinelyparticipates.in coUntry-
                         specific conferences  that
                                                  Counterintelligence
                                                                    DivisionunitsSponsor (usuallyonayearly
            .,           basis). The topics taughtby NSLB includethe National SecurityGuidelinesandthe FiSA
                                                  ..


        "                process. CO)                                                -

             "                Before09/11;
                                         NSLBo(then
                                                  theNational
                                                            SecurityLaw Unit)
                                                                            prc)vided
                                                                                   extensive
                         training
                               atFBIconferences
                                             heldannuaUyforChiefDivision
                                                                       Counse[(I_BI
                                                                                  Agent
                         attorneys
                                inthefield
                                        divisions),
                                                including
                                                        onesuchsessionwhichwasfunded bythe
                         Counterterrorism
                                      Section
                                            anddevoted
                                                     entirely
                                                            tointelHgence
                                                                        lawissues,
                                                                                 Additionally;
                         NSLU provided
                                     :intelligence
                                              lawtraining
                                                       forChiefDivisionCounsdatthreeregional
                         training
                               conferences
                                        in1996and1997whichfocused e,_tirely
                                                                         onintelligence
                                                                                    lawissues.
                                                                                                     ..
                                                                                                          ..




                                                            ....
                                                             D           '"                                    25
                                                                             '-:R



         NSLU also routinely provid_i inteliig(mcelawtrainingatconferences sponsoredby the
•        Count_orroriSm Seotion. (U)                      :                .               ,                                  ¢




                NSLB also provides FISA trig       andguidance via period/c communications
         disseminated to (dldivisions: e.g., NSLB guidanceentitled "intellige_ce Sharing •
         Proceduresfor ForeignIntdligence and-ForeignCounterintelligenoeInvestigations.
         Conductedby the FBI" which was disseminated,Coallfield divisions in November 2002.


               NSLB ah)omaintainsthe 0CK: Intranet(avail"ableto HQ andell field divisions),
        Recent instructionincluded sp_ific guidance on informationsharing. The NSLB.
       •website alSOfea(_res an on-line, downioadable',broohure"entitled "How Do I C_ a
        FISA?" CU).                          .         •.        ,
       ....
                                                                                •   ...   -:   .           -.             .


                -Withre_d to FY04 u'ainin,g, CTD will continueto develop mid "nnplement
       "_"and        c0_.'erencesforAgents, Analysts,.JT!_members,and st_eand, local law
        enforoement.:Furth_ore, we are inthe,developm_t_d stages of intmduo'mg,with the
        office of Intelligence, anAnalyst Handbook-to_er the mission.,of (_ID and
        introduo_.new,b'Urd'cu!_ to _.ReportsOmoers(RO).               TheReports Tradecmfl
        .coursep_des the foundation for new.KOsassigned.t_counterterr0rismmatter_in. :
        whi'ohthey will be train"ed on.various intelligenoe eo.l!e0tionmanagoment(opi_ fo "
     • Inolude.theFBI'l_atelligen_:Colleotion Cycle; iden_ng intel!i'gence;;disseminationof
        intelligence while pr0teotingso_,methods         and inv(_tigati0ns, andwriting
        inteUig_ce "mformatiO
               •   ..   .   .
                                n reports.CU)
                                 .   .,   .   .   -.                     •
                                                                                     .    ,:.

                  C1_ has (developeda CounterterrorismTrainingTracl_to addressthe most
          immediate educationalneeds of Agents,Analysts,andYFFFOfficers _signed to
          counterterr0rismreiatedma_ters,,startingwi_ abasic understandingof.terrorist
..        operations and moving on to intermediateandmote advancedlevels, (_U)
                                .                                                                  .   .        - .   .


           Specific courses designed for theBasic level oftrainin"
                                                                 g for Agents, Aaalysts,-andJTTF
           offioe_ include: (U)          ..                                .-
                • InternationalTerrorismBasic Operations- approximately850 trained. CO)
                • International TerrorismSourceDevelopment-approximately 300 trained.(U)
                • Countertetrorism:A Strategicand.TaofioalApFroach- approxkaately 210 plus.50
                 • ins_oton_ trained. (U)
               •, Domestio..Terrorism-approximately39 trah_ed.0.1)
                • Middle Eastern Culture/ISLAM101- onlinecourse(U)
                , CT Trainingfor Stateend LooalLaw Enforoement- 130 Agenl_strainedas
                    "mstructon;
                              for 26,880 law enforcementoffioers.(U)
                • The College of Analytical Studiesoffersa sefie,.;ofc0urses for analysts that
                   •supportthe CT mission - approximately250trained, CO) '        _
                                                            ,.       ,




              Coursesdesigned for the intermediatelevel inolude:(U)
                 • IT Interviewand Interrogation- new intermediatecoursefor s_tnor 2004 for40
                    agents.(L_)
                                  • Special_,.topicsincludingcourseson theArabianPeninsula.andHamas-
      ,                             appro.XitaatolyI00trained.(Lr_
            ._                    • CTDworks in collaborationwith theCiA University offering specialtycourses
                                    mainly Ibcused onWMD issues   - approximately22trained.(U)
                                  • DigitalandElectronic  EvidenceExploitation
                                                                             -approximately  80trained. (U)
                                  • Interact_mdEmailCommunications    Investigation-
                                                                                   approximately  40trained.(U)
                                  • SUicideBomberAwareness     Training- approxJanately
                                                                                     320trained. (U)

                  Coursesdesignedfortheadvanced  level
                                                     include:(Lr)
                     •, InterviowandInterrogationTeelmiques-.19ag(mtstrained at i_headvanced level in
•.                                    IsraeL.(t0 .
                              .o Developmentand HandlingofIslamic ExtremistSources, 39 agentstrainedat
                                 the advanced level. (U)

                         TheFBI's SeniorExecutive Service personnelaregoing throughan executive
                  developmentprogramthat was createdin par_ershipwith the Kellogg School of
                  Management_one of the country'sleadingbusiness schools. In an int_,_mive
                                                                                         one-week
                  course,FBI executives receivegui'danceon managing .change,with a particularfocus on
                 the FBI's transitionto new intelligence,investigative,and case manag;ementprocesses.
                  As of February 13, 2004, 260 FBI executivemanagers have completed the training,
     _' ___including 12 As._:istantDirectors and 54 SACg.(U)
                            ...


                      . _                            •                    .              .


                  Thefollowing              chart depicts the CotmterterrofismDivision       projected laaining for FY2005:


     •? !-... .....




                                                                                                         /
                                                                                                                  "R!'                                      .


                                                                                                          •                 .                  -.                              _..             .    .



                                  COUNTERTERRORISM TRAINING STATUS FORFY200_

      '        coRE               _                     TARGET                        . -..... LEVEL                                       DURAtiON                                                PRO_,CTEDi_EEDS                                 '
           COURSES                    ,        .   ,,
                                                        At_mN¢l_     .                                        ,                   " !      ,
                                                                                                                                                • .
                                                                                                                                                      .         i   .    ,                           ,            ,             ,   j.,        ,   .,




           _    Culture                              All Agents,                                      BASIC                                         3-4 Hours                        ,           ImminentLaunch
               Online                              ._malysts,YITF                                                                                                                            Eventu,aliyaddIntermediate
                                                      Members                                                                                   ,                                                       level
                                           .                                                                  ,                   . I, ,                                ,                          ,.Us
                                                                                                                                                                                                     e,_mo.del
                                                                                                                                                                                                            for
             IT Basic                                          50                                     BASIC                            '        Every other :                                          Revise
            Operations                                       Agents                                                                               Monl_                                       Goals/0bjvctives/Curdc_la
                                                            A_ysts                                    •                                                    for                                 Alibi withCompetencies
                                                   _n_Me_b_                                           :                                                    5da_ _ r                                      , _ .....
               Regional                                       35                                  B/_SIC                                   .Onc,e_onth for                               -    C_dculum.Ulxlate
          CT: A S/r_gio                                     Agents                                                                               5 days                                   Rampup;.to_teLev¢l
            & Tactical                                      Amlysts                                                                                                                         Imtv_¢torDevelopment
            Approach                           :YlTFMembers                                                                                                                                                       Ongoing.
                             •                                                                                                                             •                                       Evalmtion/Align with
                     . ,.,   ,.        ,           :    .    ,       ,..    ,     T                           .     "             ",J       ,          ,    _".         • ,'         '----                    .    "                ,      .            ,
                                                                                                                                                                                                                           -.



""          1T Source-                                         35                        :        BASIC/                                            OnceJrnonth -                                 Modify onc_
           Developn_nt                         "             Agents                              Intermediate                                           for "                          In_ew/Inten'ogation_bcg/ns.


     .....                                         rrrF
                                                      Minim,                                 .                                  . ,.
                                                                                                                                       ......                                                            ..
                                                                                                                                                                                                                  •    '


            _ew       &                                       20                                 :Interme_liate                                 Once/quarter                                 Two Pilots
                                                                                                                                                                                                     offered in July and
           Interrogation                                     Agents                                                                                For                                           ' August2004.
                                                                                                                                                           .Sdays                                  :Evaluation/Modify
                .,                                               .         ....                   •                     _                                                                    , Align w/th Competencies

            Interview&                                         ' 10                              .Advanced                                 Twiceper Year                                      First Pilot offered FY 2005
           Interrogation                                     Agents                                                                            For                                             Align.with Competencies
                                                             (highly                              (including                                  10days                                           Status of Israelitraining
                                                            selective)                              Israel[i)                                                                                 Ongoing CourseDevelop.                                         .

          Specialty                                    35                                Intcrmedm_                                                 AsNeeded                                 with Con_ncics
                                                                                                                                                                                         'Align                                                             .-
          Cn'oups                                     Agems                               ToAdvanced                                                  Basi.,_
          S_ainars:                                  Analysts                                                                                        . for
            __                                     HTF Members                                                                                       2.5 days
           AIQaeda
      i     Hizballak l                                                                                                                                                                                                             ....


      Future Coursesin Development:
          . OverseasDeployment- Surviwd  Trainingfor OverseasDeplo3maentsin hostile
             environm_mts(U)
          • Analysts Training-SupportReports OfficerTraining atleast once per quaxter/2.5
                             daysCO)
               • ASAC/SSA Training- FBFCIAPartnership,SpecificTopics, Operationsand
                 Management,Guest SpeakersforHQs once/month.(U)
                                                                                             .   .            .:-       ...



              •                         • .Online CourSes Ident/fywh/oh courseinformationad_ts easilyto online
                                           VirtualAcademy sponsoredby _heTrainingDivision. (U)
                                        • WMD and other specificInteraati0nalTerroristGroup CountmerrorismTraining
                                 •"        _                                                              '
                                                                                     ,   .           ..

    •                                                                                                               .



                          Reeo.mmendaflon,No.S: FBI Attorneys ,hould be better integrated into
                          eounterterrorism investigations, (U)      ..
                          ..._



                          FBI Resvonse; After9/ll, the NationalSecurity_w Branch(NSLB) was restmc.tured
                          so as to mirrorthe operationalstmctm'eof FBI Headquarters.Refloc0ng the operati'onal
                          divisionbetw_n the Counterterrofis.m  Division (CTD)),theCountorintell/genceDivision..
                          (CD), and theCyberDivision, threemlitswere _lished       withinNSLB -two to hahdle
                          counterterrorimlmatters(CounterterrofismLawUnits (CTLU)I andII),and.one unitto
                          handle0ount_"ltelligence ando_er matters(C,ountel_telligence L_7_Unit (CILU)):(A
                          fourthunit has recentlybeen establishedto focus uponpolicy andtrainingissues.,).
                          Within each •of•thethree,operafionally-.fooused
                                                                        NSLB units,the _tomeys are assignedto
    -                     particulartraitsor Sectionswithin CTD,CD or C_er. :Further,with regardto
•                         InternationalT_rrorismSections i andiI of C1_, NSLB has assigned.twoattorneysto be
                  •       co-looatedin orientSpaee.(U)                        '
        -_.                                                    ..
                  .   .     .     _/:          •


                               Thus, w_ththe"assignment0f anattorneyto each of theoperationalunits or
"                 :,:   secfi'ons,thereis,routinecontactbetweenagent,anal_,_andattorneyc)n!egal isaues that
                        arise, With'reg_mito review,ofFISA_,.NSLB attorneyshave speci_c, and focused
                        knowledge of the targetsfor which theirunit.orsection is seekingto initiate orrenew
                  "-_:: coverage. Atthe point of initiation,the attorneyis responsibleforreviewing and
                    .,. al_roving the initiationsubmittedto I_ byhis cfient,the operationaltrait. Any
                        subsequentissues concem_ tha¢FISAwhich come to the attentionof the operational
                        unit Withrespon.._ifity forthe..paokagb,is thenreinedto the attorneyassignedthat unit.
                        The long-termre,ult ofthis arrangementis an increa,edfamiliaritybetweenclient and
                        counsel, and im improvedworkingrelationship.A sense of trustand purposedevelops
                        betweenthe partieswhich greatlyincreasesthelikelihoodthat legal assistanceWillin fact
                        be sought when it is necessary,and it increasesthe effectiveness of tho attorneyin
                        respondingto.requestsforlegal assistance. Furthermore,the historictmowledge thatthe
                        attorneygains by being assigned to a parficul_,unit also increaseshis ,effectiveness,
                        inasmuchas he hasboth presentandpsst familiaritync)tonly with the particular
                        investigationthatlis the subjectof the legal request,butwith related investigations and
                        thesubjeCtmatterin general.(U)                                                                        ..




                                 The creationof new unitswithinNSLB which have specific r_)ponsibilitiesfor
                          CTD, CD and Cyberunits andsections hasa!soincreasedcontactwith the field, NSLB
                          attorneyshavethe opportunityfor increasedinteractionwith the field agentswho are
                          handling the investigationsthat are berg supervisedby the substantivounits to which the
                          attorneysare assigned. Recognizingthat it is oftenthe field office that will have
                          questions requir_agan immediateresponse,orinformationneededby riteNSLB attorney,
                          particularlyif the issue is the sufficiencyor completenessof a requestforFISA initiation,
                          the NSLB attorneyand the field agents_haverefinedtheirworkingrelationship,whereby
                                                                          immmm
                                                                          =




'              the NSLB attorney knows whom to turn to.get answersto his questiot_, and the.field
               agenlsknow whom toseekout.in  order toresolve legalissues,.(U)"
                       Additiomdly, in the near future, NSLB wm be furtherintegrat(_ with the
               Countert_rism Division operational units due to the planned move 1_now offioe space
               in Tysons com_', Virginia The FBI, CIA, DOJ, and otheragencies'of theU.S.
               IntelligenceCommunity will be co-locatex!for the first time in !m'ge numbe_ in asingle
               faoility. At prese_at,a total of 20 NSLB att0meys _e expect_ to moveto the new
             ' fazility in Virgitfia. We expect thatthis move will restdt-inthe total k_tegrationof NSLB
               attorneysinto oolmterterrorism.'investigations,OJ):               '         .: .
                #.   ..         _.                                                               •                                              .   ,
                                                                                    •   _            ....                   ..   .   .     ,.



               Re¢o.mmendatlo,n.N0,.6: EnSurecloser consuI_tion,  between
                                                                        the]_I .and.OIPl_
               particularly onl_np0rtan(_or unusual eases., (U) .
                       _.   •        •   .   . • .   ..   ..   ,,-   .-
                                                                             •. .           ..              •   .
                                                                                                                                                             ,


               _:          The FBI
               Wi_ O_,R,:and         is inagroom_tWi_h
                                b_ .takensteps to._       .OIGislr.eoommondation
                                                          tlmtthis              to _,ordinate
                                                                   isa_oomplisheck.           c_os_.
                                                                                                the: •
                                                                                    l'n mid.2003,
               CTD's!ntomatio:naITorrofism     Operations   s_tionI_['osI)initiated    biweekly.-•"
               operational  meetings.with  representatives from.DOff  OIPR.andD.Ol-C1"Sto  ensure that
               all oporati0n_land _tive           facets of (1)ongoing. _'     prosecUtionsin the.fidd
               and(2)0ngomg ifitelligenoe operations,coordinated      'ough0IPR,were in syno...
               Attendeesat the weeHy meeting include the ITOS,I SectionChiefor Assistant      Seotion
               Chief, each of the four ITOSI Unit.Chiefs orme_rrep esen_ es,auo.representauves
               fromcrs andOIP1LDUtY-themeetingallenfiti.es.fieldand ask qu_tions,resolvlng. '-. '
               most".msuesin the,r00n_Typical    £ssuesinclude thes_._ ofhigh-visibmty investigations.
               in the.tie!d,the Statusof pending reque_'wifii OIPR,..._dthe statusof'DOJ requeatsof.
               'FBIFieidDivisi0ns on'those issues underthe.pmgram.managomentof!TOS L(U) _-

                            -rros Irel,resentatives
                                                 werealsoheavily
                                                               invoiv inthe:g                                                            oftheFISA
                Ti_systom which.provides    a v.ehi'01e
                                                     for:_FBI/OIPRprioritizationofFISA.>
                applications
                           awai_ting
                                  presentation totheFISC.Inlight  ofITOSI'slarge   percentage.of
    :"          owmll USIC F!SA appficatio_,, Secfionmembers.hold a wealth:ofexl)oriencein HSA
                matters andwercableto contributeslgnificamly. (U) '       ,                    "
                                                                                                                                                        -,



                        In May, 2004-_      ITOS I r:eoommendedand itdtiatodhosting of a weekly
                m_        with OIPR strictlyfor disoussion onthe status of pending md active.HSA
                applications. This meeting does not discuss operation_lissuosaud is held separate.and
                distinct fromthe weekly operationalmeeting. As of Jtme2004, all FBli,entitiesinvolved
                with presentingFISA applications.tothe FISC were in routineattendance and the ITOS I
    '           tmoking   system ttsedinternally forthe seotionwas modified   andadopt(_ foroverallFBI
                use.. At this meeting OIPR and theFBI balancethe li_ of pendingFLS(2applications
                throughdiscussion of the last week's docket, _myemergencyFISAstakcn to Courtbutnot
                yet included in any dat_ibase,and FISA withdrawals. This combinationof weekly                                                                    "
                meetings, the FISA Tier System, and the FISA.TraokingSystemhave resultedin closer
                coordinationbetweenthe FBI andOIPILcLr)                                     "
                                                                     • .



                  ..."
                     Inaddition,.thee isregular and significantConsultation  betweentheFBIandthe
         '      OiPRooncoming issues that arisewith legard.tothe initiation md renewalof Foreign
                                                                                                                    •   .




                                                                     i'.                                                                                3o
        -                                                          . -.       .       " "....:,




                     t

                                                                                                              ....   ,.
                                                                          •       .                             ..



                          Intelligenoesm_eillan,ce Cour_(FISC):authorizedele_nic surveiilanceand physical
                          sem-chpaokages,StandardMinlm_/zafion  Procedures,interpretation,of the FISA.s_ttute,
                          and myriadOthermatters. Morespecifically, _ere arcbiweekly me0tingsbetweenOIPR
                          supervisorsandNational.SecUrityLaw Branch(NSLB) supervisors,iincludingthe
                          GeneralCorn!sel, andthe CIA. Therearealso biweeklymeetings on FISA issues
             ,            betweenO]1'1l,NSLB, andthe Office of theDepuV ARomey General Moreover,
                          impromptumeetings between supervisorsof OIPR addNSLB, as weU asmeetings
                          betweenline attorneys,areheld almostdaily. At present,thereis reg_ar androutine
                          dialoguebetwe_mthe FBI and OIPR,:at all leVeiS,on iimportmtandunusu__cases. (U)
                                             •          .                                              . .-               .   ..
                                         "


                    '     On April 5, 2004, the AttorneyGeneraldirect(_ OIPR.andtheFBI tO/mplement
                   certm changes"ratheFISA pr_:ess. This included the assignmento:ffive NSLB
                   attorneysto begin ful!<=time0no,yearassignmentsto _e "IntematiomdTerrorism
                   OpcTations. Section I E_A Task Force"atFBIHQto itddresspending;requestsforFISA
                   coverage. Additionally,a total of I0 moreNSLB attccneyswill be a_Isigned(somehave
                   alreadybegun the assignment)to<workfifll-timeon the FISAprocesswithin OIPR'Schain
                   of commandand underOIPR_on                for aperiod0lone year. This assignmentof
                   attorneyshas been beneficial in tin,herintegratingFBI _eys    intocounterterrorism
                   operations(ad&:essedin recommendation#5). Overall,NSLBbelieves thatthe
            ...... assignmentofFBI attorneyswill not only alleviateimmediateOIPR__           shortages,
            ,:     btrtw/llalso serve to s(rengthen closerworkingrelationsbetween the FBIand OIPR.(U)

    "            .        C. Recommendations related to the FBI's interactions with the i_telligence
               • commu:
            ,-..: ": ..    ._,_.,....:
                                             OJ). "                                   ..
                          Recommendation N0.,7: Ensure effective management ofFBI de_Laflees.
                           •    ..
                                                                                           (U)

                             '    TheFBI is in agreement_ the OIG's recornmen..dati0n     to provide effective
                          management to the .employeesdetailedto the CIA'SC_unter-TerrorismCenter(CTC).
                          The FBI's Counterterro  "rismDivision cutremlyhas one SES!_el m_aager,threeGS-15
                          SuPervisors,SixGS-14 Supervis0rsandthreeIntelligenceAnalystsdq,qailed       to five CIA
                          dep.artments,includingthe CurrentAction S_ff. All ('heCTD detaileesaresupervised
                          throughboth theFBI and CIAchainof comtnandfor (_e specific deFLrtment        they are
                           detailed,with theSES managerbe_ingtheirultimatera_tingofficial. E'achdetai'leehas
                           been made awareof theirdutiesand rcsponsib'flitiesgqthin their speoi_0d areaOf                               .   .
                           Operationand this has been documentedaccordingly. In addi'tion,all UID detailw.s
                           assign_ to the CTCmeet daily with the SES manager,and the GS,I:; Supervisorsmoot
                           again in the afternoonWiththe SES managerto pr_m_ for the DCI's evening briefing_ll_
                                                                                                  ..
i



                                 The FBI has,determinex!thatthecurront'porfozmance   plans for the GS-i5
                          Supervisor,GS-14 Supervisor and theIntelUgenoeAnalysts are Sufficientlyinclusive to
                          adequatelyretieorthe critical elementsOfthe job being performedby the individual
                          detailcc. As s_Iod above, the FBI SES managertier/diedto CTCserves as the ratingor
                          reviewing official as appropriate,CIA managerinputisals0 solicited forthe annual
                          PerformanceAppraisaland semi-annualPerformanceUpdate. It shotddbe notedthatthe
                          SES managerat CTCdoes not have directreportauthorityto those FBIemployees



                                                               O                                                                   31
detailedto CIA-FIHO. These de_dlees aresupervisedbythe TerrorismFinanchlg .
OperationsSection (TFOS) withinCTD. The SES managerdoes ensure, however,that
theseemployees are included,in all mee_and  providesn_essary j_tidanceand
sUpp'ortwhile they aredetailed_oFINO,__
                                •           •                        •       /                •   .




Reeomme_dathm NO.8: Ensure FBI empl_oyeesw!t0 interact with other intemgenee
agencies better anderstand.theirreportingproeesses. (U)

Response:       "EheFBI agreesthatFBI employees nee_ abetterunderstan"cling  0f the
repottingprocessesand capabilities of oCherUiS. Intelfigencecomm_mities,andit has
taken,and will _ntinue to take,steps to achievethis ¢nderst_mdingacrossthe FBL The
FBI:doesbelieve, however,thatU.S. Iatdfigonce CorrtmUnity   agencie:smteraCtingwith
the FBIhave an (pbligafionto independentlyensurethatthe FBI is:fitfi!y"reformedabout
their..reporting_reams andall of .theaV_able'informaifionthat_ey poss_salTOut
pre_ing •
         threatissues andinvestigations. (U)
            ,



   _ Since September 11, 2001, the FBI has establishedanumber of proceduresand
guidanoedirectives to instill a better.,und_dingofU.S.    !ntelfig_c e COm._m.'tY
repoxtingprocesses. These inclucte:i(U)i_
                           .-       ,   :
                                                       ._
                                                                                 •'                   ".


      -::-::"The EAD,I has informedtheheads of elFFieldOfftCe__lJ:iL_tdlig_
             :CommUnitypersonnelwho operctejointly WietFBI Agelxtsand analystsin the
              field must op.erateunderthechainof ¢ommandiof.theField.Im_lfi'g.¢m_,Groupin
              eachField Office, inthis way, FBIpersonnelWhohave devel0pedan<expe_isein
              intelligence matterscan most effectively interactwithU.S. Intolligenee
             Communitypersonnel. The respective:agencieswillbe intimately familiarwith
              each-other'sreportingpr0cessesantlOt_e_cap_bilities:(U)          :' .....
                                                                         .            .   .



        •       In atldition,the trainingcurriculumsforbothNew Agentsand Intelligence
                Analysts is being re_i,:..ed
                                           to improve.theknowledgethatFB! employees have
                aboutU.S. IntelligenceCommunityagencies, theirroles; capalfdities,andba_c
                processes.
                        (U)
        • The 0ffice oflnteUigence has POSteda glossaryofthe van'o_ type,s of
          inteuigence reportsproducedbythe U.S. inte_tgence Commmdtyon its FBI
          intranet,website. (U) ,

 ..     •       A senior C!A official has been detailedto .theFBI's CountertelrorismDivision to
...."           enhance the'FBI's knowledge of CIAcounterterrorism     operationsandimprove
                coordination. This official attendsthedaily briefings describedearlier,wherehe
                discusses key cIA reportingstreamsandcoordinatesreportingexchangebetween
                the two agencies.'(U)


                   .


                 .,




                                                l_:   •   L   : :.
                                                                                              32
                                                                 C:   '" ".'".   "."




                    Recommendation No, 9: Provide guidance for how and whento do_iument.
                    intelligence infor'mationreceivedfrom lnforma| bridlngs by other Intemgence
                    agencies. (U)

                    Resvonse:      TheFBIhastakenthis recommendationUnderadvisementin its
                    continuing developmentof intelligencepolicies andprocedures. We nolle,however,that
   •                atthe time ofthe _erbalbriefingsby theCL_ on Mihdhm:aroundthe time.of the •                           ..
                    millennium threat,F Blpolicies to recordthis informationdid exist, Theypermittedthe
                    recordingof this informationbythe FBlempioyee(s)in _ ElectronicCommunication ..
  .                 (EC.),classified approp_atefy,anddirectedto the relevantfile(s). (U)

                 .Recommep.daflonNo, 10: Ensure•that the FBi'sinformaflon technoifogysysteu
       •        .allow FBI employees to more readlilyreeeive_use, and disseminate highly ¢iassifl_
                 Information.-(U)             • _.
                                                                              "" ,                                   ..

                        The FBIh_ga responsibilityto then//tion,IC, Federal,Stateand Local law
 ::             .en.foroement-todisseminateinformafionandto do sois an inherentpartoit'its,mission,.
                Sharing FBI infom_fi0n willbe therule; filteringthe."mformationwill be the ex.ception,
              • where sharingis legally orprocedurallyunacceptable. .TheFBI will deli_er its.
           ,--:'"
                    infornmtion      through the systems the FBI and itz
                      :" " _.::•_.:i.,                               " "
                                                                         custorner_ and partnors
                                                                                         '  "
                                                                                                 _;e. (I.Y)"                   •



       .........    litheFBIisconnected totherestoftheU.$.Intelligence
                                                                     CommunityattheTop
           Sec_.  t(TS)sensitive Compartmented  Infonnation(SCl)level
                                                                    via_e new,SCi
:::    .._ii.-
           OP. "e_ti'0nal Network(SCION), TheSCIONprojectwas initiatedin Sept_naber,2001,
        ":'and h_met all schedule,.budget_d performanceiequirements.SCION connects to the
'..... ii::..,Intellig_ce Community Onte-link)____
:       '__                               .             ' SCl[ON'isthe busi..n_,
                                                                              s•tool forthe
       . FBI's Office of Inte|.ligence,        erronsm(CT),andCounterIntelhgence(CI)
           Divisiom. Ithas enabledFBIHQ CT andCl personnel.to                       more




                        SCION iscm.rently   avaihbletOover.I[000   Users
                                                                       atFBIHeadquarters,  andtheFBI
                has initiated a pilot deploymentprojectto the followingField Offices: New York, Boston,
                and KansasCity. The planis tOdeliverSCION to all FB! Field Offices, as funding.      '
                becomes ayailable. Limitedaccess to Intelinkfr0m otherField Offices is available
                through the old FBI InteiligenceInformationSystem Network(HSNET). Most ofthe
                Field Offices have two workstationswhich have a connection to FBI headquaR,ers. These
                workstations.areinadequate anddifficult to use, andthey are locatedin sme_llSecure
               •CompartmentedlnformationFacilities (SCEF)that arenotin the agent or an_alystwork
                areas. An impedimenltto fieldexpansion OfSCION is thelack of SCIF space forthe Field
                Intelligence Groups (FIGs) andthe J'ointTerrorismTaskForces (YFI'Fs)personnel. (U)




                                                           "_:                                                 '33
                                                          •/..       •   .




'       ,    Access to"the intelligence and 1iomelandsecuritycommuni_) at the SECRET
     level is providedvia theD ep__t       of Defense SECI_T Intm_ P_.tocol Router ":
     Network (SIPI_IET).whichprovid_ the cO.nnn_nicaliionsbaokbone..toiNTELINK- ';'
     Secret. Ourgoa]Iis,to provideS]PRNET/INTELINK-Secretaccess ttaough SeCure.
     dynamicvirtualprivatenetworks to all FBI workstationsin thenear fitture. Todayyou
     cannotdirectlyaccess any external,networks,i..fro
                                                     m theFBINET and.O_lylimitedbatvh
     transactionsthrough secure guards arepermitted. The,Anti-DrugNetwork (ADNET)
     tides the SIPRNBTcommumcations backboneand providesterminals)and accessass
                         '   .,,   :   •   :o   o..   .          .


     vehicle for the &)me.sticexchaage,Ofintelligence on (_ati,_ntg.©fforts,.SIPRNETis also
     used to support_heTerrori_ EXploSiVe,.   Device Analysis Center,the:_[ation_ Vh_ual '
     TranslationC_t0r, and ._.eF0i-ei.'gn Te_ris_. Tr_I_. LgTask Fo_e. (_.        " ""      - "

             Inthe area 0forganizationalmeasage _c,                          fordiss_on:0foffici:_:   .......':   "
     informationand_kin_ t0 0th_ag_ci_, theFBI1_sjust_em_ted.its n_FB]                                            "
        AutomatedMessagingSystem (FAMS)whiOhis based on the Defense Messaging "
        System (DMS). The FBI is the firstcivilian agency to operate the cl_3sifiedDMS.
        FAMS willpro_.'Lde    0n-Huemeasage creatio.n,,re.vie_r,_md:seam.
                                                                        h..¢_U,_oilitioSt0everyone
       'connectedto:FB]NET. FAMB giv_ us the capabilitylk).:send and.r_.(,'iveoritlcal -"
      .or_onal-m0ssage _¢ toan_,ofme...40,0_                  ad.dt_seaonDM_ orAutomated ---'"
        Digital Network.(AWl'ODIN);     .:The TS/SCI.votsion ofFAMS.iscurrently      intostingand     ••
       -will providethesamecapabilitY    to.leveryono0ttsCIOI_:_I_I_.:T_bythe::end         of this year..
        .The FBFsimpI_aentation_of    theDMS Will   providewriter-to-reader   s(_uto  o-marl    to.
        .internaland exteu._l users. Withinthe g0vernmenti:D:_,:wilt'Teplace.i,A,_ODIN.anda              -
    •- diverse array0f _mail.systemS _tly        in..-_ethroughout_-Departm_t of Defense               .
        .andIntelligenceAgencies. _n.itsfinal.fo_. D.MS_:become.theg0_emment, s global.
      , secure e-mail system.. "..It
                                  W_.provi.de__interope.vabiH'ty.!ofvafioU s commercially
        off the shelf._i_..vareproducts and.¢.0nn_t.over2.._i0n:ci_an.andmilits_....           : ."
        users. Thes_nwillpormit
                      .      .            :"'
                                        multi-media attachments.tomossagea.
                                                     ' ' ':      '     " ....""_d...provideend.to-
                                                                                      : ...." ""       .-
        ondsecurity.:(U) ' ":" '" " ' ' " : ';'" " ....                            " ..":: : "
                                                                                     .....



               Inthe are_.ofOonnectivi_ fordata_ducts,    th, s.FB!.i:s.j_tbe__       to :
       implem_t.:our inifl_p..m.._f0r    _ _        as part.of the InteIfi_     __.0/>     -, ..
       System for.Infort_6ti,,S_g     _C,Sm )..,_t.FB!       :.int__      .p_duCtsiu_e fo_, .,,
       OfIntelligence b_etins, Inte_en_ AS.s_=tts,andl         ._:_.b_:publishod.0n      FBI:.-.,
       web sites conneclIodtoSiPRNBT a_dT_cS; Thefirs,_         FBiTS/$CIICDataMatt
       (ICDM)iscurrontlyin     developmem andshould   beon ])ine  bytheendof2004.The.FB!
       Chief  Information Officer isalso
                                       working  withtheDepartment      ofJustice onintorfacea
       between ICSIS and the Law Enforcement Information;Sharinginitiative andwith the FBI
    ._ CriminalJusticetnformationServices (CJiS) Division to increasethe _haringof "
       intelligencerelatedinformationfrom andto stateand local officials. (IY)       '

             The FBIis currentlydeploying_he.SECRETversions .ofFAMS, which uses DMS                                   .
      andsecure Outlooklike e-mail for organizationalmessages, .so.thato_r analystsand-
      reports officers can send and receivetimely intelligence with other:agenciesin near real
    ' time. The FBI isalso working on a digitalp.r0duc._oncapabilityforERs using.extended
      markup language(XML) that will interfacewith FAMS and supporton=line,digital.
        :       '          production,of 'intelligencereport. TheFBIis applyingXM_ data st(md_ andrecta:
                           datataggingto facilitatethe exchange0finf0rmationwith the intelligencecommunity.
                           The FBIis also applyingnew securitytechnologyto d_loya ProteciionLevel 3 Data
                           Martcapabilitywith discretionary.. access.controlsandPublic Key Infiastructure
                           ,certificatesin.supportof closed Communityof Imere_ltsWhichwill.pimnitSecuresharing
                           of ourmost sensitive datawith trustedmembersof otheragencies. The FBI is also
                           investigatingthe use of secure one waytransfersto move informatiotLbetweensecurity
                           domains and toPermitall,s0urce intelligence analysis. The USeofnext-generation_
                           CommunityHigh .AssuranceGuardsis being plannedi_ providefor the two WaYtramfer
                           on criticalintelfigencebetween secufi'_ydomains. Secure'wireless connectivityand
                          V_        PrivateNetworks:are also-beinglooked at tOprovideincresset access to
                           intelligenceto deployedpersonnel. TheFBI is also startingto use 0xt-line, d_p
                          •collaboration,tools such as Info WorkSpacewhich is thefoundafi'onfor the Intelligence
                           Community CollaborationPortalto increaseintelligeticecollaboration.(U)

                              TheFm plans to use additionalsystems as the foundation for add!tieredinformation
                          sharing witlithe IC,Federal StateandLocal entities,(L0
                               • .
                                                                                            .        :

                               .The CJISNational DataExchange (NDEx)lm'_l,ms fordevelopi_ a systems
                            _ach       to theoperation,and maintenanceof several,interconnectedIT andsupp0rting-
                    : ..... tel_mmunic_iotm systems including Law BnforcementOn-.line(LEO).and C_-WAN.
                     ._ _eNDEx is to be a repositoryof nationalindicesan_ta pointersystem for
                            state/local/fedendand inter-governmentallaw enfo_emententi,ties. TheNDEx will also
                            be..a fusion point for the correlationofnationally-baso_criminaljustice informationwith.
    •                       c_      national securitydata. CO') .                        .              ..

                      "      iii':i Law EnforcementOn,Line providesweb-based communicatic.nsto the law
                          enforcementcommunityto exchulge information,conducton-line educationprograms,and
                          participatein professionalspecial interestand topicallyfocused dialOg.Tlie system hasbeen
                          operationalsince 1995 andpresentlyservingabout30,000users. LEOhas secure _
                          connectivityto _heRegional InformationSharingSystemsnetwork(riss.net). The FBI
                          Intelligenceproductsaredisseminatedweekly via LEOto over 17,000 law enforcement
                          agencies andto 60 federalagencies,and providinginformationaboutIIerrorism,     criminaland
                          cyber threatsto patrolofficers and Otherlocal law enforcementpersol3nelwho have direct
                          dailycontacts vdth the generalpublic. The FBIplansILo_ance LEO forrobust,high-
                          availsbilityoperation_TheFBI will use the enhancedLEOas the primarychannelfor
                          sensitivebutunclassified communicationswith Otherf_l_al, .stateand local agencies. LEO
"                          andthe Departmentof HomelandSecurities_ointRegionalInfommtic,nExchange System
                           (JRIES)will be imteroperable.(U)      .                "           "

                                  The InvestigativeData Warehouse0DW) is followinga multiple-phasedapproachto
                           quickly provide :rapportto _I investigators,andTask.Forcemembev_in.theformof a
                           spirally-developqxl6perationalprototypesystem,the Secure Counterterrorism Operational
"           '              Prototype Environment (SCOPE).The enterprisesystemwhich builds uponSCOPEis the
                           .IDW.system;the!full deployment oflDW is scheduled forDecember 2004. The IDW will
                                                                                                                   • :...'       .




    help meet the Iaw enforcementandthe ICne_ for rapid,s_ure,.deP!mdableindexed,data
    and_ll providedatami_ni,gaccessto1_I:_v_tiga_ve.files,.
                                                         (U)
       '    Tne Multi-agency InformationSharingInitiativeis intendedto enableFederal,state,
     and local law enforeement agenciest0 shareregi0nalinvestigative fi!,_sandprovidepowerful
    tools f0r cross-file analyses:A proof-0f_0ncept .effortis underwayin St_Louis; additionaI
     demonstrati0nsites arebeing planned.The goa!of the dem0nstratiom;is to (1) show the
     value of sharing:hivestigatiVedata which _ be ana!y_edbYmod_ softwaretools;'and(2)
     help define tec_tical and Organ/zatio_ approaches for region_ shar._xlSystems.-F'mat
     d_isiOns.about deplo_ent of the MIS will be based:ontheresults of.thedemonstrationsand
    thedepartment
               wideplanforlawenforc.em_t'mform_onshaxiugbein.g;
                                                            developed
                                                                    bythe                                                                                                                                                                       "
    D_artm_t ofJtmti_e_
                    _.'
                    : .                        .                                        •   .
                                                                                                ,  .
                                                                                                                        .                                               +                              -.
                                                                                                                                                                                                         .. .




          .:Wifli
                thecr.eafionof_e  Office0f ..!nteIligen.ce
                                                     atthe FBI,eachFBifl'eld   Officehas
    -eatablished
               aField IntelligenceGroUp:(FIG). ItistherespomibJlityofthese   FIGStomanage,
    execute andmaintain, theFBI'sintelligencefunctions
                                                     _thintheFBL HGpersonne.lhave        -
    routineaccess to TS:md SCI informationSo they_ ]beable to reoei,Te,analyze,r:eview:and
    recommendsha_ingthis informationwith entitieswithin the FBI as well as :outcustomers
    andpartnerswittdnthe ]ntelligen.ceand Law enforcementcommtmi'fi<m,
                              : .•"        .                .,    :   -
                                                                       (U) ..       •                 _.                                                            •                      .    •
                                                                                                                                                                                     • , ...                           •   ...


    R e_mmendatlon'N0,:.i!:.EnsUre  aPpropfia_ ph_,ical
                                                     infrastructure
                                                                inFBIfield                                                                          •       .                        .   .-..       .'      ..         .         ..

    omcestohandieltigidy elasSlfiedinforma_on, (u)
                                   .   .       .
                                                        .
                                                       ..
                                                            .
                                                            :.. .
                                                                      '
                                                                      "                 ,....         _        '. ...            ...   :.               •                   ,                               •
                                                                                                                                                                                                                   •
                                                                                                                                                                                                                 • .             ..    :



     The                                                    me                                                                                                                                                               To
    •._dreSsth_ B_iU'S increasedd6maildfor_es.s _ s,msitive Comp.artmented                                                                                                                                                  " "
     Information(SC]_)systems the following actionshavebeen taken: (U)                                .




            I)LargeSCIFs arebeingd_igned and incorl_wated...     "rote
                                                                     new FB!F_ilities.                                                                                                                                                      "
          .will-allowfield Offic_ investigative.andin.teMg_ce e.lemen_to.be locatedm._eas
     thata_ conduciveto the flee flOWof hitelligenceandcommonaccess to:highlyclassified
                     •                                       ..           .......               . .        -            .    .             •                                    ..              ....


     informatiSn
            sysaum.
                 (u)
                   ...                                                                                                                 .
               " 2) .Inaddition, ten (10)fieid0fficeS., including the New.York :FieldOffice"
          •.          m_tioned"in the above fm.d_ng,have _beeniidentifiedas those:that aremost in
                      needof SCIFupgrades.     Associated  co_ include c6nstmctioncosts and
             '        miScellaneoUscosts. Miscellaneous Costsiuclude Eagle p!ton_ (1 p_r person);
                      SeCurephones (1 per:.10p_ple); shredders(1 per 10people); and secur_fax
                 .... mach_nea(1 per 30 p.eople).This information.w_ provide_lin reaponseto
                      Questions for the Rec0rdwhich.followed fromthe March 30, 2004 testimony                                                                                                                                               ..
                      ofDADs Harrington and Ford concerning_hecouaterterrorismbudget for FY
                      2005. The constructionof the SCIF upgrades is dependenton the FBI
               •                   receivingtheWxtUired
                                                     funding..(U)                                                                                               .                                                 :
                          3) The I_BIis cmentiy implementingaplan to adhereto the National Security
      '                   •
                             Agen_3ymandateto have all.STU _nstmmentsrepla¢,edwith STEs by 2005
                               .                   .    .
      ...._.


        ,.                    .,




'                                                                                                              m                               .(                                                                                     .36
                                                 -   .            .,



                             Recommenda_tonNo.!2: Improve dissemination of threat lufo_mattou, (U)
                                  .,

                              .        ._.


                             Response:       l_neFBI agreesthst, like otherintelligence andlaw e_'orcementagencies,
                             it needed to invrove in everyway possible theprocessesused to disseminatethreat
                             information.Since September11, 2001, theFBIhas iissuedclear guidanceforthe
                             dissemination0f threatinformation. Additionalpolicy developmentandtraining
                             initiativesare in:progress to furtherstrengthenthe FBI's threatinforvmtiondissemination
                             processes. Below are the steps theFBI has taken: (iJ_!

                                             •       As indicatedearlier, the FBI's EAD-I,a senior lntelllgence Communitycareer
                                                     professional,has establishedconceptsof oper(_ions,policies, andpmc_ures
                                                     relatedto thediss_o_        .both.in, really and externally, of'threatinformation.
                                                     (U)


                                             •    in December 2003, an EC was.distributedto a_llFieldOffices and Logats,entitled,
                                                  -,'ReportingRaw IntelligenCe."This EC provided guidance,r¢,_orting.thresholds,
                                                  and reportingproceduresfor rawintelligencederivedfromFEIIinvestigationsand
                                                 .intelligencecollection, andemphasizedthreatiinformationreporting and
     ; -_?..-..   ., ....:._ .
                                                  disseminationprocedures.(U)
      .,...




.                   • The FBI has preparedand distributedstandingandad-hoosets!of intelligence
                      requir_.ents (intelligencecollection andrepelling guidance)for agenCy-wideuse.
             ..       The+e:m].tdrementsare.postedon theFBI intranetand availableto all employees.
..   "::: ........    Therequirementsprovide strategical!y-deVelopedandwell-defined intelligence
                  -   needs coiacerningthe threatenvironment.Therequirementsframeworksnd
                      formatincludemdetailedreporting   thre_olds, time fi-sznes,andreport_
                      instructions,to includereportingformatsandto what ¢ompon_mt    s the threat
                      informationshouldbe reporte_ CO) .
                                        •                                                                        "_
                                                         .,




                                             •       The FBI has developedand implementeda twc_.weckspecialized_'g              course
                                                     for analysts and agentS in reportingand disseminating raw intelligence. This
                                                     courseteaches the evaluation of collectedinteliligencefor dissc,_aination,as well
                                                     as reportingand dissemination tradecraft using the most up'to-dateFBI business
                                                     processe,s,formats,and policies. _J)

                                             • The FBI,isnearingcompletionof the developmentof a new web-based
                                              . IntelligenceInformationReport(HR)application,which will serve to vastly
                                                improvetheefficiency and effectivenessof reportingand disseminatingthreat
                                                information.Then_ applicationwill con_fina single HR.fomaatfor use
                                                throughoutall of the FBI's programs,and will l_avea numberof advanced
                                                features,such as electronicapproval,date and time stamping,work flow tracking,
                                                andstandarddisseminationlists. The applicationwillbe supportedby a
                                                comprehemsiveHR.handbookwhich will be distributedthroughoutthe FBI in
                                                3une2004: (U)                                .
                                                                                                          .
                The National ThreatCenterS_)fion (NTCS) is the Countortc_rorismDivision's
        (CTD) focal pohtt for the receipt,pre'limin_
                                              '.      analysis)and assignm_zt for immediate
        action of all emergingInternationalTerrorism(IT) antiDomestic Terrorism(DT) threats.
        The NTCS coo_linates these threats   with severalentieiesandagencieJ_,to includethe
        TerroristThreatinte_on      Center(TTIC),TerroristScreeningCenter (TSC) andthe
        ForeignT_ri_ TrackingTaskForce (FITYF). CU)
                                          ..                        ..



              TheNTcs isC0mprisedoffive
                                      units:
                                           CT Watch(CTW), Publi'c
                                                               AcoessCenter
        unit('PACU),Strategic
                           Information
                                    Operations
                                             Centc_r
                                                  (SIOC),
                                                        Terrorist
                                                                Watchand
         Warnin"
              g Unit(TWWU), andThreat
                                    Monitoring
                                             Unit(TMU).TMU andCTW are
    •   resP0nsibleformost
                     .  interfacing
                         .       withTTIC,TSC,andFITrF,(U) '
                         •   • .                           ...           .



          .,      !nfomhaflon Sha,_inEwlth tl_eTerroris, t _treat !ntegrationCenter

         Threat Monitoring Unit.
                                    -..        ..



"               Themission   ofTMUis toSupportthe FBPsroleindefendingt_he United   States
        fixnn the thr_ of t_       by receiving, assess/rig,di_m_g,_   and memo--s
        threatinformationand suspicious aotiwityinconjunctionwith FBIHQ,,FBI FieldOffices,
        Legal Attaches, 8_d the U.S. Intelligence Community(USIC). (U)

               • :Eachmonth,TMU receivesapproximatO!y_.l;000-thre_:alid:s_icious activity
         refenals from vm.iousf_        state andlocal govemm_mtand hw ¢nfi>rcementagencies.
         Each0fthese refi_i     in the for&of e.mail _iions,       electroniccommunications,
        or hardcopysubmissions, arerev_ewedL     andassessed by IwIU SupervJisorySpecialAgent
         personnel. TMUhnmediatelyinsuresthe _propri'ate1,'BIsubstantiveunits,Joint
        •TerroriSmTaskForce (JTTF)agenci'es,or:other,gov.er_rnent.ag_es;_are expeditiously
         apprizedOfthet_xeatinformafi'on,andmakes a reoordofthis threatinformationrcferml,
         Additionally,if baseline criteriaaremet, these 0_reatmxdsuspicious activityreportsare
         assignedto Tectadcal InformationSpecia!istswho ins._e the threatin£ormationis
         researched,summarized,fully addreased,and enteredh the searchableTMU threats.
        database.(Uy               ....

    .            Durin"g fiscal year2003, TMUreoeivedand assessed approximately !1,000 threat
         and suspicious-activity refezmls. TMU subsequentlymemorialized morethan 2,700
         individual threat;rod/orsuspicious activity reportsin the TMU database. TMU
        •disseminated the threatand suspicious activity informationto the org_aizafionsand
         entitiesthat had c)versightresponsibility for individualsorproperty affected bythe threa_
         or incident. TMII routinely provide_.all.threatsmeeting its baseline criteria to the
         Terrorism Reportsand RequirementsSection CFRRS)who disseminat_ the information
.        in the formof an Inte!ligenceInformationReport(HR.),.tomultiple colmterterrorism
         customers,including TTIC. Beforethe FBI became actively involved in the publication
         ofIiRs,TMUhaddirectcontactwithTrIc ona dailybasis.(U)
         "      Over300 individualized searchesof the TMU tlh_eatsdatabase were requestedof,
         and conducted by; TMU to facilitate threattrend analysis by FBI units,,the Departmentof



                                                                   _                           38
                     HomelandSecurity,the NationalInfrsStmctureProteotionCenter,attdotheragencies of
                     the USIC who areseekingtomeasure targetvulnerability.Also, in 2003, over 200
             .       individualthre_Lt items were submittedby TMU to TTIC forpublicalionin the joint
                     FBI/CentralIntelligenceAgency Thre_ Matrix. Thi_)threatinformationwas then
                     distributedto t_iePresidentas well as multiple federa[agencies. TMU alsoreceived
                     requestsfor, audconducted,more thantwenty speciatized threatdare,basesearchesfor
                     major events (i.e., Superbowl,WorldSeries)_andfor.significant dateissuch as those
                     c0rrespondingwithreligiouscelebrations.(U) •                                                  •   .
                                                                     .         •
                         •           .


                     Counterterrork_m Watch,                                                                               <

        ,                      All TTI(_personnelwith access to FBIintermLle-mailhave been grantedproxy
                      fights to themain CTWatch e-mail folder andthe•CT WatchDaffy Log. Manynew
                     isles andupdates arereportedto CTW by e,-msiLAll actions¢akenlincoming telephone
                      calls, faxes, teletypes and e=mailsare document_ indetail)in the Daily Log. Through
                      this unlinn'ted,real-time access to both (he e=mailandlog, all informationreportedto CT
                      Watcliis also availableto TTIC. Furthermore,a CTW analystis-pliysicallyassignedto
                      TTICwherethey serve in a liaison role, enmuinginformationis sliar(xlbetweenthe FBI
       :..             audTTIC. Conversely,CTWpersonnelalso-haveaccess to TTIC O_Hn_).whore          TTIC                          ,
                      recordsall new 'threatinformationandprovidesupdateson current_reat investigations.
                       In-thelate summerto earlyfall of 2004, CTW will borcl0catOdto a new buildingaud,a_
_.
..'.                   suc.h)will.bo physioailyc.ollocatedwithTTIC.CO).
                          . ..:#         ....




 "               "                                   _fformafio,n SharinlZwith _heTerro_ist screening .(:'.enter
                                                                                                          .,

  •                  . ,._,...,:_>_'._
                                  ,;....               ..

  .;
                       ..... The TSC,initiallyreceives an inquiry froma la,wenforcemen,t agencysubsequent
                       .... . .-.:       _

.                    to)a;',V.iolent
                                  Ga_gsandTerroristOrganizationFile (VGTO!_record raatch. The TSC
                     communicateswith the inq_        law enforcement agency to provide ,_irectionand
                     confm_ amatch on the subject(s). If a possible matchismade, the TSC generatesa
                     reportcontainingall pertinentbiographicaldata and a checklist of any researchconducted.
                     The TSC thenmakes directconO_t with the CTW Viatelephone aud/or securefacsimile
                     toprovide the informationregarding the possible match..(U)

                 •          Upon receipt of the telephonic notification fromthe TSC,'an atmlyst from the
                     CTW will review all identifying information regarding the possible terroristsubject and
                     confirmanydatabasesearches alre,ady conductedby the TSC, such as National Cfimina_
                     InstautBackgrotmd'Check,ACS and Tip-Off. If nec_;sary,the aual_t will initiate
                     additionaldatabasesearchesto include:,a more detaflodACSsearch,.Telephone
                     Applications,IntegratedIntelligenceInformationApplication,Treasm'yEnforcement
                     Communi'cationSystem, Watchlist,Department:of State, Immigrationand Naturalization
                     Sereico,TransportationSecurityAdministration,Bure_mof Prisons, D_I'ERPOL,and
                     pertinentpublic databasessuch as ChoicePoint,AutoTrack,and LexisNexis. (U)                                "
                                                ,:




                       '     TheCTW analyst providesa briefsynopsis to a CTWAgent, who then
                     •coordinatesreactiveand investigative actionwith the field 'Yiar._e FBI _Fs,
                      FioId/LEGATOffices, FBIcase agents, and/orFBI _khportLiaisonAgents. The CTW
                                                                                                    .        /




          disseminatesthe informationto allrelevant agencies md coordinates:finalresolution
          directlywith the JTTE When confirmationregardingthe final resolUtionisreceived       '
          fromthe JTTF,(_heCTWprovides asummaryof the elcotmter in the CTW/TSCGroup
          Daily Logs. These TSC Group-DailyLog entriescontainisp_ifio dettils such as names,
          locations, identifiers:.call-backnumbers,anda desoriptiofof how the matterwas
          resolved. The log entries:arereadin realtim0by FBI personnel atthe TSC in Crystel
          City, Virginia, andusedt0 documentafinal,resolutionfor the encounterand "close the
          loop." The TSC_timately reportsall pertinentinyestigativeand/or httelligence ,
          informationbackto the respective agency thatnomin_xl the terrorist.relatedsubjectfor
          inclusion into the VGTOFdatabasefrrIC or_I). (U)                                                   •.                    ..




             ,.                      ,Information Sharin_ wlChthe Forelen Terrorist Traekin_ Task Force•
                                               -.                                                                 _'   .. ....          i...             "       ..   "           "                    .       .   "

                !A representative:fromthe FrTrF hasbeen assignedf_,time tocTw.
          Additionally, tmderthenew CTDorganizati'onalchart,_          has bemplaced underme
          umbrellaof theI_gI'CS.This}c0!locationof resourceswill facilitate the flow of
     "    information betweenthe NTCS andFITTF.,(L_
                                      ..
                                                                ..
                                                                                                                                                                                                                           ,.
                                                                                                                             ..
            ..        •        .                                         .-.:                                            .



          D; Other.Reeomameadatloas:            .                .   :              ...
                          ,.               .              • .



 "        -_nmendation     No..13: iEvaluate me eft._qivenesSof the raldd•rotation of
-         Supervisory Sp(_ial Agents through :theFBI:Headquarters"Counterterrorism
          l'rogram. Cu')
                                    •. .                                        .          .        ?.   •         .           .               "!       .    .            .   .       . ,- ":.   .:.       .



                  •Supervisoryspecial Agents(SSAs) .assigned_to:_the_.counter_0rism,   DivisiOn
         follow the same,care_ pathand related:promotional_netables:established:for all Agent
--         -Supervisorsassigned to FBI.Headquarters_IHQ),::_First.line._super_so_in:the,;field  and
           at FBIHQ•have0n,averegeserved_ inve_'gatorsfor .!L0.5     yeats priorto assumingtheir
           managementpoaifi0ns. GS-14 SSAs cttrrentlyservingat FBIHQ have.on average2.43
          .years in their FBH-IQ SSA Positions, FBIHQSSAs.arein fact require_to complete,at
           least two full years in their HQ assigmnentbefore _eir transferto oth(=assignmonts.
           Even then, farfrombeing a prescheduledrotation,thdr movement to..afield assignment
           requiresthatthey'successfully compete forassignmentspursuantto th,_demanding
           requirementsera completelyrestructm'ed    selection system. (U)
                  •            :.



                   Similar.tc)otherintelligence agencies,theFBI's growingcadreOf experienced
           supp0rtintelii'genceanalysts:and other operationsspecialis_ providea significant portion
           of the continuityof knowledge requir_lto understand_mdeffectively ,evaluatethe
           emergingthr0atsover.the long term. However_itis not accurate'fromthe perspectiveof
           the FBI to characterizeatwo-year commitment,to an FBIHQposition as a "rapid
           rotation,"implyhlg that 8SAs on _aesetwo-yearassignmentscontributeat a less then
           optimumlevel to the FBFs counte/te_rism mission due to theirlength of service. The.
           intentionof service at FBH-IQisto provide:Bureauleaders,selected on the basis Oftheir
           demonstratedactdevements,with a seri_ of uniquelyintense,particularlydemanding
          •challenges. The assignmentsprovideexperientialopportunitieson a national.andglobal
           scale. First linemanagers, workingwith thdrmore experiencedsuperiorsand supported

                                                                                                                                                                                                                       t




                                                                                                                                                    :                                                                      40
                                                    .-,                                o       .-
                       ' by a knowledgeableintelligenoe_,       play a vital role in the identification 0f operational
                      ' priorities,developmentand implemen_i'0n 0fageno_wide ini'tiatiVegthe assessmentof
                         the effectivenessofthose initiatives, andthepreparation ofproactive responsesto
         .               addressemergingtren&. These FBIHQ SSAs subsequentlyutilize t_,isgained
                         knowledge andexperienceinthe      domestic field andoverseas in furtheranceof the FBI's
                         mission. (U)

                         "      If the FBI is _ foster the development of trueleadersto enhaz_ceits:management
                  •      cadre,it is impeiative that_ firstline and mid-levelmanagers actively and fuUyavail
                       themselves of the widest possible rangeof leadershipohaUenges,most particularlythose
                         availablein FBE_IQSSA,positiom. TheFBI's Executive Developmem and Sel.eotion
                        .Programhassought to strikethe appropriatebalance between provi_ag first tine •
                                                                                      -


                         managerswith a range of developmentalopportuniti'_,andth.e.rebyaddress lead_p
                       •sucoessionconcerns,while still providingcontinuityin the managemmt of priority
                         programsmdregularly reinvig_ating those programs'with the new p,.-'_,ective and          ..


                         approaches of new firstline.managers.(U)
                                                •   .




                         Reeommendatl(mNo.14: Provtde glddanee on the type of information that agents
     •                   should obtain for evaluating.assets and for documenting the yearty ehe©konassets.
                         rU)                ,                                                             .   -

                          ... !_,_:-
                                 :i':_,_-                 ..

._                               The FBi agrC¢swith r_mmcndation and has implemonted policy to addrossthe
                         issue. CurrentpoliCyrequir_ agents toprovide semi-mnual or annuleteVaiuatio_,
              .          dependingon thetype of assetbeingdeveloped or opiated. The NFII?MSection 27-26.
•..._.                   establishes12points which must be addressed in each _¢valueti'on.A_ t0ngthe twelve
                         point:are:. !) accompiishmentsattributable.tothe asset, 2) a ¢_ted     .Zation .statemont:of/
_:i:                     the_      and3)-(ite.:amountof money•pa_d:._ofh  e .ass_i The.annual evaluationis not
                         intendedto d0cmnentthe assefs b0natides. NFIPM Si_ti0n27-29 pr0vides.eXamplesof
                         .teststhatthe Itandlingagent.mightutilizetodetermine 'the   asset'sbona tides. Additional
                         stepsto validate the asset areconductedby the handlinlgagent and are used to determine
                         the asset'sreliabijlityand.veracityof the informationthey provided. These areasof
                        reporting lendthemselves t0tlieadministrative facet of'asset development and operation.
                         (U)


                                 Within one yearofopening and every 18 months thereaRer,the,handling agen_is
                      ' requiredto submit a case agent assessmentto FBIHQ. 'Thisassessment is a brief
             ..         narrativebased on the handler'sobservationsof and int(,_actionswith flie asset, and
                        .provides"insightinto an asset'smotivationand control beliefS, habits _ad any significant
                        behavioral chang(m. This timetable does not precludethe agent from s_bmittinga
                        revised case agent assessmentin the intor/mif the asse_s behaviorchanges significantly.
                         Additionally, a revisedversion of the NFIPM section 27 is currentlyin the _     stage.
                         The new NFIPMwill include language that directs agents.tonotify theJ!rimmediate:
                         suPervisorifthey identify a significantchange in the asset. The SSA ,_dllthen determine
                         if the asset'sbehavioral Changerises to a level which would requireFBIHQ notification.
                         C_                                    •        ,   .




                                                                   !_           ,                                      41
                                                                                                     m                                                                                                             .   .




                                  In contrasll,agents receiveinformationfromassets which,:althoughadministrative
         .-              "in nature,anddepending    on the information'sbe.afingon the investigativeprogram,mag.                                                                                                                                   '
                          requ|refollowup.=These areasOfr_pOrting!endthemselvesto,the investigative,:facetof
                          asset developmenlland OperatiOn.Further_thisfacet of assetdevelopmentandoperation
                          are dictatedby the logical progressionoftheitwestigative processandCannotbe !imit_
                       • to or defined inadministrativepolicy. (U)

                            Recommends: ,tionNO:.15: Improve the flow of intelligence InformatiionWithinthe
                            FBI and thedisSemination of !nteillgeueeInformationto other lntellllgeueeagencieS.
                                                                                                     •                               . _..                      - .. .
                            _[_   ..         .   •   .           ,. _          _.,• .                                                                                               ,: .   .                  -,
                                                                                        '   .   .                                                    _                 .                                                              ;

                                           " -   ;       • ..           ....                                                                                                                                               ."
                                       •                                                                            :''"       '   - "       "   7    •   ;''              '   '"           "   "''   "   "
                                                                                .                .       ,,..   .          .                                                                                                    ...


                                ; The FBIhasareSponsibiiity tOthe nation,IC,Federal,Stateand Local law
                            enforcementto disseminateinformationand to dose-is mRinherentpart ofits mission.
                            SharingFBl infomiati0nwill bethe rule;:filteringthe infimnationWil|be,the exception,
                            where sharingis i_!_lly of procedurally:unaec_table. The ._I will deliverits i                                                                                                                                         _
•                           infonnafion.throligh the systems,theFBI and its Customen.andpartnersuse:o J)

                                    The FBIis connectedto.the rest.oftheU.S. IntelligenceCmam_ity atthe Top
•                           Secret O'S)Sensi•ti,_ecomp_ent_      _'ormation (SCl)i_.el via:the new SC! ::, "
                            Operational Network(SCIOIT).TheSCION projectwas hitiated in septe,mb_, 2o01, "
                       •. and hasmet allschexlule,budget andpcrfonnancox_.uirements:.!sCiOH:i_0nii_ to the
    •                      .Ia_!l igenee .Comm_'_ (Iate!ink)k_lmllmllllmlRll_NllNII/mlr-
     •                   ._                                                 _.scIoNis
                                                                                 t0ol. the b/n_e_/s    f0rthe                                                                                                                                      "
                            ]FBI'sOffice Of:!ntelfi'gence,
                                                        Coun__sm(_,            and(:_ter Intelligence (el) • . ....
                            DivislonSi It has ea._bled                                           dutiesmore
     .       .
                 •.,   :.




                                    •SCION is c_rrcntlyaV_lable-iOover 1000users.,atFBI.Headquartcrs,aadtheFBI "
                            has initiated apilot dcploymentprojectto(thefolloWingField Offices_New York,Boston,
         •                  and Kansas.City.' Tllteplan is to deliver SCIONto allFBI FieldOffices, a_funding
                            becomes available..Limitedaccess tOIntelinkfromotherField Offices is available
                            throughthe old FBIIntelligence informationSystemNetworkOISNE.T). Most ofthe
    -.                      FieldOfficeshave two workstationswhich havea connectionto FBI headquarters.These
                            workstationsareinadeqUateanddifficultto use, and:theym_locatedinsmall Secure
                            Compartmented!nfo_rmationFacilities(SC_)that arenot h the/tgent or _aalyst w0tk
                            areas. An impedimentto field exp...ansion  of SCIONis the l_tckof SelF sp_3efor the Field
                            Intelligence GrOups(FIGs) and the J0intTerrofismTaskFc)rces(Yl"TFS)     pcirsonneL(U)                                                                                                                             _"

                              ..    Access tOthe _telligence and homeland securitycommunitiesat the SECRET
                            level is providedvia the Departmentof Defense SECRETInteractP/otocol Router
                            Network (SIP.R/_'I') which provides the communicationsbackboneto-I1_rELINK- "
                            Secret. Our goal is to provideS_PRHET_LINK-Secrell access throughSecure
                            dynamic virtualprivate networksto al_FBI workstationsin the nearfuture. Todayyou                                                                                                                              .
                                                             •      ,
                                                                  ,-. ,_.   "...        .   .


                          '                                       ::i.:.Hi/im) •

                          cannot,dire,ctIyar_ess anyeXterhal_networ_ fromthe FBINETandonly I/mitedbatch
                     •    transactions
                                 _'oughsecure
                                           guards
                                               arepennitted_
                                                           TheAnti-Drug
                                                                    NetWork(AD_T).
                          .rides
                             the
                               SIPR_T com_unic_ons
                                                bt_kbone andprovidesterminals
                                                                        and.access
                                                                               as.
                                                                                a
                          vehicle for the ,domesticexchange.ofintelligence on anti=drageffort_. S_RNBT is also
                _.        used to supportthe TerroristE_Iosive Device Analysis Center,the National Virtual
                          TranslationCenter,and theForeignTerrorismTrackingTask Force._
                                  •

                              )           ..           _
                                  In.the re:caof organizationalmessagotrafficIbrdisseminafiolaof official
                          informationand taskings to other ageacies, the l_!has just implementedits new FBI
           •.             Automated.Messaging System (FAMS)which is bas_xlOnthe Defe_e Messaging •
                          System (DMS). The FBI is thefirstCivilim agencyt_ operate_e',classifled DMs.                           .   ..


I
                          FAMS will provideon-line messagecreation,review:,and searchcapabilitiesto everyone
                          connected to FBINET. FAMS givesus thecapabilityto sendandrek_ivecritical
                          organizationalmessage tra_c to any of the 40,000+:_zldresseson DMS orAutomated
                          Digi.(alNetwofl_(AUTODIN). The TS/SCIversion of FAMS is currentlyin testingand
                •
                ..        .willprovide,the same capabilitYto everyone  on SCION Or_I_NETbytheendofthis       year..
                          TheFBPs imple,unentationof theDMS will provideWriter-tO,reader   (.)ocuree=_ to
                          internaland ex_l      Users. Withinthe gowwnmen¢,DMs will replsce AUTODIN anda
                          di.v,
                             erse arrayof e-mail systems c.urrenflyinuse throuj_0Utthe Dc_pm:_ment  of Defense
                          and Intelligence Agencies. Inits final form,DMS wil[lbecomethe govemmenfs global
                                  o-mail sTstom. It will provide certified interoperabili.t-y of variotm co .mmc1_ally
    _.                    •o_,the she1£soflware products and .oonn_-'t over2 mil_lionm'.'vilian.aRd _t_
"
-::
  .¢                          usei_..
                                   Thesyst(,-m
                                      •    will'pennit
                                                   multi-media
                                                           a_tt_hmenta
                                                                    tomessagea
                                                                       .     imdprovide
                                                                            .,        end-to.   ,   .       •            .   ,


.::                      ._
                          .-enesec_ty.
                                   CO)         :                                   ..
                                                                                                        .            '
 .:                         '>ii:i_i
                                 ::In.thearea.of  connectivi.ty
                                                              fordataproducts, riteFBIisjustbe_        to
•"                         _iement.our initial progrmns  " for datamarts.as-partof _e InteIligenceComm_mity
                           S_m for InformationSharing(ICSIS.).CurrentFB£intelligence pvMuotsin the form
                          •of Inte!ligencebulletins, IntelligenceAsses.sments,and.IIRs arebeing publishedon FBI
                           web sites connectedto SiPRHET.andYWICS.The .firstFBI TS/SCI ][CData Mart
       .                  (ICDM) is currentlyin developmentand should be.on line by the end of 2004. The FBI                              "
                           Chief InformationOfficeris alsoworkingwiththe'Departmentof Susticeon interfaces
                           betweeniCSIS,and the LawEnforcementInformationSharinginitiativeand vo'ththe FBI
                           CYiminal/ustice,  Information  Services(CHS)Division.  toincrease           of
                                                                                               thesharing
                           intelligence related information fromand to state,and ]localofficials. (U)

                                      .TheFBI is-current3ydeploying,the SECRETversionsof FAMS, which uses DMS
                              and secure Outlook like e=mm'lfororganiz_'onal messages, so that oturanalysts and
                              reportsofficerscan send and receive.timelyintelligencewith other agencies in nearreal
                              time, 'TheFBI is also working on a digitalproductioncapability.for]I_ using extended
                              markup language (XML) that will     interface with FAMS and supporttin-linedigital
                              production of intelligence reports. The FBIis applying;XML datastandardsandmets-
                              data tagging to facilitate the exchangeof information with the inteUig(mcecommunity.
                              The FBI is also applying new security technology todeploy a Pr_.tecti0n,Level 3 Data
                              Martcapabi.lity_th diserefionmTaccesscontrolsand PublicKey Infiastmoture
                              certificates in _pport of closed Communityof tntores(_which will permit securesharing
                                                                                                                ,.
              ofourmostsem_itive   datawithtrust_mvmb0rs      ofothvr...agencies..._he
                                                                                     IzBI
                                                                                        isalso .
              inVestigatingthe.use of secure one way._f.e_.. :to move informationbotwoen security
'             domains and to pemfit all-source intelligenceanaly_is_ Theuse ofne_t-generation,
             •communi'tYl-IigliAssurance..Croat.
                                               &.is being plannedto-providefor tile.two way transfer
              onoriiicalintelli!g,ence
                                     between  security domains.Se.e_e  wirelessconneotiviW  and
              VirtualPrivateNetworksarealso     bemglookodat   toprovide increased.-acovssto
              intelligencetodeployed   personnel,The FBIisalso   starting
                                                                        touseOn-line,   desktop
              collaborationtools suchasInfoWorkSpaoewh/ohisthefoundation        fortheIntelligence
              Comm.unityCoHabomti0nPortal      toincreaseintemg_tcecollabomtio.a. .
                                                                                    (U). - .
                                                                                      ..    .       .                        .
                                                •       . .                      •                   .           _....           , •



               •TheFBiplaas.touseaddifiona!
                                        systems
                                              as,the
                                                  foundation
                                                          foradditional
                                                                    _Onnation
             shar_ withtheIC,Federal
                                   S_ andLooa!.:
                                              entitiea,
                                                    (U):        _ .....'
                                                                   "                  -i"       '            "   _       "              "



                 TheCHS National    Data.Exc.hange,(NDEx)has ph_ fordeveloping    :asystems.
                                                                                          :_,_
             .appma¢.h t0tiaeoperation, andmain_tenance.of
                                                         severalinterconnected  IT-andsuppo
                                                                                          .rfi_
             telecommunications  :systems in ClOg Law Eaforovment  .On,line (Lt_) and_    :WAN:
             TheNDEx istobe ar_ositow.ofnational-indic_s,    anda p0inter systemfof :,
             statedloca!/fedmd and.inter_g0vernmmtal _w: enforcemententities..-q.
                                                                               _he.NDExWilt.alSo
             be a fusion point f0r the corre:lafion..ofnationally-based.eriminaljusiic_.infonnation wi_

                • : " ..Law.Enforcc_mentOn-L_eprovideswe.b-basedcommunlcatic_s.to the.law
               enfo_ement con.._._ty to.   exohange.,._nfonnation/:conduct:on-!i_eeducationprograms,and
            .. participatein professional special interestand topicallyfocused dialog. The system has:been
               operationalsince 1995 andpresently servingabout30,.000.users.-LEOhas sevur¢
               connectivity to.riteRegionaHnformation S.hafin" g Syst(masnotwork(riss.net).":.TheFBI
               IntelligenceproductS:.arcdisseminated,w.eckly,via.iLE(),to.
                                                                         over 1:7_000".
                                                                                      law?enforcement
               agenci'_sandto 60:fcde_. agencies,,andpr0viding    infOmmfionabout   ltcfrorism,Criminaland
               oy,0or  _ats to.patrol.officers.and otherlocal.law,enforcement personnel  Who havedirect
               daily  contacts,
                              withthegeneral, p_lio.TheFBIplanstoenhance        LF._p-forrobust,high-
               a_'._ability oPeration, TheFBI will use the enhancedI_O as the primary chatmel."for..
               sensfllve but Unchssified communications    withotherfbderal,state and local agencies. LEO
    :          andthe D_artment of Homeland SecuritiesJoint RegionalInformaticnEXchangeSystem
               (.}RIES)  willbehatcroperable. CLD
                        .                           .   ,     ':       ..   ..


                     The Investigative DataWarehouse 0DW) is foiL!owing    a multiple-phasedapproachto                                      -.
              qui'cklyprovide Supportto FBI investigators,andTask Forcemomb_; in the form of a
              spit_y-deve!oped opemtionai  prototypesystem,. the Secure Countert_orism Operational
              Pro_type Environment .(SCOPE)<:Theenterprisesyst..emwhichbuilds upon SCOPE is.the
              IDWsystem; the full deployment of IDW is scheduledforDecember2004. The IDW w/ll
              helpmeet _elaw enforcementand the IC needf0rrapi[d,secure,depmdableindexed data
              and willprovide ,hta mining access to FBI'investigativefiles. 03)                          •
        I


                      The Multi-agency InfornmtionSharingIn_thtiveis intendedto enableFederal,state,
              and local law en_3rcementagencies to shareregionalinvestigativefite,,_and providepowerful
              tools for cross-file analyses. A proof-of-concepteffort :isunderwayin St. Louis;additional



                                   •                        _                                                                          44
              .?
                                                                  "ira




                          demonstrationsites arebeing planned.The goalof the:dmonstr_i0ns iSto (i) show the
                          value of sharinginvestigative da_ which Canbeana_tyzedby mod_ soRwaretools;,end(2)
                         help.define teclmicalandorganizationalapproaches:forregionsl shareds_tems. Final
                          decisions abou_tdeploymentof the MIS wil_be based on theresults of the demonstrationsend
                         the departmentwide plan for law enforcementinfom_ationsharingbeing developedby the
                         Departmentof Justice. (U)

                                 With the creation of the Office of Intelligenceatthe FBi, eachFBI field office has
 ,                       establisheda Field _telligence Group(FIG), It is.theresponsibilityof these FIGSto            >
                         manage,execute and maintainthe FBI's intelligencefunctionswith_ the FBI. FIG
                                     •      "   o   "         "

         "               personnelhave routineaccess to TS andSCIinformationso they WIUbe able to receive,
                         anal_e, review'and recommendsharingthis informationwith entiti_ withinthe FBI as
                         well as.ourcuslomers andpartnerswithinthe Intelligenceand Law enforcement
                         communities.
                         _egommendation No. 16: Ensure tl_t field offices allocate resour©eseonsistent with •
                         FBI priorities:

                               TheFBI agreeswith the generalconceptth_ the re_mmen&_ion is based upon
                  ....   andhasin fact instructedeach field office to addresshigherprioritytnattersbefore lower.
                         ones. -The Direr-tot has instruoted thefield    offices to 1me whatever r_sources are
._:             ._   necessaw to haudle.aUCounterterrorismleads. However,itmust be pointed out that.the
_            ..,-,,_ levelof resom_ allocatedto eachprioriW is not bascxluponOaerelativerenkof the
•_.                  prioritybut uponthe level and significanceof the threatin each priority area_d the
    ..        .__    extent_o WhichtheFBI has sole jurisdiction over the matter. Thus,to determinethatthe
 :_:-              _ appropriatelevel of resourcesis allocatedto each priority, a:simplefc)rmulaCannotbe
 ....        _:_/_   usecL_ detailed analysis of the threatand workloadin every FBI division must be
                .'_  conducted.

                                This analysis of thethreatandworkloadis conductedby each FBIprogramas part
                         of theFBI's resourceallocationprocess. In addition,the FBI has developed and
                         implementedsemi-annualprogramreviews to ensure_ch field office is appropriately
                         addressing the F.BIandthe nationalprogrampriorities. Headquarter'_i  program managers
                         arerequired to renew each office's program review submission and make appropriate
                         management decisions. In addition, the FBI's Inspection Division will use the semi-
                         annual review submissions as a source document of conductingthe field office
                                                                                                                                                                                                          .   ,.            ,..            .                                                                              ,.




              •"              inspections.If field:officesarenotaddressing priori_mattersappropriately; the
                              Inspection.Division _!I writeia "finding'"andrequirea cOrrectiveactionbe taken.The                                                                                                                                                                                                                                                                                                                                              "
                              InspectionDivisionwill also'r.e_iewtheactionsof thenational,
                                                                                         progr_t managerlto.
                              ensurethatappropriate   instructionandactionswereN:en.
                   ,   ,"..
                                                                                                                                                                                                         •         ..             ....                              . - .                                                   .



                                                                                                                                                                                                                                                        SincA_.rely
                                                                                                                                                                                                                                                                 yours, ...
                                                                                                                                                                                                                                                                                                                                                                                                  -.

                                                                                                                                                                                                                                                                                                                                                 ..


                        •                                               .                                                                                                                                                                                                                                                                                                                                     ..

                                                                            •.                                                                                                                                          -                 "i                                     !                        "
                                                                                                            ".                                                                                     ..              '
                                                                                                                                 •                                                                                     :                                                             :.                               "                ..             ..
                                                             :._.                                       ::                                   •        . .
                                                         .....                       ..:                                                                                                                                                           StevenC. MoCraw
                                         •
                                                                   "..
                                                                            •

                                                                                •:
                                                                                                                                                                                                               :
                                                                                                                                                                                                                                                   Assisl_mtD_tor
                                                                                                                                                                                                                                                        •       .    .           •
                                                                                                                                                                                                                                                                                           ,
                                                                                                                                                                                                                                                                                          • • .       .           .
                                                                                                                                                                                                                                                                                                                                .'_.
                                                                                                                                                                                                                                                                                                                                             •
                                                                                                                                                                                                                                                                                                                                                 :.
                                                                                                                                                                                                                                                                                                                                                                '...
                                                                                                                                                                                                                                                                                                                                                                                                                   .              ,-

                                                                                                                                                                                                                                                                                                                                                                                                                                       _.
                                                                                                                                                                                                                                                                                                                                                                                                                                            .,

                                                                                                                                                                                                                                                                                                                                                                                                                                                          .

                                             •                                                                       ,                                               : :                                                                           lnsp_:tionDiMsion                                                                                                   .....                                                     '
                                                                                                                                                                                                                                                                                                                                                                                             •                           .'.:

                                                                                                                                                                                                                                                                                                    ..



                                                                                                                                                                                                                                                                                                                                _           .                                     .: _                    ": ."
• °°     ..                   ,.                                                                                                                                                              ..                                                                                           •                                                                    .      -: , " ,..-                           /..             ,-                                   .


         •              Encios_e" _:                                                                                                 _                                                                                                                                                                                                                                        :_:
                                                                                                                                                                                                                                                                                                                                                                                    -
                                                                                                                                                                     . .:                               ;._




                                                                                                                                                                                                                                                                                          ,_,   .     •.      .
          ,                                                                                                                                                                                                                                        .-


                                                                                                                                                          ..                                                                                                                                               "                                               -.            •                                                        ...            "-'.:-
                                             •                                                              ,            ;                                                                                                                                  •
                                                                                                                             h   _


                                                                                     •                                                                                                                                                                                                                                                                                                                ..

                                                                                                        .                                                                                                                                          , .
                                                                 • •.                                                                                                                    ..
                                                                                                    ,
                                                                                                                                                                                                                           ..
                                                                   •                             - .             .                                                          .                                       .                                            . ..
                                                             ..
•                                                                                ,         .                                                                                                                                                                                                                                                                                                                                ..

                                                                                                                                                 .:                                                                                      :..
                                                                                                                                                                                                                                                                                                                                                                                                                                         •.            .
                                                                                                                                                                                                                                               •        .
                                    °.                                                                                                                         . .




                                                                                                                                          .-                                                                                                                                                                                                                                                                                                           .:.
                                                                                                                                                 .    .

                                                                                                                                                                                                                                                                                                                                                                                                                                                 u

                                                                                                                                                                                                                                                                                                                                                                                         •               .
                                                 •            ,
                                                                                                                                                                                                                                                                                                                                                                                                     .                 ..                          .
                        ..                                                                     ..



                                                                                                                                                                                                                                                                                                                                                                                   .             .
                                z                                                                                                                                                                                                                                        -                                                                                                   ..
                                                                                                                                                                                                                                                    •                        .
                                                                                                                                                                                ,.
                                                                                                                                                                                                                                                                                                                                                                                                          •             ..
                                                                                                                                                                                     •                                                         t


                                                                                                                                                                                                                                                                                            ,       ....
                                                     t                                                                                   ,            :
                                                                                                                                                                                                                                                                                                                                                                                  .,..




    °°
